<html>
<title> - TOYOTA'S RECALLS AND THE GOVERNMENT'S RESPONSE</title>
<body><pre>[Senate Hearing 111-965]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-965
 
                            TOYOTA'S RECALLS
                     AND THE GOVERNMENT'S RESPONSE

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
66-219                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 2, 2010....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Inouye......................................     3
Statement of Senator Dorgan......................................     5
Statement of Senator Boxer.......................................     6
Statement of Senator Snowe.......................................     8
Statement of Senator Nelson......................................     9
Statement of Senator Pryor.......................................    10
Statement of Senator Isakson.....................................    10
Statement of Senator Thune.......................................    11
Statement of Senator Klobuchar...................................    12
Statement of Senator Wicker......................................    13
    Article, entitled ``Piling On'' Toyota is Underserved........    14
    Article, dated February 24, 2010, from the Washington Post,  
      entitled ``U.S. Owes Toyota Fair, Careful Treatment on 
      Safety Issues''............................................    15
Statement of Senator Udall.......................................    16
Statement of Senator Johanns.....................................    17
Statement of Senator Begich......................................    18
Statement of Senator Ensign......................................    54
Statement of Senator McCaskill...................................    59

                               Witnesses

Hon. Ray LaHood, Secretary, U.S. Department of Transportation....    19
    Prepared statement...........................................    22
Clarence M. Ditlow, Executive Director, Center for Auto Safety...    57

                            C O N T E N T S
   Toyota's Recalls and the Government's Response--Afternoon Session

                              ----------                              
Hearing held on March 2, 2010....................................    61
Statement of Senator Rockefeller.................................    61
Statement of Senator Cantwell....................................    86
Statement of Senator Lautenberg..................................    87
Statement of Senator Wicker......................................   104
Statement of Senator Dorgan......................................   107
Statement of Senator Klobuchar...................................   109
Statement of Senator LeMieux.....................................   112
Statement of Senator Udall.......................................   116
Statement of Senator Begich......................................   118
Statement of Senator Nelson......................................   120

                               Witnesses

Takeshi Uchiyamada, Executive Vice President, Toyota Motor 
  Corporation....................................................    88
    Prepared statement...........................................    90
Shinichi Sasaki, Executive Vice President, Toyota Motor 
  Corporation....................................................    91
    Prepared statement...........................................    92
Yoshimi Inaba, President and COO, Toyota Motor North America 
  (TMA); and Chairman/CEO, Toyota Motor Sales....................    93
    Prepared statement...........................................    94
Clarence M. Ditlow, Executive Director, Center for Auto Safety...    95
    Prepared statement...........................................    96

                                Appendix

Hon. Kay Bailey Hutchison, U.S. Senator from Texas, prepared 
  statement......................................................   129
Letter, dated February 15, 2010, to Hon. John D. Rockefeller IV, 
  from 
  Thomas M. Kowalick, Professor of Holocaust Studies, Sandhills 
  Community College..............................................   130
Thomas M. Kowalick, prepared statement...........................   130
Letter, dated February 25, 2008, to Hon. Nicole R. Nason, 
  Administrator, National Highway Traffic Safety Administration 
  from Thomas M. Kowalick........................................   137
Letter, dated November 17, 2009 to Stephen R. Kratzke, Esq., 
  Associate Administrator of Rulemaking, National Highway Traffic 
  Safety Administration from William Rosenbluth, Automotive 
  Systems Analysis, Inc..........................................   140
Letter, dated March 18, 2010 to Hon. John D. Rockefeller IV, from 
  Theodore M. Hester, King & Spalding LLP........................   143
Letter, dated April 13, 2010 to Hon. John D. Rockefeller IV, from 
  Theodore M. Hester, King & Spalding LLP........................   149
Response to written questions submitted to Hon. Ray LaHood by:
    Hon. Frank R. Lautenberg.....................................   166
    Hon. Mark Pryor..............................................   168
    Hon. Tom Udall...............................................   169
    Hon. John Thune..............................................   169
Response to written questions submitted to Hon. David Strickland 
  by:
    Hon. Mark Pryor..............................................   171
    Hon. Tom Udall...............................................   173
Response to written questions submitted to Hon. Ray LaHood and 
  Hon. David Strickland by:
    Hon. Kay Bailey Hutchison....................................   176
    Hon. Roger F. Wicker.........................................   179
Response to written questions submitted to Clarence M. Ditlow by:
    Hon. Tom Udall...............................................   180
    Hon. Roger F. Wicker.........................................   180
Memorandum, dated April 30, 2008, from Michael W. Monk, Director, 
  Vehicle Research and Test Center, National Highway Traffic 
  Safety Administration to Kathleen DeMeter, Director, Office of 
  Defects Investigation, entitled ``Final Report--2007 Lexus ES-
  350 Unintended Acceleration''..................................   181


                           TOYOTA'S RECALLS 
                     AND THE GOVERNMENT'S RESPONSE

                              ----------                              


                         TUESDAY, MARCH 2, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
room SR 253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. All right, this hearing will come to order, 
please.
    I'll make my morning statement, and then, in order of 
seniority, others, as they come, will make their opening 
statements, and then we will proceed to our witnesses.
    Good morning, Mr. Secretary.
    At its core, today's hearing is about the millions of 
Americans who drive to work, drive to the grocery store, or 
carpool their kids to school and other activities, in every day 
in every way. It's about their safety and their security, and 
nothing is more important than that.
    We're all here today because we know that something has 
gone terribly wrong. The system meant to safeguard against 
faulty vehicles has failed, and it needs to be fixed, and needs 
to be fixed right away.
    This is an important hearing. We have dedicated an entire 
day--we've never done that before that I can remember--to one 
subject, so that we can examine the problems and get to the 
solutions. It is most immediately about the Toyota recalls, 
but, more broadly--and just as urgently--about the safety 
oversight system and how to fix it.
    It's not just for some future problem, but right now, in 
order to get to the bottom of the dangers of sudden 
acceleration, which are not addressed in the recalls. I believe 
the way we respond to this serious situation will, and must, 
have a lasting impact on the carmaker and its employees, on the 
Federal agency charged with overseeing safety, and on the 
confidence of the public for years to come. This morning's 
hearing will focus on the government's role, and this afternoon 
we will focus on the company's role in this very serious 
situation.
    It is no secret that Toyota is an important company in 
America, not only to my home State of West Virginia, but to our 
national economy. The carmaker operates 10 plants across the 
country, employing 35,000 workers, and dealerships in all 50 
States. I worked very hard to bring a Toyota engine and 
transmission plant to Buffalo, West Virginia, because I knew 
Toyota was a company built on the philosophy of quality first, 
that if they designed and built the safest and most reliable 
car possible, then sales and profits, and jobs, would follow. 
Now it's clear that, somewhere along the way, public safety 
took a back seat and corporate profits drove the company's 
decisions. If Toyota wants to remain successful, and regain 
consumer confidence and trust, it needs to find this balance 
once again.
    Toyota's consumers and its incredible employees, who've won 
all kinds of awards in our State of West Virginia, deserve 
nothing less than this. They drive Toyotas, too.
    It also is apparent that the government--NHTSA--did not 
fulfill its responsibility in the past, and has more to do in 
the present, and needs greater resources and authority in the 
future. NHTSA's actions and inactions in the years leading up 
to today are deeply troubling. The American people count on 
NHTSA to protect them and to provide them with clear and 
reliable safety information. And even today, that picture is 
not clear.
    And what's more, the American people do not yet clearly 
understand how this happened and how it will be solved; which 
defects have been addressed and what dangers remain; and what 
the recalls are fixing, and what they are not fixing. So, we 
need to look back and focus forward.
    We will hear, from Toyota executives, how these problems 
occurred and why the company did not respond more quickly, but 
I also want to know what Toyota's plans are to fix the ongoing 
problems with sudden acceleration and set itself on a new 
course to identifying needed recalls in the future, and prevent 
new defects. Big company, serious problems, very important this 
be fixed for the future. And right away.
    We will hear, from NHTSA and DOT officials, why they did 
not adequately connect the dots about the safety situation, and 
why they did not move aggressively to investigate. But, I also 
want to know NHTSA's plan to get to the bottom of sudden 
acceleration, industrywide, and to make sure that it has the 
resources and the authority, if it does not, to fulfill that 
mission. And last, but not least, we will hear from the--in a 
panel following this one this morning--the Center from--Auto 
Safety, Clarence Ditlow, about the best and most effective plan 
to success for all involved.
    I do intend to work on comprehensive legislation--let that 
be known--to get at all of these issues in a real way. I will 
discuss that at the end of the day.
    We need to look at current law and ask if it is strong 
enough to prevent something like this from happening again. I 
know my colleagues have much to contribute to this effort; and, 
of course, as always, I welcome that.
    The American people deserve a top-to-bottom review, not 
just on past errors, but of the road ahead. They deserve more 
than reassurances; they deserve full disclosures, 
accountability, and solutions.
    Thank you for all of our witnesses participating, not just 
this morning, but also during the course of the day, for 
working with our committee, which has been at this for a long 
time. I look forward to hearing from all of you.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I thank you very much, Mr.----
    The Chairman. Senator Inouye----
    Senator Inouye. Thank you very much, sir.
    The Chairman.--who is really the Chairman of this 
committee.
    [Laughter.]
    Senator Inouye. The past few weeks have been extraordinary 
ones. Whenever you turn on the television set or listen to the 
radio, watch the printed pages, just about every article is on 
Toyota, the front-page articles. The Toyota problem. We've had 
interviews of attorneys who are bringing class suits. We have 
talk shows determining how long it will take this company to 
restore its credibility. And I suppose that it would be 
justified for Americans to get the impression that this is a 
Toyota problem.
    And, Mr. Chairman, I decided to do a little research before 
coming over this morning, and I'd like to share some of these 
numbers with you. These numbers were prepared by the National 
Highway Traffic Safety Administration, NHTSA, prepared 
yesterday, March 1, 2010. So it's very current, sir. And it 
runs from the calendar year 2000 to and including yesterday.
    In the year 2000, a total of 7,827,164 vehicles were 
recalled. Of that number: Ford Motor Company, 7,485,466; Toyota 
8,379; Hyundai, 333,319.
    In the year 2001, a total of 11,466,361 vehicles were 
recalled: General Motors, 2,496,900; Chrysler, 2,609,345; Ford 
Motor Company, 5,630,054; Mitsubishi, 379,919; Toyota, 158,259; 
Hyundai, 183,884.
    In 2002, 15,186,221 cars were recalled. During that year: 
General Motors, 4,554,046; Ford, 2,322,932; Chrysler, 
6,413,130; Toyota, 496,000.
    Mr. Chairman, I'd like to put the rest of these numbers in 
the record.
    The Chairman. It is so ordered.
    [The information referred to follows:]


                  Significant Vehicle Recalls 2000-2009
     (Based on National Highway Transportation Safety Administration
                              Statistics) *
------------------------------------------------------------------------
   Year                 Manufacturer                Number of Vehicles
------------------------------------------------------------------------
     2000   Ford Motor Company                                 7,485,466
            Toyota Motors NA, Inc.                                 8,379
            Hyundai Motor Company                                333,319
------------------------------------------------------------------------
            Total Vehicles Recalled                           24,636,743
------------------------------------------------------------------------
     2001   General Motors Corp.                               2,496,900
            DaimlerChrysler Corp.                              2,609,345
            Ford Motor Company                                 5,638,054
            Mitsubishi America                                   379,919
            Toyota Motors NA, Inc.                               158,259
            Hyundai Motor Company                                183,884
------------------------------------------------------------------------
            Total Vehicles Recalled                           13,639,625
------------------------------------------------------------------------
     2002   General Motors Corp.                               4,554,046
            Mitsubishi America                                    22,263
            Ford Motor Company                                 2,322,932
            DaimlerChrysler Corp                               6,413,130
            Toyota Motor NA, Inc.                                496,213
            American Honda Motor Co.                           1,066,171
            Hyundai Motor Company                                311,466
------------------------------------------------------------------------
            Total Vehicles Recalled                           18,427,866
------------------------------------------------------------------------
     2003   Nissan North America, Inc.                         1,995,524
            General Motors Corp.                               7,158,299
            Mitsubishi America                                    74,649
            Mitsubishi Motors NA                                  17,481
            DaimlerChrysler Corp.                              2,070,975
            Ford Motor Company                                 3,405,403
            American Honda Motor Co.                             910,732
            Toyota Motor NA, Inc.                                212,252
            Hyundai Motor Company                                595,683
------------------------------------------------------------------------
            Total Vehicles Recalled                           18,858,930
------------------------------------------------------------------------
     2004   Nissan North America, Inc.                           723,891
            General Motors Corp.                              10,734,505
            Mitsubishi Motors NA, Inc.                           219,533
            DaimlerChrysler Corp.                              5,819,380
            Daimler Chrysler Manufacturing                        23,108
             International
            Ford Motor Company                                 5,035,095
            Volkswagen of America, Inc.                        1,082,477
            American Honda Motor Co.                           2,135,070
            Toyota Motor NA, Inc.                              1,132,334
------------------------------------------------------------------------
            Total Vehicles Recalled                           30,822,164
------------------------------------------------------------------------
     2005   Nissan North America, Inc.                           709,838
            General Motors Corp.                               4,997,923
            Mitsubishi Motors NA, Inc.                            74,427
            DaimlerChrysler Corp.                                765,777
            Ford Motor Company                                 6,705,309
            American Honda Motor Co.                             714,527
            Toyota Motor NA, Inc.                              2,374,162
            Hyundai Motor Company                                318,111
------------------------------------------------------------------------
            Total Vehicles Recalled                           19,178,356
------------------------------------------------------------------------
     2006   Nissan North America, Inc.                         1,267,021
            General Motors Corp.                               1,369,916
            DaimlerChrysler                                    2,397,247
            Ford Motor Company                                 1,737,420
            Volkswagen of America, Inc.                          949,973
            Toyota Motor NA, Inc.                                657,308
            American Honda Motor Co.                           1,190,774
            Hyundai Motor Company                                172,993
------------------------------------------------------------------------
            Total Vehicles Recalled                           11,276,291
------------------------------------------------------------------------
     2007   Nissan North America, Inc.                         1,225,057
            General Motors Corp.                                 545,972
            DaimlerChrysler Corp.                              1,478,288
            Ford Motor Company                                 5,533,853
            American Honda Motor Co.                             794,277
            Toyota Motor NA, Inc.                                583,191
------------------------------------------------------------------------
            Total Vehicles Recalled                           14,860,416
------------------------------------------------------------------------
     2008   Nissan North America, Inc.                           824,382
            General Motors Corp.                               1,758,629
            Mitsubishi Motors NA, Inc.                           269,821
            Ford Motor Company                                 1,604,819
            Volkswagen of America, Inc.                          579,075
            American Honda Motor Co.                             796,843
            Toyota Motor Corporation                             196,222
            Hyundai Motor Company                                293,910
------------------------------------------------------------------------
            Total Vehicles Recalled                           10,539,188
------------------------------------------------------------------------
     2009   Ford Motor Company                                 4,521,993
            General Motors Corp.                               2,239,394
            American Honda Motor Co.                             454,003
            Hyundai Motor Company                                532,633
            Mitsubishi Motors NA, Inc.                            76,498
            Toyota Motor NA, Inc.                              4,872,583
------------------------------------------------------------------------
            Total Vehicles Recalled                           16,403,426
------------------------------------------------------------------------
* Report prepared 3/1/2010 and is retained in Committee files.


    Senator Inouye. I decided to read these numbers, and 
they're very interesting, because, Mr. Chairman, it is not a 
Toyota problem; it is an industry problem. Looking at these 
numbers, one would get the impression that maybe it's Ford 
Motor or Chrysler or General Motors. And I think we should be 
honest with ourselves. If it is an industry problem, we should 
hear from the industry, not just from Toyota.
    And I'd like to commend NHTSA for compiling these 
statistics. They're very helpful. It gives a clear picture. And 
if I may respectfully suggest, the investigation and inquiry by 
this committee should be based upon the industry, instead of 
just Toyota.
    Thank you very much, sir.
    The Chairman. Thank you, Senator Inouye.
    Following both this morning's statements and this 
afternoon's statements, for the first time, we'll go by 
seniority, because we have to divide them up, morning and 
afternoon. That's why I decided to do that.
    Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    This issue of the automobile is an interesting issue. You 
know, we traveled only as fast as a horse could carry us, from 
the Roman legions until Lewis and Clark. And then for the next 
200 years we got the train, the airplane, and the car, and now 
almost everybody has a car. They are now made bigger and faster 
and safer.
    Except this issue of ``safer''--not all cars have been made 
to the same standards. And, as Senator Inouye indicated, we've 
had a lot of recalls. At first, early on, the manufacturers 
weren't enthralled with recalls. You will recall the Pinto and 
the fires, and the industry was forced, actually, to understand 
the need to recall and to own up to defects.
    This particular day and hearing is devoted to Toyota. It is 
the world's largest manufacturer of automobiles. There is now 
evidence of sudden acceleration of Toyota cars, certain Toyota 
models. People died, and then their relatives and others, loved 
ones, complained, then more people died and more complained. 
And the question for this hearing is, this morning, What about 
the government agencies that are engaged in worrying about 
safety issues? Did they take these things seriously? Did they 
seriously investigate? Were they fierce advocates for the 
public good, here, or have they become paper tigers and did not 
pursue these things the way they should have? I think this 
hearing will give us a lot of information about that.
    And this afternoon, it is, with respect to the automobile 
company--in this case. Toyota--what did they know, and what did 
they do with what they knew? What kind of information did they 
describe to the Federal agencies that inquired, if they did?
    All of these things are very, very important. It's about a 
matter of trust--number one, the American people being able to 
trust a company that they believe is going to sell them an 
automobile that is safe; and number two, the American people 
having trust and confidence in a Federal agency that is 
designed, and whose purpose is, to address safety issues.
    I'm not an expert in this area, but I've read as much as I 
could, recently, about the hearings that have been held and the 
background information that has been provided to us. I think 
there are very serious questions, all the way around. I think 
this is a case where people experienced tragic consequences on 
the highways because of sudden acceleration, and a company 
pushed that off, saying, ``Well, that's not really something 
that--that's a floor mat issue,'' or something like that. And 
there's also some evidence that, I think, the Federal agency 
did not take it as seriously as I wish a Federal agency would. 
So we'll have a chance, I think, to ask some difficult and 
tough questions today, and try to understand what has happened 
here, what are the consequences of that, and what should 
happen, going forward, to make certain that this doesn't happen 
again?
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Dorgan.
    In order of seniority, Senator Boxer, to be followed by 
Senator Snowe.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman.
    Last August, California Highway Patrol Officer Mark Saylor, 
his wife, 13-year-old daughter, and brother-in-law were killed 
in a tragic car accident that shocked the community of San 
Diego and the Nation. A heart-wrenching 9-1-1 call, placed just 
seconds before the crash, described a horrific scene in which 
their rental Lexus reached speeds of 120 miles per hour, with 
no way of stopping. In the end, all the Saylor family could do 
was pray.
    This tragedy should never have happened, and we're here 
today to ensure it never happens again.
    The recalls, accidents, injuries, and tragic deaths 
associated with several Toyota-produced models have raised 
serious questions as to what Toyota knew, when they knew it, 
and whether their current strategy of recalls is sufficient.
    NHTSA conducted eight investigations. But, Mr. Secretary, 
my friend, I want to ask you if you think they took appropriate 
action after those investigations.
    In addition, Mr. Secretary, I want to ask your opinion, 
because I have so much respect for you; you are a very 
straight-from-the-shoulder person. I am deeply concerned about 
reports that former NHTSA employees, who were later employed by 
Toyota, may have played a role in influencing the result of 
NHTSA's safety investigations.
    And I ask unanimous consent to place in the record a CBS 
News story on this issue.
    The Chairman. It is so ordered.
    Senator Boxer. Thank you.
    [The information referred to follows:]

               Did Toyota Pull Strings to Stifle Probes?

 CBS News Investigates Questionable Ties between Toyota and NHTSA, the 
  Federal Agency Charged with Regulating It--Washington, Feb. 25, 2010

    (CBS) Critics in Congress say Toyota pulled strings at NHTSA--with 
help from two former insiders, reports CBS News correspondent Sharyl 
Attkisson.
    Christopher Santucci's job at NHTSA was to conduct defects 
investigations of automakers and some of his probes were into Toyota.
    At some point, while working at NHTSA, Santucci negotiated himself 
a job at Toyota--the very company he'd investigated. Santucci testified 
two months ago in a lawsuit against Toyota.
    ``Were there any procedures within NHTSA that would govern your 
negotiating a job with an entity that you were supposed to be 
regulating?'' he was asked
    ``Not that I'm aware,'' Santucci said.
    In 2003, Santucci gave his two weeks' notice and joined Toyota's 
team, working under the very man who'd been his Toyota contact: 
Christopher Tinto. Tinto also used to work for NHTSA.
    Once together at Toyota, records show the two helped negotiate with 
their former NHTSA colleagues to limit probes into Toyotas surging out 
of control. They convinced NHTSA to focus only on the ``brief burst'' 
accelerations, ruling out so-called ``long duration'' events that have 
allegedly led to accidents and deaths.
    ``You use the word `negotiated' . . . We discussed the scope,'' 
Santucci said.
    But ``negotiated'' is exactly the word used in Toyota internal 
documents obtained by CBS News. One in 2006 says NHTSA requested 
information on ``a broad testing and analysis question'' regarding 
Camry and Solara engine surge. It says Toyota ``negotiated to reduce 
the response'' to provide much less data.
    Consumer watchdog Joan Claybrook headed up NHTSA way before 
Toyota's problems--and says NHTSA ex-employees are key.
    ``They maneuvered and manipulated and I think bamboozled the 
agency,'' Claybrook said.
    Yesterday, Congress asked Transportation Secretary Ray LaHood if 
there's a conflict.
    ``Absolutely not,'' LaHood said.
    Other automakers say--unlike Toyota--they do not use ex-NHTSA 
people to deal with NHTSA on defect cases.
    Toyota says its employees' only interest is ``the safety of every 
single owner of one of our vehicles.''
    At Christopher Santucci's deposition, we found a third ex-NHTSA 
figure helping out Toyota off-camera: former NHTSA attorney Kenneth 
Weinstein.
    For his part in limiting the investigations, Santucci said NHTSA 
got exactly what it was looking for.
    ``You say it worked out well for Toyota,'' Santucci said. ``I think 
it worked out well for both the agency and Toyota.''
    Maybe not so well, in the end. NHTSA is now investigating whether 
Toyota provided all the materials it should have over the years. And 
the inspector general is investigating NHTSA's role.

    Senator Boxer. And I want to tell you--I'll just quote from 
this--``Christopher Santucci's job at NHTSA was to conduct 
defects investigations of automakers, and some of his probes 
were into Toyota. In 2003, Santucci gave his 2 weeks' notice, 
joined Toyota's team, working under the very man who'd been his 
Toyota contact, Christopher Tinto. Once at Toyota, records 
show, the two helped negotiate with their former NHTSA 
colleagues to limit probes into Toyotas surging out of control. 
They convinced NHTSA to focus only on the brief-burst 
accelerations, ruling out so-called long-duration events that 
have allegedly led to accidents and death.''
    Mr. Chairman, as a long-time Toyota Prius owner myself, I 
understand the unease that you feel getting in that car, 
especially when carrying my children and my grandchildren. So, 
Mr. Chairman, I believe that every Toyota model should be 
analyzed by an objective party. Every fix should be analyzed by 
an objective party. Every car owner should have the ability to 
have their car fixed at the earliest possible time. And I trust 
that, under your leadership, this committee's work will move us 
toward those three steps.
    Thank you very much.
    The Chairman. Thank you, Senator Boxer.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. And thank you for 
convening this critical hearing, because we're here, obviously, 
because we have an obligation to determine precisely where 
these massive breakdowns occurred that obviously with both the 
company and the Federal agency that failed to do their own due 
diligence that led to perpetuation of defects that resulted in 
the loss of life.
    Key questions remain unanswered. Over this past decade, 
NHTSA, you know, for example, had 2600-percent increase in 
complaints regarding Toyota acceleration--a 400-percent 
increase over the last 3 years--and yet, they failed to 
properly, independently investigate this issue. So, 
regrettably, it points to NHTSA's enforcement program that's 
lethargic, it's outdated, not to mention that it lacks the 
software expertise and the experts necessary to conduct such an 
investigation, particularly in this age, you know, that's 
dominated by computer systems. Also, we have a company that 
exploited NHTSA's weaknesses in avoiding compulsory reporting 
of information that's so integral to exhaustive and an 
independent investigation.
    Now, many of us here on the Committee were--this is 
reminding us of the time in which we held the Firestone tire 
recall, a session just about 10 years ago. At that time, 
Transportation Secretary Rodney Slater appeared before this 
committee, and he asked us to move expeditiously to grant NHTSA 
expansive investigative authority so that they could get the 
data that they required. And so, we, within months, passed the 
TREAD Act that created an early warning reporting system 
requiring manufacturers to report at--you know, defects that 
resulted in injuries or economic damages.
    What's amazing is that, in the direct aftermath of the 
Firestone, there was an acceleration--there were a number of 
reports regarding Toyota's acceleration. The Department of 
Transportation's inspector general issued two reports--2002, as 
well as 2004--criticizing NHTSA for failing to act on its own 
reports within its system and then, in 2004, failing to set up 
a system to do this investigation. Those of us who were here at 
the hearing well remember.
    It's obviously a disturbing pattern that's all too 
familiar, frankly, that has emerged. Back in 2000, State Farm 
notified NHTSA of the Firestone tire problems that were 
occurring years earlier. Well, in 2004, State Farm notified 
NHTSA that there was a trend occurring with respect to Toyota 
acceleration. And NHTSA had an investigation for about 4 
months, and then closed that investigation and said that the 
agency's resources were not warranted in using--in further 
examining this issue.
    In 2004, State Farm again notified NHTSA. NHTSA opened up 
an investigation narrowly targeted to the floor mats, did not 
expand it into an independent investigation.
    We know that Toyota had a recall in Europe, did not alert 
American officials, regrettably, with respect to that. And it 
was only after the crash that Senator Boxer is referring to, 
that horrific crash, another one, that resulted in significant 
recall by Toyota.
    Mixed messages from the company. Last week you had the 
Toyota USA President saying that he wasn't sure he could rule 
out the electronic systems being the actual cause of these 
crashes. And then, the very next day, Toyota's President saying 
he was absolutely confident that there were no flaws in the 
design system with these controls.
    The bottom line is, we've got a huge problem, because NHTSA 
cannot independently verify or corroborate this information and 
the contradictory assertions that are occurring, either because 
they lack the expertise, or they haven't contracted it out, 
they haven't asked for the resources as to whether they needed 
to do an independent investigation. And they allowed a company 
to hide behind proprietary data and a corporate bureaucracy.
    If you think about it, you know, NHTSA's mission, primary 
mission, is to save lives and to prevent injuries. And if this 
is an example how they police a fundamental design flaw in a 
major automaker, then how can we have confidence that they can 
live up to the one important word in their mission statement 
and their name, and that, of course, is ``safety.''
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Snowe.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, profits should never trump 
safety. And I must admit that I am highly skeptical, almost 
bordering on cynical, when it comes to the automobile industry. 
And now we have another example--dragging its feet on something 
that's safety.
    I remember, Mr. Chairman, when I was a young Congressman, 
we in Congress had been able to put in, on a trial basis, 
airbags. And a grandmother and a granddaughter, going down a 
two-lane highway--A1A, in Satellite Beach, Florida--had a head-
on collision. And that grandmother and granddaughter walked 
away from that head-on collision. And yet, over and over, the 
automobile industry prohibited us from having airbags until 
enough people died. And now, of course, it's standard issue. 
And here we come with a similar issue. So, what is it going to 
take for us to wake up?
    Now, the sad thing is that we're in the middle of a 
recession, and guess who's being hurt? It's the Toyota dealers. 
You ask anybody whether or not they think a Toyota is safe 
today, and you'd be shocked at the percentage of people that 
will say no. And they're voting with their feet, because 
they're not walking into the Toyota dealers. And it's hurting 
them and their suppliers and all of those small businesses, in 
the middle of a recession.
    So, thank you for getting to the bottom of this, Mr. 
Chairman.
    I want to thank the Secretary. He has been straightforward 
on this. Very clear. Keep at it, Mr. Secretary.
    The Chairman. Thank you, Senator Nelson.
    Senator Ensign.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. And I want to thank 
you for having this hearing.
    And one of the things that you made clear to me is that 
this is not a witch hunt. We're really trying to look at what's 
going on out there in the field, and whether DOT and NHTSA are 
doing what they need to do, and what Toyota's been doing, and, 
you know, how this has been handled. So, really doing our 
oversight here today, and I want to thank you for that.
    I have seen some documents that I'd like to pass out to the 
Committee when it is the appropriate time to do that, to let 
people look at some documents that, actually, I think NHTSA 
provided to the Committee.
    And may have some questions for our NHTSA witness there. 
And it's good to see both our witnesses today. Thank you all 
for being here.
    And this is just a very important matter. I mean, there are 
Toyota owners all over the country who are concerned about 
this. And, you know, we need to make sure that NHTSA and DOT 
are functioning properly, we need to make sure Toyota's doing 
what it needs to do, and we just need to do everything we can 
to keep our roads safe.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Pryor. You're the head of 
our Safety and Consumer Subcommittee, so your words count.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman. I won't 
take much of my time at all, except to thank you for holding 
this hearing today.
    And thanks, to my friend and former colleague, Ray LaHood. 
He's doing a great job at DOT.
    You know, I talked to my Toyota dealers in Georgia. I 
called them to see how my constituents in Georgia were being 
treated, in terms of repair. And the report I got was that the 
company had given carte blanche to the dealers and the service 
entities to fix these cars as fast as possible. And I received 
some flow numbers, in terms of the numbers that were being 
repaired, that were very impressive, which I appreciate. But, 
it caused me to think, if we had been just as quick to respond 
at the first death that took place on the highway, in terms of 
making sure we were doing everything to keep the cars safe, we 
may have saved some of those lives.
    So, I think, the most important thing today for us to hear 
is, What is that threshold? We need to err on the side of 
caution. And we ought to be conservative. The first hint of a 
life-threatening safety defect, in terms of vehicles, should 
immediately cause actions to take place that hopefully save 
lives in the future.
    I thank you for the time, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    I have Senator Thune and then Senator Klobuchar.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I want to thank you 
for holding today's hearing, and thank our witnesses, as well, 
from the government--Secretary LaHood, nice to have you back in 
the Congress--and witnesses from the Toyota Motor Company, 
other consumer safety arena, who are going to join us 
throughout the day.
    The necessity of today's hearing, Mr. Chairman, is 
unfortunate. And it's a manifestation of an oversight process 
that has failed the American consumer and a major car company 
whose practices have put lives in danger over the past several 
years. Clearly, the recent recalls have not been handled well 
by either the government officials in charge of overseeing the 
recall or the Toyota Motor Company's voluntary response to 
fixing the issue of unintended acceleration experienced by 
drivers of various Toyota models.
    And after the several tragic accidents and the recalls, the 
investigations have intensified; and throughout that process, 
we've heard a changing story from the Toyota Motor Company on 
the root cause of the problem.
    So, I'm hoping that today will shed some light on that 
subject. To date, as we all know, we've had unintended 
acceleration problems that have been linked to 39 deaths in the 
United States. Many of those were preventable. And I think the 
questions that need to be answered are, When was the problem 
first identified? Was Toyota too slow to react? Are the ongoing 
government investigations adequate? Does either Toyota or the 
National Highway Traffic Safety Administration know the true 
cause of the unintended acceleration?
    As thousands of families bring their cars into dealerships 
hoping the problem will be fixed, these are the questions that 
deserve timely and honest answers.
    So, Mr. Chairman, I look forward to continuing working with 
the Department of Transportation and my colleagues on this 
committee as we dig deeper in search of the answers to those 
questions.
    Thank you.
    The Chairman. Thank you, Senator Thune.
    Senator Klobuchar, to be followed by Senator Wicker.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, Secretary LaHood, and thank you, Administrator 
Strickland.
    I first wish just to say that I believe that a full 
investigation of the Toyota Motor Corporation's conduct or 
misconduct in response to these complaints must be conducted. 
But I'm mostly interested, today, in how our government 
responded.
    This is a basic matter of public safety and public trust. 
And I know very well the two of you were not in charge in the 
years leading up to this tragic situation that we find 
ourselves in now. But now, regardless of what happened before, 
you are in charge of cleaning it up within your own agency.
    I believe there might be a problem of culture here. 
Industry executives can roam the hallways of government, unlike 
consumers. They are not on an equal playing field. Some of the 
auto dealers and some of the small businesses that rely on good 
products also don't have that same kind of access.
    It was recently disclosed that, last summer, officials in 
Toyota's Washington office prepared an internal presentation 
boasting that they saved the company over $100 million by 
successfully negotiating with NHTSA to have only a limited 
equipment recall of floor mats in some Toyota and Lexus 
vehicles. They also claimed millions of dollars in savings for 
the company by delaying safety regulations, avoiding defect 
investigations, and slowing down the other industry 
requirements.
    This internal Toyota presentation was entitled, ``Wins for 
Toyota,'' but it could just as well be entitled ``Losses for 
Consumers.'' Among the consumers who lost out were some of my 
constituents; for example, Jeff Pepski, of Plymouth, Minnesota. 
On February 3 of last year, he was driving home from work when 
his Lexus dramatically accelerated to 80 miles per hour. After 
almost 2 miles of high-speed driving, he was finally able to 
stop the car by putting it into neutral. He says the floor mat 
had nothing to do with it. I have talked to him over the phone.
    A few weeks after the incident, he submitted a detailed 
complaint to NHTSA and specifically asked the agency to look 
beyond the floor mats. This guy was obsessed with this. And 
almost 8 months later, at the end of October 2009, he received 
a response from NHTSA. The agency denied his complaint. At that 
time, it was still accepting Toyota's explanation.
    We've had several instances like this in Minnesota, and it 
always makes a citizen wonder what's going on and what happened 
between the industry and NHTSA. It was like a hockey puck going 
back and forth on the ice. The drivers would file complaints by 
the dozens; Federal regulators would open official reviews; 
Toyota would promise to answer; the regulators would complain 
about not receiving the information they needed; and in the 
end, almost nothing was done. The puck never got in the net. 
Nothing was resolved, and people died. Again, I have faith, in 
both of you, that you will get to the bottom of this and figure 
out how we fix this.
    The questions I'm most interested in: Did the agency lack 
sufficient resources to do prompt, thorough investigations? Did 
the agency suffer because of leadership turnover? Was the 
agency too reluctant to use all its investigating powers in 
order to get cooperation? Did NHTSA have all the tools it 
needed? Was the relationship too cozy between Toyota and the 
rest of the industry and NHTSA--the revolving-door issue that 
Senator Boxer raised? Is it all these things? Those are the 
questions that the American people deserve answers for, as they 
believe, and they have a right to believe, that NHTSA is there 
to protect them.
    Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Wicker, to be followed by Senator Udall.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman, for calling this 
important hearing to look at the recent recalls by Toyota, as 
well as the response and involvement of the National Highway 
Traffic Safety Administration.
    This is an issue that has grabbed the attention of all 
Americans and many others worldwide, and certainly warrants a 
thorough investigation. One of the most important roles of this 
committee, and even this Congress, is ensuring the safety of 
American motorists.
    The tragic accident, last August outside San Diego, that 
took the life of a California Highway patrolman and his family, 
brought national attention to the problem of sudden unintended 
acceleration in certain Toyota and Lexus vehicles. Toyota has 
recalled millions of potentially affected vehicles. Media 
coverage has expanded, and the public is understandably 
concerned and confused about the problem and what is being done 
to correct it.
    Since that time, Toyota has undertaken extensive outreach 
to owners and the public in general, and even taken the unusual 
steps of halting sales and production of certain affected 
models. Employees in dealerships around the country have been 
working tirelessly to fix affected vehicles. They are to be 
commended for this effort.
    However, there are lingering questions that need to be 
examined, such as the timeliness of Toyota's response to these 
complaints and whether a definitive answer to the problem has 
been found. We're going to continue to ask the tough questions 
that need to be asked.
    I also want to express that it is important, not only to be 
tough, but to be fair, and to keep the facts in perspective. We 
must not use a different set of standards for one company over 
the other.
    NHTSA and the Department of Transportation have, likewise, 
become very active on the issue. Secretary LaHood, my friend 
and colleague, has stated publicly that he is committed to 
examining more deeply the possibility that the causes of 
unintended acceleration extend beyond floor mats and sticky 
pedals, and examining the potential for electronic defects and 
throttle control. Also, we have an obligation to review what 
NHTSA has been doing over the last several years as these 
accidents were being reported, and why they seemed to limit the 
scope of their review.
    I believe there are still several outstanding issues we 
have an obligation to examine and ultimately answer. The most 
important is, has the problem of unintended acceleration in 
these vehicles been correctly identified?
    Next, as with any safety concern, I believe consumer 
education is an important component to ensure safety. Toyota 
has undertaken a massive outreach campaign to get necessary 
information to customers, and I applaud Toyota for this effort. 
However, questions remain: Do vehicle owners know where to find 
out if they are affected, how to get their vehicle repaired, 
and how to ensure that they can safely continue to drive until 
they get it fixed?
    Finally, we need to thoroughly review the processes that 
are in place, both within Toyota and in NHTSA, to see if 
changes need to be made to help ensure owners and those on the 
road with them are safe.
    There's a lot at stake here, and we need to get it right. 
Ultimately, all Americans should be able to feel confident that 
they are traveling in safe vehicles. It is also in the best 
interests of Toyota to continue cooperating and working hard on 
these problems.
    Toyota has been a good partner to communities and States 
across the country, including my home State of Mississippi. Let 
the record show that Toyota is investing $1.3 billion to build 
a new plant in northern Mississippi, and although the economic 
downturn has delayed the plant's opening, the company has 
continued to honor its commitments to our State.
    At this point, Mr. Chairman, I'd like to point out, and ask 
that we enter into the record, one op-ed written by a Democrat 
from Mississippi, Vernon R. ``Randy'' Kelley, the Executive 
Director of the Three Rivers Planning and Development District; 
and another op-ed from the Washington Post penned by 
Mississippi's Governor, Haley Barbour. Governor Barbour says, 
``On February 24, the U.S. owes Toyota fair, careful treatment 
on safety issues,'' and he says, among other things, ``I worry 
that there has been a rush to judgment. The way that Congress 
and the Obama Administration respond to this controversy will 
have real economic consequences.''
    Mr. Kelley hopes that those involved will, quote, ``give 
the Toyota company the same opportunity to deal with their 
issues that they afford other automobile manufacturers that 
experience recalls.''
    I ask that these two op-eds be placed into the record at 
this point.
    The Chairman. Senator Wicker, they both will be included in 
the----
    [The information referred to follows:]

                  ``Piling On'' Toyota is Underserved

                             by Randy Kelly

    Back in my football playing days when a player had been tackled and 
was down on the ground and another player from the opposing team came 
along and jumped on the player that was already down then a penalty for 
``piling on'' was assessed.
    In today's football terminology the penalty is called ``personal 
foul--unnecessary roughness.'' Regardless of what you call it, there is 
a penalty.
    I find myself in one of those situations now with the publicity 
Toyota is receiving about some of their models. I believe there is some 
``piling on'' taking place by some media and others while Toyota is 
``down'' so to speak and I don't believe it is deserved. Intentionally 
trying to hurt someone on a football field or anywhere else is wrong 
and consequently deserves a penalty or punishment. Surely none of the 
Toyota critics believe a company like Toyota would ever do anything to 
intentionally hurt anyone. Additionally, I would hope that no one, be 
it media, companies or competitors, would intentionally ``pile on'' 
another company to hurt them for gain of market share. Then again, 
perhaps I am too naive.
    The Toyota Company that I have had the opportunity to work with 
very closely is unquestionably a premier automobile manufacturer with 
an enviable customer satisfaction record. I don't pretend to believe, 
and I am not trying to imply, that in any manmade product there is 
always perfection. Toyota is experiencing some imperfection with parts 
of some of their models, and they are going the extra mile to assure 
customer safety and satisfaction with their product.
    There have been about 2,000 complaints of unintentional sticking 
accelerators out of about 20 million Toyota vehicles sold worldwide. Do 
the math and that is less than 0.1 percent. Certainly I would never 
make light of any unfortunate accident that one of these unintentional 
malfunctions caused or played a part in. I value every human life as I 
am sure Toyota does. Toyota dealers across this great nation are 
repairing those potential problems as quickly as possible.
    I'm sure Toyota understands that the trust of the consumer is of 
utmost importance to the company's future. Toyota directly employs more 
than 30,000 people in the United States, and when you add in suppliers 
and dealerships that swells to more than 170,000. With its response to 
the issue at hand, it is evident to me that this is a company that is 
serious about the satisfaction and well being of its customers.
    It is my hope that the ones doing the ``piling on'' in these Toyota 
events will give the Toyota Company the same opportunity to deal with 
their issues that they afford other automobile manufacturers that 
experience recalls. I sincerely trust Toyota to work through these 
issues just as I sincerely trust Toyota will soon be giving many 
Mississippians the opportunity to build vehicles at Blue Springs with 
true ``Mississippi Pride.''
    Vernon R. ``Randy'' Kelley III, is Executive Director of Three 
Rivers Planning and Development District, headquartered in Pontotoc.
                                 ______
                                 

                 The Washington Post--February 24, 2010

       U.S. Owes Toyota Fair, Careful Treatment on Safety Issues

                            by Haley Barbour

    When I announced 3 years ago that Toyota would open a U.S. vehicle 
assembly plant in Blue Springs, Miss., I said Toyota was the world's 
premier automobile manufacturer. I still believe that.
    Make no mistake, the safety and reliability concerns identified in 
some Toyota automobiles--although they occur very infrequently--are 
serious. It seems to me, however, that the company is doing everything 
it should as quickly as possible to make things right. This includes 
not just a full recall but also temporarily halting production in five 
plants to focus on the problem and repairing recalled vehicles. The 
company has taken significant steps to improve quality and reliability 
worldwide, and to increase the transparency of its communications with 
government officials and customers.
    But as two House committees and one in the Senate prepare for 
hearings on Toyota's safety issues, I worry that there has been a rush 
to judgment. The way that Congress and the Obama Administration respond 
to this controversy will have real economic consequences.
    We cannot lose sight of the company's importance to America's 
economy--and should not ignore its continued commitment to doing things 
the right way. Although Toyota was founded in Japan more than 70 years 
ago, after five decades of doing business in the United States it is as 
much an ``American'' car company as any other.
    In Mississippi, the automaker is investing $1.3 billion to build a 
Prius assembly plant that will provide good jobs to more than 2,000 new 
Toyota team workers plus some 2,500 supplier jobs. Though the economic 
downturn has delayed the start of production, Toyota is honoring its 
financial commitments to the state--including a promised annual 
donation of $5 million for the next 10 years to help fund local 
education programs. That's the kind of company Toyota is.
    Across America, Toyota--together with its 1,500 dealers and 500 
suppliers--has helped create more than 200,000 jobs. It operates major 
design, research and manufacturing operations in 10 states. Nearly half 
of the vehicles it sells in the States are built here. And over the 
past 22 years, 16 million Toyota vehicles have been made in America.
    The company's direct investment in the United States exceeds $18 
billion, but it's not just American workers who profit. Eighty percent 
of Toyota vehicles sold in this country over the past 20 years are 
still on the road.
    That's why I hope Congress will resist the temptation to attack 
Toyota simply to advance the interests of its American competitors. 
Toyota should not be blamed implicitly for the problems of Detroit's 
automakers. Moreover, the decision to bail out bankrupt General Motors 
and Chrysler with $60 billion from U.S. taxpayers has put Washington in 
an uncomfortable position. I know Transportation Secretary Ray LaHood 
to be an honorable man, but can these hearings be seen as impartial, 
focused on enforcing the rules and policing corporate behavior, when 
the Federal Government has stakes in two major car companies?
    Lawmakers must tread carefully lest they give Chrysler, in which 
the government has a 10 percent stake, or General Motors, in which the 
government now owns a majority stake, an unfair advantage.
    Washington's primary role should be to work with Toyota to protect 
consumers and assist in getting problems fixed as quickly as possible. 
Its other responsibility is to be vigilant in pursuing fairness--Toyota 
cannot be unjustly punished or have its business recovery impeded by 
attempts to gain advantages for companies owned by the government.
    America's openness and its reputation for fairness are what have 
made our economy so attractive to foreign investment--investment that 
will surely aid in our recovery. If Congress and the media treat Toyota 
differently, foreign businesses might think again before investing in 
Mississippi or any other state. During these hearings, excessive 
bashing of Toyota is likely to be interpreted as a signal that the 
United States is turning protectionist during these tough economic 
times. That would not be good for the American economy, companies 
located here or their workers.--The writer, a Republican, is Governor 
of Mississippi.

    Senator Wicker. And in conclusion, then, let me say, Mr. 
Chairman, to ensure that this partnership continues to 
flourish, we must work together now to prevent these kinds of 
safety issues in the future. We must work diligently to ensure 
that vehicles are safe and that the public is protected. At the 
same time, we need to be mindful that there are thousands of 
American jobs at stake.
    I believe this hearing is only a first step in a process 
that must involve careful analysis from all parties and a 
collective commitment to work together to find an appropriate 
solution.
    So, thank you, to our witnesses; thank you, Mr. Chairman. 
And I look forward to a productive hearing.
    The Chairman. Thank you, Senator Wicker.
    Senator Udall, to be followed by Senator Johanns.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Once again, Chairman Rockefeller, you are 
focusing this committee on consumer protection, and I thank you 
for that. It's absolutely critical.
    This hearing's about helping ensure the safety of American 
drivers. It's about uncovering why hundreds of instances of 
sudden acceleration occurred for so long, and killed, injured, 
or inconvenienced so many, without an adequate response from 
Toyota or government safety officials.
    For years, Toyota has enjoyed a stellar reputation here in 
America and around the world. I own a Toyota Prius, and have 
driven it for years, and with pleasure and no safety problems. 
But, the reality is, too many Toyota vehicles driven over the 
past 10 years haven't been safe. As a result, dozens of people 
have died; hundreds have been hurt; thousands have been 
inconvenienced; and hard-working employees at Toyota 
dealerships in my home State of New Mexico and across the 
country now face an uncertain future in an already uncertain 
economy.
    And while all of this was happening, Toyota continued to 
put company profits above the safety of the American people, 
the American people who bought their vehicles, who depended on 
their product, and who expected Toyota to inform them 
immediately if something had gone wrong. Toyota didn't just 
fail in this regard, they did it knowingly and without remorse. 
Just last summer, they were bragging about over $255 million in 
savings through recalls avoided.
    But, Toyota isn't only to blame. The Federal regulating 
agency, NHTSA, is also to blame. Since 2003, they have 
conducted more than 10 investigations into issues related to 
sudden uncontrolled acceleration. These investigations resulted 
in a less-than-adequate floor-mat recall in 2007. Only after 
the release of the terrifying 9-1-1 call of August 2009, that 
Senator Boxer mentioned, and that crash with the California 
Highway Patrol officer, did it seem that NHTSA stepped up and 
required action by Toyota. That crash finally resulted in a 
complete recall of vehicles, and development of a comprehensive 
solution to the pedal entrapment issue.
    Although the Toyota safety issues have been in the 
headlines for months and hearings were held in the House last 
week, many questions remain, and I, for one, would like to know 
why the safety issues with Toyota endured, unchecked, for so 
long, what steps Toyota is taking to ensure the safety of those 
that rely on their vehicles for their livelihood, and finally, 
what steps NHTSA is going to take to ensure this never happens 
again.
    It's wonderful to see you here, Secretary LaHood and 
Administrator Strickland, and I know that you will both work 
very hard to stay on top of this.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Johanns, to be followed by Senator Begich.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you.
    Probably everything that I wanted to say has been said, so 
I will be brief and avoid being repetitious.
    But, I do want to reflect on something, if I could. It 
wasn't all that long ago that, Mr. Secretary, I was in your 
position as a member of the Cabinet. And during those years one 
of my responsibilities as Secretary of Agriculture was food 
safety, in the areas of meat and poultry. And food safety 
issues arose from time to time. And I always considered those 
to be the greatest risk and greatest challenge that we faced--
and the greatest responsibility. Each time that I dealt with a 
food safety issue over those 3 years, I have to tell you that 
what I wondered about was, What else is out there? You can't 
know what you don't know.
    Now, as we conduct this hearing, I suspect it's going to be 
very easy for us to dig into the documents, look back at the 
history of what has happened here. It'll be relatively easy to 
connect the dots, in hindsight. But, what that is not going to 
tell us is what else is out there, what other companies, maybe, 
have done--just as Senator Udall mentioned--have bragged about 
how they somehow evaded being caught up in a recall or 
something of that nature.
    So, as you testify, I hope you will spend some time talking 
to us about what you are doing to assure us that there isn't 
anything else out there, that our vehicles are safe, and that, 
when it is brought to the attention of this Department that 
there is a problem, that there is good follow up on that 
problem.
    I also want to just mention something else, and I will be 
just very, very blunt about this. This really irritated me, all 
the time I was the Secretary of Agriculture. And there is a 
connection. I firmly believe that there is a role for the 
Japanese government, here, to step up and to make sure that 
what they are sending to our borders is safe. They have a 
responsibility.
    And here's what I would say about that. I worked with the 
Japanese for years on BSE issues related to livestock. We found 
one animal. There's never been a case of BSE in the United 
States. And yet, to this day, their border is largely closed to 
our product.
    As I was preparing for this hearing, I wondered what the 
response would be in Japan if I suggested that--because people 
have died because of the way they have conducted themselves--
until the Japanese government can assure us that all of the 
defects are out of these vehicles, we're just not going to 
accept any vehicles from Japan. And yet, that's what they did 
with one of our industries.
    So, I start this hearing very, very frustrated with 
everything that has happened. I don't think our consumers have 
been treated right, not only by what has happened here 
regarding the U.S. Government, but what has happened regarding 
a government that has been an ally through the years, but, 
quite honestly, has not treated us fairly in trade issues.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir. Thank you very much.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Mr. Chairman. Thank you for 
holding the hearing.
    Let me first say, Secretary LaHood and Administrator 
Strickland--I know, Secretary, you're very blunt and you're 
always to the point----
    It is on. Is that better?
    Well, that's what I get. Maybe there's a defect in this.
    [Laughter.]
    Senator Begich. Let me just say that--thank you--and I know 
you're always very direct, so I'm looking forward to your 
question--or, your answers to the questions, and what's going 
to happen.
    To Administrator Strickland, being on the job in a short 
time, you now have a big task ahead of you. And I think, for 
me, my big issue--not to echo what everyone said here--is going 
to be, What systematic changes are necessary for us to ensure 
that the car safety and other safety efforts you move forward 
on are there, and that you have the resources to do it. It's a 
systematic issue that I'm going to be looking for. What do we 
do to improve the system? Because we can always look back, make 
the list. You know, we're--you'll have the investigation, 
they'll be responsible for their actions, in whatever form it 
takes. But, what's forward, and how we change the system, or 
improve it, or maybe there are just tweaks here--I'm not sure. 
That's what I'm looking for. Systematic changes.
    In that context, I will say that, in Alaska it's a little 
unique, because when folks in rural Alaska buy a vehicle for 
use in their community, they barge it up. So, now, if they own 
a Toyota--I own a Toyota Highlander, hybrid; very proud of the 
fact. I drove from Alaska to Washington, D.C., in that vehicle, 
for 19 days, 5,000 miles, and I'm here in one piece, and that's 
great. It's a good car. I'm very happy about it.
    But, folks in rural Alaska, when they ship that up in a 
barge, now they get a recall notice, how do they get that 
fixed? And I don't know the answer to that, to be honest with 
you. And there will be some in our State. Probably very few--
but, still, the point is, there'll be other States where the 
dealer may be miles and miles away. How do they make that 
connection? At least in most States they can drive to that 
location. In our State, they will have to literally figure out 
how to get it taken care of, and I don't know what the answer 
is to that. So, I'll be looking to that, and, you know, 
specifically today may not be the appropriate place to answer 
that, but maybe looking into how we make that logistical 
opportunity happen.
    But, again, I wish you the best with the testimony today. 
But, I do look for the systematic things that we need to do, 
and where, maybe, there was a problem in delivery of the 
information to the public, as well as to the company, to make 
sure they're upholding the best quality vehicle possible when 
they sell it here in this country.
    So, let me end there. And again, thank you both for being 
here, and I'll look forward to your testimony.
    The Chairman. Thank you, Senator Begich.
    Secretary LaHood, Administrator Strickland, thank you for 
your patience. You got all the statements this morning, and 
that means, by definition, in the afternoon there'll be fewer 
statements. So they set the tone for what we want to ask, and 
now I look forward to hearing you, sir. And you're accompanied 
by David Strickland, who's the Administrator of the National 
Highway Traffic Safety Administration.
    Please proceed.

         STATEMENT OF HON. RAYMOND LaHOOD, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary LaHood. Mr. Chairman, first of all, thank you for 
your leadership on safety. And also, thank you for the courtesy 
that you have extended to us in arranging this meeting today 
that's convenient for both your committee and those of us at 
DOT.
    Ever since I was sworn in as the Secretary of 
Transportation 13 months ago, I have said that safety is the 
Department's number-one priority. I believe that we've 
demonstrated that commitment, time and time and time again. 
When the terrible crash of Washington Metro system claimed nine 
lives and injured dozens of others last summer, we quickly 
introduced legislation to give us Federal safety oversight of 
the transit system, something we currently don't have. When the 
Colgan Air Flight 3407 crashed in Buffalo, we learned right 
away what many of the problems were, and we did not wait a year 
for the NTSB to conclude its investigation before we acted. We 
began working with the aviation industry immediately to enhance 
airline safety and pilot training, holding 12 safety summits 
around the country. This spring, the FAA will issue a new rule 
to combat pilot fatigue, and it has already begun to overhaul 
pilot certification qualification.
    One of the hallmarks of my time as Transportation Secretary 
has been our work on distracted driving. For all of you with 
cell phones and BlackBerrys and other electronic devices, I'm 
on a rampage about people talking and texting while driving a 
car, bus, train, or plane. It's a menace to society, and we 
certainly have exercised our authority to ban truck drivers 
from texting while driving.
    Now for Toyota. The Toyota recall situation is very 
serious, and we are treating it seriously. The three recalls 
involving Toyota are among the largest in automobile history, 
affecting more than 6 million people in this country.
    And I'd like to say a word directly to consumers. First, if 
you notice that your gas pedal or your brake is not responding 
as it normally would, contact your Toyota dealer right away.
    The recent recalls involve three issues:
    One, accelerator pedal entrapment by floor mats, which can 
lead to uncontrolled acceleration at very high speeds. It's 
important to take your floor mats out of the driver's side of 
the vehicle until your car has been repaired for this problem 
by a Toyota dealer.
    Second, accelerator sticking or returning slowly after 
being depressed. If the pedal is harder to depress or slower to 
return after releasing, this could be the precursor to what is 
known as ``sticky pedal.'' If your pedal has these symptoms, 
contact your Toyota dealer immediately. If your gas pedal 
becomes stuck for any reason, steadily apply the brake, put the 
car in neutral, bring it to a stop in a safe place, and call 
your dealer.
    Finally, the Toyota Prius for model year 2010, and the 
Lexus HS250, if you experience a change in your car's braking 
performance, contact your Toyota dealer.
    Now, I want everyone to know that the National Highway 
Traffic Safety Administration has the most active defect 
investigation program in the world. Known as NHTSA, its job is 
to investigate complaints and to look for defects. It receives 
more than 30,000 complaints from consumers every year, and 
reviews every one of those complaints quickly. We don't ignore 
any of them. We examine them all, we look at all of them very 
carefully.
    Over the last 3 years, NHTSA defect and compliance 
investigations have resulted in 524 recalls involving 23.5 
million vehicles. Twenty percent of those involve foreign 
vehicles, while 80 percent were domestic.
    Of the 100 investigations NHTSA opens in an average year, 
there are currently 44 open defect investigations, five of 
which involve Toyota. Every step of the way, NHTSA officials 
have pushed Toyota to take corrective action so that consumers 
would be safe.
    Unhappy with Toyota's responsiveness to our safety 
concerns, the Acting Deputy Administrator of NHTSA, Ron 
Medford, and two associates flew to Japan in December 2009 to 
clarify for Toyota management that the company's legal 
obligations are to find and remedy safety defects in vehicles 
sold here.
    In January, our new Administrator, David Strickland, who is 
with me today, and Ron Medford, now our Deputy Administrator, 
told the President of Toyota North America in no uncertain 
terms that we expect prompt action. Following the disclosure of 
the sticky pedal problem, Toyota publicly announced that 
recall. Two days later, I personally talked to Mr. Toyoda, 
prior to him coming to the United States, and emphasized this 
is very serious. Potentially fatal defects are on the road, and 
NHTSA has pressed hard to expedite these safety fixes.
    If NHTSA had opened a formal investigation and Toyota had 
resisted a recall, this would have consumed an enormous amount 
of time and resources, in effect extending the period in which 
owners of affected vehicles were at risk. By engaging Toyota 
directly, and persuading the company to take action, the agency 
avoided a lengthy investigation that would have delayed fixes 
for a year or more.
    Last year, I announced that we are investigating whether 
Toyota acted quickly enough in reporting these safety defects 
to NHTSA, as well as whether they took all the appropriate 
actions to protect consumers.
    We have asked Toyota to turn over a wide range of 
documents. This will be one of the most comprehensive reviews 
of documents, one that will show us when and how they learned 
about these safety problems. NHTSA will continue to make sure 
Toyota's doing all it has promised to make its vehicles safe, 
and we will continue to investigate all possible causes of 
unintended acceleration.
    While the recalls are important steps in that direction, we 
don't maintain that they answer every question about that 
issue. Some people believe that electromagnetic interference 
has a dangerous effect on these vehicles, and although we're 
not aware of any incidents proven to be caused by such 
interference, NHTSA is now doing a thorough review of that 
subject to ensure safety, because we've heard from enough 
Members of Congress that they think that this is a problem. So, 
we're going to look into and review the electronics on these 
cars. If NHTSA finds a problem, we'll make sure that it's 
resolved.
    Recently I met with the President of Toyota. I told him 
that safety is our top priority at DOT, and it must be for 
Toyota, as well. He assured me that Toyota takes U.S. safety 
concerns very seriously and they're working hard to address all 
safety issues.
    Finally, want to remind everyone there is a reason we 
investigate safety defects, and there's a reason we push 
automakers to do the right thing. I listened to the 9-1-1 tape 
of the Saylor family's harrowing last moments. I actually met 
with the family last week, when they were here in Washington, 
and offered the sympathy of our administration to them, and our 
commitment that this will not happen to another family. It was 
a terrible tragedy, and I hope that no other family has to 
endure this.
    Again, Mr. Chairman, thank you for the opportunity to 
appear. And now we are happy to answer your questions.
    [The prepared statement of Secretary LaHood follows:]

           Prepared Statement of Hon. Ray LaHood, Secretary, 
                   U.S. Department of Transportation
    Chairman Rockefeller, Ranking Minority Member Hutchison, and 
members of the Committee:
    Thank you for the opportunity to appear before you today to discuss 
the important issue of Toyota's recent safety recalls and the broader 
issue of sudden unintended acceleration. With me today is David 
Strickland, Administrator of the National Highway Traffic Safety 
Administration (NHTSA).
    Transportation safety is the Department's highest priority. We 
understand the level of concern about the safety of Toyota vehicles, 
particularly with regard to unintended acceleration. I would like to 
explain the recent recalls, the role that NHTSA played in ensuring the 
recalls occurred, and the actions NHTSA is taking to identify any 
additional safety defects that might cause unintended acceleration.
    The recent Toyota recalls related to unintended acceleration 
involve two issues: first, accelerator pedal entrapment by floor mats, 
which can lead to uncontrolled acceleration at very high speeds; and 
second, accelerator pedals sticking or returning slowly after being 
depressed, which occurs at a variety of throttle positions but, to the 
best of our knowledge, is more likely to occur at low throttle 
positions more readily controlled by the vehicle's brakes.
    Before I discuss the details of these two recalls and NHTSA's 
investigations, I want to clarify what owners of vehicles affected by 
these recalls should do. To avoid pedal entrapment, remove all floor 
mats from the driver's side of your vehicle until you receive the 
repair for this problem from a Toyota dealer. If you do not remove the 
mat, make sure that it is always securely anchored in place on the 
retaining hooks and that no other mats are ever stacked on top of it. 
If your vehicle is covered by the ``sticky pedal'' recall, pay special 
attention to your gas pedal. If the pedal is harder to depress or 
slower to return after releasing it, this could be a precursor to a 
sticky pedal. If your pedal shows those symptoms you should contact a 
Toyota dealer immediately. If your accelerator becomes stuck for any 
reason, steadily apply the brake, put the car in neutral, bring it to a 
stop in a safe place, and call your dealer.
Pedal Entrapment
    Of the two big recalls, the far more serious problem, in our view, 
is pedal entrapment by floor mats. We are aware of five deaths that 
have occurred due to this problem, including a tragedy near San Diego 
last August that claimed four lives. We have the greatest sympathy for 
the loved ones of those members of the Saylor and Lastrella families 
who died in that crash.
    Pedal entrapment involves a situation in which the driver intends 
to accelerate quickly (such as when passing another car or entering a 
freeway) and depresses the accelerator pedal toward the floor of the 
vehicle. When pushed far enough the pedal becomes entrapped by the 
floor mat in full open throttle position. Once the pedal is entrapped, 
the vehicle will continue to accelerate well in excess of the driver's 
intent unless the driver can overcome that situation. Given the very 
high speeds involved and the firmness with which the mat is holding the 
pedal at full throttle, these are the most dangerous situations we are 
aware of that come under the broad heading of unintended acceleration. 
It is very important to note that, even on the recalled vehicles, 
entrapment by the mat can occur only if the floor mat is out of 
position because it is not secured, one floor mat is stacked on top of 
another floor mat, or a floor mat is used that is not intended for use 
on the vehicle and is inappropriate due to its shape or dimensions.
    NHTSA first became aware of this phenomenon in Toyota's Lexus ES350 
in 2007 and quickly opened an investigation in March of that year. 
NHTSA acted based on five complaints from vehicle owners. No related 
fatalities had been reported at the time the investigation began, but 
there had been three crashes allegedly related to pedal entrapment by 
the floor mat. At the time, the problem seemed most likely to occur in 
Lexus ES350 vehicles where a thick, all-weather floor mat offered as an 
option by Toyota was used. The shape of these floor mats and a raised 
portion forming a ridge made them particularly likely to entrap the 
pedal if not properly secured. So far as NHTSA knew at that time, the 
accelerator pedals themselves were functioning as designed and the 
problem centered on the way the pedal could be entrapped by these floor 
mats under certain conditions.
    NHTSA escalated the investigation to an engineering analysis 5 
months later, in August 2007. Shortly before that, a fatal crash 
involving a Camry occurred that was apparently caused by entrapment. In 
September 2007, Toyota announced a recall of the all-weather mats in 
Lexus and Camry vehicles. The remedy was to have the dealers remove the 
mats and provide a re-designed mat that was shaped in a way that 
addressed the entrapment risk even if the re-designed mat was 
improperly anchored.
    At the time of the 2007 recall, NHTSA also issued a safety 
advisory, directed especially to owners of the recalled vehicles but 
also to all drivers, warning of the serious dangers of not properly 
anchoring mats or stacking mats on top of each other. At that time 
NHTSA believed that the recall and removal of the most problematic 
mats, the improved design of the replacement mats, and education of the 
public and dealers about the proper use of mats would substantially 
eliminate the known risk related to pedal entrapment.
    NHTSA continued to monitor the situation and became aware of a 
post-recall crash involving one of the recalled mats that the owner had 
not removed. Fortunately, that was not a fatal crash but did result in 
serious injury. In light of that crash and indications that consumer 
response to this recall was too low, NHTSA urged Toyota to re-notify 
vehicle owners, which Toyota did in January 2009.
    Eight months later, when the San Diego fatal crash occurred on 
August 28, 2009, NHTSA immediately began to investigate the 
circumstances of the crash. NHTSA investigators and the San Diego 
County Sheriff's Department examined the wreckage of the vehicle and 
concluded that the likely cause was excessive speed due to entrapment 
of the accelerator pedal by the floor mat. The vehicle was a Toyota 
Lexus ES350 on loan from a Toyota dealer for the day. The floor mat in 
the vehicle was designed for a Toyota Lexus RX SUV and was much longer 
than the mat that would have been proper for the Lexus ES350. At the 
time NHTSA investigators viewed the wreckage, the accelerator pedal was 
still fused to the floor mat, apparently melted in that position by the 
heat of the fire that followed the crash. Combining that observation 
with the circumstances known to have occurred immediately prior to the 
crash, including extremely high speeds and the driver's inability to 
control the speed, NHTSA concluded that the excessive speed was caused 
by pedal entrapment. Supporting this conclusion was the fact that 
another customer of the dealership had used the same vehicle just 3 
days earlier and complained of unintended, high-speed acceleration 
caused by the pedal having been trapped by the mat until he was able to 
stop the vehicle and free the pedal.
    The San Diego tragedy made clear that the entrapment problem could 
occur in unexpected ways and that recalling the worst performing mats 
and educating drivers and dealers about not using unsecured, improper, 
or stacked mats was not going to adequately address the risk. 
Apparently not even all Toyota dealers were mindful of the need to 
ensure proper mats and mat anchorage to avoid entrapment.
    As a consequence, NHTSA began to explore additional remedial 
options. The agency continued to review all relevant data to identify 
any reports that might be linked to similar entrapment in other Toyota 
vehicles. NHTSA became focused on the pedal design of a number of 
Toyota vehicles, not because of any known malfunction in their 
operation but because their shape tended to make entrapment more likely 
when floor mats are out of position or stacked. NHTSA prepared to open 
an investigation on the pedal design. At the same time, the agency 
informed Toyota that the company needed to address this risk promptly 
as a vehicle defect issue, and requested that Toyota conduct a recall. 
Toyota responded to NHTSA by announcing a recall to replace or re-shape 
the pedals in 3.8 million vehicles and sent its official notice of the 
recall to NHTSA on October 5, 2009.
    NHTSA pressed the company to include as part of its recall the 
addition of a feature called brake override (which some call ``smart 
pedal'') technology on models that have keyless ignition systems. With 
brake override, the vehicle control system gives priority to the signal 
from the brake pedal and returns the engine to idle when it detects the 
brake being applied while the accelerator is applied. NHTSA discovered 
in its investigation of pedal entrapment incidents that in some 
situations drivers of vehicles with keyless ignition systems did not 
know that, in Toyota vehicles, they could shut off their engines when 
in motion only by depressing the dashboard ignition button and holding 
it for 3 seconds. The owners were familiar with shutting off the 
vehicle when it was stopped, which requires holding the button for just 
1 second or less. NHTSA thought it was especially important to ensure 
that in those vehicles with keyless ignition the driver had the benefit 
of brake override. Many other manufacturers use this technology and 
Toyota uses it in newly produced vehicles. The recall Toyota announced 
in October adhered to NHTSA's request.
    NHTSA continued to monitor incoming reports involving relevant 
incidents. In January, NHTSA told Toyota that its review of other 
Toyota vehicles indicated that they needed to be included in the pedal 
entrapment recall. Toyota responded by adding 1.1 million vehicles to 
the pedal entrapment recall on January 27, 2010.
    Under the law, manufacturers have an obligation to notify NHTSA 
within 5 days of determining that a defect or noncompliance exists. 
When manufacturers voluntarily initiate recalls without waiting for 
NHTSA to order a recall, the process protects the public most quickly. 
NHTSA can order manufacturers to do recalls but only after initiating a 
formal investigation, completing its investigation, and following 
administrative procedures that include a public hearing and 
opportunities for the manufacturer to file detailed responses. Even 
after the NHTSA Administrator issues an order directing a recall, the 
manufacturer can avoid doing the recall until NHTSA proves its case in 
court. In such a case, the agency has the burden of proving by a 
preponderance of the evidence that a vehicle defect exists and that it 
creates an unreasonable risk to safety. As a result, recalls occur most 
quickly when a manufacturer announces the recall without waiting for 
NHTSA to open and complete an investigation. That is what happened 
here--because of the pressure NHTSA applied.
    On February 16, NHTSA sent Toyota a Timeliness Query, which is a 
detailed request for information about when Toyota learned about the 
defect addressed by this recall. The information Toyota will provide in 
response to this request will help NHTSA determine whether Toyota's 
initiation of the recall met its obligation to notify NHTSA quickly. If 
NHTSA determines that Toyota did not meet that obligation, NHTSA may 
seek civil penalties from Toyota for that failure. Those penalties 
could be as high as $16,375,000 for a related series of violations.
CTS Pedals Sticking
    I want to turn now to the ``sticky pedal'' recall that was 
initiated in January of this year. NHTSA is not currently aware of any 
injuries or deaths definitively linked to this problem. Unlike the 
pedal entrapment recall, which concerns the shape of the pedal that 
makes it more susceptible to entrapment by an external object (the 
floor mat), this recall involves the internal working of the pedal 
assembly. Another distinguishing factor is that the pedal entrapment 
situations involve instances of full acceleration that are initially 
intended by the driver, while this problem, to the best of our 
knowledge, generally involves occurrences at lower power levels where 
the car continues to accelerate because the pedal does not return 
upward, or returns slowly, when the driver lessens pressure on the 
pedal.
    The affected pedals are manufactured by CTS Corporation, which is 
based in Elkhart, Indiana. Some Toyota vehicle owners have complained 
of certain symptoms in vehicles equipped with those pedals. Those 
symptoms include a feeling that it is harder than normal to depress the 
pedal or that, when depressed, it is slower to return. In some 
circumstances, the situation can involve the pedal not returning at all 
from the position to which it was depressed. At this time, we 
understand that this problem is mechanical in nature and does not 
involve a flaw in the electronic signal being sent from the pedal 
sensor to the throttle.
    In November 2009, NHTSA received several Toyota field reports 
concerning incidents in which pedals were slow to return or sticking in 
a number of different Toyota models from various model years. The 
reports did not indicate a root cause of the symptoms drivers were 
experiencing. NHTSA reviewed those reports as part of its screening for 
possible defect trends. Before NHTSA had decided whether or not to open 
an investigation, Toyota contacted the agency on January 16 about the 
specific problem it had identified with the CTS pedal. NHTSA told the 
company it needed a full explanation immediately. Toyota met with NHTSA 
on January 19 and demonstrated what it thought to be the mechanical 
problem with the CTS pedals. Based on the information presented by 
Toyota about the nature of the problem and Toyota's experience with it, 
NHTSA told the company it expected very prompt action. Two days later, 
on January 21, Toyota announced the recall, covering some 2.3 million 
vehicles (many of which are also covered by the pedal entrapment recall 
and will receive both remedies). Toyota has had the supplier produce a 
new pedal with a different design that the company believes addresses 
the issue of excessive friction. The company has also devised an 
interim remedy to eliminate the safety risk by altering the pedal while 
new ones are being manufactured. Toyota informed NHTSA that it ceased 
production of new vehicles in the models affected by this recall so 
that it could begin to supply the new pedals being produced for the 
assembly line to dealers for installation in existing vehicles.
    On February 16, NHTSA sent Toyota a Timeliness Query about this 
recall. NHTSA has also begun an investigation to determine whether 
these particular CTS pedals have been installed in vehicles other than 
those recalled by Toyota, including those made by other manufacturers. 
NHTSA will soon receive relevant information from CTS and evaluate it.
Other Instances of Unintended or Excessive Acceleration
    NHTSA receives more than 30,000 complaints from consumers every 
year concerning perceived safety problems with their vehicles. NHTSA 
reviews every complaint promptly and, if it appears to contain any 
evidence related to a safety defect trend, the reviewers begin to track 
that trend for possible investigation. Among those complaints in recent 
years have been many allegations of unintended or excessive 
acceleration on vehicles made by Toyota. Of course, during that same 
period NHTSA has received thousands of complaints containing such 
allegations concerning the vehicles made by most major vehicle 
manufacturers.
    The agency has also received several petitions requesting that 
NHTSA investigate unintended acceleration in various Toyota vehicles. 
When a member of the public petitions NHTSA to investigate a possible 
defect, NHTSA examines all information submitted by the petitioner as 
well as all other information relevant to the particular problem cited 
by the petitioner. Even where NHTSA denies a defect petition, it does 
so only after conducting so thorough an examination of the issue that 
it has effectively done a preliminary investigation. Generally, NHTSA 
will visit the petitioners, interview them about their experiences, 
examine their vehicles and vehicle history, drive the vehicles, and 
search the NHTSA databases for complaints similar to the experiences 
petitioners had. In some situations NHTSA will conduct more extensive 
testing of a vehicle of the same make and model as that of the 
petitioner.
    The information NHTSA has received from consumers concerning 
unintended or excessive acceleration in vehicles can be divided into 
general categories that include: engine surging that lasts only a 
second or two; unintended acceleration from a stopped position or very 
low speed that results in quick movement over a short distance and 
sometimes results in crashing into an object; and events that begin at 
high speeds because the driver intended to accelerate quickly and 
continue for a sustained period of many seconds or minutes beyond what 
the driver intended. The possible causes of these events that NHTSA has 
been able to identify include mechanical problems with the accelerator; 
obstruction of the accelerator by another object; or human error 
(pressing the wrong pedal).
    NHTSA has carefully reviewed all of the information provided by 
Toyota consumers in complaints filed with the agency to try to find 
causes for what they were experiencing. NHTSA also reviews Early 
Warning Reporting information submitted by the manufacturer and other 
sources of information, including insurance company submissions. For 
the high-speed events that last for many seconds or minutes, the only 
cause NHTSA has been able to establish thus far is entrapment of the 
pedal by a floor mat. The only exception to this has may have been a 
recent event in New Jersey that apparently did not involve floor mat 
entrapment but apparently did involve a stuck CTS pedal. Fortunately, 
the driver was able to bring the vehicle under control and drive it to 
a dealership. As discussed, the pedal entrapment issue in the recalled 
vehicles will presumably be resolved by the recall announced in 
October. The problem experienced in New Jersey will presumably be 
addressed by the recall of the CTS pedals announced in January.
    NHTSA does not contend that the two recalls will fully resolve all 
concerns about unintended acceleration in Toyota vehicles. However, 
with one exception, NHTSA has not been able to establish a vehicle-
based cause for unintended acceleration events in Toyota vehicles not 
covered by those two recalls. The exception was a recall of the model 
year 2004 Sienna vans in 2009 due to a defective trim panel that could, 
if loosened during servicing, entrap the accelerator at full throttle. 
That recall also arose from a NHTSA investigation.
    NHTSA initiated a Recall Query on February 16 to ascertain whether 
Toyota has been completely forthcoming with the agency concerning all 
possible defects in its vehicles that may be causing unintended 
acceleration. NHTSA will closely review the documents Toyota submits to 
determine whether the company has additional information not yet shared 
with the agency that may cast light on possible defects that cause the 
problem.
    Some consumers and others believe that Toyota's electronic throttle 
control (ETC) systems, and perhaps such systems in other manufacturers* 
vehicles, are susceptible to inherent design flaws or electro-magnetic 
interference (EMI) that can theoretically cause unintended acceleration 
by resulting in incorrect signals to the engine. These types of 
electronic systems are commonly used by all major vehicle 
manufacturers. To date, we have not identified any particular crash or 
unsafe occurrence that can clearly be attributed to such a flaw or the 
EMI phenomenon in Toyota's vehicles. NHTSA opened an investigation on 
Toyota's ETC system in 2004, focused on short duration events, and 
could not find any safety defects in that system at the time. NHTSA 
looked at short duration events where no brake application was alleged 
in this investigation so as to screen out events that could have been 
caused by driver error, to ensure the agency could find a vehicle-based 
defect if it existed. In 2008, in wrapping up the floor mat 
investigation, NHTSA went on to look for additional possible causes of 
unintended acceleration in the Lexus ES350. That work included some 
limited electronic and magnetic testing but did not reveal a flaw in 
the ETC system. Since 1980, NHTSA has conducted 141 investigations on 
throttle control issues in vehicles made by various manufacturers, some 
of which involved electronic throttles and some the more traditional 
mechanical throttle systems.
    However, to be absolutely sure that the agency is aware of all 
potential defects, NHTSA is conducting a review of the general subject 
of possible design flaws in ETC systems and the possible effects of EMI 
effects on those systems. We have begun by talking to Toyota and other 
major manufacturers about the design of their systems and how, through 
failure modes and effects analysis and other standard techniques, they 
have taken the possible effects of EMI into account in designing those 
systems. We have just recently received information about another 
theory concerning a possible design flaw in the Toyota ETC system. We 
will explore all relevant information in this examination. To be clear, 
this is a review of the technological issues, not a defect 
investigation. However, if any of this activity gives us any reason to 
believe that a defect may exist in Toyota or other vehicles related to 
design flaws in or EMI effects on ETC systems, we will open a defect 
investigation. When we have completed these discussions we will decide 
whether to conduct any additional research projects that might shed 
further light on the effectiveness of manufacturers* safety control 
strategies concerning their ETC systems, including the possible role of 
EMI effects on various electronic.
Other Pending Toyota Investigations
    NHTSA has a total of 44 pending defect investigations concerning 
various manufacturers and a wide range of issues. Of those, five 
concern Toyota. One of the Toyota investigations is the Recall Query on 
sudden acceleration discussed above. Two others have gained wide 
attention and are summarized here.
    NHTSA opened an investigation on February 4, 2010, concerning a 
braking problem on the model year 2010 Prius. The problem involves a 
momentary loss of braking when the vehicle hits a pothole, bump, or 
other uneven surface. NHTSA had received more than 100 complaints about 
the problem, including four alleged crashes involving two injuries. 
Five days after NHTSA opened its investigation, on February 9, Toyota 
announced a recall designed to address this problem. NHTSA will closely 
monitor its implementation. The recall involves over 148,000 vehicles 
sold in this country, including the model year 2010 Prius and the 2010 
Lexus HS250H. While awaiting an appointment to have their vehicles 
remedied, owners who experience any braking problems should immediately 
contact their dealers, and all drivers of these cars should allow extra 
stopping distance until the problem is fixed.
    On February 18, NHTSA opened an investigation concerning 
approximately 487,000 model year 2009 and 2010 Toyota Corolla and 
Matrix vehicles. The issue concerns the steering becoming unresponsive 
or loose at highway speeds. NHTSA had received 168 complaints alleging 
eight crashes (none fatal) at the time this investigation was opened.
    As a final note, I would like to make clear that NHTSA has a very 
aggressive enforcement program that searches constantly for safety 
defects and noncompliance with the Federal Motor Vehicle Safety 
Standards. In just the last 3 years, NHTSA investigations have resulted 
in 524 recalls in which 23.5 million vehicles were recalled so that 
safety problems could be fixed. In addition, several million items of 
motor vehicle equipment (including imported tires, child seats, and 
motorcycle helmets) were recalled to correct safety problems.
    In summary, NHTSA has acted to ensure Toyota recalls on the issues 
related to unintended acceleration on which we have had evidence 
indicating the presence of a vehicle defect, i.e., pedal entrapment and 
sticky accelerators. We stand ready to ensure prompt action on any 
additional defects that we have reason to believe are present.
    Thank you and I look forward to answering your questions.

    The Chairman. Thank you, Mr. Secretary.
    When the American consumers and regulators bring up a 
serious issue, like this sudden acceleration issue, Toyota 
executives in America don't seem to have any authority to take 
any action on their own. It all has to go back to Japan. Now, 
that may be a matter of corporate culture, Japanese culture, 
I'm not sure, but it's the fact. And it was pretty obvious in 
the House hearing last week, where the president and CEO of 
Toyota North America, Mr. Jim Lentz, said he didn't have the 
power to order recalls in the United States, only Japan did. In 
fact, he told the Committee that, inside Toyota, information--
quote, ``Information only goes one way.''
    This seems to have been a problem in NHTSA's safety 
investigations, too. Toyota has not been responsive to their 
inquiries, and it doesn't seem to take consumer protection, as 
a mission for NHTSA, seriously. That is our impression in 
talking with your people. In fact, Secretary LaHood, last week 
you yourself testified that Toyota was safety deaf and didn't 
respond to your concerns until you personally called Mr. Toyoda 
in Japan. And that, I assume, is correct.
    Secretary LaHood. Yes, that is correct.
    The Chairman. And it's also true that Mr. Ronald Medford, 
as you said, was Acting Administrator at the time, had to get 
on an airplane and fly all the way to Japan, with some others, 
to try to get Toyota to take these issues seriously. To get 
them to take it seriously. In my opinion, there needs to be 
someone here in the United States who can be held responsible 
when American consumers are injured or killed due to safety 
problems in Toyota vehicles. Do you agree with that?
    Secretary LaHood. Yes, sir.
    The Chairman. I understand that Toyota is now saying 
they're going to review their corporate structure and make 
changes that give their divisions more authority. Do you think 
this type of change will be helpful and will cause what we just 
talked about to happen?
    Secretary LaHood. I think it's an absolute imperative that 
they do that, Mr. Chairman.
    The Chairman. NHTSA officials recently described to me how 
another Japanese automobile company, Nissan, authorizes 
recalls. And I'm wondering if this is a model.
    Nissan has a three-person group that makes the final 
decision about recalls in the United States, and one of the 
three persons is always a U.S.-based safety executive. 
Secretary LaHood, I think this type of decisionmaking structure 
might help a foreign company be more responsive to safety 
issues in the United States. What do you think, sir?
    Secretary LaHood. I agree with you.
    The Chairman. Mr. Secretary, more than 2,000 American 
consumers have told your agency, NHTSA, that they are 
experiencing sudden unintended accelerations in their Toyota 
and Lexus vehicles, a terrifying experience. And they have 
reported property damage, inquiries, at least 34 deaths caused 
by sudden acceleration. That's correct, is it?
    Secretary LaHood. Yes, sir.
    The Chairman. And if we're being honest here today, we 
still don't totally understand why this is happening. Over the 
last few years, Toyota has offered several different 
explanations. First they said it was the floor mats. And more 
recently they have blamed it on sticky accelerator pedals. And 
it seems to me that, until very recently, NHTSA basically 
accepted these explanations. But, here's the problem. There are 
still many cases where Toyotas have suddenly discovered an 
acceleration--drivers have accelerated very rapidly, and the 
recalled mats and pedals were not involved. So, we know there's 
a problem, and we still don't know what's causing the problem.
    But, there does seem to be a fairly easy way to give 
drivers the ability to regain control of the vehicles during a 
sudden acceleration episode, and that's called ``brake override 
system.'' It trumps. It means the brake always beats the 
accelerator. You can have the accelerator on, you could be 
driving forward, but the brake stops it cold.
    Secretary LaHood, this brake override safety feature would 
help Toyota driver controllers--control their vehicles during a 
sudden acceleration episode, would it not?
    Secretary LaHood. Yes, it would.
    The Chairman. And my understanding is that, while Toyota 
has just decided to add this feature to its new vehicles, other 
cars and other car manufacturers adopted this safety feature 
years ago. Isn't that correct?
    Secretary LaHood. Yes.
    The Chairman. And it's also my understanding that there are 
a lot of older Toyotas, where the computer design might have 
been a little bit more simple, or harder, from Toyota's point 
of view, that are not being given this brake override system. 
Is that correct?
    Secretary LaHood. Well, Mr. Lentz testified that they were 
going to try and install this brake override system in as many 
cars as they can. I don't know if it reflects the ones that 
you're mentioning here, Mr. Chairman.
    The Chairman. Well, it would have to reflect the early 
ones. I mean, they said that--during the Olympics----
    Secretary LaHood. It sounded like it was going be in as 
many cars as they possibly could do.
    The Chairman. Well, then the question is, Does it need to 
be all of them? And I think it is.
    And my understanding is, that brake override feature is not 
a costly mechanical fix. It's instructions that you program 
into a car's computer. Is that not correct?
    Secretary LaHood. Yes.
    The Chairman. So, why doesn't the government make Toyota 
install this feature in vehicles? And why didn't it do it years 
ago? Couldn't it have prevented some of the crashes and 
injuries that Toyota drivers have been reporting to NHTSA over 
the past few years? And why don't we require every manufacturer 
selling cars in the United States to install this safety 
features, in that it doesn't only affect Toyota cars?
    Secretary LaHood. As a part of our investigation and 
review, we are looking at the possibility of recommending the 
brake override system in all manufactured automobiles.
    The Chairman. Mr. Secretary, my time has run out. And I 
call now upon the Ranking Member of Mark Udall's committee, 
Senator Wicker.
    Oh, he's gone. All right, then, order of questions will be 
by arrival, so Senator Udall?
    Senator Udall. Thank you, Chairman Rockefeller.
    I'm wondering, with the chart that was published today in 
the New York Times--here you have--and I know you all can't see 
this, but I'm just going to describe it here for a second. In 
2004, you have this huge spike in what are being reported as 
crashes and complaints; 126 Toyota drivers experienced a crash 
and later filed a complaint. All other auto companies are on 
this chart, and they were either flat or going down, in terms 
of the same kinds of complaint. So, you had this spike in 2004. 
It took us 5 years to actually do something significant in this 
case. And you had another spike in 2007, and then here you can 
see this very, very dramatic spike in 2009.
    So, my question to both Secretary LaHood and to 
Administrator Strickland is, When you look at this problem--
and, Secretary LaHood, you have some independence from this, 
because you've come in, and you're new to this, and you--when 
you look at this, and you mentioned, in your testimony, all of 
these complaints that come in--it seems to me you should have 
something in your database that, when you get a big spike like 
this--I mean, this just stands out--that it alerts people 
there's something wrong here, there's something going on, and 
immediately an activity is started that would have gotten to 
the bottom of this a lot sooner.
    And, Mr. Strickland, let me ask you--there's one big 
watchdog out there, and that's NHTSA, and you're the 
Administrator. The other watchdog is this committee, the 
Commerce Committee. And you served many years in the Commerce 
Committee. So, all of your experience, going back, what do you 
see? What was the thing that happened here that we need to get 
to the bottom of to make sure that this doesn't ever happen 
again?
    Please.
    Secretary LaHood. Well, Senator, first of all, let me just 
say, we've contacted the New York Times. That article is 
inaccurate. The story did not mention that NHTSA opened two 
investigations into pre-2007 Camry models and found no safety 
defects; pre-2007 Camrys also had different floor pans and 
pedal design. My point is that they claim, now, they're going 
to post on their website the accurate information, which they 
left out of the story, which is very unfortunate, because, you 
know, people read these things and then they believe what they 
read.
    But, we did take seriously and did extensive reviews on the 
complaints. We interviewed owners and we looked at these model 
vehicles, and----
    Senator Udall. Secretary LaHood, do you dispute, in the New 
York Times article, that--they do the analysis of complaints. 
They say, ``Reveals that Toyota had more complaints involving 
crashes than any other carmaker.'' I mean, that's----
    Secretary LaHood. Well, I'll let our Administrator comment. 
But, I want you to know, the story was not accurate when it 
reflected that we didn't have investigations. We opened two 
investigations, as a matter of fact, and the reporter claims 
he's going to post it on his Website. What good that does, I'm 
not sure. But----
    Senator Udall. I look forward to seeing that----
    [Laughter.]
    Senator Udall.--because this chart is pretty doggone 
revealing, in terms of the spikes and then how long it took to 
get actual action. Please, go ahead, Mr. Administrator.
    Mr. Strickland. No, Mr. Udall, I think, actually, that 
article actually reflects the experiences that NHTSA 
investigators had during that time. Since 2000, there have been 
10 open investigations dealing with Toyota issues of sudden 
acceleration. Our early warning data and our complaint database 
actually triggered the right reaction from our investigators, 
and we took a look into these things.
    The question is whether or not Toyota had an atypical 
experience during this period. My understanding, as well, while 
there was a marked increase, I think if you look at the entire 
market size and fleet size of Toyota, they have the largest 
fleet during that time period, as well. If you look at it on a 
per-capita basis, I think our investigations and the data show 
that, while they had more sudden acceleration incidents, their 
actual comparison to the rest of the fleet was actually 
unremarkable. They had the same percentage of sudden 
acceleration issues as other manufacturers. They just had more 
of them because they have more cars.
    But, in terms of NHTSA's reaction, it was absolutely 
appropriate during that period. We saw a difference in the data 
coming in. The early warning data came in differently, the 
complaints came up, and we opened investigations.
    Senator Udall. My time's up, or, almost up.
    Chairman Rockefeller, I just want to say to you, you have 
taken this committee in the consumer protection area a number 
of times in your short tenure as our chairman. And so, I 
applaud you doing this, and I hope that you continue to do 
this, because I think the American public knows, when they see 
these kinds of articles, that there are big consumer protection 
issues out there. And I look forward to staying involved with 
you in the oversight of those issues.
    Thank you very much.
    The Chairman. Thank you. Thank you, Senator Udall, very 
much.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    This afternoon, we're going to hear from Toyota, but this 
morning is about the agency.
    And, Mr. Secretary, you and all of us on this dais are 
temporary occupants of these seats, and others will take these 
seats at some point in the future. And I want to ask about the 
agency--not who's sitting in the seat at the moment--the 
agency, and the credibility of the agency, because I think it's 
important.
    My understanding is that NHTSA has a budget of about $145 
million, compared to $875 million for security for the embassy 
in Iraq. The security for one embassy in one country exceeds, 
by multiples, the amount of money we spend in NHTSA evaluating 
safety and related issues.
    Now, I have a sheet here. And I want to refer to something 
that Senator Boxer said, because I want to ask whether you have 
investigated this. You just responded to Senator Udall by 
saying that investigations had been made and no evidence was 
found. And I have that list. July 2003, an investigation 
opened, no data to support; 2004, no data to support further 
investigation; 2005 no data to support further investigation; 
2006, no data to support further investigation.
    Senator Boxer, in her opening statement, described 
something that made me wonder about this ``no data'' and 
further investigation on this issue. CBS did an investigation, 
and said that the person at NHTSA--Mr. Santucci--whose job was 
to conduct defects investigation, he negotiated a job with 
Toyota, and then went to work with Toyota--apparently 
negotiated while he was at NHTSA, went to work with Toyota 
immediately thereafter. And it says, ``Toyota records show the 
two helped negotiated with their former NHTSA colleagues to 
limit probes in Toyotas surging out of control.'' He, when 
asked about it by CBS, says he didn't agree that he negotiated, 
but apparently the internal documents at Toyota obtained by CBS 
used the term ``negotiated.''
    So, here's the question. If someone left NHTSA to go to 
work for the company, and they are limited, then, the 
investigations, which then results in looking at these 
investigations, and it says, ``no data to support further 
investigation,'' have you gone back and investigated inside the 
agency what has happened here? And is this a case where, for 
several years, the agency was confronted with information 
suggesting--I mean, knowing that fatalities were occurring, and 
they did investigate, and then, ``no data to support,'' the 
investigation is closed--one, two, three, four times? Have you 
done an internal investigation to find out whether this agency 
has done what it should have done on behalf of the American 
people?
    Secretary LaHood. Yes, sir. We went back and looked at 
those two employees. And the law says that they can go to work 
for a company, but they cannot represent themselves back to the 
Department on issues that they were responsible for. And 
everything that we can tell at this point is, they did work for 
Toyota, and they did talk to people at DOT, but not in an area 
where they were responsible. So, we've looked at that. And some 
people believe that, you know, it's not accurate, and so----
    Senator Dorgan. You're saying it's just appearance?
    Secretary LaHood. I'm saying that from our review of it, it 
does not appear that they were engaged in activities that they 
were prohibited by law from engaging in.
    Now, I also said to another committee, Senator Dorgan, that 
I think this law needs to be tightened up. I do. Look, I work 
for an administration that has set the highest ethical 
standards for its people, and I think this needs to be 
tightened up. But, we found no violation for these two 
employees.
    Senator Dorgan. All right. Aside from this issue that 
Senator Boxer raised in her opening statement, aside from this, 
if you take a look at the question of when information was 
given to NHTSA and then investigations begun, no data, no data, 
no data; finally, down the road here, it says, ``recall of 
55,000 vehicles because of floor mats.'' And then, you come 
down further, again and again and again and again. Meanwhile, 
some people are dying. And it seems to me, as Senator Udall 
just seemed to suggest, I'm not sure anybody understands yet 
what is the problem. It's just----
    Secretary LaHood. Well, we know there are----
    Senator Dorgan. Do you understand what the problem is with 
the----
    Secretary LaHood. Yes, sir. I mean, we know, from our 
investigations, that the floor mat is a problem, and that's why 
these cars are up for recall. We know that the sticky pedal is 
a problem. We also believe, based on what people have told us, 
that perhaps the electronics could be the problem, too, and 
we're going to do a review of that.
    Senator Dorgan. But, isn't it evident that, if the floor 
mats are in the trunk because the manufacturer said you ought 
to put the floor mats in the trunk, and you have sudden 
acceleration surges with the floor mats in the trunk, there's 
something else going on?
    Secretary LaHood. Yes, sir. That's why we're looking into 
the electronics. But, the floor mats are a problem, Senator. 
And the sticky pedal is a problem. Could there be another 
problem? Some people believe there is, and it's our obligation 
to check it out.
    Senator Dorgan. But, Senator Rockefeller asked the 
important question, as well. If the brakes won't override the 
accelerator, and you've moved the accelerator to an electronic 
accelerator, and the brakes don't override, why is the recall 
not requiring to have that fixed on the vehicles? Because it 
seems to me that's the only way you're going to prevent future 
fatalities.
    Secretary LaHood. Well, we agree with the idea that there 
are enough people who believe that the electronics are a 
problem, and that we are going to do a complete review of that.
    Senator Dorgan. All right.
    Well, Mr. Chairman----
    Again, this didn't happen on your watch, I understand that. 
You're having to respond to it in an aggressive way. But, I 
think there are real credibility problems. Senator Udall asked 
those questions about the New York Times, CBS and others. I 
think they've raised questions that raise questions of 
credibility of NHTSA, going back. And I know that what you want 
to do is fix all of that and run an agency that people can be 
proud of and in which people can have some trust.
    Secretary LaHood. Senator, on my watch, when people think 
there's a problem, we're going to address it. We're not going 
to take a back seat to anybody when it comes to safety. You 
look at my 13 months in office. Everything that I've talked 
about, lived, and breathed at DOT has to do with safety. It's 
just what we have to do. It's what people expect of us. And 
when people say there's an electronics problem, I'm going to 
pay attention to that.
    And we are paying attention to it now.
    The Chairman. Thank you, Senator Dorgan.
    Senator Snowe, to be followed by Senator Wicker, because 
you're ranking to Senator Pryor.
    Senator Snowe. Thank you, Mr. Chairman.
    Mr. Secretary, I know you are looking at it now. But, the 
point is, we set in place legislation, that became law years 
ago--as a result of the Firestone tire recall issue--putting in 
place the investigative authority that's so essential for NHTSA 
to do its job.
    And I don't know on what basis you could rule out 
electronics. I know that we're all urging it to be looked at. 
It's not about us urging it. It's the fact that you can't rule 
it out, because you don't know. That's the point here. I mean, 
even Toyota doesn't know, at least based on their public 
statements last week that were, as I said earlier, conflicting, 
both with Mr. Lentz and Mr. Toyoda. One said he couldn't rule 
it out, and one said they're absolutely confident. So, how do 
we know?
    And if you look back at prior investigations, I'd be 
interested to know--because you have to look at those 
investigations to find out exactly what went wrong. State Farm 
said there was a trend in acceleration. Six people died that 
year, in 2004. So, did NHTSA look at it as a trend? What did 
they do? Did they base it on the information they got from 
Toyota? Did we subscribe to Toyota's explanation of what went 
wrong in 2004 and in 2007?
    Secretary LaHood. Well, Senator, our Administrator had sent 
a letter asking for all of the possible information that we can 
gather from Toyota to make sure that they gave us everything 
they were supposed to give us to begin with. And so, that 
request has been made.
    I agree with you, we need to look back and make sure we had 
everything. Based on what we had at the time, we felt that the 
remedies that we were recommending were the right remedies. 
But, when we look back and find that there's additional 
information, we may--obviously have reached a different 
conclusion.
    Senator Snowe. Well, as I understand it, NHTSA never used 
its subpoena authority. So, did----
    Secretary LaHood. We----
    Senator Snowe.--they get all the proprietary data from 
Toyota to make a decision, in terms of what the problem was? 
The point is, we don't know. You can't conclude, one way or the 
other.
    Secretary LaHood. I can----
    Senator Snowe. That's the point.
    Secretary LaHood. I can't conclude that we received 
everything--until we receive the request that we just sent to 
Toyota.
    Senator Snowe. But, these previous investigations, in 2004 
and 2007, were they reliant on Toyota's explanation and the 
partial information they submitted----
    Secretary LaHood. What we have to rely on, Senator, are 
complaints we get from people, what information we get from the 
industry, what information we get from the car manufacturer.
    Senator Snowe. Well, but an independent investigation 
didn't occur--is that correct?--with respect to----
    Secretary LaHood. Well, our people do these investigations, 
we have----
    Senator Snowe. You have an independent----
    Secretary LaHood.--experts on our staff that do that.
    Senator Snowe. We have been told that you don't have 
computer software experts. The question is, on the issue, and 
looking at it in totality, was it independently verified? 
That's the issue here. You know, State Farm, the Nation's 
largest auto insurer, comes to NHTSA, as they had already done 
that with Firestone--this wasn't, you know, many years later; 
it was on the heels of Firestone. So, we've got to find out 
what went wrong. We don't want to be sitting here with a future 
Secretary saying, ``Well, you know, we're going to look at it 
now.'' We have got to know. NHTSA didn't----
    Secretary LaHood. We agree with you.
    Senator Snowe.--come forward with resources. They've got 
unobligated appropriations, funds that were never used. Isn't 
there a way of solving this? We have got to know. It's got to 
be independently verified. Yes, you want the information from 
Toyota, and I'm not clear that we got all the information from 
Toyota.
    Secretary LaHood. I'm not clear we did, either. That's why 
we've made a huge, huge voluminous request for a lot of 
information from----
    Senator Snowe. So, on what basis did NHTSA make the 
decisions, back in 2004, when it concluded its investigation 
after 4 months, and then after 7 months, in 2007? Whose 
information did they use to make that decision?
    Secretary LaHood. The information that we received from the 
car manufacturer, from complaints that we had from consumers, 
and our expert people looked at all of that.
    Senator Snowe. Well, was it a pre-negotiated recall, in 
2007? I mean, on the floor mats.
    Secretary LaHood. The way it works, Senator, is, we look at 
all the information, we make a judgment call if a recall needs 
to be made, and then the manufacturer decides if they want to 
do it. If they don't, then we require them to do it.
    Senator Snowe. Well, how does NHTSA regard the information 
that comes from insurance companies like State Farm? I mean, so 
how do they look at that----
    Secretary LaHood. We work closely with all insurance 
companies, and we regard their information as very valuable.
    Senator Snowe. Well, it's just amazing to me that there's 
no continuity. This is a matter of life and death. That's what 
I don't understand. I mean, this came on the heels of 
Firestone. And obviously that memory was not ensconced in NHTSA 
at the time. This tire recall issue. And then you have these 
deaths. I mean, if you look at the years in which these deaths 
occurred, at least in the--submitted to NHTSA--they occurred--
in 2004 there were 6 deaths, and in 2007 there were 7 deaths 
attributed to unintended acceleration. And I don't see that 
NHTSA did any of the work necessary to have satisfied an 
independent analysis, doing everything--moving heaven and 
earth--to get to the bottom of this. That's what's 
disconcerting here. Yes, we're looking at it now, but where 
were you then? And we'd better learn exactly what happened then 
to understand how this doesn't repeat itself.
    Secretary LaHood. Well----
    Senator Snowe. Because NHTSA didn't come forward and ask 
for all these resources to do a very aggressive investigation.
    Secretary LaHood. Well, Senator, on my watch, I guarantee 
you, it'll be done thoroughly, it'll be done as independently 
as possible, with every piece of information we can get. We 
will not rest until these cars are safe.
    Senator Snowe. May I ask one other question? Is it unusual 
for NHTSA officials to go to Japan? Is this----
    Secretary LaHood. Yes.
    Senator Snowe. Was this the first time? So----
    Secretary LaHood. Yes.
    Senator Snowe.--it was unusual.
    Secretary LaHood. Absolutely. I have said, to two other 
committees, I believe the Toyota business model is broken. I 
told Mr. Toyoda that. When they have good, expert people, 
professional people in North America making recommendations, 
and then they don't listen to them, their business model is 
broken. I think Mr. Toyoda got that message, not only from me, 
but from others. And I think you'll see some changes in the way 
they do business.
    Senator Snowe. Thank you.
    The Chairman. I'm also told that Mr. Medford and his team 
that went over there were treated rather dismissively, and 
actually they used stronger language than that. So, these are 
not common occurrences.
    Senator Wicker, I call on you because you have been chosen 
by your----
    Senator Wicker. Well, thank you----
    The Chairman.--party to--because Kay Bailey Hutchison isn't 
here. I need to explain that to keep my Democrats from killing 
me.
    [Laughter.]
    Senator Wicker. Thank you very much, and I'm mindful that 
Senator Boxer is under a tight schedule, and I promise to be 
brief.
    Let me ask you, Mr. Secretary, about these two studies: the 
Exponent study, commissioned in 2009 by Toyota, and the study 
done by Professor Gilbert of Southern Illinois University.
    As I understand it, Exponent is an organization that is 
widely known in this field, concerning analyses of defects, and 
that, as a matter of fact, NHTSA has used them in the past. 
They conducted an analysis of the electronic throttle system. 
These tests are ongoing, but Toyota received an interim report 
confirming Toyota's contention that the unintended acceleration 
events cannot be caused by the ETC system, because there are 
fail-safes that would prevent it.
    I want to ask your opinion about that study as compared to 
the Gilbert study. This study was commissioned by persons who 
are interested in bringing a lawsuit with regard to these 
accidents. And Professor Gilbert determined that the system did 
not properly detect electronic malfunctions. He was able to 
induce unintended acceleration in a Toyota that did not trigger 
the fail-safe mode.
    Toyota, on the other hand, has contended that, in his test, 
he manipulated the system in a way that cannot ever occur under 
driving conditions.
    So, I'd just like to ask, at this point, realizing that 
there are analyses ongoing, if you have some advice to the 
Committee or an opinion for us about these contrasting studies.
    Secretary LaHood. What we have said, Senator Wicker, is 
that we're going to look at the studies that were done by the 
professor at Southern Illinois University in Carbondale, and by 
the organization that was hired by Toyota. There was a woman, 
who testified at the Commerce Committee in the House, whose 
Toyota experienced acceleration--unexplained acceleration. We 
have purchased that vehicle, and we're going to examine it.
    What we're going to do is a thorough review of studies that 
have been done by the professor at SIU, by other groups. We're 
going to do our own study. We're going to do a review. We're 
going to look at the automobile that had unexplained 
acceleration, and try and figure out if electronics were a part 
of this.
    Senator Wicker. So, at this point, you don't feel 
comfortable giving us a preliminary criticism or opinion as to 
either one of these----
    Secretary LaHood. No sir, not at all.
    Senator Wicker. And the study done by your Department will 
be a completely separate and exhaustive----
    Secretary LaHood. Absolutely. Looking at data and the 
studies that have been done, looking at the car that had 
acceleration which was unexplained, and trying to figure out if 
the electronics are a problem.
    Senator Wicker. Can you tell us, at this point, what you 
know about this firm, Exponent, and their----
    Secretary LaHood. All I know about it, Senator Wicker, is 
what I heard at the hearing. We're going to get a copy of their 
reports and look at them.
    Senator Wicker. I would appreciate it if you would get back 
to the Committee, on the record, and tell us whether, in fact, 
the Department and NHTSA have used Exponent----
    Mr. Strickland. Yes. On different occasions throughout the 
years, actually, Exponent had a different name, but NHTSA has 
used it before.
    In terms of this particular report, sir, we are reviewing 
that report ongoing, and Dr. Gilbert's. It will be involved in 
our work, but there's also going to be a significant piece of 
work that's going to be independent, where we're going to 
basically pool experts from around the country, from various 
aspects, from academia and manufacturing, for, sort of like, a 
National Academy of Sciences panel.
    Senator Wicker. I understand.
    Mr. Strickland. But, in terms of that work--Exponent's work 
or Dr. Gilbert's work, we're examining it right now.
    Senator Wicker. If you could supply, on the record, the 
number of times that your agency has actually used and relied 
upon Exponent or its predecessor.
    [The information referred to follows:]

    On September 26, 2001, NHTSA awarded a delivery order type contract 
to Failure Analysis Associates (Exponent's predecessor) for 
``Compliance Tests for FMVSS No. 201, Occupant Protection Interior 
Impact.'' NHTSA placed four orders during the period of performance of 
this contract (September 26, 2001 to September 27, 2007).

    Senator Wicker. And then, just briefly, Mr. Secretary, you 
stated last week that it would be beneficial for NHTSA to 
receive additional information from manufacturers in foreign 
countries. Specifically, what types of information do you not 
currently receive that would be beneficial?
    Secretary LaHood. Well, we receive information, and 
certainly we receive information on complaints. But, why don't 
I, for the record, tell you specifically what we receive, and 
the areas where I think we're deficient?
    [The information referred to follows:]

    The Early Warning Reporting (EWR) regulation established pursuant 
to the TREAD Act requires all vehicle manufacturers and equipment 
manufacturers (including tires and child restraints) to report 
information based on notices and claims of deaths occurring in a 
foreign country if the vehicle involved is identical or substantially 
similar to a vehicle sold or offered for sale in the U.S.
    Manufacturers must also report information on safety recalls and 
other safety campaigns in a foreign country on a motor vehicle or item 
of equipment that is identical or substantially similar to a vehicle or 
item of equipment sold or offered for sale in the U.S. The following 
are exceptions for reporting foreign recall or safety campaigns:

  <bullet> The manufacturer is conducting a safety recall or safety 
        campaign on a vehicle for which an identical or substantially 
        similar vehicle is not sold in the U.S.;

  <bullet> The component or system that gave rise to the foreign recall 
        or other campaign does not perform the same function as the 
        substantially similar component or system in the U.S.;

  <bullet> The subject of the foreign recall or other campaign is a 
        label affixed to the vehicle, item of equipment or a tire.

    Manufacturers are required to submit a list of identical or 
substantially similar vehicles annually so that the agency can use this 
information to identify potential defects in vehicles sold or offered 
for sale in the U.S. Currently, manufacturers are not required to 
submit this list electronically. The agency is reviewing whether 
manufacturers should submit this list electronically to provide quicker 
access and review of the substantially similar vehicle lists.
    At this time, the agency believes the information reported by 
manufacturers for foreign deaths and foreign safety campaigns along 
with the consumer complaints and other EWR information reported to 
NHTSA is adequate to identify potential safety defects in the affected 
vehicles in the U.S. However, the agency continues to review the 
reporting requirements to determine whether additional requirements or 
improvements are necessary to identify potential safety concerns more 
effectively and efficiently and intends to implement those changes as 
necessary.

    Senator Wicker. OK. I appreciate that. Because I know that, 
in past instances, previous leadership in NHTSA has said, 
``Don't inundate us with a huge mountain of raw data. It has to 
be distilled before it reaches us, or it's going to actually be 
counterproductive and bog down the system.''
    So, thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Wicker.
    Senator Boxer.
    Senator Boxer. Thank you. I'm trying to connect some of the 
dots here, in this puzzle that we're trying to put together, as 
to who knew what, what happened, why did it happen. And I know 
you're very involved in this, in helping. And I don't, frankly, 
hold you responsible for what happened in 2004 or 2007. I'm 
going to talk to you about going forward.
    Now, when we look at an ethics rule, or any law, there's a 
letter of the law, and there's the spirit of the law. And you 
may be totally right that this fellow, Santucci, who left 
NHTSA, went right to work for Toyota, and he--according to the 
CBS News story--convinced NHTSA--he was part of the team who 
convinced NHTSA to focus only on the brief-burst acceleration, 
ruling out the long-duration events that have allegedly led to 
accidents and deaths. And he, himself, admitted--Mr. Santucci--
``You used the word 'negotiate,' we discussed the scope.'' So, 
he was involved.
    Now, if you looked at the letter of the law, maybe he never 
worked on sudden-burst acceleration, maybe he worked on 
something else. Maybe he worked on safety belts or airbags. The 
fact is, the spirit of the law, in my view, was broken. And I 
agree with Joan Claybrook's comments to CBS, where she points 
this out as a critical moment in time. It's cozy, cozy, cozy. 
And it doesn't just happen here. It happens in a lot of places.
    So, I want to ask you, because--I really applaud Senators 
Rockefeller and Pryor; they have written a letter to the 
Inspector General, and I ask unanimous consent to put that 
letter in the record.
    The Chairman. So ordered.
    [The information referred to follows:]

        Committee on Commerce, Science, and Transportation,
                                       U.S. Senate, Washington, DC.

Hon. Calvin L. Scovell III,
Inspector General,
Office of the Inspector General,
U.S. Department of Transportation,
Washington, DC.

Dear Inspector General Scovell:

    It is our understanding that the Office of Inspector General for 
the Department of Transportation has initiated an audit of the National 
Highway Traffic Safety Administration (NHTSA) and its role in the 
recent wave of recalls issued by Toyota Motor Company. The Commerce 
Committee has undertaken its own inquiry into this matter, including a 
review of documents provided by NHTSA and Toyota, and plans to hold a 
hearing on the recalls. We appreciate your office starting a separate 
audit. To make sure your review is comprehensive, we ask that the 
investigation be expanded to encompass the points raised in this 
letter. We further request that your office keep us apprised of the 
progress of this investigation.
    NHTSA is charged by law with the mission to save lives, prevent 
injuries and reduce economic costs due to road traffic crashes, through 
education, research, safety standards and enforcement activity. We are 
concerned by recent news reports that may lead the public to believe 
that NHTSA employees and leadership in recent years have not lived up 
to this mission. These recent reports indicate that NHTSA may have 
internal deficiencies in investigating certain safety defects, and even 
worse, the potential to be excessively influenced by the industry they 
are supposed to oversee on the public's behalf. We expect your 
investigation to expose such systemic and leadership deficiencies, 
should they exist, past or present.
    In this regard, we ask that your investigation include a full 
review of NHTSA's ongoing and past actions related to the recent 
recalls announced by Toyota Motor Company. We also ask that you review 
NHTSA's actions related to the issue of sudden unintended acceleration 
and brake failure in all automobiles containing electronic throttle and 
braking control systems. This review should determine whether NHTSA 
carried a bias against regulating non-mechanical vehicle components, 
had been excessively influenced by automobile manufacturers in 
regulating electronic control mechanisms, and/or lacked the resources 
to adequately investigate electronic control mechanisms.
    As part of this review, we believe the American public should know 
when the agency received related consumer complaint data, what 
information was contained in the data, how NHTSA processed the 
collected data, whether NHTSA followed established consumer protection 
procedures and requirements of the agency under law, and what more 
could have been done or can be done to protect consumers. The public 
also deserves answers to news reports that have raised concerns about 
the so-called revolving door of employees between the agency and the 
industry it is supposed to oversee.
    Therefore, as part of your investigation, we ask that you review 
the following specific matters related to NHTSA:

  Industry-wide complaints regarding sudden unintended acceleration and 
    brake failure in automobiles containing electronic throttle and 
    braking control systems:

    <bullet> The nature and number of complaints or reports collected 
            by NHSTA

    <bullet> When such complaints or reports were received (number by 
            year)

    <bullet> How such complaints were registered in NHTSA's database

    <bullet> NHTSA's collection of similar reports from foreign 
            countries

  Compliance with the Transportation Recall Enhancement, 
    Accountability, and Documentation (TREAD) Act and other NHTSA 
    reporting requirements:

    <bullet> The process by which manufacturers reported data related 
            to unintended acceleration and brake failure

    <bullet> How NHTSA categorized, processed, and investigated 
            reported data and defect petitions related to unintended 
            acceleration and brake failure

    <bullet> Actions taken by NHTSA related to received reports of 
            unintended acceleration and brake failure

    <bullet> Actions taken by manufacturers to address recommendations 
            from NHTSA
  Government Ethics at NHTSA:

    <bullet> Whether NHTSA officials excluded relevant data from its 
            investigations and reports

    <bullet> Whether NHTSA officials ignored internal data in favor of 
            data provided by automobile manufacturers

    <bullet> Whether NHTSA inaccurately categorized reported data in 
            its database

    <bullet> Whether former NHTSA officials employed or under contract 
            by automobile manufacturers are in positions to exert 
            influence on NHTSA decisions regarding investigations

    We realize that completing this review may take a number of months, 
and as such, request that your office provide us with regular updates. 
Furthermore, please be advised that the Senate Committee on Commerce, 
Science, and Transportation, may further request testimony and 
preliminary reports from you in the coming weeks.
            Sincerely,

John D. Rockefeller IV,
Chairman,
Senate Committee on Commerce, Science, and Transportation.
Mark L. Pryor,
Chairman,
Subcommittee on Consumer Protection, Product Safety, and Insurance.

    Senator Boxer. And one of the issues they raise is this 
issue. Going forward, without waiting for the IG--because it 
just seems to me, on its face--remember, the outcome of this 
was applauded by Toyota, who put, in their own document--and I 
have--I ask unanimous consent to place it in the record; I have 
it here somewhere--their own document that bragged about the 
fact that they saved so much money on this.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Boxer. And this is the car that killed my 
constituent. This is the car that spun out of control, and that 
highway patrolman, Mark Saylor, and his wife, died, because, I 
believe there was pressure put on NHTSA from people who had a 
too cozy relationship. I think it's part of the problem.
    Now, could I prove it? Maybe, if I had a lot of time, I 
could. But, it doesn't look good. It smells bad, and it's not 
right, and they applauded their victories.
    Here it is, ``Wins for Toyota.'' Look at this. This is 
their presentation. It says, ``Wins for Toyota Safety Group.'' 
EM--FMVSS 110, NCIR, labeled--labeling recall. No civil 
penalties, saved $20 million in buybacks.''
    And here's the one, ``Negotiated equipment recall on Lexus 
ES''--that's the car that killed Officer Saylor and his 
family--``Saved $100 million, with no defect found.''
    This is an outrage. And so, would you work with us now on 
tightening up this law. Will you work with us----
    Secretary LaHood. Absolutely.
    Senator Boxer. I think that's very, very key.
    Now, as I understand it, Toyota is now installing a brake 
override technology. Imagine all of us--probably almost all of 
us here drive. You're driving your car, and you step on the 
brake, and nothing happens. The car goes faster and faster and 
faster. So, Toyota is installing a brake override technology as 
a fix for seven existing vehicles. Do you think we should 
mandate the use of brake override technology in all new 
vehicles? Should the brake override technology be installed on 
more vehicles, not just those seven models?
    Secretary LaHood. We are looking at that, Senator, and 
particularly given the fact that Mr. Lentz has said that they 
will put those in all of the Toyota cars that they can in 
America. We're looking at it. We think it is a good safety 
device, and we're trying to figure out if we should be 
recommending that.
    Senator Boxer. OK. My last question.
    The 2006 Camry model is not on Toyota's current recall 
list. Why are there models, such as the 2006 Camry, which have 
been involved in deadly sudden-acceleration accidents, not 
included on their current list of recalls?
    Secretary LaHood. Yes. I'll get back to you, on the record, 
if I can, Senator.
    [The information referred to follows:]

    Toyota is conducting three recalls to address unintended 
acceleration in its vehicles. Two of these (09V-388 and 10V-023) 
correct problems with the accelerator pedal and floor pan designs that 
can increase the risk of the accelerator pedal becoming trapped by an 
improperly installed or inappropriate floor mat. The third recall (10V-
017) addresses a defect condition in an internal friction lever of an 
accelerator pedal assembly supplied by CTS Corporation. The 2006 Camry 
vehicles are not included in these recalls because they do not contain 
the defect conditions identified in these recalls. We are currently 
reexamining unintended acceleration incidents involving the 2006 Camry 
and other Toyota vehicles to determine if there are other defects 
causing unintended acceleration.

    Senator Boxer. OK. Because I don't think their recall list 
is comprehensive enough, just from what I'm reading. But, I'm 
going to turn to you, because I do trust your judgment on this.
    Thank you----
    Secretary LaHood. Thank you.
    Senator Boxer.--very much, Mr. Chairman.
    The Chairman. Thank you, Senator Boxer.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much.
    I'm just going to go through a series of potential 
solutions here, because I also don't want to go back over the 
past. The way I look at it, six times investigations were 
opened, six times closed without action. Thirty-four people 
died. I think we can do better.
    So, the first would be this resource issue. In 1980, there 
were 119 people who worked for NHTSA in enforcement. Today 
there are 57. Yet, in 30 years since 1980, we've seen nearly 
double the amount of cars on the road, from 146 million 
vehicles in 1980 to 256 million vehicles today. Has this 
diminished staffing level made a difference? Do you think we 
should improve it?
    Secretary LaHood. The President recommended 66 new 
positions for NHTSA in the 2011 budget. We applaud the 
President for recognizing we need more resources.
    Senator Klobuchar. So, do you think that would be helpful 
here? Because----
    Secretary LaHood. Absolutely.
    Senator Klobuchar.--I know we're going to hear from----
    Secretary LaHood. More resources----
    Senator Klobuchar.--someone this afternoon----
    Secretary LaHood. Absolutely.
    Senator Klobuchar. OK.
    Second, regulatory or statutory reform. As I understand it, 
manufacturers can voluntarily initiate recalls without waiting 
for NHTSA to order a recall, or NHTSA can order manufacturers 
to initiate a recall; but, to do that, you have to go through a 
bunch of hoops, public hearings, completing the investigation, 
giving the manufacturer time, defending a recall in Federal 
court, it goes on and on. What, if anything, could be done to 
speed up the process? Is there something that we can do to make 
it easier?
    Secretary LaHood. Well, we do have to do these 
investigations before we can require a recall. But, the 
manufacturers have been pretty cooperative. GM just announced a 
recall today on some automobiles, but, I guess what I would 
say, Senator, is, we'll look at that. For now, what I'm saying 
is, for the most part the manufacturers are cooperative on 
this.
    Senator Klobuchar. OK. But, we have an issue here where, 
you know, they were basically showing off for saving $100 
million by winning this victory by just saying it was the floor 
mats. And one of the things that I've learned is, you can 
assess fines for this kind of behavior, but those penalties 
could be as high as, like, $16 million for a related series of 
violations. It sounds like a lot of money, but when Toyota is 
bragging about saving $100 million by basically negotiating a 
resolution to a safety defect that isn't a recall, is that 
enough money? Should there be more of ability to assess fines? 
And would this be a useful tool?
    Secretary LaHood. I think it would be a useful tool. And I 
would also say that, because of our insistence in going to 
Japan, my talking to Mr. Toyoda, we cut short their ability to 
stall this out by them recognizing they had a safety problem, 
and they decided to recall.
    Senator Klobuchar. Right. And I do appreciate that you have 
gotten involved in this and you're taking responsibility. But, 
remember, there is this long time period----
    Secretary LaHood. Understood.
    Senator Klobuchar.--that I don't want to go through again--
--
    Secretary LaHood. Understood.
    Senator Klobuchar.--where clearly there with an issue. As 
the New York Times has noted, you know, complaints get filed, 
they promise answers, regulators complain, and you just don't 
get that answer. I likened it to a hockey puck going back and 
forth on the ice.
    The issue about the revolving door, I wrote a letter to Mr. 
Strickland about this, and I know you just pursued this with 
Senator Boxer. Do you have any statistics or information on the 
number of former NHTSA staff who now work for other car 
manufacturers? Will you get that? Is that a----
    Secretary LaHood. Yes, you know, I'll get back to you on 
the record for that.
    [The information referred to follows:]

    The following former NHTSA employees are currently employees of the 
indicated automobile manufacturers:

        Sam Campbell--formerly engineer in Office of Vehicle Safety 
        Compliance, departed NHTSA May 15, 2009; currently--engineer 
        with BMW;

        Theresa Lacuesta--formerly engineer in Office of Vehicle Safety 
        Compliance, departed NHTSA November 9, 2007; currently--
        engineer with Toyota North America Inc.;

        Amanda Prescott--formerly engineer in Office of Vehicle Safety 
        Compliance, departed NHTSA June 27, 2006; currently--engineer 
        with Ford Motor Company;

        George Feygin--formerly attorney-advisor in Office of the Chief 
        Counsel, departed NHTSA May 27, 2006; currently--attorney with 
        Nissan North America Inc.;

        Christopher Santucci--formerly safety engineer in Office of 
        Defects Investigation, departed NHTSA September 12, 2003; 
        currently--safety manager with Toyota North America Inc.;

        Ralph Hitchcock--formerly Office Director in Office of Applied 
        Vehicles, departed NHTSA August 3, 1997; currently--engineer 
        with American Honda Motor Company;

        Christopher Tinto--formerly safety defects engineer in Office 
        of Defects Investigation, departed NHTSA October 14, 1994; 
        currently Vice President of Regulatory Affairs with Toyota 
        North America Inc.

    Senator Klobuchar. And you've suggested there might be some 
ways to tighten the rules, to bring back that public trust. So, 
what are those ideas, Secretary LaHood?
    Secretary LaHood. I think we should have the highest 
standard possible, which I think would be--prohibit NHTSA 
employees from going to work for automobile manufacturers for a 
period of time. That's the same standard that's set for Members 
of Congress to go out and, you know, earn money in Washington, 
or whatever. For this administration, it's 2 years for a 
Cabinet Secretary. I think it probably should be longer.
    Senator Klobuchar. So, you're saying it's not just that 
they wouldn't be working and interacting with the agency on a 
specific issue, they just wouldn't go work for the----
    Secretary LaHood. That's correct.
    Senator Klobuchar.--people they were regulating. That 
sounds like a good idea.
    You know, the other thing I'm trying to figure out is this 
interaction between the agency--there has to be one--and the 
industry, as you go back and forth. And I know, when you get 
these complaints, you scan your own data bases to figure out if 
there's a match or if you've seen a number of complaints. 
Clearly we were seeing some spike. I don't want to get into the 
fight about what the New York Times said, or not. But, there 
was some spike in these in 2004, 2005 onward.
    NHTSA scans its own data bases. Who scans the corporation's 
databases to check if there are potentially matching 
complaints? Do you have----
    Secretary LaHood. We work with them on that, and, you know, 
we try and review all of the possible research and data that we 
possibly can.
    Mr. Strickland. And, Senator Klobuchar, just to add on, 
that Toyota has a statutory requirement, under the TREAD Act, 
to report to our early warning system. So, we actually receive 
their field reports, their technical service bulletins. All 
that information comes in, on a quarterly basis, to NHTSA, so 
we have that information to match up with the complaint data 
base, as well.
    Senator Klobuchar. OK. And again, I've got the guy I 
mentioned, Joe Pepski. I talked to him directly. I mean, he 
felt like he was basically being told he wasn't telling the 
truth. He knew what happened. He's never driven that car since. 
He's afraid to drive it.
    Then we had another woman, a nurse named Mary Pries, of 
Morrison, Minnesota. Same thing happened. She barely survived. 
She had the presence of mind to take her car and drive it on a 
county road where there was no traffic, and she was able to 
finally put it in neutral, or something, and stop it from 
accelerating. And the problem, from a trust standpoint, with 
government, is, these people came forward, and they went to the 
agency, and they filed these complaints. And all these other 
complaints were going on, and they would read it on the 
Internet, but they didn't know all the details. But, those 
details were somehow in the computer system.
    So, what I'm trying to do--because I truly believe the 
employees at NHTSA are trying to do the right thing--is to 
figure out what tools we can give you to make it so this 
doesn't happen again and so that when my constituents file 
these complaints, at least there's some feeling that they 
weren't going nuts when this happened to them, that this really 
did happen to them, and that they did the right thing in 
reporting it, and that they're part of the solution.
    Secretary LaHood. Thank you for your leadership, Senator, 
we----
    Senator Klobuchar. Thank you.
    Secretary LaHood.--appreciate it.
    Senator Klobuchar. Thank you, Secretary LaHood. Thank you, 
Administrator.
    The Chairman. Thank you, Senator.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. And, Mr. Chairman, 
I have a packet of documents I'd like to hand out to the 
Committee, and I also have two charts there, that are also in 
the packet of documents, if that's OK.
    Administrator Strickland, I hate to see the Secretary have 
all the fun.
    [Laughter.]
    Senator Pryor. So, I'm going to ask you a few questions, if 
you don't mind.
    And, first, I want to ask, just, about the resource issue. 
We've had a few Senators today suggest that you need more 
resources, and I know that's in the President's budget, but 
have you made a decision on what--how you're going to fill 
those slots? In other words, it sounds like you may need some 
more expertise in some of these, say, software/electronics-type 
area. Do you know what you're going to do?
    Mr. Strickland. We have 66 positions provided for in the 
President's budget, if it is approved.
    In terms of our expertise, we have several pipelines for 
that. We have five electrical engineers on staff at NHTSA. We 
have 125 engineers, total. We also have resources that we 
leverage at the Vehicle Research and Test Center in East 
Liberty, Ohio, where we have an electronics engineer, which is 
a software engineer, in addition to an electrics engineer, as 
well. We are in the process of hiring another electrical 
engineer.
    But, in terms of the 66, I'm definitely having my staff go 
through, do a full assessment of the ODI department, and we're 
definitely going to deploy those resources, as needed, to make 
sure we buttress a stronger NHTSA.
    Senator Pryor. Great.
    On this first chart, it's the Camry, Solara, and the ES300. 
And that ``UIA'' stands for unintended acceleration. Vehicle 
owner questionnaire, vehicles for the model year. I know it's 
kind of code, up top.
    But, basically, what you see is, in model year 2002, they 
add this electronic throttle control, the ETC. They add the 
electronic throttle control. You can see what the numbers do. 
And, you know, there may be other factors in that, but I'm glad 
you're looking at it. And as you all look at it, I would just 
hope that you would focus on the electronic throttle control. I 
know there are other parts of the electronic system that make 
sense, and software and all that. But, I certainly hope you'll 
detail some of your people to look at that ETC, the electronic 
throttle control.
    Mr. Strickland. Senator Pryor, it is a priority. The 
Secretary's already laid out the plan for NHTSA, in terms of 
how we're going to do an incredibly--we're probably going to 
have the most comprehensive review of electronic throttle 
control/EMI reviews in the automotive industry. We're going to 
not only look at Toyota, we'll be looking at every 
manufacturer, because this is a system that's gone through the 
entire United States fleet.
    Senator Pryor. Yes. I'm glad to hear you say that.
    On the second chart, these are State Farm numbers, and 
again it's unintended acceleration claims. And you see the--the 
numbers are different. You see a spike each time they add the 
electronic throttle control. And that's two different models. 
One's a Camry, and one's a Corolla. You see a spike. But, also 
when you look at these charts together, it raises the question, 
Does NHTSA have comprehensive data from Toyota on everything 
that's going on with this unintended acceleration? In other 
words, you know, some of these numbers are from State Farm, 
some are from customer questionnaires. Do you have the sort of 
universal data that you need, or has that been requested?
    Mr. Strickland. About 3 weeks ago, NHTSA issued three 
queries to Toyota for everything regarding what it knew about 
the floor mats, what it knew about sticky pedal, and what it 
knew about the brakes. And part of it is an overall query for 
all sudden-acceleration incidents in Toyotas, which will be an 
incredibly large and rich amount of data for the agency to go 
through to figure this out.
    But, in addition to that, we took a look at the data when 
we saw the design changes back in 2002 and 2004, when we saw 
the complaint data coming in, when we got the early warning 
data come in. NHTSA opened investigations. The standard that we 
have to follow in order for us to maintain our case in court 
is, we have to find a vehicle defect that creates an 
unreasonable risk to safety. If we cannot find that defect, we 
cannot go forward. We will lose the case in court.
    So, the investigations that opened and closed, as 
everyone's been talking about at this hearing, those incidents 
of where the investigators did a full investigation, top to 
bottom, regardless of any types of rationale or cause for 
sudden acceleration, and they were not able to find a defect.
    We took a look at the electronic throttle control system in 
2004, did a larger inquiry in 2007, and weren't able to find a 
defect. We never stopped looking, but--because we recognize the 
data and the trends, that's the reason why we're going to do 
the broader inquiry.
    Senator Pryor. Right. And the last question I have for you 
is that some of the Senators have alluded to press reports, 
whether it be New York Times, CBS, ABC, whoever. You know, I 
don't remember who else reported on this. But, there's an 
allegation, or at least, maybe, an inference, that there's a 
relationship between NHTSA and the manufacturers that's too 
cozy. Now, I don't know if that's true or not. But the question 
I would have for you is--you're the new administrator there; I 
mean, obviously, most of this stuff happened long before you 
got there, even in a previous administration. Do you have 
concerns that the relationship between NHTSA and the 
manufacturers is too cozy? And I understand you need a close 
working relationship, and I understand that; that's very 
important to do your job. And to keep, you know, the roads 
safer and keep our vehicles safer. But, do you have that 
concern, that the relationship is too close?
    Mr. Strickland. My responsibility as the Administrator is 
to run the agency with the highest level of ethics possible. I 
don't want to have anybody roaming my halls at NHTSA, other 
than my employees or designated appointments where they provide 
us information that we need.
    I want to respond to this Toyota document, the report to 
Mr. Inaba. There is a lot of things. I will happily respond in 
more detail on the record.
    [The information referred to follows:]

    We do not think that NHTSA's relationship with the manufacturers is 
cozy, but rather it is professional. NHTSA makes decisions about 
vehicle safety based on an independent analysis of all available data. 
During the past 3 years, NHTSA's investigations have resulted in 524 
recalls in which 23.5 million vehicles were recalled. We believe that 
the number of recalled vehicles is indicative of NHTSA's aggressive and 
professional approach to vehicle safety, regardless of the manufacturer 
being investigated.
    With regard to Toyota's internal document dated July 6, 2009, 
Toyota claimed defect, rulemaking and NCAP ``wins.'' NHTSA disagrees 
with statements in this document. For example:

  <bullet> Contrary to its claim, Toyota did conduct a safety recall of 
        over 196,000 Siennas. In Toyota's letter to vehicle owners, it 
        states that ``this notice is being sent to you in voluntary 
        accordance with the requirement of the National Traffic and 
        Motor Vehicle Safety Act. Toyota has decided to conduct a 
        safety recall. . . .''

  <bullet> With regard to the Camry/ES floor mat problems, Toyota 
        conducted a recall of floor mats. After a thorough 
        investigation that began and ended as an equipment 
        investigation, ODI believed that a recall of the floor mats was 
        the appropriate resolution because the elimination of these 
        floor mats and their replacement with floor mats that were not 
        likely to be entrapped even if not properly secured seemed very 
        likely to address the most serious risks of entrapment.

  <bullet> In 2008, NHTSA decided to postpone the implementation of the 
        new Government 5-Star safety ratings program to provide 
        manufacturers and consumers an additional year to become 
        familiar with the new ratings system, which contains the most 
        significant changes to ratings program since the program began 
        in 1979. We note that NHTSA did not meet with Toyota regarding 
        the new ratings system.

  <bullet> Although the delayed compliance date for FMVSS 206 door 
        locks accommodated the manufacturers' design and production 
        cycle, the delay also allowed the agency more time to analyze 
        the petitions for reconsideration regarding other technical 
        issues. We note that Toyota did not submit a petition for 
        reconsideration requesting delay of this rule.

    We also note that the internal Toyota document noted more 
aggressive NHTSA management and ``more investigation and more forced 
recalls'' as key safety issues for Toyota.

    Mr. Strickland. But, the claims that Toyota made about 
their negotiations or influences are false. I--that document--
the things that they're claiming in that document is like me 
claiming that I was responsible for the sun rising this 
morning. Absolutely false. And NHTSA's people did independent 
work, independent investigations, and that document absolutely 
has no foundation.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Pryor.
    And Senator Johanns?
    Senator Johanns. Thank you, Mr. Chairman.
    Mr. Administrator, let me ask you some specific questions 
about the vehicles that you investigated. And again, I think 
you said, quote, ``full investigation, top to bottom,'' 
unquote.
    So, where did these--where were these vehicles 
manufactured? Were they manufactured here in the United States 
or in some other location?
    Mr. Strickland. In terms of Toyota, or any manufacturer 
that we investigate for a defect?
    Senator Johanns. No, these specific vehicles. These 
specific Toyota vehicles.
    Mr. Strickland. I don't know specifically where--I mean, 
there are a significant number of Camrys that are manufactured 
here in the United States--I think actually most of them--but I 
need to get back to you on the record on the actual country of 
manufacture or assemblage.
    [The information referred to follows:]

    The investigations have included Toyota vehicles manufactured in 
the United States, Canada, Mexico and Japan (see below).

------------------------------------------------------------------------
     Make          Model       Model Years      ODI Inv       Country
------------------------------------------------------------------------
               GS400          1997-2000      DP03-003      Japan
              ----------------------------------------------------------
               LS400          1997-2000      DP03-003      Japan
              ----------------------------------------------------------
                                             DPO4-003
               ES300          2002-2003      PE04-021      Japan
Lexus                                        DP09-001
              ----------------------------------------------------------
               ES330          2004-2005      DP05-002      Japan
              ----------------------------------------------------------
                                             PE07-016
               ES350          2007           EA07-010      Japan
                                             DP09-001
------------------------------------------------------------------------
                                             PE04-021      Japan
                                                          --------------
                              2002-2003      DP05-002
                                             DPO6-003      United States
                             -------------------------------------------
                                             DP05-002      Japan
                                                          --------------
               Camry          2004-2005      DP06-003      United States
                             -------------------------------------------
                              2007           EA07-010      Japan
                                                          --------------
                                                           United States
              ----------------------------------------------------------
Toyota                                       PE04-021
                              2002-2003      DP05-002      Canada
               Camry Solara                  DP06-003
                             -------------------------------------------
                                             DP05-002
                              2004-2005      DP06-003      United States
              ----------------------------------------------------------
                                             PE08-025
               Sienna         2004           EA08-014      United States
              ----------------------------------------------------------
                                                           Mexico
                                                          --------------
               Tacoma         2006-2007      DPO8-001      United States
------------------------------------------------------------------------


    Senator Johanns. OK. Would you do that for me?
    Mr. Strickland. Yes, sir.
    Senator Johanns. OK. And make sure you supply it to the 
other members of the Committee.
    Is that important in your investigation? I mean, if you see 
a pattern, that all the vehicles are coming from one location, 
wouldn't you go, ``Whoa, the light bulb just went on''?
    Mr. Strickland. This actually is the same issue, I think 
you're alluding to, as what was happening in Ford Firestone, 
where there was one particular plant in Ohio that was producing 
the defective Bridgestone tires, which had the treadwear 
separation issue. We take all data into account, not only the 
systems that are used, but where the place of manufacture was. 
If there is a trend line, we'll find it. For example, the 
sticky pedal recall was a CTS that has been linked to a CTS 
pedal that is made in Indiana. They used two manufacturers for 
pedals. The other is Denso, in Japan. My understanding was, we 
did not see the same type of issues in the Denso pedal as in 
the CTS pedal.
    So, NHTSA absolutely positively takes into account all 
possible manufacturing inputs and quarterly stats, whatever the 
problem is.
    Senator Johanns. OK.
    Now, tell me--this full investigation, top to bottom--tell 
me what that would entail. Walk me through what you're--what 
you mean by that kind of investigation. Do you look at the car 
itself?
    Mr. Strickland. In some situations, there are several steps 
in the investigative process, opening with a preliminary 
evaluation, all the way through an engineering analysis 
element. So, it's several steps.
    But, in a typical investigatory process, we will send an 
investigator to the complainant to actually review their car. 
We'll go through the typical list of systems which may 
influence, say, for sudden acceleration. If it's electronic, 
we'll take a look at those particular assemblages. We'll take a 
look at the mats; we'll take a look at whether there's an 
engine surge because of other systems, like the compressor 
system or the air conditioner. And then go through to eliminate 
any and all possible causes. And if we find a defect, that's 
where we take action at that point and find out if it's an 
unreasonable risk. And then we go further, with a recall 
request.
    Senator Johanns. OK. But, when you send them to look at 
these things, do they fly out there with their computers and 
whatever else? I mean, what are you saying, when they look at 
it? Are they----
    Mr. Strickland. It depends on the type of car and the 
complaint and the year whether--how we're going to take a look 
at these particular things. In 2004 and in 2007, there was a 
comprehensive--the 2004 was a smaller look. 2007 was a larger 
look, on electronic throttle control systems.
    But, in any other case, if the investigator goes through 
the tick list and finds a defect that the investigators either 
already been made aware of, from a prior recall, or finds a new 
defect, that's what they will flag. At the end of the day, in 
terms of how the investigator goes through this process, the 
process is to find the defect. And we go through that. If we 
don't find a defect, that's when we have a closing resume.
    Senator Johanns. Mr. Administrator, here's my concern. And 
I think you know what I'm getting to here. There's an 
investigation, and then there's an investigation. And when you 
say ``full investigation, top to bottom,'' the image you create 
for me is that there are computers hooked up to this car, and 
they're testing this, that, and the next thing, the car's taken 
apart. I could go to the shop floor and there are parts on 
the--that's not happening, is it?
    Mr. Strickland. I think the consumer probably wouldn't be 
very happy if my investigator took apart their car. But I would 
state this. In situations where there is a need to take a look 
at the onboard diagnostics, I believe that our investigators 
bring those tools with them. They also take a look at the 
actual assemblages. They also drive the car to see if they can 
replicate the fault. That's what I mean by a top-to-bottom 
investigation.
    If there's something that warrants something broader, NHTSA 
will do that, as we did in 2004 and in 2007, and what NHTSA 
will be doing in undertaking the full review for EMI in the 
days going forward.
    Senator Johanns. Well, let's just confine ourselves to the 
instances where something tragic happens, somebody died, and--
I'd like to know what the investigation was. I'm not asking you 
to tear open all of the files of your agency, but what I am 
trying to get to--because we could add 50 more people, we could 
add 500 more people, but if the investigation isn't getting us 
there, to what's going on here, it won't make any difference.
    The second thing, because I'm out of time already, that I'd 
ask you to focus on is this. I do want to know where this all 
comes from. I'm as free trade as anybody here. But, I will tell 
you, the American consumer is getting tired of this kind of 
thing, if, in fact, the problem is that we are getting 
substandard products from some other part of the world.
    What I'm also extremely tired of is the treatment we get 
versus how we handle these things. Our borders get shut, their 
cars keep coming.
    And I just want to dig a little deeper here. Maybe there's 
nothing to what I'm saying. And I'm not going to be bothered at 
all to acknowledge that. But, I'll tell you, I've worked with 
this country before, and I think they have some responsibility 
here. So----
    Secretary LaHood. Senator, let me just say, the comments 
that you made in your opening statement struck me. I'm going to 
Japan. I've talked to the Japanese Ambassador to the United 
States on a couple occasions about this. I wish I would have 
had the insight that you--what you've said has struck a chord 
with me, and I think it's something that we need to raise--I'm 
going to raise it with the Japanese Ambassador to the United 
States, and I'm going to raise it when I go to Japan. I think 
it's a point well made, and one that we should be making when 
it comes to automobiles.
    Senator Johanns. I--Mr. Secretary, we're out of time here, 
and I appreciate it--but, I hope you do, because what they have 
done to us, in an area that I'm concerned about, in my personal 
opinion, outrageous. And yet, they want us to continue to buy 
their products, which, again, I'm a free trade sort of guy. 
Fair trade. And I hope you will bring it up.
    Secretary LaHood. I will.
    Senator Johanns. Thank you.
    Secretary LaHood. Absolutely.
    The Chairman. Thank you, Senator.
    Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you.
    Mr. Administrator, I have a few questions for you. One is 
that--because I talked to some of the dealers in Southern 
Nevada and--about these particular issues. One of the things 
they did is, they offered a particular service--the Toyota 
dealers there, just voluntarily--a free car wash to anybody who 
has a Toyota. And as they were bringing cars in for a wash, 
they were doing some inspections. And one of the things they 
found was that cars had four floor mats stacked on top of each 
other.
    The one real tragic accident, that we've heard a lot about 
today, was a car that didn't have its own floor mat in it, it 
had a different car's floor mat. I have a Toyota product, and 
its floor mats have hooks on it. From what I understand, that 
mat in the accident was not installed properly. Is that really 
the car manufacturer's fault, or is that the dealer's fault? It 
would seem to me that the dealer has some culpability there.
    The reason I'm bringing this up is, having that Toyota 
product--I have a light-colored carpet. I got tired of it 
getting dirty within a couple of weeks, so I went down to a 
local parts manufacturer and bought some rubber mats. Well, 
when I was talking to the dealer the other day, the dealer 
said, ``You'd better check that to make sure, you know, that it 
is safe.''
    Does NHTSA look at things like that? In other words, when 
you go to buy something like that, it says on there that it is 
good for certain cars. The reason you buy extra market products 
like that is because it's a lot cheaper than going down and 
spending several hundred dollars for floor mats from Toyota. 
That's the reason I did it. And I'm sure that there are a lot 
of other people out there that do that. Does NHTSA look at 
things like that?
    Mr. Strickland. Yes, we do. Not only do we have the 
responsibility for motor vehicles, but motor vehicle equipment, 
as well, which would include things like aftermarket products, 
such as the mats.
    Senator Ensign. So, in this case, aftermarkets don't have 
those hooks on it. And yet, it's still OK for Toyotas?
    Mr. Strickland. The mat that was recalled was an 
aftermarket mat, the Weathertech mat, if I'm not mistaken, in 
2007. The issue that we always have to look at, at NHTSA, is 
not only from a manufacturing standpoint; we also have to look 
at it in terms of the use and abuse, and the foreseeability of 
use and abuse. And in terms of the mat, originally the thought 
was that if we replaced those mats, that was a complete 
solution for this particular issue of floor mat entrapment.
    The 2009 accident, as tragic as it was, illustrated to 
NHTSA at the time was that it is clearly foreseeable that, not 
only would a consumer make a mistake like that, but the car 
dealer itself could make a mistake like that.
    I think the Saylor car actually did not have the right mat. 
It was a mat that belonged to a Lexus truck that was placed in 
the car, which caused the problem. So, it isn't even an issue 
of a manufacturing defect for a particular mat. It's the fact 
that you needed a vehicle-based solution to recognize the fact 
that the pedal can't be so long. So, even if you have a human 
error come in, that the consumer will be safe, even if that 
error was made.
    Senator Ensign. From what I understand, almost all car 
manufacturers have had accelerator problems reported to you. I 
think that a lot of Americans feel that if there is one death, 
you all should do a recall. But, that's not how it's done. You 
have to make sure that there really is a problem with the 
manufacturer. Is that correct?
    Mr. Strickland. There isn't a threshold numerical component 
to this. If there is a defect that creates an unreasonable risk 
to safety, even if it's in a small percentage of a certain 
production of car----
    Senator Ensign. Right.
    Mr. Strickland.--we will do the recall. In terms of how we 
execute it, you know, NHTSA's mission is saving lives and 
preventing accidents and injuries, and not only from the--as 
you said, Senator Ensign, issue on the numbers of people who 
are involved in accidents because of vehicle defect; NHTSA's 
vision is for all 37,261 deaths that happened last year. And on 
that point, I'm incredibly proud of this agency. In 2005, there 
was 43,510 deaths. In 2008, that went down to 37,261. That is a 
quantum change in lives saved. And this is an agency that is on 
its mission every day to make sure we get that number lower, 
whether it's on the behavioral side or if it's on the vehicle 
defect side.
    Senator Ensign. One last point to make is that I hope you 
look at some of the independent studies that were done and who 
funds them. From what I understand, the study that was done at 
Southern Illinois was funded by trial lawyers. There may be an 
ax to grind there, that they may be trying to do something 
there. I would just hope that, regardless who has funded the 
study, that you would look at it with a skeptical eye, and you 
would look at the good science, and whether that could be 
replicated by other folks, and not just take them at their word 
that the study was done right.
    Mr. Strickland. Mr. Ensign, we'll look at all data points, 
and we'll evaluate it independently.
    The Chairman. Thank you, Senator.
    Senator Klobuchar has a clarification to make.
    Senator Klobuchar. I do, thank you.
    I wanted to clarify, the woman--the nurse I talked about--
her name is Mary Pries Morrison. She's not of Morrison, 
Minnesota, although it is a town. She's of Lindstrom, 
Minnesota. And it matters, because she's been working very hard 
to get her money back for the car. She's the one that--the 9-1-
1 operator told her, as she was desperately calling, after 
going 80 miles an hour for 6 miles, told her to shift into park 
and take the key out, and it worked. And when the sheriff got 
there, she had actually--her brakes were smoking so hard that 
she had melted her hubcaps.
    So, that is an example of a case that we have in Minnesota.
    Thank you for allowing me to clarify it.
    The Chairman. Thank you, Senator.
    And could I ask one question? Senator McCaskill may be on 
her way. Let me just sort of put something forward. Let me just 
talk it, and then you can answer it.
    You had your first complaint into NHTSA--and it's in your 
data base--back in--about unexpected acceleration--- back in 
2003. Now, some people have said you can't be responsible for 
the past, and it's true. But, we're looking at a history here, 
a characterization, both past and forward. And it's very clear 
that, the sudden unintended acceleration in Toyota vehicles, 
that NHTSA's database worked. It was clear. There were a lot of 
people that complained, and they're all in the database. What 
didn't work, to this observer, is what NHTSA failed to do, 
because it failed to determine the cause of sudden unintended 
acceleration in Toyota vehicles. So, I think its investigations 
have failed.
    Now, why do I say this? What reason could there be? We've--
our committee staff have reviewed thousands and thousands of 
pages of NHTSA documentation, other documentation, and I think 
it fairly clearly shows that NHTSA employees are reluctant to 
do investigations of the vehicle electronics because it's much 
more difficult to detect.
    You had one investigation, which was limited to floor mats, 
even though there were clearly incidents unrelated to floor 
mats. And so, I just make this point, and then I ask that you'd 
react to it. I think that NHTSA investigators, taking the whole 
period of time, would rather focus on floor mats than 
microchips because they understand floor mats. They're more 
comfortable with floor mats. They don't understand microchips. 
You're going to change that, but this is what the situation has 
been.
    So, I feel that very strongly, and I feel that has been 
sort of a major letdown on NHTSA's part, looking back and up to 
the present.
    So, how do you react? When are you going--to make sure that 
the microchip solution to unintended acceleration works?
    Secretary LaHood. Well, my response, Mr. Chairman, is that 
we are going to do a complete review. I'll be happy to share 
the copy of the letter that we have sent to Toyota, asking for 
every possible piece of information that we can get, to make 
sure we haven't missed anything, or that they didn't disclose 
some things that we should have looked at. And----
    The Chairman. But, you don't disagree with me about my so-
called stipulation?
    Secretary LaHood. What I would say is that I don't know if 
NHTSA turned a blind eye because they didn't understand chips 
or the electronics. I know this. We're going to get to the 
bottom of the electronics. That's what I commit to you.
    The Chairman. And that's what I want to hear, but I'm just 
telling you that you got your first complaints about this in 
2003, and the record clearly shows that your folks stayed 
away--not your folks, but the prior person's folks--stayed away 
from micro-
chips----
    Secretary LaHood. And if the information from Toyota that 
we get--information that we haven't received--no, we're going 
to be pretty darn mad about that. But, it will help us in the 
future.
    The Chairman. Mr. Secretary and Mr. Administrator, I 
totally thank you for being here.
    We have one more witness, for the next 12 minutes, but then 
that witness will be back again this afternoon.
    I thank you for taking the time----
    Secretary LaHood. Thank you, sir.
    The Chairman. I appreciate your----
    Mr. Strickland. Thank you, Mr. Chairman.
    The Chairman.--strong attitude.
    Now I'd ask Clarence Ditlow to come forward, please.
    [Pause.]
    The Chairman. Clarence Ditlow. Now, we have to sort of 
hustle here, because we have a vote coming up pretty quickly. 
If we could have silence in the hearing room, please, people 
could take their seats.
    Mr. Clarence Ditlow is Executive Director of the Center for 
Auto Safety, has been observing auto safety for, what, 25, 30 
years? Longer than that. All right.
    Let me ask the first question.
    And before I do that, incidentally, any folks, including 
Senator Hutchison, who had a statement, and any other folks who 
didn't have a chance to give that statement this morning, that 
will be included in the record.
    Mr. Ditlow, I am very troubled that NHTSA and the public 
must rely so heavily on manufacturers for data that, 
ultimately, will probably hurt, if they shared all of it, the 
company's reputation and profits. Manufacturers have an 
incentive to only give the minimum amount of information to 
NHTSA. That would be my strong conclusion.
    In other contexts, companies are required--not asked to, 
but required--to certify that the information they provided the 
government is accurate and complete, or face criminal and civil 
penalties. Am I right?

               STATEMENT OF CLARENCE M. DITLOW, 
           EXECUTIVE DIRECTOR, CENTER FOR AUTO SAFETY

    Mr. Ditlow. Yes, sir.
    The Chairman. Would it make sense to ask--no, scratch 
that--to require manufacturers to make a similar certification 
when they provide information to NHTSA?
    Mr. Ditlow. Senator Rockefeller, that's one of our first--
--
    The Chairman. Is your thing on?
    Mr. Ditlow. Sorry.
    The Chairman. OK.
    Mr. Ditlow. OK, now it's on. OK.
    Senator Rockefeller, that's one of our first 
recommendations. Every single response by an automobile 
manufacturer ought to be submitted with an affidavit that is 
sworn under penalty of perjury. The only--that's the only way 
that you're going to be sure that, when they're submitting 
information, that they don't err on the side of the 
manufacturer, but they err on the side of full disclosure.
    The Chairman. All right. I'm compelled to turn to Senator 
McCaskill.
    Mr. Ditlow. Senator Rockefeller, may I give a few points in 
response to----
    The Chairman. You can talk.
    Mr. Ditlow. OK. Thank you.
    The Chairman. But, I've got to get her in. And 
incidentally, you're going to be here this afternoon, on the 
Toyota panel.
    Mr. Ditlow. Yes.
    The Chairman. The members should know that.
    Mr. Ditlow. OK.
    The--all I wanted to do now was to address a few of the 
points that were raised by Secretary LaHood and Administrator 
Strickland.
    First of all, I want to say that I have the utmost respect 
for both the Secretary and the Administrator, but they are 
behind the eight ball. They came in, essentially, after the 
October recall, and they've been doing everything they can to 
catch up. But, they have a lot of work to do.
    And just looking at some of the things, we talked about--
you talked about the agency getting complaints on its own, and 
from the manufacturer. But, in those early investigations, 
which did not lead to a single vehicle recall, there were 
complaints that were excluded on long- duration events, where 
consumers said the brakes did not override the full 
acceleration. So, you narrowed it down. You didn't get the full 
picture.
    And we saw the submissions, today, on the number of 
complaints when electronic throttle controls were introduced. 
The Center took a look at the Toyota Camry. There have been 
twice as many fatal crashes and deaths in the 2002 to 2006 
Camry, which has not been recalled, as in the recalled 2007 to 
2010 Camry. So if you can't answer questions like that, you 
haven't done your job.
    The fundamental issue in the complaints comes out of the 
1989 study that DOT did, where they said that, ``If we can't 
find a mechanical failure, something that causes the throttle 
to open, or the cruise control, then it must be driver error.'' 
They've excluded out complaints. But that study was done on 
1983 to 1986 vehicles, a quarter of a century ago. Technology 
today, in today's car, is far beyond that. We didn't have 
electronic throttle controls. We didn't have 20 to 30 
microprocessors in vehicles. You can't use the 1989 study to 
measure 2010 vehicles. So, I would just toss it out the door.
    And the other thing I want to point out, in terms of the 
agency's examination, is, they did one modern test on a 2007 
Lexus ES 350 to determine, quote, ``whether it was floor mats 
or electronic controls that caused unintended acceleration.'' 
They said it was floor mats. We filed a FOIA and asked them for 
all their test data, all their test procedure, on 
electromagnetic interference or any computer malfunctions that 
they did during this test of that Lexus. They came back and 
said, ``We have no data, we have no test procedure.'' So, it 
wasn't a valid test. This is what we're up against in moving 
forward, an agency that really hasn't done a thorough 
examination.
    And then we have the issue of the former employees coming 
in. And I will add one more. Erica Jones, the former chief 
counsel, when they came in and negotiated the safety 
improvement campaign, she was there, as part of the Team 
Toyota, lobbying the former agency that she worked for.
    So, they know the system, they know how to beat it, and we 
need to get a lot more resources for the agency.
    And I pose a question for Secretary LaHood. Where are those 
66 positions going? How many are going into enforcement, where 
we really need it?
    Thank you.
    The Chairman. I would just say that, in the panel this 
afternoon, I think that Toyota's going to get some very tough 
questioning from members here. But, the purpose of that, one, 
is to solve the problem--that's by far, the most important 
purpose; but also, they need that to reestablish the level of 
trust they once had, and then suddenly lost when some of these 
figures came out. That's what oversight is for. That's what our 
job is. And that's what NHTSA's job is. And, you know, so far 
the difference is not startling.
    I call on Senator McCaskill because she didn't have a 
chance to ask a question.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you very much, Mr. Chairman.
    Mr. Ditlow, does your organization make any attempt to 
track lawsuits that are filed against automakers, and make note 
of the results of those lawsuits?
    Mr. Ditlow. It's very difficult for us to track the 
lawsuits, because there's no central filing mechanism. We have 
to rely on filings with the government. But, we certainly come 
across some individual lawsuits, like the Alberto case in 
Michigan, where there was no floor mat in the vehicle. And we 
called that to the agency's attention. And--so, that's part of 
the agency's files.
    Senator McCaskill. Well, part of the issue here--and I hope 
I have a chance to, this afternoon, question the Toyota 
officials about it--is a culture about secrets, a culture about 
making sure that no one knows anything bad. And, frankly, in 
this instance, maybe that culture is more to blame for this 
problem than anyone heretofore has actually acknowledged. I 
want to first say that I think there are fine cars this company 
has built, and our, obviously, hardworking people in America 
that are selling them and buying them. But, I look at some of 
the cases out there, and what I'm really concerned about now is 
that we have some homicides, and vehicular homicide cases, 
where people have gone to jail when they have said, ``I put on 
the brake, it didn't work. I--it just kept going.'' And I'm 
interested on a case where there was a driver of a runaway 
Camry that signed a confidentiality agreement, and received a 
settlement from Toyota, following accelerating out of control 
for 20 miles before killing the driver of another car in San 
Jose, California. He was initially charged with manslaughter 
for causing the crash, but charges were then dropped. It seems 
to me that the lawyers of this country, in many instances, are 
doing the work that the regulatory agencies refuse to do, or 
won't do, or bureaucracies somehow keep them from doing, and 
that is, they are pounding on the doors of justice and saying, 
``Let us in. We've got evidence.''
    And it seems to me your organization, now, with Internet 
technology, a lot of these lawsuits are very easy to find. It 
might be a way that consumer groups such as yours--I know other 
consumer groups have certainly utilized this--can begin to 
track some of these lawsuits and get a leg up, in terms of 
bringing evidence to the regulators that could help prevent 
this in the future.
    Mr. Ditlow. Senator McCaskill, you're absolutely right. And 
these confidentiality agreements that are signed should be 
prohibited in areas of public health and safety, because they 
would cover up a defect that could lead to a recall that could 
prevent hundreds of deaths and injuries.
    And I must add that the secrecy at the Department of 
Transportation is as bad as the secrecy in some of the 
lawsuits, because there are hundreds of early warning inquiries 
that have been done by NHTSA since 2003. Yet, none of those are 
made public. When you look at early warning, NHTSA spent $20 
million. Now, when it comes to Toyota's sudden acceleration, 
either early warning found it early on and NHTSA didn't act on 
it, or early warning itself is flop because it should have 
detected it.
    But, we can't tell you, as a public watchdog, which way it 
is, because the government won't give us access to the 
investigations done under early warning. But, they're there.
    Senator McCaskill. Well, I think the transparency part's 
important, and I know that economic considerations go into the 
secrecy culture, because they want to protect their product 
from their competitors until the appropriate moment, because of 
the competitive market of automobiles, and--in the world. But, 
in this instance, I think we need to take a hard look at all 
the cases where there have been sealed and private agreements, 
particularly after litigation has begun.
    Mr. Chairman, thank you.
    The Chairman. Thank you.
    And before we all rush off to vote, I just want to make a 
point. Comes out of what you said. During the hearing this 
afternoon with Toyota, we have two people from Japan that we've 
brought over. One is in charge of safety, one is in charge of 
another--they're both on the board of directors, so they're top 
people. They can give their testimony in English, but they 
can't answer questions, necessarily, so they will have a 
translator. Because we take these matters seriously in this 
committee, we will have a Japanese--or, a person who can speak 
Japanese--translator--sitting right here, to listen to how the 
translation is given in respect to how the questions are asked. 
And I think that's a little bit what you're talking about.
    Having so said, this hearing is adjourned.
    [Whereupon, at 12:20 p.m., the hearing was recessed.]


                            TOYOTA'S RECALLS



                    AND THE GOVERNMENT'S RESPONSE--



                           AFTERNOON SESSION

                              ----------                              


                         TUESDAY, MARCH 2, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing will come to order. People will 
be seated.
    I welcome our panelists.
    And what happens here is that I usually make an opening 
statement. There were three--two members, two Senators, who 
didn't make opening statements this morning, so they will, 
then, make their statements, and then we will go to the panel.
    I want to welcome our panel and thank my colleagues for 
dedicating so much of their day to this extraordinarily 
important issue.
    As I said this morning, we have two goals today: first, to 
figure out exactly what happened, so those who made the wrong 
decisions can be held accountable; and second, to determine 
what actions need to be taken, both to fix ongoing safety 
issues, and to make sure this never happens again.
    We learned a lot this morning from Secretary LaHood--
Secretary of Transportation--and Administrator Strickland and 
Clarence Ditlow about the government's role in Toyota's recent 
recalls, and why these problems were not identified sooner.
    We have an obligation on this committee to make sure that 
the American people know the full story. That's what we do; we 
do oversight so the American people can understand what goes on 
and what is the root of the problem and what is being done to 
solve the problem. And both Federal regulators and Toyota must 
learn the lessons of these failures, and make sure they are 
never repeated.
    This afternoon we will hear from Toyota executives about 
how these problems occurred and why the company did not respond 
more quickly.
    I want to say again, in the presence of the second panel, 
what I said this morning at the first panel. Toyota is an 
extraordinarily important company to America, as well as to my 
home State of West Virginia, and to our national economy, as 
well.
    I worked very hard to bring a Toyota engine and 
transmission plant to Buffalo, West Virginia, because I knew 
Toyota was a company that believed in perfection and 
reliability, a company that believed a winning business plan 
was one where growth and profit came from only putting the 
quality of its products and the safety of its consumers first. 
It saddens me deeply that, it seems somewhere along the way, 
public safety decreased in value as profit margins soared.
    The Commerce Committee has been examining the recent Toyota 
recalls and asking whether the company was losing its focus on 
quality and safety; indeed, the president of the company 
indicated that. What we have found is that Toyota had plenty of 
warning signs that something was changing.
    In September 2006, for example, the President of Toyota 
North America, Jim Press, expressed concern, in a presentation 
to Toyota's top executives in Japan, that Toyota quality was 
slipping and that the company, he said, was facing growing 
problems with NHTSA, the U.S. safety regulator.
    But, it doesn't seem like the message was heard in Japan. A 
year-and-a-half later, Chris Tinto, Toyota's top safety 
official in Washington, tried to warn his superiors in Japan 
that quality problems were growing, and his--in his words, ``We 
have a less defensible product.'' It's not typical of the 
Toyota that I know.
    I ask unanimous consent to insert Mr. Press's and Mr. 
Tinto's PowerPoint presentations in the hearing record, and it 
is so ordered.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The Chairman. If Toyota wants to remain successful and 
regain consumer confidence--and I believe that will happen--it 
can happen; I believe it will happen--it needs to find this 
balance between quality and profits once again.
    Toyota's consumers and its incredible employees deserve, 
themselves, nothing less. They drive Toyota cars, they're proud 
to work for the company, and they are, in this case, American 
citizens, and they deserve the full safety of the car.
    And, again, the American people deserve a top-to-bottom 
review; the honest picture of what happened and what we are 
going to do moving forward.
    This morning, we began an important conversation about the 
kind of legislation we may need to strengthen our system and 
prevent something like this from happening again. That 
legislative work will continue, as will our review of documents 
and oversight in the weeks to come.
    The public's trust has been compromised, and the system has 
broken down. For the safety of millions of Americans on the 
road, and for the security of thousands of Toyota workers in 
America, let's get this right.
    Thank you, to all of our witnesses, for participating and 
for working with our committee. I look forward to hearing from 
each and every one of you.
    Let me just add this: We have a system in this country, 
where we--where our committees have oversight. We take that 
very, very seriously, and we need to take it even more 
seriously, because not all administrations are doing what--you 
know, Presidential administrations--are doing all that they 
could. NHTSA is not doing all that it should. So, we step in to 
try to hold a measure of clarity to all of this.
    Now, with your permission, I want to call on Senator 
Cantwell. And I don't see Senator Lautenberg, so Senator 
Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this important hearing today.
    Toyota has built a reputation in America for its quality, 
safety, and reliability. Toyota introduced into our 
manufacturing lexicon, ``lean manufacturing, kaizen, muda, 
root-cause analysis,'' and the ability of each line worker to 
pull on the andon cord and stop the assembly line, if they see 
problems.
    When Toyota became aware of the 2004 NHTSA data that 
indicated a possible problem with sudden unintended 
acceleration of some of its vehicles, someone in the management 
should have pulled the andon cord.
    Part of our collective disappointment with Toyota's 
response to date is that we expected more from them, given the 
principles under which they operate.
    No doubt, entrapped floor mats do explain a percentage of 
the reports of unintended acceleration, but I do believe we 
need to explore other causes, such as electronic throttle 
control and electronic--and the engine control model software. 
A recent article in Discovery.com sums it up: It takes dozens 
of microprocessors running 100 million lines of code to get a 
premium car out of a driveway. And this software is only going 
to get more complex. Small errors in how software performs can 
lead to big system problems. I think of these unexplained 
occurrences of unintended acceleration as being part of an 
extreme tail of a bell-curve. It's an occurrence--a rare 
occurrence, but when it does happen, it can have catastrophic 
consequences.
    I'm glad that Secretary LaHood is looking at electronic 
throttle controls and engine control models across the 
industry. I am concerned that unless all of these critical 
variables associated with one of these reports of unintended 
consequences can be identified and then reproduced, there may 
not be definitive answers.
    Toyota's solution is to have a brake override. It is not 
really a solution as much it is a fail-safe strategy.
    So, Mr. Chairman, I hope that we can come up with answers 
today to these important questions. Beyond these concerns, I am 
going to be questioning our witnesses about the electronic data 
records, because one of the issues here is having people who've 
been involved in these incidents be able to have the 
information that gives them certainty about what's happened in 
these incidents.
    I thank the Chairman for allowing opening statements.
    The Chairman. Thank you, Senator Cantwell.
    Now Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    Last year, when Congress and the President stepped in to 
help the American auto industry, there were many who said that 
GM, Chrysler, Ford deserved to fail. We heard cries that the 
Big Three were bloated, they didn't understand the American 
consumer, and they didn't know how to innovate. And we 
especially heard that they needed to be more like their foreign 
counterpart, Toyota. We're not hearing that anymore. And 
questions are raised that have a sinister appearance. Did 
Toyota gain market share by shortcuts on safety, by trying to 
minimize expenses that were to be made to make sure that 
everything was operating appropriately?
    Toyota became the number one car company in the world 
because of its relentless, marketed reputation for safety. We 
hadn't seen that. And I'm deeply concerned that this reputation 
was built on a house of cards. If we learned anything from the 
crisis that's gripping Toyota, it is this: that if a company 
puts profits above all else, especially safety, consumers are 
the one who pay the price.
    We saw in Toyota that single-minded drive for profit, when 
last year it bragged about internal documents that gave it a 
regulatory win. Toyota bragged of a win when it saved $100 
million by avoiding a full recall of the 2007 Camrys and other 
car models. It bragged of a win when it saved millions of 
dollars by avoiding an investigation into the Tacoma pickup 
while delaying safety changes to other models. And it bragged 
of a win when it avoided another investigation into the Sierra 
minivan. With every one of these Toyota wins, Americans have 
been the ones who've lost.
    And I come from the business world, and I know the 
importance of revenues to a company, and I understand what it 
means to work hard to make a corporate profit. I also know that 
striving for profits should never be so critical that it 
eliminates corporate responsibility. Toyota's quest for profit 
hasn't just placed the black cloud over this car company, it's 
led to death, injury, and fear among drivers all across the 
United States.
    Matter of fact, I had someone walk up to me last night--a 
woman who had just ordered a Toyota--and she asked me if I 
thought it was safe. Well, I couldn't really answer the 
question. I assume that that's--that this was an aberration; I 
certainly hope so.
    Toyota drivers, and all Americans, are owed a complete and 
candid explanation about what is wrong with these vehicles. And 
it's clear we're still not close to getting these answers. In 
fact, a few days ago, a Toyota executive used language that 
sounded like it came right out of a crisis management playbook, 
explaining the company's problem. It said it had grown too big, 
too fast. It had misplaced its priorities, and now it will put 
consumers first. Nothing more than words, and they ring hollow. 
We need to see action and a real response, not just slick 
excuses created by public relations strategies.
    Just as Toyota has to get to the bottom of this crisis, the 
National Highway Traffic Safety Administration has to do 
everything in its power to protect Toyota buyers and every 
single driver on American roads. In recent months, the agency 
has taken responsible steps to untangle this mess, but it's 
critical that NHTSA be given the resources it needs to keep our 
roads safe and hold our car companies accountable.
    Mr. Chairman, I'm running--one page longer, if I might, or 
otherwise, I'll just cutoff.
    The Chairman. Please go ahead.
    Senator Lautenberg. At the same time, NHTSA must continue 
to stay on top of Toyota, make sure that consumer complaints 
are taken seriously, responded to swiftly. And I know that 
NHTSA and Toyota are in talks to confront the problem. But, 
let's get one thing straight: When it comes to safety, there's 
no room for negotiation.
    It's my hope that Toyota, the company that has a lot of 
good things to say--to be said about it--there is--my hope that 
Toyota will start to address this crisis fully and forthrightly 
so that Americans will have the confidence that they're safe 
when they get behind the wheel of a Toyota.
    Thank you very much.
    The Chairman. Thank you, Senator Lautenberg.
    I want to introduce our panel. The first speaker will be 
Mr. Takeshi Uchiyamada, who is the Executive Vice President of 
Toyota Motor Corporation; second, Mr. Shinichi Sasaki, who is 
Executive Vice President, also, of the Toyota Motor 
Corporation; and the third person from Toyota is Mr. Yoshimi 
Inaba, who is President and Chief Executive Officer, Toyota 
Motor North America; and then, also, Mr. Clarence Ditlow, 
Executive Director, Center for Auto Safety.
    Mr. Uchiyamada, we would like to start with you, sir.

  STATEMENT OF TAKESHI UCHIYAMADA, EXECUTIVE VICE PRESIDENT, 
                    TOYOTA MOTOR CORPORATION

    Mr. Uchiyamada. Chairman Rockefeller and members of the 
Committee, thank you for inviting me to address you today.
    My name is Takeshi Uchiyamada, an Executive Vice President 
of Toyota Motor Corporation, and I am the Chief Engineer of the 
growth of our company.
    I was fortunate to be the Chief Engineer of the first-
generation Prius. I helped run and develop the first mass-
produced hybrid in the world. And this hybrid led other 
automakers to realize the importance of environmentally-
friendly technology.
    As Toyota's president, Akio Toyoda, testified to Congress 
last week, Toyota's priority has traditionally been the 
following: first, safety; second, quality; third, volume. Our 
goal in developing safety-related technology isn't only to 
comply with regulations and standards and to strive for good 
safety ratings, but also to improve consumer safety in the real 
world. While concerns have been raised about our electronic 
throttle control system, this system, used by all major 
automakers, actually represents a great safety advancement, 
enabling superior traction control and electronic stability 
control, among other things. Because the ETCS controls the 
engine's throttle system, Toyota places the greatest importance 
on ensuring that the reliability of the system is absolute, by 
undertaking rigorous design and testing processes.
    Three things ensure this absolute reliability. The first is 
the fail-safe mechanisms we built into the design; second, is 
its tolerance to extreme environmental conditions; and third is 
its resistance to software problems.
    The fail-safe systems in Toyota's ETCS are robust. Our 
design includes two separate central processors. The main, or 
control, CPU calculates and executes the operating command for 
all engine systems. The sub-CPU monitors throttle control 
input, throttle control output, and main CPU processes. A 
watchdog signal passed between the two CPUs many times per 
second to confirm that the processors are working correctly. If 
the two CPUs are not in agreement, or either the main or sub-
CPU doesn't receive the watchdog signal, the engine management 
system will alert the driver and go into a fail-safe mode 
operation. The ETCS is also designed and tested to make sure it 
withstands all of the foreseeable environments, in terms on 
temperature, moisture, vibration, and electromagnetic 
interference, or EMI.
    We have testing data that confirms its reliability from all 
the markets in which we operate worldwide. OEMI--there is no 
regulation in the U.S., but we test the ETCS to withstand 
double the European regulation OEMI. In none of these cases has 
the ETCS failed.
    In addition, we test the software in the system 
extensively, both in the design phase and after it is 
developed, to ensure that there is no possibility of sudden 
unintended acceleration.
    I want to be absolutely clear. As a result of our extensive 
testing, we do not believe sudden unintended acceleration, 
because of defect in our ETCS, has ever happened. However, we 
will continue to search for any event in which such a failure 
could occur.
    In order to further validate the safety of our ETCS, we 
have asked Exponent, a world-class engineering and scientific 
consulting firm, to conduct its own independent, comprehensive 
evaluation. We are also addressing the issue of unintended 
acceleration through new technologies, including event-data 
recorders and brake-override systems.
    In conclusion, our Prius has changed the global auto 
industry with its environmental performance. Now we will strive 
to continue to be the leader in the area of safety. I'll help 
drive our team's effort to meet this challenge, ensure our 
drivers' safety, regain--and regain their trust and confidence.
    Thank you.
    [The prepared statement of Mr. Uchiyamada follows:]

  Prepared Statement of Takeshi Uchiyamada, Executive Vice President, 
                        Toyota Motor Corporation
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, thank you for inviting me to address you today. My name is 
Takeshi Uchiyamada. I am an Executive Vice President of the Toyota 
Motor Corporation, and I am the Chief Engineer for the global company.
    Since I was a child, I have been interested in technology and 
science. Stories about great inventors such as Edison, Bell and Ford 
fascinated me, and I dreamed of developing a car that everyone around 
the world would love. From the time I joined Toyota, I have been 
engaged in developing vehicles and engineering technology with my 
wonderful and experienced colleagues.
    I was fortunate to be the chief engineer of the first generation 
Prius. I helped plan and develop the first mass-produced hybrid in the 
world, and this hybrid led other automakers to realize the importance 
of environmentally friendly technology. What impressed me most is the 
fact that consumers had greater environmental awareness than we did as 
automakers. Our customers helped make hybrid cars popular and used 
widely around the world today.
    Today, I would like to focus my comments on Toyota's approach to 
safety, our views on engine throttle control systems--or ETCS--and how 
we are applying advanced technology to further address the issue of 
unintended acceleration.
    As Toyota's President Akio Toyoda testified to Congress last week, 
Toyota's priority has traditionally been the following: First; Safety, 
Second; Quality, Third; Volume. Our goal in developing safety-related 
technology is not only to comply with regulations and standards, and to 
strive for good safety ratings, but also to improve consumer safety in 
the real world. While concerns have been raised about our electronic 
throttle control system, this system--used by all major automakers--
actually represents a great safety advancement, enabling superior 
traction control and electronic stability control, among other things.
    Because the ETCS controls the engine throttle system, Toyota places 
the greatest importance on ensuring that the reliability of this system 
is absolute by undertaking rigorous design and testing processes. Three 
things ensure this absolute reliability. The first is the fail-safe 
mechanisms we build into the design. Second is its tolerance to extreme 
environmental conditions. And third is its resistance to software 
problems.
    The fail-safe systems in Toyota's ETCS are robust. Our design 
includes two separate central processors--a main central processing 
unit, or ``CPU'', and a sub CPU. The two CPUs are both inside the 
engine control module and they both get the same throttle-related 
inputs in parallel from the engine sensor network.
    The main, or ``control'' CPU calculates and executes the operating 
commands for all engine systems. The sub CPU monitors throttle control 
inputs, throttle control outputs, and main CPU processes. A ``watchdog 
signal'' passes between the two CPUs many times per second to confirm 
that the processors are working correctly. If the two CPUs are not in 
agreement, or either the main or sub CPU does not receive the ``watch 
dog signal'', the engine management system will alert the driver and go 
into a fail-safe mode operation.
    The ETCS is also designed and tested to make sure it withstands all 
of the foreseeable environments in terms of temperature, moisture, 
vibration, and electromagnetic interference (EMI). We have testing data 
that confirms its reliability from all the markets in which we operate 
worldwide. On EMI, there is no regulation in the U.S., but we test the 
ETCS to withstand double the European regulation for EMI. In none of 
these cases has the ETCS failed.
    In addition, we test the software in this system extensively both 
in the design phase and after it is developed to ensure that there is 
no possibility of ``sudden unintended acceleration.''
    I want to be absolutely clear: As a result of our extensive 
testing, we do not believe sudden unintended acceleration because of a 
defect in our ETCS has ever happened. However, will continue to search 
for any event in which such a failure could occur.
    In order to further validate the safety of our ETCS, we have asked 
Exponent, a world-class engineering and scientific consulting firm, to 
conduct its own independent, comprehensive evaluation.
    We are also addressing the issue of unintended acceleration through 
new technologies, including event data recorders and brake override 
systems.
    In conclusion, our Prius has changed the global auto industry with 
its environmental performance. Now, we will strive to continue to be 
the leader in the area of safety. I will help drive our team's efforts 
to meet this challenge, ensure our drivers' safety and regain their 
trust and confidence.
    Thank you.

    The Chairman. Thank you very much, Mr. Uchiyamada.
    And now I'd like to turn to Mr. Sasaki.

STATEMENT OF SHINICHI SASAKI, EXECUTIVE VICE PRESIDENT, TOYOTA 
                       MOTOR CORPORATION

    Mr. Sasaki. Chairman Rockefeller and members of the 
Committee, thank you for inviting me to address you today.
    My name is Shinichi Sasaki, and I am an Executive Vice 
President of Toyota Motor Corporation, where I am responsible 
for quality assurance and customer service.
    In my testimony, I will outline the significant ways in 
which Toyota is changing its approach to customer safety in 
light of the lessons we have learned from our recent recalls. 
As we look to the future, we need to ensure that we listen more 
closely to our customers' voices and address them more quickly 
and aggressively. To accomplish this, we are fundamentally 
overhauling Toyota's quality-assurance process, under the 
personal direction of our President, Akio Toyoda. This overhaul 
would cover the entire quality assurance process, from vehicle 
planning and design to manufacturing, sales, and service.
    In the design stage, we previously had been focused on 
technical and regulatory considerations. However, we need do 
more consider customer expectations and real-world usage of our 
vehicles, even the regular use. We also will reduce the number 
of things we ask our customers to do correctly. While quick and 
accurate recall decisions are important, so, too, are the steps 
we can take to prevent such events during our quality assurance 
process. Therefore, we will intensify our focus on safety 
design and the principle of preventing any harm during the full 
vehicle life.
    With regard to customer service, we will build a better 
network to collect customer information in a more timely manner 
at the site. In the tradition of Genchi Genbutsu, or ``go and 
see,'' in the United States we will establish additional 
technical branches in several cities. This will reinforce our 
local customer service and allow us to deploy SWAT teams of 
technicians to make onsite inspections of reported instance of 
unintended acceleration as quickly as possible. To make this 
activity more useful, we will not only use EDR data, but 
improve our vehicle diagnostic tools.
    With regard to recalls, in order to help us make timely and 
appropriate decisions, we will share global field information 
by allowing each regional staff to access to our quality 
network globally.
    For the future, our U.S. staff will have a clear 
decisionmaking role. Ultimately, our goal is for the United 
States to have an even greater voice in decisions on vehicles 
and other safety and satisfaction issues.
    The quality and safety of our vehicle are Toyota's 
lifeline. I will do my utmost to make sure that our vehicles 
remain among the safest and most reliable in the world, by 
leading and training all Toyota quality and safety personnel in 
United States and all other areas.
    Chairman Rockefeller, members of the Committee, these 
important actions reflect Toyota's unwavering commitment to 
restoring the reputation for quality that our company has built 
in the United States over more than half a century. We look 
forward to working with NHTSA and with Congress to advance our 
shared goal of improved road safety for the drivers and the 
general public.
    Thank you.
    [The prepared statement of Mr. Sasaki follows:]

   Prepared Statement of Shinichi Sasaki, Executive Vice President, 
                        Toyota Motor Corporation
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, thank you for inviting me to address you today. My name is 
Shinichi Sasaki and I am an Executive Vice President of Toyota Motor 
Corporation, where I am responsible for quality assurance and customer 
service.
    In my testimony, I will outline the significant ways in which 
Toyota is changing its approach to customer safety in light of the 
lessons we have learned from our recent recalls.
    We are redoubling our commitment to always put our customers--and 
their safety--first. We are also giving our people in North America a 
greater role in the quality assurance process, including recalls. And 
we are communicating more openly and more transparently with U.S. 
safety regulators and consumers.
    Toyota has rigorously tested the solutions for our recent recalls 
and we are confident that with the repairs our dealerships are making, 
Toyota vehicles are among the safest on the road today. However, as we 
look to the future, we need to ensure that we listen more closely to 
our customers' voices, consider their concerns seriously and sincerely, 
and address them more quickly and aggressively.
    To accomplish this, we are fundamentally overhauling Toyota's 
quality assurance process, under the personal direction of our 
President, Akio Toyoda. This overhaul will cover the entire quality 
assurance process--from vehicle planning and design to manufacturing, 
sales and service.
    In the design stage, we previously had been focused on technical 
and regulatory considerations. However, we need to do more to consider 
customer expectations and real world usage of our vehicles, even 
irregular use. We need to focus even more on customer behavior, and 
reduce the number of things we ask our customers to do correctly. While 
quick and accurate recall decisions are important, so too are the steps 
we can take to prevent such events during our quality assurance 
process. Therefore, we will intensify our focus on ``safety design'' 
and the principle of ``preventing any harm during the full vehicle 
life.''
    With regard to customer service, we will build a better network to 
collect consumer information in a more timely manner at the site, in 
the tradition of Genchi Genbutsu--or ``go and see.'' In the United 
States, we will establish additional technical branches in several 
cities. This will reinforce our local customer service and allow us to 
deploy ``SWAT teams'' of technicians to make on-site inspections of 
reported incidents of unintended acceleration as quickly as possible. 
To make this activity more useful, we will not only use EDR data but 
improve our vehicle diagnostic tools. All of this will put us in a 
better position to address quality issues more promptly and accurately.
    With regard to recalls, in order to help us make timely and 
appropriate decisions, we will share global field information by 
allowing each regional staff to access to our quality network globally. 
Although each country's staff was previously well involved in field 
data collection and analysis, as well as the process for considering 
possible action, their authority for decisionmaking was neither clear 
nor formalized. For the future, our U.S. staff will have a clear 
decision-making role. Ultimately, our goal is for the United States to 
have an even greater voice in decisions on recalls and other safety and 
satisfaction issues.
    The quality and safety of our vehicles are Toyota's lifeline. I 
will do my utmost to make sure that our vehicles remain among the 
safest and most reliable in the world by leading and training all 
Toyota quality and safety personnel in the United States and all other 
areas.
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, these important actions reflect Toyota's unwavering 
commitment to restoring the reputation for quality that our company has 
built in the United States over more than half a century.
    We look forward to working with NHTSA, and with Congress, to 
advance our shared goal of improved road safety for drivers and the 
general public.
    Thank you.

    The Chairman. Thank you very much, Mr. Sasaki.
    And now I'd like to call on Mr. Inaba, President and Chief 
Executive Officer of Toyota Motor Company of North America.
    Please.

        STATEMENT OF YOSHIMI INABA, PRESIDENT AND COO, 
  TOYOTA MOTOR NORTH AMERICA (TMA); AND CHAIRMAN/CEO, TOYOTA 
                          MOTOR SALES

    Mr. Inaba. Chairman Rockefeller, members of the Committee, 
thank you for inviting me to testify today. My name is Yoshimi 
Inaba. I am the President of--and COO of Toyota Motor North 
America.
    In my testimony, I'll address the decisive steps Toyota is 
taking to restore the trust of the tens of millions of American 
who purchase and drive our vehicles.
    For 50 years, Toyota has provided Americans with cars and 
trucks that are safe and reliable. For the past 25 years, we 
have built many of those vehicles here in the United States. 
Our 200,000 Toyota team members at plants, dealerships, and 
suppliers in this country are united in their determination to 
provide even safer high-quality vehicles in the future.
    I am honored to be joined here today by several members of 
the Toyota family in the United States. Their dedication to our 
values has helped establish Toyota's record for quality and 
dependability.
    In recent months, we have not lived up to the high standard 
our customers and the public have come to expect from Toyota, 
despite all of our good-faith efforts. As our president, Akio 
Toyoda, told Members of Congress last week, we sincerely regret 
our shortcomings have resulted in the issues associated with 
our recent recalls.
    I can assure you that we have learned from this experience. 
Here are the actions that we are taking:
    First, Toyota engineers have developed effective and 
durable solutions for the vehicles we have recalled. Our U.S. 
dealers have repaired more than 1 million vehicles to date and 
continue to make extraordinary efforts to complete these 
recalls quickly and conveniently. They are literally working 
round the clock.
    Second, we are making fundamental changes in the way our 
company operates, in order to ensure that Toyota sets an even 
higher standard for vehicle safety and reliability, 
responsiveness to customers, and transparency with regulators. 
At a global level, we have established a special committee for 
global quality, led by Toyota's president, to thoroughly review 
our operations.
    In addition, we are assembling a blue-ribbon panel of 
distinguished independent experts to confirm that the enhanced 
quality controls we are putting into place conform to best 
industry practice. I am pleased to say that former 
Transportation Secretary Robert--Rodney Slater will help lead 
this panel.
    We are also putting a system in place to better share 
important quality and safety information across our global 
operations and to work more closely with the government 
agencies, including NHTSA in the United States.
    At the regional level, we will ensure that our customers' 
voices will be heard and acted upon in a timely manner. In the 
United States, we will deploy SWAT teams of technicians to make 
onsite inspections of unintended acceleration reports as 
quickly as possible. Our North American operations will have 
more autonomy and decisionmaking power with regard to recall 
and other safety issues.
    In addition, we will establish a new automotive center for 
quality excellence in the U.S., where a team of our top 
engineers will focus on strengthening our quality control 
throughout the region.
    At the customer level, we are taking significant steps to 
bolster confidence in the safety and reliability of our 
vehicles. Toyota will be one of the first full-line automakers 
to make brake override systems standard on all our new models 
sold in North America, including hybrids, which have a system 
that achieves a similar result. We also are installing brake 
override on seven existing models.
    In addition, we have commissioned a comprehensive, 
independent evaluation of our electric throttle control system 
by a world-class engineering and scientific consulting firm. We 
are confident that the system is safe, but we recognize that 
the public seeks additional reassurance, and we will make the 
findings of this independent analysis public.
    Chairman Rockefeller and members of the Committee, Toyota 
continues to produce many of the best vehicles in the world. We 
are proud of our heritage, and deeply appreciate the loyalty of 
Toyota drivers, so many of whom continue to tell us how much 
they love our cars.
    For the future, we will revitalize the simple principle 
that has guided Toyota since 1937: to build the highest 
quality, safest, and most reliable automobiles in the world.
    Thank you so much.
    [The prepared statement of Mr. Inaba follows:]

 Prepared Statement of Yoshimi Inaba, President and COO, Toyota Motor 
       North America (TMA); and Chairman/CEO, Toyota Motor Sales
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, thank you for inviting me to testify today. My name is 
Yoshimi Inaba, and I am the President and COO of Toyota Motor North 
America and Chairman and CEO of Toyota Motor Sales, U.S.A., Inc.
    In my testimony, I will address the decisive steps Toyota is 
taking--now and for the future--to restore the trust of the tens of 
millions of Americans who purchase and drive our vehicles. For 50 
years, Toyota has provided Americans with cars and trucks that are safe 
and reliable. For the past 25 years, we have built many of those 
vehicles here in the United States. Our 200,000 Toyota team members at 
plants, dealerships and suppliers in this country are united in their 
determination to provide even safer, high quality vehicles in the 
future. I am honored to be joined here today by several members of the 
Toyota family in the United States. Their dedication to our values has 
helped establish Toyota's record for quality and dependability. And, we 
are redoubling our commitment to always put our customers--and their 
safety--first.
    In recent months, we have not lived up to the high standards our 
customers and the public have come to expect from Toyota, despite all 
of our good faith efforts. It is clear to us that we did not listen as 
carefully as we should--or respond as quickly as we must--to our 
customers' concerns. As our President Akio Toyoda told members of 
Congress last week, we sincerely regret that our shortcomings have 
resulted in the issues associated with our recent recalls.
    I can assure you that we have learned from this experience. Here 
are the actions that we are taking:
    First, Toyota engineers have developed effective and durable 
solutions for the vehicles we have recalled. Our U.S. dealers have 
repaired more than one million vehicles to date and continue to make 
extraordinary efforts to complete these recalls quickly and 
conveniently. They are literally working around the clock. To make the 
process as trouble-free as possible for customers, Toyota last week 
extended additional, complimentary services to owners concerned about 
driving their vehicle before the repair is completed.
    Second, we are making fundamental changes in the way our company 
operates in order to ensure that Toyota sets an even higher standard 
for vehicle safety and reliability, responsiveness to customers and 
transparency with regulators.
    At a global level, we have established a Special Committee for 
Global Quality, led by Toyota's President. It will thoroughly review 
our operations and make changes to ensure problems of this magnitude do 
not happen again. In the interest of openness, we are assembling a blue 
ribbon panel of distinguished, independent experts to confirm that the 
enhanced quality controls we are putting into place conform to best 
industry practices. I am pleased to say that former Transportation 
Secretary Rodney Slater will help lead this panel . We are also putting 
a system in place to better share important quality and safety 
information across our global operations and to work more closely and 
transparently with government agencies, including NHTSA in the United 
States.
    At a regional level, we will ensure that our customers' voices will 
be heard and acted upon in a timely manner. In the United States, we 
will investigate consumer complaints more aggressively by deploying 
``SWAT teams'' of technicians to make on-site inspections of unintended 
acceleration reports as quickly as possible. We are establishing the 
new position of Regional Product Safety Executive, and our North 
American operations will have more autonomy and decision-making power 
with regard to recall and other safety issues. In addition, we will 
establish a new Automotive Center of Quality Excellence in the U.S., 
where a team of our top engineers will focus on strengthening our 
quality control throughout the region.
    At the customer level, we are taking significant steps to bolster 
confidence in the safety and reliability of our vehicles. Toyota will 
be one of the first full-line automakers to make brake-override systems 
standard on all our new models sold in North America, including hybrids 
which have a system that achieves a similar result. We also are 
installing brake override on seven existing models. This advanced 
system automatically cuts engine power when the accelerator and brake 
pedals are both depressed. In addition, we have commissioned a 
comprehensive, independent evaluation of our electronic throttle 
control system by a world-class engineering and scientific consulting 
firm. In our own extensive testing, we have never found a defect that 
has caused unintended acceleration. We are confident in the system but 
we recognize that the public seeks additional reassurance and we will 
make the findings of this independent analysis public.
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, Toyota continues to produce many of the best vehicles in the 
world. We are proud of our heritage and deeply appreciate the loyalty 
of Toyota drivers, so many of whom continue to tell us how much they 
love our cars.
    In renewing our commitment to customer safety as our top priority, 
we will revitalize the simple principle that has guided Toyota since 
1937--to build the highest quality, safest and most reliable 
automobiles in the world.
    Thank you.

    The Chairman. Thank you, Mr. Inaba.
    And now, Mr. Ditlow.

               STATEMENT OF CLARENCE M. DITLOW, 
           EXECUTIVE DIRECTOR, CENTER FOR AUTO SAFETY

    Mr. Ditlow. Thank you, Senator Rockefeller, members of the 
Committee.
    I won't go over my earlier points from this morning----
    The Chairman. Can't hear you very well.
    Mr. Ditlow. Sorry.
    Thank you, Senator Rockefeller and members of the 
Committee.
    I won't go over my earlier points from this morning. I'll 
focus--I want to go to some policy issues.
    First of all, strong regulations and effective enforcement 
protect not only the consumer from death and injuries in 
crashes, but they also protect the manufacturer's reputation by 
ensuring the safety and reliability of the vehicles that they 
sell. No one wins by cutting corners on safety, whether it's 
the consumer, the manufacturer, or the Department of 
Transportation.
    Unfortunately, the Department of Transportation has not 
kept up with modern automobiles. The standard should lead 
technology, not lag behind technology. Toyota itself, during 
the last 10 years, has lost sight of where it was. In the 
1980s, when the Camry was first introduced as one of the best 
vehicles in America, it had problems, but Toyota stepped up 
within a year, found the problems, fixed the problems, notified 
the consumer, and took care of the consumer. Toyota needs to go 
back to what it does best, which is building safe, reliable 
vehicles, and responding to the consumer.
    But, out of all of this, Toyota and NHTSA need to move 
forward. First and foremost for Toyota, it needs to install the 
brake override on all vehicles with the electronic throttle 
control. To restore consumer faith in the openness of Toyota, 
it needs to release all the information that it submits to the 
government in the acceleration investigations. It needs to 
conduct a public engineering study into electronic controls 
that has experts with no ties to the automobile industry.
    NHTSA itself needs to immediately set a standard for 
accelerators, and not the old mechanical standard that dates 
from 1973. It needs the brake--it needs to set a standard for 
electronic brake overrides for all manufacturers. It needs to 
upgrade the event data recorder rule. We have to have event 
data recorders on all vehicles. They need to be standardized, 
and there need to be readouts.
    Finally, one of the things to come out of this is, we don't 
do adequate crash investigations in this country to protect--to 
find out what the problem is, to predict defects, to catch them 
before they become major crises like Toyota acceleration and 
Ford Explorer.
    If we had a national accident sampling system at the full 
original design level of 19,000 crash investigations per year, 
we could have predicted defects like this. We would have found 
them earlier. We wouldn't have them buildup over 10 years 
before we get a recall and before manufacturers like Toyota 
suffer in their reputation.
    Let's build a system that works, as we move forward, 
because it gets back to that final thing: cutting corners on 
safety is no bargain for anyone--the consumer, the 
manufacturer, or the government.
    Thank you.
    [The prepared statement of Mr. Ditlow follows:]

     Prepared Statement of Clarence M. Ditlow, Executive Director, 
                         Center for Auto Safety
    Mr. Chairman and members of the Committee thank you for the 
opportunity to testify on sudden unintended acceleration in Toyota 
vehicles and the regulatory response of the National Highway Traffic 
Safety Administration (NHTSA). The Center for Auto Safety (CAS) is a 
consumer group founded by Consumers Union and Ralph Nader in 1970 to be 
a voice for consumers on auto safety.
    The Toyota Unintended acceleration crisis which has claimed at 
least 56 lives was a long time building. Draconian cuts in NHTSA's 
enforcement budget and staffing, failure to follow up on early research 
into electronic controls and adopting safety standards based on the 
research, lax enforcement, flawed research on electronic controls, 
manufacturers exploiting weaknesses in NHTSA's regulatory programs, 
inadequate crash data collection programs and failures to implement the 
Early Warning Reporting System mandated in the TREAD Act all played 
significant roles. Even worse for consumers is that more Toyota's 
remain to be recalled.
    Unrecalled Camrys Lead Deaths: The only Toyota Camrys being 
recalled are the 2007-10 model years. The Toyota that leads the known 
death list in unintended acceleration is the 2005 Camry--there are 5 
known crashes with 7 deaths. There are 7 other crashes with 8 deaths in 
2002-04 and 06 Camrys not subject to the recall according to public 
records obtained by the Los Angeles Times. Unrecalled 2002-06 Camrys 
with electronic throttle control total 12 crashes with 15 deaths 
compared to 6 crashes with 7 deaths for 2007-10 Camrys. The unrecalled 
2002-06 Camrys have twice as many fatal crashes and deaths as the 
recalled 2007-10 Camrys based on public records of know 2002-10 Camrys 
linked to unintended acceleration.

------------------------------------------------------------------------
                                                                  Model
          Name                   Date               State          Year
------------------------------------------------------------------------
Barbara Schwarz           September 20, 2007  Yukon OK             2005
Anne Ezal                 February 25, 2007   Pismo Beach CA       2005
Guadalupe Alberto         April 19, 2008      Flint MI             2005
Ella Mae & Lon Braswell   June 5, 2005        Athens GA            2005
Adegoke & Adeolu          March 1, 2009       Marietta GA          2005
 Aladegbemi
Noriko Uno                August 28, 2009     Upland CA            2006
NHTSA Withheld Name       March 14, 2004      HI                   2002
Juanita Grossman          March 16, 2004      Evansville IN        2003
Blossom Malick            March 15, 2004      Delray Beach FL      2003
Ethyl Marlene Foster      March 14, 2004      Phoenix OR           2004
George & Maureen Yago     January 22, 2004    Las Vegas NV         2002
Maria Cafua               September 4, 2003   Wilmington MA        2002
------------------------------------------------------------------------

    NHTSA Investigations: Beginning in 2001 with the introduction of 
electronic throttle control (ETC) in 2002 Camry and Lexus ES300, 
consumer complaints increased by 4-fold in Toyota and Lexus models. In 
response NHTSA received five defect petitions of which it denied four 
and granted one. It opened three Preliminary Evaluation (PE) 
investigations, two of which became Engineering Evaluations. None of 
these investigations was concluded with a vehicle safety recall. The 
investigations as a whole show significant weakness in the NHTSA 
enforcement program which:

------------------------------------------------------------------------
     Investigation             Year/Make/Model              Outcome
------------------------------------------------------------------------
DP04-003                2002-03 Camry, Camry Solara,  PE04-021
                         Lexus ES300
DP05-002                2002-05 Camry, Solara, Lexus  Denied
                         ES
DP06-003                2002-06 Camry, Solara         Denied
DP08-001                2004-08 Tacoma                Denied
DP09-001                2007 Lexus ES350, 2002-03     Denied
                         Lexus ES300
PE07-016/EA07-010       2007-08 Camry, Lexus ES350    07E-082
PE08-025/EA08-014       2004 Sienna                   Safety Improvement
                                                       Campaign
------------------------------------------------------------------------

    Toyota exploited to avoid recalls until the tragic crash in San 
Diego in August 2009 that resulted in 4 deaths in a Lexus driven by an 
experienced highway patrol officer who was unable to bring the vehicle 
to a stop. But for the crash being caught on a 911 tape, the recent 
recalls would not have occurred because the crash would have gone 
unnoticed like so many before it.
    Early Warning Reporting System Failure: When the TREAD Act was 
passed in 2000, Congress required NHTSA to set up an Early Warning 
Reporting System (EWR, named ARTREMIS by NHTSA) to prevent another 
Ford-Firestone crisis that led to TREAD. Obviously, it didn't work 
because we now have a Toyota unintended acceleration crisis. The DOT 
Inspector General has twice criticized EWR which costs $9.4 million to 
set up through 2004 and an estimated $11.5 million in operating and 
maintenance costs from 2005 through 2009. According to the IG:

        Although ARTEMIS became fully operational in July 2004, it does 
        not have the advanced analytical capabilities originally 
        envisioned to help point analysts to potential safety defects. 
        For example, the system cannot automatically notify analysts if 
        consumer-reported complaints and manufacturer-reported warranty 
        claims are both increasing due to vehicle steering problems. 
        According to NHTSA officials, delays in acquiring these 
        capabilities will prevent NHTSA from obtaining full value from 
        the EWR information manufacturers report. While ARTEMIS will 
        automatically point analysts to deaths that manufacturers 
        report so that trends in small numbers of fatalities can be 
        detected, ARTEMIS will not, as currently developed, link deaths 
        to an alleged defect or identify relationships between the 
        categories of EWR information. In short, ARTEMIS cannot perform 
        more advanced trend and predictive analyses that were 
        originally envisioned as being needed to identify defects 
        warranting investigation. . . .

        [T]he public will have access to only a portion of the EWR 
        information being reported by manufacturers prior to NHTSA 
        formally opening a defect investigation. Since only NHTSA will 
        have access to the majority of the EWR information, it is 
        critical that it establish procedures to ensure Congressional 
        concerns expressed in September 2000 about NHTSA's ability to 
        use the data it possessed to spot trends related to failures in 
        Firestone tires have been addressed. Consequently, much will be 
        riding on the ability of NHTSA's eight analysts, who are 
        responsible for reviewing the large volume of EWR information 
        and drawing conclusions about potential safety defects. This 
        will be especially true until such time as more advanced 
        analytical capabilities are acquired to complement ARTEMIS.

    We don't know whether there are data in EWR on Toyota unintended 
acceleration and what use NHTSA made of it. Unless a defect 
investigation in the form of a PE or an EA is opened, the public does 
not have access to NHTSA's analysis of EWR data. One thing is clear--
NHTSA has opened hundreds of investigations under EWR which are not 
made public like other defect investigations. We have gotten access to 
only one EWR investigation so far--Ford Explorer deaths labeled as 
DI06-Explorer. While NHTSA may refer to these as inquiries, CAS applies 
the duck test--if they look like a duck, waddle like a duck and quack 
like a duck, they are a duck. NHTSA's secretiveness in concealing EWR 
investigations is unreal but for the fact it used to conceal PE 
investigations. The agency just doesn't like the public to see what 
it's doing behind closed doors.
    The Center filed a FOIA for all EWR investigatory files and lists 
of EWR investigations but NHTSA responded by asking us to pay $55,000 
in advance. We limited our requests to just lists of EWR investigations 
to see if any inquiries were made to Toyota that would have given an 
early inquiry into Toyota acceleration but no response yet. There are 
only two answers to the EWR Toyota unintended acceleration defect--
either (1) EWR worked and gave NHTSA a heads up which NHTSA failed to 
act on or (2) EWR is a $20 million flop in failing to detect the 
biggest defect that came down the pike since Firestone tires on Ford 
Explorers. In order to assess NHTSA performance, EWR investigations 
must be made public.
    NHTSA Electronics Capability: Sudden unintended acceleration has 
always been recognized as a serious safety hazard. Early unintended 
acceleration recalls involved mechanical failures that were easy to 
detect and remedy. With the advent of electronic ignition systems and 
cruise control systems in the late 1970s and early 1980s unintended 
acceleration complaints without clear mechanical failures began to 
appear. NHTSA opened more and more unintended acceleration 
investigation. Some resulted in recalls for electronic control 
failures. The first two Toyota unintended acceleration recalls were for 
replacement of the cruise control computer which could cause unintended 
acceleration on startup.\1\
---------------------------------------------------------------------------
    \1\ (86V-132, 90V-040). CAS filed a defect petition (DP86-08) on 
vehicles recalled in 1990 which was denied as there wasn't a 
``reasonable possibility'' of a recall. More complaints led to PE90-021 
and a recall.
---------------------------------------------------------------------------
    1. 1989 Sudden Acceleration Study Led to Invalid Rejection of 
Toyota Complaints: As investigations mounted into unintended 
acceleration in a wide range of vehicles, in January 1989 DOT's 
Transportation System Center (TSC) conducted a review of unintended 
acceleration in which it concluded that absent evidence of throttle 
sticking or cruise control malfunction, driver error must have caused 
the unintended acceleration.\2\ The studies by the Institute for 
Telecommunications Sciences in 1975 and 1976 and their detailed 
analytical methods were neither cited nor used. TSC also did not look 
at electronic throttle control or computer software malfunctions. The 
vehicles examined in the study were 1983-86 models, none of which had 
electronic throttle controls or advanced microprocessors systems found 
in 2002-10 Toyota vehicles.
---------------------------------------------------------------------------
    \2\ ``An Examination of Unintended acceleration,'' HS-807-367, Jan. 
1989--Main Report, App. A-D.
---------------------------------------------------------------------------
    Based on TSC's finding that brakes could stop a vehicle suddenly 
accelerating from startup, NHTSA ruled out complaints that the brakes 
failed or could not stop a unintended acceleration from startup as 
driver error. A classic example of NHTSA's use of the TSC study is its 
denial of a defect petition (DP03-003) into unintended acceleration in 
1997-00 Lexus LS and GS model which had mechanical accelerator cables: 
\3\
---------------------------------------------------------------------------
    \3\ Defect Petition DP03-003 Denial.

        ``At the conclusion of TSC's effort, comprising thousands of 
        person-hours gathering data, comprehensively testing vehicles 
        including their systems and equipment, interviewing owners and 
        drivers, and inspecting crash scenes and the vehicles involved, 
        a report was released with the following conclusion: ``For a 
        unintended acceleration incident in which there is no evidence 
        of throttle sticking or cruise control malfunction, the 
        inescapable conclusion is that these definitely involve the 
        driver inadvertently pressing the accelerator instead of, or in 
---------------------------------------------------------------------------
        addition to, the brake pedal.''

    In the defect petitions, most consumer complaints were excluded 
because they were long duration events or where the driver said the 
brakes could not bring the vehicle to a stop. Not a single defect 
petition resulted in a recall. The one that was granted (DP04-003) and 
became an investigation (PE04-021) was closed without a recall after 
NHTSA excluded most complaints.\4\
---------------------------------------------------------------------------
    \4\ NHTSA Memo to File by S Yon Restricting Scope of PE04-021 
Investigation, March 23, 2004.
---------------------------------------------------------------------------
    2. Phantom VRTC EMI Interference Test on 2007 Lexus ES350: In the 
most crucial investigation, PE07-016/EA07-010, the agency conducted a 
test of a 2007 Lexus ES350 to: ``Determine whether reported incidents 
of unintended acceleration were caused by a vehicle system malfunction 
[electronic controls] or mechanical interference [floor mats].'' Later 
during DP09-001 which the petitioner asked the agency to look at causes 
of unintended acceleration other than mechanical interference such as 
electronic controls, the agency used the test report from EA07-010 to 
deny the petition without even sending a single information request to 
Toyota.
    This should have been the definitive test of whether it's floor 
mats or electronic controls. In DP09-001, NHTSA said: ``ODI and VRTC 
also conducted design reviews and testing to evaluate the possibility 
of other potential causes of unintended acceleration in the subject 
vehicles.'' Some of this work is summarized in the following excerpt 
from the VRTC test report:

        The Vehicle Research and Test Center obtained a Lexus ES350 for 
        testing. The vehicle was fully instrumented to monitor and 
        acquire data relating to yaw rate, speed, acceleration, 
        deceleration, brake pedal effort, brake line hydraulic 
        pressure, brake pad temperature, engine vacuum, brake booster 
        vacuum, throttle plate position, and accelerator pedal 
        position. Multiple electrical signals were introduced into the 
        electrical system to test the robustness of the electronics 
        against single point failures due to electrical interference. 
        The system proved to have multiple redundancies and showed no 
        vulnerabilities to electrical signal activities. Magnetic 
        fields were introduced in proximity to the throttle body and 
        accelerator pedal potentiometers and did result in an increase 
        in engine revolutions per minute (RPM) of up to approximately 
        1,000 RPM, similar to a cold-idle engine RPM level. Mechanical 
        interferences at the throttle body caused the engine to shut 
        down.

    Yet when CAS filed a FOIA for the test results and test procedure, 
NHTSA said it had no test data or any records of test procedure. NHTSA 
couldn't say what it did, how it did it or what the results were.\5\
---------------------------------------------------------------------------
    \5\ CAS Letter to NHTSA Administrator David Strickland--2/2/10.
---------------------------------------------------------------------------
    Safety Improvement Campaigns & Equipment Recalls: To make matters 
worse, in EA07-010, Toyota agreed to only do an equipment recall of 
55,000 all weather floor mats, 07E-082. That was a recall destined to 
fail. The notification letters to owners did not even require the 
vehicles be brought in for inspection to see what mats were in the 
vehicles or how they were secured. The equipment recall saved Toyota 
$100 million in recall costs according to Toyota's own estimate.
    The only other investigation that resulted in an action was PE08-
025/EA08-014 which resulted in a Safety Improvement Campaign which is 
not even recognized under the Motor Vehicle Safety Act. After a private 
meeting between NHTSA and Toyota including three former NHTSA employees 
representing Toyota (Erica Jones, Chris Tinto and Chris Santucci),\6\ 
Toyota Vice President Chris Tinto agreed to only a Safety Improvement 
Campaign as follows:
---------------------------------------------------------------------------
    \6\ S. McHenry Memo to EA08-014 File, October 15, 2008.

        Thank you for taking the time to meet with me and my staff on 
        October 14. Toyota has taken your message seriously and is 
        extending this offer to conduct a field action in order to 
        address the concern raised in EA08-014, an investigation into 
        the Toyota Sienna. . . . Toyota has not determined that the 
        condition at issue in EA08-014 is a ``safety-related defect'' 
        within the meaning of the Federal vehicle safety laws, and--a 
        summarized below--it continues to believe that no such defect 
---------------------------------------------------------------------------
        exists.

    How anyone can say unintended acceleration is not a safety defect.
    The first Safety Improvement Campaign came in 1995 when Chrysler 
balked at recalling minivans for tailgates that spring open in low 
impact crashes and killed over 40 people. They are not subject to any 
sanctions under the Safety Act if they are not carried out. They are 
not safety recalls and they are not as effective as safety recalls in 
getting defects remedied. NHTSA defends Safety Improvement Campaigns as 
the only thing they can get the manufacturer to do because the 
manufacturers otherwise just say no. This is a self-fulfilling 
prophecy.
    The latest manufacturer to join the ``just say no'' group is Honda 
on February 26 which refused to do a safety recall on 2005 Honda 
Odyssey minvans for tailgate lift struts that fail because NHTSA had 
let Toyota get away with Safety Improvement Campaign on its minivan. 
The Honda refusal is all the more troubling because NHTSA had conveyed 
a rare Safety Panel that approved sending a letter to Honda requesting 
the company to do a voluntary recall. When Honda just said no, the 
agency blinked and agreed to the non-statutory recall.
    Toyota Knew and Exploited NHTSA's Regulatory Weaknesses: From 2001 
to the October 2009 floor mat recall (09V-388) generated by the August 
2009 San Diego crash, all NHTSA's enforcement effort got was an 
ineffective equipment recall that saved Toyota $100 million and a 
Safety Campaign that's not enforceable under the law. Why? First, 
Toyota knew the investigatory system and exploited it. Only some 
acceleration complaints were submitted. It knew the agency had limited 
resources and would agreed to do remedies less than a full vehicle 
recall because the agency needed to move on to other investigations. 
Toyota didn't tell the agency about foreign recalls for floor mat 
interference with the gas pedal that would have caused more emphasis on 
an earlier vehicle floor mat recall. Toyota requested confidentiality 
for a wide range of materials that prevented full public scrutiny of 
the record.
    1. Lax Enforcement Program: Toyota was well aware of the fact that 
from 2004 to 2008, the agency stopped imposing civil penalties for 
failing to do timely recalls and only imposed $150,000 in penalties 
since then even though Congress increased the maximum penalty from 
$800,000 to $15 million inflation adjusted to $16.4 million in the 2000 
TREAD Act. In August 2004, NHTSA imposed a $1 million fine, about 7 
percent of the maximum against GM in a W/S wiper recall. In the 1970s 
NHTSA used to routinely obtain fines from $100,000 to $400,000 which 
represented up to 50 percent of the maximum fine instead of 7 percent.
    2. Inflated Influenced Recall Statistics: NHTSA tries to make its 
recall record look good by referring to 524 recalls involving 23.5 
million vehicles obtained as a result of its investigations. These 
numbers are not what they seem to be. First, 9.3 million came from Ford 
Cruise Control Deactivation Switch Fire recalls where the agency first 
launched an investigation in 1998 and got a small recall in 1999. After 
parked Fords starting catching on fire in garages and burning houses 
down, NHTSA belatedly opened more investigation and obtained more 
recalls. But not until October 2009 did NHTSA obtain the last of the 
Ford Cruise Control Deactivation Switch Fire recalls, some 11 years 
after its first investigation. Rather than being a regulatory success, 
this is a regulatory failure.
    The number of recalls is unduly inflated by very small vehicle 
recalls influenced by a single equipment recall. For example, Dometic 
made defective refrigerators for recreational vehicles and trailers 
which resulted in a single equipment recall but 77 vehicle recalls in 
2008. Similarly, Ricon made defective wheelchair lifts that resulted in 
two equipment recalls but nearly 100 vehicle recalls of just a few 
vehicles each. In each case, the real influenced recall was the 
equipment recall and the vehicle recall inflated the numbers cited by 
NHTSA. The 524 recalls should be more less than 300 recalls when the 
incidental small vehicle recalls are excluded..
    3. Reduced Budget and Programs: In 1980, there were 146 million 
vehicles on the road. Today there are 256 million. In 1980, there 119 
people in enforcement, today there are only 57. In 1980, NHTSA had 2 
cents per vehicle for enforcement, today it has less than a penny. The 
agency doesn't have its own test facility and must rent space from 
Honda in East Liberty OH. Any way one looks at it, the agency is 
underfunded. In terms of safety, the best way to look at it is motor 
vehicles are responsible for 95 percent of the Nation's transportation 
deaths but only 1 percent of the Transportation budget.
    4. Crash Investigations: The National Accident Sampling System 
(NASS) is another system that could have helped detect Toyota 
unintended acceleration earlier. The current budget is just over $12 
million and investigates only 4,000 crashes per year. This compares 
with a budget of around $10 million per year in the early 1980s 
providing about 10,000 cases. The original design would have produced 
nearly 19,000 cases per year which, at current costs, would require a 
budget of around $60 million.
    Had NASS been operating at its original design size, the agency 
could have spotted the problem with Firestone tires on Ford Explorers 
much earlier. The savings in life and limb from that discovery, even a 
few months earlier, alone would have been sufficient to cover the extra 
cost of NASS at its full design size. Explorers were introduced in 1990 
and the defective Firestone tires were on some of the earliest models. 
If the excessive Explorer rollovers resulting from failures of 
Firestone tires could have been spotted by the mid-1990s, it could have 
saved hundreds of lives and at least one billion dollars for Ford & 
Firestone.
    Conclusion: Toyota and NHTSA need to move forward. First and 
foremost, Toyota needs to install electronic brake override systems in 
all vehicles with electronic throttle control. Toyota must also agree 
to releasing all information submitted to NHTSA during the 
investigations and agreed to conduct a fully public engineering 
investigation of its electronic controls with independent scientists 
and engineers with no ties to the auto industry.
    NHTSA needs to issue safety standards that:

  <bullet> A new accelerator standard requiring fail-safe protection 
        that updates the existing 1973 standard, which was written 
        before the advent of electronically controlled accelerators.

  <bullet> A standard requiring electronic brake override in all 
        automobiles.

  <bullet> A standard providing electronic magnetic interference 
        protection.

  <bullet> A standard mandating installation of Event Data Recorders, 
        standard read outs for them and the collection of more 
        information including on rollover crashes.

    NHTSA needs to make public all its EWR investigations. Full minutes 
of all meetings with auto industry officials must be made public to 
prevent secret deals in all types of investigations. All submissions by 
manufacturers in investigations must be sworn under penalty of perjury. 
Elimination of non-statutory recalls such as Safety Improvement 
Campaigns and regional recalls where only some vehicles in some states 
get recalled. The whole enforcement program needs to be reinvigorated 
beginning with assessment of penalties at the top of the scale rather 
than the bottom. When people are killed by vehicle defects, fines 
should not be measured in a few dollars, if not a few cents per 
vehicle.

    The Chairman. Thank you, Mr. Ditlow.
    I will ask the first question. And then Senator Wicker, 
from Mississippi, who said he'll back in time, is acting today 
as the Ranking Member, and he will ask the second question. We 
will go on from there.
    Mr. Sasaki, last week, Mr. Lentz, the President of Toyota 
Motor Sales USA, testified that he had no authority to recall 
Toyota vehicles sold in the United States when those vehicles 
have safety problems. Now I believe either Mr. Inaba or Mr. 
Uchiyamada indicated that that's going to change, but I want to 
probe that. Is that an accurate statement, as of now?
    Translator for Mr. Sasaki. Let me answer. It is true that 
North American member was not officially included in our recall 
decisionmaking process. And we believe that we were taken into 
consideration the opinions of those members in North America 
sufficiently. However, we realize that, as you pointed out, our 
old system may have caused some concern or suspicion on the 
part of the United States or North American marketplace. 
Therefore, in order to improve this, we have decided to include 
someone who is very well familiar with the North American 
market situation to become a panel member, a very important 
panel member that would be involved in the recall 
decisionmaking process. And this inclusion is an official one.
    The Chairman. And will--when will that system start?
    Translator for Mr. Sasaki. Our North American entity has 
already selected candidates for this particular position. So, 
although I hope that we wouldn't have to come to that in near 
future, however, should we have to come to this, then this new 
system will be deployed immediately.
    The Chairman. Let me ask--we have two members--Mr. Sasaki, 
you and Mr. Uchiyamada, who are full board members--and 
actually, special board members of the Toyota Motor 
Corporation. So, I just--I can't help but wonder when this 
shift began to take place. It came as a surprise to me, but it 
evidently has taken place for some time now, enough to affect 
quality, and your president has so indicated. Was that a board 
decision? Was that just something that evolved? How did that 
come to pass, that there was the--a little bit less adherence 
to quality and safety, which is what I always associate Toyota 
with, and the desire to become the largest company in the 
country? That's a--that is a shift that was caused by 
something, some decision to take place, and I'm curious.
    Mr. Inaba. May I step in?
    Translator for Mr. Sasaki. Allow me to answer. As our 
President indicated in the House hearing last week, we really 
did not keep pace with our business expansion, our 
reinforcement of the human resources of the quality assurance.
    How this issue came about is because there were many 
vehicle--excuse me--many voices were sent to us from the 
customers, but we really did not listen to every one of them 
very carefully, one by one. We should have really listened to 
them carefully and rendered some technical analysis so that it 
would be connected to our following product improvement. 
However, the quality of this work or the efficiency of our work 
or speed with which we worked had become sluggish, or sort 
failed gradually, and this has come to a much larger issue. And 
we have taken this very seriously and reflected upon it very 
seriously. And then, as we said earlier, we have changed our 
system, and we are to improve our system very drastically and 
very greatly, and we are working on it very hard right now.
    The Chairman. Mr. Uchiyamada, we have a rule here that each 
questioner can only ask 5 minutes of questions, and my time has 
run out. I will come back.
    Mr. Wicker--Senator Wicker is not here now, so I'll call on 
Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I think I'll direct my questions to Mr. Inaba, but if 
someone else knows the answer, that's great, as well.
    But, Mr. Inaba, under what circumstances does Toyota make 
available the contents of its electronic data recorder?
    Mr. Inaba. I'll be glad to answer it, but Mr. Uchiyamada is 
a specialist or----
    Translator for Mr. Uchiyamada. At this time, all the Toyota 
vehicles have the electronic data recorder, or it is set in 
such a way that the event electronic data will remain. And it 
is not the case whether this is disclosed or not disclosed; 
however, because there is a special interface that we use, it 
is--it just turns out in such a way that only Toyota read it 
out.
    Senator Cantwell. I----
    Translator for Mr. Uchiyamada. May I continue?
    Senator Cantwell. Yes, go ahead.
    Translator for Mr. Uchiyamada. We believe that such data 
should become more public, and therefore, we are trying to make 
this data available to other entities than ourselves. And 
indeed, we are trying to provide 100 such data recorders by 
early April, and 150 units of such recorders by the end of 
April in North America.
    Senator Cantwell. Can I----
    Mr. Uchiyamada. Ah, sorry.
    Senator Cantwell. If I could, because we only have 5 
minutes. So----
    I'm asking this because one of my constituents' son died in 
a single-vehicle crash, driving one of the recalled 2007 Toyota 
Tundras. His parents have the truck's EDR, and have requested 
the company to give them access to the software to read its 
contents. Toyota has turned them down. In my State, there is a 
law pending, in the Washington legislature, as a result of 
Toyota's refusal.
    So, I want to know, is it possible that you will provide--
can you provide that information to Mr. Eves' family, so that 
they can have this data and information?
    Mr. Inaba. We'll be glad to do so. And this is our also 
desire to find out what has happened. I'm very, very sorry 
about what has happened to that family, but we will be--as Mr. 
Uchiyamada said, that, you know, 100 units are going to be made 
available by 1st of January, or beginning of January.
    And also, just for your information, that we are delivering 
first three units to NHTSA tomorrow. And also, at the same 
time, we are dispatching our engineers to train how to use it. 
So, we are doing this just tomorrow.
    Senator Cantwell. Does Toyota collect and store all the 
information?
    I should say thank you for that. We will look forward to 
getting that information as soon as possible.
    Does Toyota collect and store all the information from EDRs 
it decodes? And what does the company do with the information?
    Translator for Mr. Inaba. I am not 100 percent sure. 
However, so far in the United States, when the data or 
information was requested by entities such as NHTSA, police, or 
courts, we would submit that data to them. And I would assume 
that they are the one who is keeping them.
    Senator Cantwell. But, isn't all this valuable information 
in preventing accidents in the future and collecting it and 
seeing trends and seeing information?
    Translator for Mr. Inaba. I think you're completely right. 
I think we should utilize those data more actively to elucidate 
the cause of accidents in other matters.
    Senator Cantwell. And is there some reason that it is not 
standardized, as it is among U.S. manufacturers, why that data 
device isn't an open interface that is readable by other 
individuals? Is there some reason why U.S. manufacturers do 
that, and Toyota doesn't?
    Translator for Mr. Inaba. I understand that, at this time, 
some makers make it open and there are others who don't make 
them open, so it is not really a uniform state.
    Senator Cantwell. I see my time has expired, Mr. Chairman, 
but I think this is an issue for us to continue on and look at 
and investigate.
    The Chairman. Senator Cantwell, I have decided that, 
because of translation, each member will have 7 minutes, rather 
than 5.
    Senator Cantwell. OK.
    The Chairman. So, you have another 2.
    Senator Cantwell. OK. OK.
    Well, if I could, then, along that line of questioning. 
Obviously, this is a big contention among the victims of people 
of these accidents, that they can't get access to this 
information. There's only one electronic data recorder. And so, 
I know you think maybe making a move to 100 is a big step, but 
when other manufacturers have this as information--and then I 
would assume that that data and information, analyzed by lots 
of different people, could yield important information. So, 
besides the 100 devices, when will you try to make it an open 
interface?
    Mr. Inaba. Let me address that. I think, by middle of 2011, 
we're working with vendors, and therefore, it is going to be 
commercially available ahead of regulation--ahead of time of 
regulation.
    Translator for Mr. Uchiyamada. As Mr. Inaba mentioned, we 
would like to make this interface open, or public, so that it 
can contribute to the--finding out the cause of the accidents. 
And not just waiting for that to happen; as I said, we would 
like to bring more data readers to the United States so that 
this will also help to make this information available.
    Senator Cantwell. And NHTSA has--would also have this 
information, and make it available, if necessary? And NHTSA 
would have this information and could make it available, if 
necessary?
    Translator for Mr. Uchiyamada. That is correct. We will be 
handing over our recorders--readers, rather, to NHTSA.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you very much.
    And let me say--I was out of the room when this hearing 
began, this afternoon--it's just--it's wonderful to see Senator 
Lautenberg back and looking so good. He's had his first 
treatment, and he tells us that it's good for weight loss. But, 
Frank, you're looking----
    Senator Lautenberg. You should try it.
    Senator Wicker. I don't want to try it.
    [Laughter.]
    Senator Wicker. But, it's--well, I think I speak for 
everyone, it's wonderful to see you back and looking so great.
    Let me ask my question about three analyses of the 
electronics. You have the December 2009--and I'll ask this of 
Mr. Ditlow and whichever representative from Toyota would like 
to volunteer to answer this question--you've got the one in 
2009, commissioned by Toyota to an outside firm, Exponent. And 
it's my understanding that there has been an interim report 
confirming Toyota's contention that the unintended acceleration 
events could not be caused by the ETC system because the fail-
safes are successful in preventing it.
    Now, you have another study called the Gilbert study. This 
is a study paid for by, basically, plaintiffs' lawyers and 
people interested in bringing a lawsuit against Toyota, which 
they have a perfect right to do. Professor Gilbert is a 
professor at Southern Illinois University, and he did a study 
that determined that the system did not properly detect 
electronic malfunctions. And, of course, we understand that 
Toyota disputes these results, saying that Professor Gilbert's 
tests required a manipulation of the system that cannot 
actually happen on the road during driving conditions.
    And then, let me ask about the 2007 study, done by NHTSA on 
the Lexus, where, basically, they concluded that there was no 
defect in the electronics system. And I understand, Mr. Ditlow, 
that you have been critical of that 2007 study. I'll let you 
speak for yourself.
    But, I'd like to ask Toyota and Mr. Ditlow about those 
three analyses, and ask, When this sort of thing is done, are 
they peer-reviewed? Who takes an outside, objective look at it? 
The people who have a claim against Toyota have a perfect right 
to hire an attorney and hire someone to make an assessment. 
Toyota has a perfect right to pay Exponent to do an assessment. 
And the NHTSA assessment, I guess that was done internally, 
perhaps. They contracted that out.
    But, is there an accepted peer-review process to look at 
the methodology and tell us whether it was skewed one way or 
the other, whether the table was tilted in one direction or 
another, or whether it was absolutely called by the numbers?
    So, I'll let Mr. Ditlow go first, and then Toyota----
    Mr. Ditlow. Senator----
    Senator Wicker.--can volunteer.
    Mr. Ditlow.--there certainly is a known peer-review process 
to review any scientific test and study. None of the three 
studies that you cite have yet been peer-reviewed. And our--
taking the early----
    Senator Wicker. Even the 2007----
    Mr. Ditlow. No. As a----
    Senator Wicker.--study?
    Mr. Ditlow.--matter of fact, there's nothing to peer-
review, because the government has no data from that test on 
the electronics. It has no test procedure that it did. So, if 
you called in a panel of scientists to look at the information 
on the testing, there is no information to look at.
    I know that this is difficult to fathom, but I called up 
the--we filed a Freedom of Information Act request, didn't get 
any data, didn't get any procedure. I called up the government, 
and I said, ``Are you sure? You know, speaking as an engineer, 
you have to have data, you have to have a procedure.'' And they 
said, ``No, we have nothing other than the conclusions. It is 
what it is.'' So, you can't peer-review something that you 
don't have.
    But, certainly, as to the Southern Illinois University 
study, certainly as to whatever Exponent is going to do, it 
could and should be peer-reviewed.
    Senator Wicker. I see. OK. And who will speak for Toyota?
    Mr. Inaba. Let me start first, and then my colleague will 
supplement that.
    Senator Wicker. That will be fine.
    Mr. Inaba. First of all, to that question that--I have said 
in my testimony that we have asked The Honorable Rodney Slater, 
who is the ex-Secretary of Transportation, as our outside 
adviser, who set up a panel. And we will also ask him, 
specifically, that he can set up a different--from Exponent--
laboratory or whatever he chooses appropriate, so that they can 
test again our ETS system. Of course, as far as Exponent is 
concerned, it is also very well reputated, you know, consulting 
firm, and when the final report is available, we will certainly 
make it public.
    Translator for Mr. Uchiyamada. I would like to talk about 
the Exponent case, and also Dr. Gilbert's report.
    We have asked Exponent to conduct this investigation and 
evaluate this. We have really asked them to do it completely 
independently; we have not interfered with them at all with 
regards to the method they might apply.
    So--I'm sorry--so, I think we can call it a pure third-
party evaluation.
    With regards to Dr. Gilbert's experimentation, we have 
tried to recreate that, based on our, sort of, estimate, and we 
were able to reproduce his result; however, this we could do 
only in the laboratory, and we believe it is extremely unlikely 
or very difficult to reproduce in the real world.
    We also used other car manufacturers' vehicles to do this 
experiment, and we were able to create the same result, using 
other vehicle makes.
    Senator Wicker. Well, thank you, Mr. Chairman. And it's 
just amazing how quickly 7 minutes rolls past. Let me just 
suggest to you----
    The Chairman. Seven minutes and 40 seconds.
    Senator Wicker. That's right.
    [Laughter.]
    The Chairman. 43.
    Senator Wicker. Let me suggest, in the next 10 seconds, 
that there is an entity called the National Academy of Sciences 
that does independent peer reviews. And I've found, in my 
experience, 14 years in the House and Senate, that they can be 
relied upon to call it by the numbers. And I would simply 
suggest, to this panel and to colleagues, that it might be 
worthwhile to ask NAS if they're interested in performing an 
outside, independent, peer review of all three of these 
analyses so that the Committee can benefit from it.
    Thank you, sir.
    The Chairman. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    I've been sitting here thinking about--I--about 4 months 
ago, I responded to a want ad and purchased a 2003 Camry for my 
daughter, who's an upperclassman in college. And I did that 
because the want ad seemed appealing to me, and I knew that 
Toyota was a car with quality and reliability. And I have to 
tell you that, as I've read and studied what has gone on in 
this issue, I am enormously troubled by Toyota's response, 
going back some 7 or 8 years, to this issue of acceleration--
unintended acceleration. I just think the customer, and 
certainly, the Federal agencies, would expect more of, and 
expect better of, your company.
    Now, I want to ask several questions.
    First, Mr. Ditlow, you said, in your testimony, that of the 
2002 to 2010 Camrys linked to unintended acceleration, the 
unrecalled Camrys have twice as many fatal crashes and deaths 
as those who have been recalled.
    Mr. Ditlow. That's correct, Senator.
    Senator Dorgan. Are you confident with those numbers?
    Mr. Ditlow. Yes, I am. I expect that the numbers will 
increase as more investigation is done. We have two other cases 
right now that we're looking into.
    Senator Dorgan. All right.
    And, Mr. Inaba, let me ask you, then--if Mr. Ditlow is 
correct, that of the fatal crashes of Camrys between 2002 and 
2010 linked to unintended acceleration, if there are twice as 
many that are not recalled as there are that have been 
recalled, doesn't that raise real questions about whether the 
recall is extensive--or as extensive as it should have been?
    Mr. Inaba. Senator, I am not personally aware of that 
information, and therefore, I would ask Mr. Ditlow to give us 
some information and look into it, and maybe get back to you 
later on.
    Senator Dorgan. If the information is accurate, as Mr. 
Ditlow presents it, would you reach the same conclusion I have 
reached, that recalling a body of automobiles that has only 
half the rate of fatalities of unintended acceleration is 
hardly the answer? You would want to recall particularly those 
that have twice the rate.
    Mr. Inaba. I should not speculate, but that shouldn't be 
the case.
    Senator Dorgan. All right.
    Let me ask you, Mr. Inaba, and whomever else wishes. And 
then I ask about this accelerator, so I want to have the time.
    You have indicated in your testimony--Mr. Uchiyamada, you 
said, ``As a result of our extensive testing, we do not believe 
sudden unintended acceleration results because of a defect in 
our ETCS. In fact, we don't believe it's ever happened.''
    And then, Mr. Inaba, you have said, ``We are taking 
significant steps to bolster confidence,'' and then, down later 
in that paragraph, ``We have never found a defect that has 
caused unintended acceleration.''
    I think what I hear you saying is that you're doing things 
here to bolster confidence, but you don't believe there was a 
defect that caused the unintended acceleration. Is that what 
you are saying to us?
    Translator for Mr. Uchiyamada. It also depends on the 
result of the tests. However, we have sold, so far, over 40 
million vehicles that has ETC on them, and there was not a 
single case where we could identify that an ETC defect was the 
cause of unwanted or unintended acceleration.
    Senator Dorgan. So, your position is, you don't, at this 
point, think there's a defect in the accelerator or the 
throttle sensors that has caused sudden acceleration, if that's 
the case. I just want to try to understand what you're saying 
to us.
    And then I want to ask this question, finally. Mr. Wicker 
mentioned the study by Professor Gilbert of Southern Illinois 
University. I don't know the veracity of that study; I mean, 
it's very technical, I'm sure. But, I want to show a chart that 
I believe--this is a chart--a photograph that is on your own 
website, and it shows some technical data with respect to 
sensors.
    The first image shows how the sensors in the accelerator 
pedal send signals to the engine computer. And Professor 
Gilbert apparently wrote that this model has the potential for 
the engine computer not to recognize a short circuit in the 
pedal sensor. And I think you've indicated that you're not--you 
don't necessarily agree with that conclusion.
    But, then there's another sensor on the throttle valve, 
inside the engine, and that is the second chart. And Toyota 
uses--and by the way, this is a different sensor--Toyota uses 
sensors that correspond to the second picture. Most automotive 
users--most automakers, rather, use the type of sensors on the 
second. Both--for both the accelerator pedal and the engine 
throttle, Toyota, alone, I believe, uses the better sensor on 
the engine throttle control, but the less reliable sensor on 
the accelerator pedal.
    And so, I guess my question is, Why does Toyota use a 
different and, at least concluded by some, a less reliable 
sensor on the pedal assembly than most other manufacturers use? 
Is it a cost issue, or what has pushed Toyota into that 
judgment? Who could answer that question?
    Translator for Mr. Uchiyamada. We do not--we never use a 
sensor less reliable because of the cost.
    We put together a system under which the two sensors do not 
really give out the same values at the same time. By so doing, 
we could examine the validity of the signaling system.
    Senator Dorgan. All right. I'd like to inquire, with a 
written question, a bit more about that subject.
    And let me, again, just make this point, if I can. I think 
what you are saying to the Committee is, you are doing a lot to 
try to establish reliability once again. I don't think there's 
any question that everybody in this room has read the ratings, 
over many, many years. Toyota has been a brand that has 
inspired confidence and reliability and dependability and 
quality and so on. But, I do think that even those of us who 
have purchased that vehicle have some great concern about what 
we have learned in the recent months about the company's 
response to the questions of sudden acceleration. And I am 
especially interested and also concerned that you're saying to 
us that the sudden acceleration issue is not, in your judgment, 
resulting from a defect in the electronic system of a throttle 
or an accelerator pedal. I mean, it seems to me to be at odds 
with what many others believe to be the case.
    And so, you're doing a lot of things with respect to 
recall. You've got--I know you've got good men and women who 
are working 24 hours a day, trying to call vehicles into 
dealerships and so on. But, is it because you think there is no 
defect, just because you're trying to instill some greater 
notion of reliability?
    Translator for Mr. Uchiyamada. As I said, there is not a 
single case that ETC's failure lead to unwanted, unintended 
acceleration at this point. However, we would like to do the 
following to ensure the safety of our product:
    First point is, it could be possibly National Academy of 
Sciences utilizing a third-party organization to do another 
evaluation.
    For example, right now when you look at the notations the 
vehicle speed control of a NHTSA database--of course, this is 
something that we should probably work with a third party--but, 
as far as we could see it, more than half of those complaints 
related to non-acceleration.
    Mr. Uchiyamada. [Japanese.]
    The Chairman. After your translation, we have to go on to 
the next question.
    Translator for Mr. Uchiyamada. So, we would like to 
continue our effort to elucidate these things one by one. 
Another thing we might be asking is asking NHTSA to give us the 
VIN number of a certain event. We are deploying our SWAT team 
and sending a SWAT team to the site of the UA. When that is 
reported, we would like to utilize the event data recorder 
data. We want to, you know, do various things, and we really 
want to work on this.
    Mr. Inaba. We are very eager to find out.
    The Chairman. Thank you very much, Senator Dorgan.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    As you can imagine, you have a lot of loyal customers in 
Minnesota, and a group that hasn't been mentioned today, a lot 
of loyal auto dealers who have been, of course, hurt by this, 
as well, and are doing everything to meet the requirements of 
the recalls, and want to do that.
    Do you know, Mr. Inaba, how many vehicles have been 
recalled so far and how many remain to be fixed?
    Mr. Inaba. Well, talking about two recalls that--related to 
this unintended acceleration, we have about--in total, 5.3 
million customers, and we have them--more than 1 million. We 
are rigorously doing as quickly and as conveniently as 
possible, with the dealers really fully backing us up. And I 
really respect that--you know, the effort they are doing.
    Senator Klobuchar. And do you know how many remain to be 
done?
    Mr. Inaba. Oh. So, obviously, there are about 4 million. 
And we'd like to do it as quickly as possible.
    Senator Klobuchar. OK. Thank you.
    And then I--my major focus this morning was--as worthy as a 
discussion is about what you're going to do to fix these cars, 
which incredibly important, how you're going to deal, legally, 
with some of the victims and their families and things like 
that--but, my focus is on our own government and their 
relationship with Toyota and other industry players, and how we 
do a better job of regulating, so that when we go forward, 
we're going to be able to do a better job.
    And so, I was obviously concerned by this PowerPoint 
presentation that was--came out in the last week. And I just--
where it talks about ``wins'' for Toyota. And I understand 
businesses have to do well and get wins and move ahead. But, to 
me it seems like these were wins for Toyota but, arguably, 
losses for American customers. And this was the document that 
was presented to you by Toyota's Washington, D.C., office? Is 
that correct?
    Mr. Inaba. That is correct.
    Senator Klobuchar. And what does it mean when they talk 
about ``wins for Toyota,'' here?
    Mr. Inaba. Well, first of all, this is only after few days 
after my arrival to the United States, and then this is the 
very first orientation material by our Washington office. And 
to be honest, I do not recall the meeting or the data in any 
depth. And I reread it again, and I'm very embarrassed. First 
of all, this--tone of this information is so inconsistent with 
our company guiding principles and also my beliefs. And, of 
course, you can, you know, expect that, you know, first time, 
president coming to the office and they try to impress me.
    Senator Klobuchar. And----
    Mr. Inaba. And, let me--may I?
    And I think this is somewhere--you know, a small sample, a 
big universe. I want to believe that. But, at the same time, 
this is my job. If there's any element of this thinking around 
any organization somewhere, my job is to really rectify it and 
make sure that this not going to happen anymore.
    Senator Klobuchar. And I don't know if you've talked to 
anyone since, but you know what they mean when they say, 
``negotiated equipment recall on Camry, yes, regarding SA,'' 
which is, of course, the sudden acceleration, ``which saved 
$100 million-plus, with no defect found.'' What do you think 
they meant, when they said, ``no defect found''? Was that note 
that the--NHTSA hadn't found a defect?
    Mr. Inaba. I don't know. I mean, I don't know the basis of 
calculation of $100 million or so. Or I--using the word 
``negotiation'' is the wrong one, in my opinion. It should be a 
discussion. And therefore, I think there is an element that I 
have to really go into and then rectify it.
    Senator Klobuchar. And do you know if the people involved, 
with whom Toyota was negotiating--one of my concerns is, right 
now there are some NHTSA employees that are in Toyota's 
Washington office. Were any of those employees involved in 
this--former employees involved in this negotiation?
    Mr. Inaba. Well, they are the--I must say, a window person 
to day-to-day basis and discuss issues with NHTSA; that's 
correct. And two of them came from NHTSA--one fifteen years 
ago, and second one is 6 years ago. I know them personally by 
now, and they are of very high integrity. I really respect 
their expertise, and we value them--not their influence, but 
their expertise. And I think also they came from a very union 
staff. And it's hard to sort of imagine that they can exercise 
any strong influence rather than expert. And I really value 
their work they're doing.
    Senator Klobuchar. And I understand that under the current 
rules, this wasn't, arguably, a violation--it was, like, a 1-
year ban--but they were involved in these negotiations, then.
    Mr. Inaba. Discussion.
    Senator Klobuchar. Discussions. OK.
    Mr. Ditlow, I went through with--earlier, with Secretary 
LaHood and Administrator Strickland, some ideas for how we can 
fix this, going forward. And I just want to throw them out 
there again, because that's what I'm most interested in. When 
I'm talking about ``fixing,'' it is fixing the relationship 
between the government regulators, who are--our public, and my 
two customers, and many more in Minnesota, who had these 
acceleration events, and one was so bad for 6 miles that it 
burned her hubcaps--the brakes did. And fortunately, both of 
them survived. The things I threw out there was the resource 
issue, the procedural tools for NHTSA, so that they, maybe, can 
move things quicker when they want to do their own recalls. The 
fines which are, in this case, maybe as much as--the cap may be 
something like $16 million, compared to the $100 million 
saved--that's right up here on the chart--seems to be not a 
good balance. And the fourth thing I raised was this--doing 
something differently with the rules so that people won't be 
negotiating that used to work at NHTSA.
    Could you talk about what's your favorite of those choices, 
and if you think they all would be helpful?
    Mr. Ditlow. We have a--in terms of favorite, could you 
repeat----
    Senator Klobuchar. I'm just asking what you----
    Mr. Ditlow. Yes.
    Senator Klobuchar.--think should be our highest priority, 
as we go forward, to try to change the situation.
    Mr. Ditlow. Well, in the near term, the highest priority 
has to be to get electronic brake overrides in not only the 
recalled Toyota vehicles, but----
    Senator Klobuchar. I totally understand that that's our----
    Mr. Ditlow. Yes.
    Senator Klobuchar.--first priority. I am talking about the 
government agencies----
    Mr. Ditlow. Yes.
    Senator Klobuchar.--who to--seems to me, need to do their 
job differently so that people who file complaints feel like 
they're going to get an answer, and feel like they're going to 
get an answer when there's a rash of complaints that's 
consistent with what's going on here.
    Mr. Ditlow. Well, the government has to totally revamp its 
investigatory system. It has to recognize that it is, in fact, 
the cop on the beat; it's not Mr. Nice Guy. They need to go 
back and look at what the agency was doing in the 1970s, where 
the only thing that we had were safety recalls. We didn't have 
safety improvement campaigns. We didn't have regional recalls 
which excluded some parts of the country. The agency needs to, 
when it does an investigation, look to obtaining a full recall 
of the vehicles, not something that will save the manufacturer 
some money and get a quick out.
    But, the other thing is, the agency doesn't have the 
resources to do it. They simply move on from one investigation 
to another. There's always another one that's in the back of 
their mind. But, they need to do a good job on the one that's 
before them before they move on to the next one.
    Senator Klobuchar. OK. Thank you----
    The Chairman. Thank you----
    Senator Klobuchar.--very much.
    The Chairman. Thank you, Senator.
    And Senator LeMieux.

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I want to thank Mr. Uchiyamada, Mr. Inaba, Mr. Sasaki, and 
Mr. Ditlow for being here today.
    It occurs to me, in listening to the testimony, that when 
we're talking, as my colleague did, about pedal sensors and 
engine computers and microprocessors, that these cars are very 
complicated. And gone are the days when we, as consumers, could 
understand how these vehicles operate. And as these cars become 
more complicated, I believe the burden is more on the 
manufacturer to make sure that things operate properly. This is 
not my old 1966 Mustang that I could work on under the hood and 
maybe figure something out; these are extremely complicated 
vehicles.
    My wife and I have one of your cars. She drives an SUV and 
puts our three small kids in the back. So, when I learned of 
this, I did probably what most families do, and I went home and 
had a conversation with my wife about what she should do if her 
car accelerated out of control, whether it was a floor mat or 
some other problem. That's not a good conversation for us to be 
having, in terms of your company. And I want to echo what my 
colleague, Senator Cantwell, said, part of our disappointment 
is because of the reputation you have for being such an 
excellent purveyor of quality cars.
    Many of these issues have already been discussed. I 
understand what you're doing now, and I applaud you for doing 
it, with the independent evaluation, and I applaud you for the 
efforts that you're taking. My concern is how long you've known 
about this problem, and the efforts that you took in the past.
    We have been given--and I believe that the Chairman has 
entered this into the record--a PowerPoint presentation that 
was given, on September 20, 2006, by Mr. Jim Press, who was the 
President of Toyota Motor North America. I guess that was your 
predecessor, Mr. Inaba. Is that correct?
    Mr. Inaba. Yes, correct.
    Senator LeMieux. And this document looks like it was a 
slideshow presentation. Could someone from Toyota provide 
information to us as to where this presentation was given and 
to whom it was given?
    Mr. Inaba. I do not personally know that document. But, we 
will certainly get back to you with more information about 
that.
    [The information referred to is in the appendix.]
    Senator LeMieux. Is there anybody from Toyota who's 
familiar with this document who's here today?
    Mr. Inaba. Not from the three of us.
    Senator LeMieux. OK. Well, let me read to you--because I'm 
reviewing these documents, Mr. Chairman, as they've been 
presented to us. This is a slideshow presentation about a new 
era for Toyota and TMA in North America. And it goes through 
several issues, including safety issues. And there are 
notations, in back here, which are notes to this slide 
presentation. And on the document that has as its ending Bates 
number 25, there is reference to slide number 25, and it says 
the following: ``Our ability to manage the tide of safety 
investigations rests largely on our ability to work well with 
NHTSA. Over the last few years, we have seen our relationship 
begin to slip slightly with NHTSA. The reasons are complex. 
They include a combination of increased recalls, more 
investigation, and tougher negotiations between Toyota and the 
agency. Not all of the recall increase can be blamed on 
slipping Toyota quality.'' And it goes on from there.
    None of you have--I guess, have seen this document, but 
this is from the former President of Toyota Motors North 
America, or at least it contains information that he, I guess, 
presented or had presented to him. And I'm worried about some 
of these phrases, about ``managing the tide of safety 
investigations.'' I'm concerned about ``not all of the recall 
increase can be blamed on slipping Toyota quality.''
    And to the point that was made before, this looks like more 
of an effort to get in front of, in a public-relations way, a 
problem, in order to instill confidence in the consumer, and to 
deal with the government regulatory agency, than it does trying 
to solve a problem.
    And from the documents that I've reviewed, you've known 
about an acceleration problem, whether it's been caused by 
electronics, which you don't believe it has been, or whether 
it's been caused by floor mats, which, I guess, you believe it 
does, and you've taken measures on that--you've known about 
this problem for some time. And I have a concern that the 
efforts that you took in the past were not appropriate and you 
did not go far enough in the years prior to what you are doing 
today.
    Do you care to comment on that statement?
    Translator for Mr. Sasaki. Around 2006, the number of 
recalls in North America increased. And with regards to this, I 
do not have any data on me, personally, right now. So, I would 
like to submit to the Committee, later, more accurate numbers.
    [The information referred to is in the appendix.]
    Translator for Mr. Sasaki. It is certainly an embarrassing 
thing for a automotive manufacturer to create a--or produce a 
vehicle that had--have to be recalled later. However, when we 
realized that recall is needed, then that--the work of recall 
should be done properly. So, this may sound a little bit 
contradictory or complex or a bit strange, but the number of 
recalls were increasing, and that meant that, on the one hand, 
we were doing our job properly.
    With regards to our relationship with NHTSA, it is really 
unfortunate that some of you may have a concern, or some people 
might suspect it is--it was unhealthy. I would like to 
clarify--clear that, going forward, and build a healthy 
relationship with NHTSA.
    In the past 10 years, Toyota has conducted, in total, 66 
vehicle recalls in North America, of which 57 were on a 
voluntary basis. In other words, we were not given any 
instruction from NHTSA to do these recalls, however we did do 
that. Unfortunately, the remaining nine cases, our response was 
not good enough, and it ended up in the instructed recall by 
NHTSA. But, we are not trying to work on the relationship with 
NHTSA so that if we can persuade them, we can avoid recalls or 
anything like that, and our past record testifies to that. And 
this is a piece of information I would like you to understand.
    The Chairman. Thank you, Senator LeMieux.
    Senator LeMieux. Thank you.
    The Chairman. Senator Lautenberg.
    Senator Lautenberg. I wanted to ask Mr. Inaba a question. 
There was an internal document that was dated July 2009, and it 
described what the author considered to be a win for Toyota. 
One of these wins for Toyota's self-described safety group was 
$100-million saving from avoiding a safety recall in 2007.
    Mr. Inaba, your name is on the cover page of the document, 
and you have stated that it is a presentation that was made to 
you, thus the--you're endorsing--you're endorsing.
    Mr. Inaba. Yes, sir.
    Senator Lautenberg. Did this presentation raise a red flag 
that your company was prioritizing profit over safety?
    Mr. Inaba. It has never been the case, and it will never be 
the case. I think----
    Senator Lautenberg. But, it was described as a ``win.''
    Mr. Inaba.--safety----
    Senator Lautenberg. So, I think a win is a victory, 
obviously.
    Mr. Inaba. Well, let me address--safety is an utmost 
importance of our company, which is a guiding principle. And 
that is why I found--I reread that only recently, and then 
found a little embarrassing. And it is so inconsistent with our 
guiding principle and personal belief. Therefore, although they 
tried to impress me with the bigger numbers of money that they 
said they saved, but I would like to really--in my position, to 
rectify if there is any element of that thought in our 
organization.
    Senator Lautenberg. Is anyone at Toyota responsible--been 
made responsible for this presentation or related safety lapses 
at Toyota--been reprimanded for their lapse?
    Mr. Inaba. May I----
    [Pause.]
    Mr. Inaba. OK. Sorry, I just wanted to understand your 
English correctly.
    I have told the Washington office, since I found it later 
on, that this is not our, you know, company, sort of, policy, 
that cost comes first, you know, than the safety. And I 
reaffirmed them that safety comes first. And this is, you know, 
the top priority of our company. That's all, and there's no----
    Senator Lautenberg. But, there--that--there--it was not 
suggested that anybody was--in the company was responsible 
for--you're an engineer, as I remember, or one of you is an 
engineer. Is it possible that there is no assignment of 
responsibility for this lapse? Does it--didn't it fall on some 
department, some unit in the company that permitted this to 
happen?
    Mr. Inaba. May I ask--permitted this kind of presentation 
happen? Is that what you----
    Senator Lautenberg. No, that the acceleration happened. The 
sudden acceleration happened, that the accidents happened, that 
the injuries happened. Does it say, ``Look, you, so-and-so, 
your department, your responsibility--and that we're deadly 
serious about this at Toyota, and if you make that kind of 
mistake, your career is essentially over,'' or whatever, 
however----
    Mr. Inaba. Oh, OK.
    Senator Lautenberg.--you manage.
    Mr. Inaba. Now--and let me just address this first. Of 
course, you know, we take any accident, or especially a fatal 
accident, very seriously. But, the same time, I don't believe 
there is a--any sort of rule or system that we would punish any 
individuals when it happens and we know--even if we know root 
cause of that.
    Senator Lautenberg. Toyota's progress was remarkable; they 
went from 10-percent market share in 1999 to 13 percent of the 
market share in 2008. GM fell from 17 percent to 12 percent in 
the same period of time. Ford fell from 13 percent to 8 percent 
in the same period of time.
    Now, what I'm trying to understand is what was--why was 
Toyota able to move so deftly, so quickly into the marketplace 
and overcome the established auto industry that existed in this 
country?
    Mr. Inaba. I'm from sales and marketing, so I have to 
respond to your question.
    We believe that the quality of the vehicles are the one 
that, over years--we have been in this country 50 years, and it 
is not so much one incident or anything, but sort of continuous 
sort of reassurance to the customer that our product is 
reliable and safe and durable, is the one that really brought 
us up to here.
    Of course, we are very embarrassed, we are very troubled by 
this recent incidents, so that we would have to go back to 
basics, to really reaffirm our customers that our product is 
one of the safest and most reliable. And this is the only way. 
I mean, we have not spent any more incentives than the industry 
average or anything. So, I think, really, this--building a 
trust among the customers is the key to our past success. We 
would like to continue doing so into the future.
    Senator Lautenberg. You know, there's an insinuation here, 
because you describe a $100-million savings--that's earnings, 
basically--from avoiding a safety recall in 2007. Now, that 
doesn't sound like Toyota was satisfied with its identification 
as reliable, safe--your word--there. Because it looked like 
there was a move to make profits by, maybe, taking shortcuts. I 
mentioned this earlier. It's a little inconsistent, with all 
due respect, Mr. Inaba, that when you talk about market share 
growing as it was--and I believe in a competitive marketplace, 
but when it's that drastic, and included in there is 100 
million bucks we made by not paying a fine or not doing what we 
should have.
    Mr. Inaba. First of all, again, cost is not the issue in--
when it comes to recall or safety issues. And in Japan, we 
deliberately separated from a recall decision to a management 
decision, and therefore, it is decided on the fairly lower 
level of the management structure. And we have been doing it, 
and we are still doing it. And therefore, to make sure that 
cost is not the issue when it comes to recalls.
    This is a really strong point that we have been making, and 
therefore, as you pointed out, this expression is so 
inconsistent from our past and current and the future guiding 
principle of our company, and I'd like to correct that.
    The Chairman. Senator Lautenberg----
    Senator Lautenberg. Mr. Chairman, thank you very much.
    The Chairman. Thank you very much.
    Senator Lautenberg. And we appreciate the witnesses coming 
here. But, I'm not sure that we're always talking about the 
same thing.
    Thank you very much.
    The Chairman. It is a possibility.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Rockefeller.
    I want to follow up, also, on what Senator Lautenberg was 
asking about, and specifically about the internal company 
document, dated July 9th, which you've been discussing with 
him. And the term that's used in there, ``saving the company 
$100 million''--and I know you don't like that term--did the 
company, as a result of not doing a vehicle recall--did you, in 
fact, save $100 million? What was the amount of money that was 
saved, as you went down one path. We know that the path you 
went down--the entrapment problems with the pedal and the 
fatalities continued. So, you went down that path. If you'd 
gone down the other path of a vehicle recall, that obviously 
would have been much more costly. So, what actually did you 
save, in terms of your course that you took?
    Mr. Inaba. With all my honesty, that--I do not even know 
what the basis of that calculation. I am not interested in 
going in there. The only problem is that saving out of recall 
is inconsistent with our principle. So, that's what I want to 
say.
    Senator Udall. But, sir, this is your document. This is a 
Toyota document, and it used the terms that you ``saved'' that 
amount of money. So, clearly, they at least got some of the 
statistics and the dollar amount from Toyota information that 
was given to them. Is that correct?
    Mr. Inaba. No. We don't have any systems or rules or 
traditions of collecting those saving amount in the United 
States or even in Japan.
    Senator Udall. Do any of the other executives want to 
comment on this?
    Translator for Mr. Sasaki. I might be just repeating what 
Inaba said. We, at the Toyota Motor Company, the recall 
decisionmaking process is the following: It is really purely 
the decision on the part of the individuals who are very 
familiar with the market situation, and also someone who is 
very familiar with the technical content of this matter. And 
this would be reported to the managing officer, and he or she 
would approve of it, and then it would it be implemented.
    In other words, this whole process will complete within 
this function of quality assurance and customer services. 
Therefore, there is never a discussion that would include the 
money amount--how much we would save or not save--if we have 
done this or not have done that.
    And so, it is really--the discussion takes place outside of 
the earnings or savings or whatsoever. And I really would like 
you to understand our process.
    Senator Udall. So, all of you, do you dispute and reject 
the $100-million figure? Do you deny that the $100-million 
figure even exists, and it's something that is just out there 
and being discussed in the press, but it isn't--doesn't have 
anything to do with Toyota? Is that what you're saying today?
    Mr. Inaba. Senator, I can only say that I don't know the 
basis of that $100 million, so I cannot comment any further 
than that.
    Senator Udall. Well, you--well, give me a figure, then. If 
you--so you're saying you don't know where the $100 million 
came from, correct? And so, you're disputing that $100 million. 
That's just--it's not your--it's not the way you would approach 
it. OK? So, tell me if--what the company did is, you had a 
floor mat recall, OK? A floor mat recall. That recall did not 
result in safer vehicles. And indeed, it--you had pedal 
entrapment, and you had additional fatalities, OK? That's what 
you did. If you had had a full vehicle recall, how much would 
that have cost your company?
    Mr. Inaba. I am not able to answer that question.
    Senator Udall. Could you answer that for the record----
    Mr. Inaba. Yes.
    Senator Udall.--after you----
    Mr. Inaba. Yes.
    Senator Udall.--at some point?
    Mr. Inaba. Also, you know--prior, you know, questions, I 
would like to get back to you.
    Senator Udall. OK.
    Mr. Inaba. The basis of that calculation.
    Senator Udall. OK. Now, in following up a little bit, my 
staff and I met, and we very much appreciated meeting, with the 
Toyota people that came to our office and discussed with us the 
matter before the hearing. And they indicated, in addition to 
the floor mats being replaced and the accelerator being 
reshaped, the dealerships are also upgrading the software on 
the recalled vehicles to include a brake override, which Mr. 
Ditlow mentioned, when the accelerator and brake are applied at 
the same time. And this override is considered, by most vehicle 
manufacturers, as an essential safety device. My question, to 
whoever has the expertise here, is this software upgrade being 
provided, automatically at the next service appointment, to all 
existing Toyota vehicles whose computers can support the 
upgrade, even those not subject to the recall?
    Translator for Mr. Sasaki. There may be a slight 
miscommunication, so I would like to correct that. Brake 
override system is not quite that general yet. I believe, 
currently, about 20 percent of the vehicles in North America 
are equipped with a brake override system.
    We--at Toyota, this brake override system is a very 
effective manner to address a certain portion of the sudden 
acceleration, so we would like to implement this system to the 
vehicles produced in North America, one by one.
    And this is scheduled to complete toward the end of year 
2010.
    With regards to the existing vehicle, the customers who are 
particularly concerned about this floor mat issue, we have 
selected seven models that has a very high level of complaints 
to be the subject of this software upgrade. So, if the customer 
brings their vehicle to the dealership, we will provide the 
software upgrade.
    Once we complete all these upgrade work, Toyota vehicle 
would become just as safe, or safer, than other vehicles, and 
I'm very convinced of that.
    Senator Udall. Thank you--I see my time's exhausted--thank 
you very much. I appreciate very much the witnesses being here 
today.
    The Chairman. Thank you, Senator Udall.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Again, thank you, Mr. Chairman, for holding 
this.
    And ``keneechiwa.'' Thank you very much for being here 
today.
    I'll be parochial for my first question, and then I have 
some broader questions to follow up on many questions that 
folks have here.
    I represent the State of Alaska, and many of our residents 
live in very rural parts of the state, where there are no 
roads, except when they get there in their community.
    How will you address the servicing that they will need when 
they have to barge these vehicles to their home, where they 
purchase them from a dealer hundreds of miles away. How will 
you deal with those folks?
    Mr. Inaba. Well, first of all, we will ask our dealers to 
take care of the customers as much as they can. So, it is--in 
principle, that--how they treat the customers, and I hope they 
will treat the proper way.
    And also that if there's any sort of situation where 
customer cannot bring the cars to the dealership or the--or, at 
the same time, he has any concerns, I think we allow the 
dealers--pay the cost, if necessary----
    Senator Begich. Very----
    Mr. Inaba.--and then we will reimburse it.
    Senator Begich. Very good. That's important. We are--and 
I'm a driver of a Toyota. I own a Highlander hybrid. I drove it 
from Alaska to here--19 days, 5,000 miles, and it did a good 
job.
    Now, to the broader questions that some have asked here, 
the--I had not seen the presentation that Senator LeMieux had 
talked about. Will you respond to him, in detail on the record 
at a later time, his concerns about that document that he 
presented in the slide show?
    Mr. Inaba. Yes.
    Senator Begich. Very good.
    Mr. Inaba. Yes.
    Senator Begich. Let me ask you, if I can, a couple--so I 
understand the process. I understand you have a team, lower 
than senior management, that makes a decision on recalls. When 
that is brought to that team for decision, is there anyone that 
can overrule that team, outside of that group?
    Mr. Inaba. Mr. Sasaki will be a better----
    Senator Begich. Very good, thank you.
    Translator for Mr. Sasaki. The process in which the recall 
decision is made is--as I said earlier, it's purely--reflects 
the market conditions and technical cause of that problem. 
However, this process is very strictly prescribed within our 
company. So, if a decision was made outside of that very strict 
rules, then that could be reviewed by the officers who is in 
charge of looking at that operation.
    Also, we do have auditors. And so, given a certain period 
of time, there will be a number of audits conducted. And so, 
the auditors would be also looking over it.
    Senator Begich. Very good.
    Can I have, maybe--again, at a later time--for the record, 
you probably have a written policy on this. Can you submit that 
to the Committee for review?
    Mr. Inaba. Yes.
    [The information referred to is in the appendix.]
    Senator Begich. Also, can you submit maybe--and I'll use 
it--a period of time since 2006, because that's some of the 
discussion here--of recalls that have been brought through the 
chain, and then, at any point, where they might have been 
stopped or not moved forward? Could you provide that to the 
Committee, based on this process that I now understand?
    Mr. Inaba. We'll try to do so, yes.
    [The information referred to is in the appendix.]
    Senator Begich. Thank you very much.
    Let me also ask--a question I asked earlier today, in the 
early session was--as you can see, the Federal Government here 
is very interested in safety and security of vehicles and how 
they operate. What on the--what in the Japanese government is 
going on in regards to what they see we're doing here? Is there 
a corresponding action?
    Who would like to answer that? I'll leave it to you to 
decide who will answer these.
    Translator for Mr. Sasaki. The recall system in Japan was 
actually put together after learning from the U.S. system. 
Therefore, the system in Japan is very similar to that in this 
country.
    Senator Begich. But, is the Government of Japan taking any 
action in regards to this, what we're doing here? Of is there 
any action they're doing to follow up on the products that are 
being exported?
    Translator for Mr. Sasaki. Actually, it is the Ministry of 
International Trade and Industry that has that jurisdiction or 
authority to make sure those exported vehicles would be taken 
care of or looked after well.
    Senator Begich. OK. I'll do this one more time, and it just 
may not be able to be answered at this point.
    Are they doing anything, based on what's happening right 
now in this country, with these recalls? In other words, are 
they adding extra scrutiny to your company?
    Translator for Mr. Sasaki. Yes, we have received a number 
of hearings from the government, and they are watching the--how 
this recalls in the United States came about, and how this 
actual implementation of the recall--or execution of the recall 
is being carried out. They are following this very closely.
    Senator Begich. Very good.
    I know I have--I'm out of time, I think, but let me ask 
just one last question. And it's kind of a statement with a 
question.
    You understand that the reputation of the company and the 
trust of the company by the consumer has been damaged, and that 
the way that's regained is by the work you do, especially now, 
in the recall, but also into the future. That's a clear 
understanding.
    At what point does the senior management involve themselves 
or see reports on a regular basis on the amount of recalls or 
incidences that are being driven from the lower ranks of the 
employee group, indicating there are problems? Does the senior 
management see that all the way to the bottom and up, and how 
often do you see that?
    Mr. Inaba. Well, personal experience is that I have been 
involved since the end of September, and I will do--pay very 
close attention about what's going on with any technical issues 
that arises. And therefore, it will be a lot more attention 
paid from now on, because this loss of trust is more costly 
than anything else to Toyota. And so, that--we do utmost to 
restore it. That's my commitment, and also other members of----
    Senator Begich. Very good.
    Thank you very much, for your testimony.
    Again, thank you, Mr. Chairman, for holding the hearing.
    The Chairman. Thank you Senator Begich.
    And now Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Ditlow.
    Mr. Ditlow. Yes, Senator.
    Senator Nelson. There's a deadline coming for mandatory use 
of electronic data recorders, is that right?
    Mr. Ditlow. There's a deadline coming on the 
standardization. There's no requirement that it be installed.
    Senator Nelson. If there's a deadline for standardization, 
why does--what is your opinion that Toyota still uses 
proprietary software to read out the contents, if it's going to 
be standardized?
    Mr. Ditlow. The data that are going to be recorded will be 
standardized. There is no standardization on the readout, in 
making it commercially available. So, it's a failing in the 
rule that's about to be issued, or that has been issued and is 
about to be made final.
    Senator Nelson. And you think that needs to be corrected.
    Mr. Ditlow. Oh, yes. I mean, we need two things: We need to 
mandate them in all vehicles, and we need that the readout be 
standardized so that anyone can read it.
    Senator Nelson. Is an EDR part of the airbag assembly?
    Mr. Ditlow. There is, in fact, a data recorder that's 
associated with the airbag. The EDR is a more advanced version 
and is capable of measuring and recording more features than 
the airbag recorder.
    Senator Nelson. Well, then I would like to ask Toyota, Does 
Toyota's EDR record--and for how long does the EDR record 
record--how long does the electronic data recorder record the 
data, before and after a crash, for an airbag?
    Translator for Mr. Uchiyamada. The current EDR records the 
5 minutes prior to the crash and 2 minutes--I'm sorry--5 
seconds prior to the crash and 2 seconds after the crash. In 
other words, the current system is to record the data related 
to the deployment of the airbag. And so, whether the airbag is 
deployed or the brake is pressed very hardly, over the 
secondary level or above. So that's 5----
    Voice. 2G
    Translator for Mr. Uchiyamada. 2G--more than 2G. So, it's 5 
seconds prior and 2 seconds afterwards.
    Senator Nelson. Who made the decision in Toyota to have 
only one laptop in the U.S. with the required software to read 
out an electronic data recorder?
    Translator for Mr. Uchiyamada. I do not know, at this time, 
who has decided--who rendered that decision. However, if that 
is needed, I would look into it and then submit the name later.
    Currently, we are using just one laptop to do that, because 
we have been able to submit all the required data by using this 
one piece of laptop. So, I think that's how we have been doing 
it.
    Senator Nelson. Does Toyota collect and store all the 
information from the electronic data recorders it decodes?
    Translator for Mr. Uchiyamada. Right now, the event data 
readout will be done when the customer requests it or a police 
or a court or agencies like NHTSA--those public entities issues 
us a warrant to do that, then we would do so. I mean, these are 
under several State laws.
    And then we are trying to do our utmost so that these work 
can be carried out more speedy manner. We will have 100 units 
available at the early April, and by the end of April we will 
have 150 such units available in North America. Indeed, we are 
going to hand over three such readers to NHTSA tomorrow.
    Senator Nelson. OK. That's valuable information, but that's 
not the answer to the question. The question was, Does Toyota 
collect and store all the information from the electronic data 
recorders it decodes?
    Translator for Mr. Uchiyamada. It is true that the Toyota 
reads them out, but I am not sure, as I said here today, 
whether Toyota keeps such records. And I will look into it, 
Senator, and I will get back to the Committee.
    [The information referred to is in the appendix.]
    Senator Nelson. OK. Tell me, why did Toyota officials in 
Japan not take seriously the messages about safety concerns 
that Toyota's North American officials had conveyed to Japan?
    Translator for Mr. Sasaki. It is quite unfortunate that you 
have come to form that notion, and I wonder if that was--that 
happened because in the past, with regards to the field-action 
decisionmaking that relates to the safety, a member of our 
North American team was not formally involved. And therefore, 
we have rectified this immediately, and now we would include 
someone who is most knowledgeable of the North American market 
situation to become one of the very important panel member that 
would render the decision regarding the field action.
    Senator Nelson. So, you think that headquarters in Japan 
took seriously the messages of safety concerns from North 
America, is that correct?
    Translator for Mr. Sasaki. Yes, that is correct. But, 
although you say the Japanese headquarters, in actuality that 
when the decision was rendered, the person in charge of that 
was sent to United States and look at the situation under our 
``go and see'' principle, and that's how our decisions had been 
rendered. Therefore, it is not the case, in the past, that, 
without knowing the situation in North American marketplace, 
that the decisions were made in Japan.
    Senator Nelson. Mr. Chairman, thank you.
    It's sad, for the loss of life, but it's also sad, as I 
said in my opening comments, about all these Toyota dealers who 
now, in the middle of an economic recession, are getting hit 
with a double whammy because people have lost confidence in 
Toyota. And now, all of these small businesses are getting hurt 
all the more because people are not coming in to buy cars in 
their Toyota dealerships.
    Thank you, Mr. Chairman, for the generosity of your time.
    The Chairman. As always. Thank you very much, Senator 
Nelson.
    I will ask a final question and then will make a closing 
statement.
    I have here a sheet, from Toyota, called the ``Toyota 
management team.'' And it's interesting, because the President 
and Member of the Board is obviously Akio Toyoda. There are 
five executive vice presidents, there are innumerable senior 
managing directors, and there are directors--members of the 
board, just two. And of the five executive vice presidents--
members of the board--directly under the president, Akio 
Toyoda, two of them are on our panel today--Mr. Sasaki and Mr. 
Uchiyamada. And that's why I think there is some--you feel--or 
we feel--we both feel some frustration in trying to communicate 
our effort to get to the bottom of some of our questions. It's 
the question of accountability. Who is accountable? Who makes 
decisions? Many questions have come back that, ``We are doing 
recalls,'' as if that were a problem-solver. And it is not 
necessarily a problem-solver. ``We will get back to you on 
that.'' That is not a direct answer. I think there is more 
knowledge at the table than has disclosed itself. I don't say 
that rudely, I just say that in, perhaps, a typical American-
Japanese inability to communicate as effectively as we should 
on a particularly important issue, both to us, in terms of 
safety, and you, in terms of safety and some loss of confidence 
in your product.
    But, you know, all the way since--Senator Nelson said 
this--since at least 2002--it was a long time ago--thousands of 
Toyota and Lexus owners in the United States have complained to 
Toyota that they experienced sudden unintended acceleration. 
So, they have been doing that ever since. Thousands and 
thousands of them. These Toyota owners told Toyota the brakes 
would not overpower the surging vehicle. A number of them have 
even had smoking brakes and melted hubcaps to prove it. I 
believe Senator Klobuchar made that point.
    However, Toyota, in this person's judgment, did not listen 
to its customers, and it sent out letters like this, which, 
obviously, nobody can read, but I can, and I'll quote from it. 
It's rather cold. It's rather cold. The key paragraph says, 
``In order for this accident to have occurred as a result of 
unintended acceleration, there would have to be a simultaneous 
failure of two totally independent systems, namely the brake 
and throttle systems. Our inspections confirm that these 
systems were purely functional.'' And therefore, it simply sort 
of tossed off the agony of this owner.
    Now, the evidence, that everyone has now seen, points to 
the exact opposite conclusion, and we've been trying to get at 
that, which is that brakes could not control the surging 
vehicle. So, now we're talking about electronic systems, brake 
overrides.
    You've mentioned the outside consultant called Exponent, 
but this report tested only six vehicles. That's not good 
enough. Not good enough.
    So, let me give you an example of one person who I think 
makes the point. Last August, a Bill Shephard, of Monrovia, 
California--I do not know the man, but my staff has talked to 
both him and the master mechanic that I'm about to explain--
this person experienced an instant of sudden unintended 
acceleration in his 2004 Camry. That was a long time ago. He 
was pulling into his garage at the time, and then just, I 
guess, pulled back into the living room or something.
    At first, the master mechanic at Mr. Shephard's local 
repair shop told him, as, in a sense, you have indicated to us, 
that it was impossible--his words--that the Camry's electronic 
system caused the problem. He said it was impossible. But, Mr. 
Shephard was a stubborn man, and he insisted that this mechanic 
keep running tests, because he felt that there was some other 
reason for his surge, which he did not like and which was 
threatening. And about a week later, it turns out, the mechanic 
ran a test, after running tests a lot--not just once, not just 
twice, but for a period of about a week--he ran a test, after a 
week, in which the accelerator pedal position sensor indeed 
failed. And so, lo and behold, it was not--it just changed--it 
changed everything. It changed everything. In other words, 
there was a problem in the electronic throttle system.
    Now, Mr. Shephard reported this finding to both Toyota--
this is back in 2004--to both Toyota and to NHTSA. And to my 
tremendous sorrow, I have to tell you that neither NHTSA nor 
Toyota has ever given a response to Mr. Shephard.
    So, symbolically and really, I ask you today--we have 
talked to both him and to his master mechanic at length--I ask 
you today, will you be in touch with this man? We will give you 
his address. Because we didn't have a chance today to get into 
how you've handled complaints. That's so key. To what level do 
they rise? What does the board know about them? Does the board 
meet as all the people I suggested, or is there an executive 
committee, which is hinted at, in the organizational table? How 
do these things come to the attention? That was my frustration 
in my first round of questions, when I tried to found out, 
``When were these decisions changed, if they were changed?'' 
which they were, because your president has admitted to that. 
Safety took a second seat to profits.
    In Japanese culture, in Japanese corporations, things do 
not happen by chance; they happen by decision. And I failed to 
get an answer about that, and I regret that. But, you made the 
statement, in a sense, that recalls equal doing the job 
properly, taking care of the situation, that it would suggest--
is suggested--is that a public relations effort, or is that 
really solving the problem? There was no answer forthcoming.
    One of you indicated that 20 percent of the outstanding 
Toyotas in America have brake override systems now. But, then 
you mentioned that, by the year 2010, perhaps the end of it, 
you will have--it will be completed. What will be completed?
    And I ask you this question: Obviously, the brake override 
system is the solution. So, you have a problem. You have the 
Toyotas that you make from this point forward in your ten 
plants here, and you have the Toyotas that have already been 
made, going back to the 2002, or before. If you solve, by 
putting in a brake override system, the Toyotas that are made 
from this point forward, or starting, let's say, a year ago, 
that's good. But, why is a new Toyota and a new Toyota owner 
less important than an older Toyota and a previous--or older-
Toyota owner? Their lives are the same, their value is the 
same, the human being--are equal in their capacity to be 
protected.
    And so, I will just ask this question: Is it not fair to 
suggest that Toyota should make an override system for all 
Toyotas? The older ones, where the electronics were less 
complicated and the computer system was less complicated, as 
well as the new ones, where things are more complicated. And 
then you might say to me, ``Well, that is very expensive.'' And 
then I might say to you that, spread out over the entire fleet, 
the expense will be less, substantially. And I also might say 
that maybe the expense doesn't matter, because these are human 
beings and they are loyal customers, as shown by the fact they 
still have the Toyotas they bought years ago.
    And further, I might ask you this question: Supposing I 
was--I bought a Toyota back in--a Camry back in 2004, and it 
was an older system, and I had a surge problem--an unexpected 
surge problem. I was deeply distressed by it; I was afraid to 
drive the car, because of my children, because of myself, 
because of whoever. And so, I traded that automobile. I sold 
that automobile to somebody else. Well, that brings up a whole 
new question. Is it proper to say that--once the car is out of 
the hands of the original purchaser, but now in the hands of 
another American owner, it still has this defect, or potential 
defect in it. Why would one trade or sell a defective--
potentially defective--and I go back to the Shephard case, 
where he worked at and worked at it and worked at it and he 
found out, yes, there was a defect--why would somebody be 
traded or sold a defective car? Is that moral? Is that ethical? 
Is that proper? Is that good business practice for Toyota?
    Now, I've asked you many questions, and I apologize for 
that, but I've said what I wanted to say, that what I think we 
wanted to get, and that we've gotten some hint of that, but not 
explicitly, real answers to real problems, not just, ``We're 
doing a recall,'' and therefore, will solve the problem. But, 
we're going to make sure that every Toyota car on the road in 
the United States of America is safe and has a brake override.
    Now, I'll just stop there, and you can answer in any way 
that you wish.
    Translator for Mr. Uchiyamada. Allow me to speak first.
    Well, thank you very much, Chairman, for giving us many 
pieces of comments.
    We understand fully that there is a big room for 
improvement upon ourselves in the way in which we have dealt 
with, so far, in the past, in--as a global Toyota Corporation.
    Allow me to repeat this. When we manufacture our vehicles, 
our priorities are, number one, safety; number two, quality; 
and then, number three, delivery. This importance order has 
never been changed.
    Having said that, we are fully aware of the fact that 
perhaps we haven't lived up to the expectations on the part of 
our customers, vis-a-vis our product, when we consider the 
amount of recalls that we had to execute, and we are feeling 
that we have to do something about it right away.
    In the development side, I will be standing on the front 
line and working very hard so that people will once again have 
the image of Toyota that we were able to instill into people in 
the past.
    The Chairman. I would respond to that--and I will close 
here shortly--by saying that the complaints began to come in, 
in 2002, by the thousands. So, to say that you will respond 
immediately and that you are--you regret, for your customers--I 
understand that. What I do not understand is the lack of 
response earlier. It seems to me that it would have been so 
much in the custom of the Toyota company that I have known over 
the years. But, you talk about, ``We will do something 
immediately.''
    Let me just say this. Will you contact Mr. Shephard? We'll 
give you his address and number.
    Mr. Inaba. Yes, sir. I will do so.
    The Chairman. And the mechanic.
    Mr. Inaba. Yes.
    The Chairman. The Japanese transport minister, Seiji 
Maehara, appearing at a nationwide broadcast news show on 
Sunday, complained that Toyota's, quote, ``corporate culture,'' 
close quote, reflected a reluctance to be forthright on 
recalls. ``The company is not taking the problem as serious as 
it should,'' he said, saying the company quality chief, 
Shinichi Sasaki, came to explain the problems to the ministry 
only after being asked to do so.
    I do not require a response on that.
    And I will go to my closing statement, if that is all 
right.
    This has been useful, but not as useful as it should have 
been. And I regret that, because I know what kind of company 
you are, and can be again. And maybe it's simply a--as when I 
was a student in Japan, Japanese and Americans sometimes have 
different ways of talking to each other, and what appear to be 
clear questions on the part of Americans are--may not be seen 
that way by the Japanese. But, on the other hand, we're now 
talking about a professional problem--a professional problem 
which has affected Toyota in tens of billions of dollars of 
lost net worth, and affected a lot of people in this country in 
ways which they have experienced, or they have yet to 
experience, unless the brake control is made universal.
    So, let me just do my closing statement.
    I want to thank all of our witnesses today for your 
cooperation in making sure the Committee got all the 
information it was looking for. I would have to do a little 
caveat to that, I guess.
    We have had a very full and long day, and with the ongoing 
work of this Committee, which will take place, two things are 
already very clear to me:
    First, Toyota needs to restore its customers' confidence 
and trust, and seriously recommit itself to quality and to open 
communication. And carmakers should be required to provide the 
hardware that dealers need to read electronic data recorders.
    My second point was that the U.S. Government has to do a 
much better job of keeping the American people safe. Please 
understand. We had an all-morning hearing with NHTSA, and it 
was not one that was pleasant for them. Mr. Ditlow is here, and 
can testify to that.
    And I thank you, sir, for all that you would have said, 
could have said, and did say.
    I--in my case, I firmly believe that this is going to 
require strong legislative action. To name just a few examples 
I have in mind, it is clear that we need to revisit the TREAD 
Act. We must seriously consider a rulemaking mandating brake 
override. And carmakers should be required to provide the 
hardware that dealers need to read electronic data recorders.
    And fourth, we should also require senior executives to 
certify the information their companies provide to NHTSA, that 
it is 100 percent correct and accurate. That is usual and 
customary, and it must take place.
    I have other ideas. Those are just mine. I know my 
colleagues do, too. If we are really serious about making sure 
this does not happen again, we need to work aggressively and 
together on this effort, and that is what I intend to do with 
my colleagues.
    As I said earlier, I have over 1,000 workers in my State 
who depend on--who work at Toyota, who have won the highest 
awards, in most years--I think, 5 consecutive years, maybe 6 
consecutive years--for being the most productive. I want them 
to be protected as they drive their Toyota cars, and I want 
them to be employed, because people have confidence in you and, 
therefore, are buying your product. We have to get back to 
that--not, obviously, just for West Virginia's sake, but for 
the--your sake and the country's sake.
    I have every confidence that you can earn back the trust of 
your consumers, and that you can earn back the trust of the 
American people. Every single Toyota owner deserves a full 
accounting of what happened, and why, and a clear indication of 
what we, here today, are going to do to make sure that safety 
is never second place.
    Having said that, I, again, thank you. We tried to make the 
questioning not histrionic, but professional, fact-based, and 
we've each tried to communicate with each other as well as we 
could. And I do appreciate the fact that at least two of you 
have flown all the way from Japan for this hearing.
    So, I'm grateful. I'm looking forward to a strong and 
complicated future, but I'm always an optimist.
    This hearing is adjourned.
    [Whereupon, at 5:08 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Mr. Chairman, for holding this hearing to address many 
important questions surrounding Toyota's recent recalls and related 
safety issues, along with the Federal Government's role in ensuring the 
safety of the cars on America's roads.
    Transportation safety is one of this committee's most important 
responsibilities, and I hope today we will begin to understand why it 
took so long for Toyota and NHTSA to take decisive action to address 
the serious safety problems associated with sudden, unintended 
acceleration. We are just beginning to understand the complicated 
series of events that has led to the recall of more than 8 million 
vehicles in the United States and Europe.
    We owe it to the 39 individuals who have lost their lives, and the 
thousands who have experienced unintended acceleration, to get to the 
bottom of this issue. We also owe it to Toyota and its thousands of 
American employees to conduct a thorough and fair inquiry.
    To date, Toyota has identified certain all-weather floor mats, 
which may entrap a depressed accelerator pedal, as well as so-called 
``sticky'' accelerator pedals, as sources of unintended or unwanted 
acceleration. But because Toyota and NHTSA were slow to react to 
consumer complaints, many remain concerned about the safety of Toyota 
vehicles.
    Among the many questions the Committee and the American public have 
are whether the true cause of unintended acceleration has been 
identified and whether the corrective actions underway are sufficient. 
There are concerns about whether NHTSA has the appropriate expertise to 
diagnose complex problems with today's sophisticated vehicles. Also, is 
the information NHTSA receives through Early Warning Reports, 
specifically mandated by the TREAD Act to give NHTSA more information 
with which to quickly identify potential safety hazards, sufficiently 
robust?
    Most importantly, we need to know how to prevent this situation 
from recurring, and how Congress can assist. Only then will drivers 
feel confident about buying and driving Toyota products and only then 
will Toyota recover its good name.
    I have been encouraged, Mr. Chairman, by the recent statements of 
Toyota's President, acknowledging that the company must reaffirm its 
commitment to safety and quality. I am confident the roughly 1,700 
employees at Toyota's production facility in San Antonio, Texas, and 
the more than 9,000 employees of Toyota's dealers in Texas would echo 
that commitment. I hope today's hearing will be another step in the 
process of making those commitments a reality.
    Mr. Chairman, thank you again for holding this important hearing. I 
look forward to the witnesses' testimony.
                                 ______
                                 
                                                  February 15, 2010
Hon. John D. Rockefeller IV, West Virginia,
Chairman, Commerce, Science, and Transportation Committee,
Washington, DC.

    Dear Senator Rockefeller:

    I applaud the Senate Committee on Commerce, Science, and 
Transportation forthcoming hearings on Toyota's recently announced 
safety recalls.
    Thus, today I write to you as a seasoned thirty-year college 
professor and widely-recognized automotive and highway safety expert. 
(For example, I'm cited on page 69 of GAO-09-56, a report to the 
Chairman, Committee on Commerce, Science, and Transportation, U.S. 
Senate, which is directly relevant to the issue before the 
Subcommittee, http://gao.gov/new.items/d0956.pdf.)
    This GAO Highway Safety report is titled ``Foresight Issues 
Challenge DOT's Efforts to Access and Respond to New-Technology-Based 
Trends.''
    Please review my attached testimony.
    I am willing to testify before your committee. My contribution 
would be an asset.
            Sincerely
                                        Thomas M. Kowalick,
                                    Professor of Holocaust Studies,
                                           Sandhills Community College.
                                 ______
                                 
                Prepared Statement of Thomas M. Kowalick
                    49 CFR 563: Event Data Recorders
           Petition for Reconsideration NHTSA-2008-0004-0007
                     Providing Consumer Protection
    Thank you Mr. Chairman. I welcome the opportunity to submit a 
statement and/or testify before your committee. My name is Thomas M. 
Kowalick and I am a Professor of Holocaust Studies at Sandhills 
Community College, Pinehurst, North Carolina since 1982.\1\ I am also 
President of Click Incorporated--Transportation Safety Technologies of 
Southern Pines, North Carolina since 1997. Besides that, I serve as 
Chairman of the Institute of Electrical and Electronics Standards 
Association (IEEE/SA) project IEEE 1616 which created the world's first 
and only motor vehicle event data recorder standard, commonly termed 
``automotive black boxes'' by the general public.\2\ I have published 
extensively on the topic of motor vehicle event data recorders as the 
author of Fatal Exit: the Automotive Black Box Debate and five 
additional books in print to date and I'm working on number 6.\3\ These 
books cover the history, research, development, standardization, 
legislation, regulation, legal, and privacy and consumer protection 
issues connected with implementing motor vehicle event data recorders. 
Most recently I contributed to the 2009 McGraw Hill Encyclopedia of 
Science and Technology.\4\ I also served on a National Academies of 
Science study about EDRs \5\ and I'm cited on page 69 of GAO-09-56, a 
report to the Chairman, Committee on Commerce, Science, and 
Transportation, U.S. Senate which is directly relevant to the issues 
before the Committee. This GAO Highway Safety report is titled 
``Foresight Issues Challenge DDT's Efforts to Access and Respond to 
New-Technology-Based Trends.'' Thus, in summary, I am widely recognized 
as an expert regarding Event Data Recorders (EDRs) since 1997.
---------------------------------------------------------------------------
    \1\ www.sandhills.edu.
    \2\ http://standards.ieee.org/announcements/pr_1616.html.
    \3\ http://www.wiley.com/WileyCDA/WileyTitle/productCd-
0471698075.html.
    \4\ http://www.accessscience.com/
abstractaspx?id=YB090097&referURL=http%3a%2f%2fwww.
accessscience.com%2fcontent.aspx%3fsearchStr%3dkowalick%26id%3dYB090097.

    \5\ http://onlinepubs.trb.org/onlinepubs/nchrp/nchrp_w75.pdf.
---------------------------------------------------------------------------
    To start, motor vehicle safety is a shared responsibility among 
government, consumers and vehicle manufacturers. ``Safety'' is an area 
in which manufacturers compete and seek competitive advantage. Then 
automakers leverage their safety performance and equipment in efforts 
to distinguish their products from competitors. Consumers purchase 
these products and only hope that they work as marketed for themselves 
and their families. Consumers should trust the automakers to 
manufacture vehicles correctly and fix them it they malfunction. 
Consumers should trust the Agency charged with enhancing vehicle and 
highway safety to intervene when the problem is so severe that injuries 
and fatalities are commonplace. Consumers should trust government to 
provide consumer protection and assurances that it will never happen 
again. At this point in time public opinion polls indicate ``trust'' is 
lacking. People want more--they want a better understanding of 
automotive electronics that affect safety and they want protection from 
misuse of in-vehicle electronic technologies. For the truth is that the 
average consumer understands that it is difficult, if not impossible to 
prevail in any dispute with an automaker other than by costly 
litigation. Consumers also understand that automakers spend plenty of 
money to influence legislation. Last year, auto industry lobbying was 
65.5 million dollars, according to the nonpartisan Washington-based 
Center for Responsive Politics.\6\ Millions of consumers are following 
these hearings. They may be wondering who speaks for them? Today I will 
do my best to explain the consumer protection urgency of getting the 
National Highway Traffic Safety Administration (NHTSA) to respond 
positively to my Petition for Reconsideration of 49 CFR 563: Event Data 
Recorders. The right to petition is one of the fundamental freedoms of 
all Americans, and is documented in the First Amendment to the 
Constitution of the United States.
---------------------------------------------------------------------------
    \6\ http://detnews.com/article/20100213/131Z/2130352/Automakers-
cut-spending-on-lobbying.
---------------------------------------------------------------------------
    Some background: The past four decades witnessed an exponential 
increase in the number and sophistication of electronic systems in 
vehicles.
    A vast increase in automotive electronic systems, coupled with 
related memory storage technologies, has created an array of new safety 
engineering opportunities and subsequent consumer acceptance 
challenges.
    Consumers continue to be interested in safety advancements but 
remain concerned about issues of privacy, tampering and misuse of 
vehicle crash data.\7\
---------------------------------------------------------------------------
    \7\ http://onlinepubs.trb.org/onlinepubs/nchrp/nchrp_w75.pdf. See 
6.3.5
---------------------------------------------------------------------------
    Virtually every passenger car and light truck manufactured in or 
imported to the North American market since model year 1996 includes an 
Environmental Protection Agency (EPA) mandated diagnostic link 
connector to allow access to engine and emissions diagnostic data.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This onboard diagnostic link connector (OBDII) is regulated by the 
Code of Federal Regulations (CFR) (40 CFR 86.094-17(h) and revisions 
for subsequent model years. It is standardized by the Society of 
Automotive Engineers Vehicle Electrical Engineering Systems Diagnostic 
Standards Committee. The physical configuration of the output plug is 
specified under SAE J1962 and through the International Standards 
Organization under ISO 15031-3 and is increasingly used as an access 
point to other in-vehicle electronics systems, sub-systems, computers, 
sensors, actuators and an array of control modules including the air 
bag control module.
    The onboard diagnostic link connector is also used as a serial port 
to retrieve data elements from on-board systems, sub-systems, modules, 
devices and functions that collect and store data elements related to a 
vehicle crash such as a Restraint Control Module (RCM) and Event Data 
Recorder (EDR). This connector used to download crash data is wide 
open--not physically protected from misuse.
    The EPA communications protocol utilizes a Controller Area Network 
(CAN) to provide a standardized interface between the diagnostic link 
connector and the tools used by service technicians and vehicle 
emission stations.
    CAN uses a serial bus for networking computer modules as well as 
sensors. The standardized interface allows technicians to use a single 
communications protocol to download data to pinpoint problems and 
potential problems related to vehicle emissions. Full implementation of 
the CAN protocol is required by 2008. Because it is a universal system, 
the use of the diagnostic link connector and the CAN serial bus 
alleviates the problem that the data would only be accessible through 
the use of multiple interfaces and different kinds of software, if at 
all.
    While standardizing the means and protocols for data extraction is 
generally considered a positive advancement in surface transportation 
by helping to assure that systems perform properly over the useful life 
of vehicles, it has also created the possibility of extracting data 
from motor vehicles that can be used in civil and criminal legal 
proceedings.
    As example, the National Highway Traffic Safety Administration 
(NHTSA) cites an Event Data Recorder (EDR) as a device voluntarily 
installed in a motor vehicle to record technical vehicle and occupant 
information for a brief period of time (seconds, not minutes) before, 
during and after a crash. EDRs collect vehicle crash information. These 
devices are common in most recent vehicles and in 15 percent of all 
vehicles (est. 60 million vehicles have EDRs).\8\ Some systems collect 
only vehicle acceleration/deceleration data, while others collect these 
data plus a host of complementary data, such as driver inputs (e.g., 
braking and steering) and vehicle systems status.
---------------------------------------------------------------------------
    \8\ USDOT/NHTSA Final Regulatory Evaluation, Office of Regulatory 
Analysis and Evaluation, National Center for Statistics and Analysis, 
2006).
---------------------------------------------------------------------------
    The way in which this is accomplished may be described in the 
following simplified manner. The EDR monitors several of the vehicle's 
systems, such as speed, brakes, and several safety systems. It 
continuously records and erases information on these systems so that a 
record of the most recent 8-second period is always available. If an 
`event'' occurs, i.e., if a crash pre-determined threshold of severity 
occurs, then the EDR moves the last 8 seconds of pre-crash information 
into its long-term memory. In addition, it and puts into its long-term 
memory up to 6 seconds of data relating after the start of the crash, 
such as the timing and manner of the air bags.
    Thus, In general, EDRs are devices that record safety information 
about motor vehicles involved in crashes. For instance, EDRs may 
record: (1) pre-crash vehicle dynamics and system status, (2) driver 
inputs, (3) vehicle crash signature, (4) restraint usage/deployment 
status, and (5) post-crash data such the activation of an automatic 
collision notification (ACN) system.
    EDRs can be simple or complex in design, scope, and reach.
    They can make a major impact on highway safety, assisting in real-
world data collection to better define the auto safety problem, aiding 
in law enforcement, and understanding the specific aspects of a crash. 
It is generally agreed that the more we know about motor vehicle 
crashes--the better opportunity to enhance vehicle and highway safety. 
Manufacturers have been voluntarily installing EDRs as standard 
equipment in increasingly larger numbers of light vehicles in recent 
years. They are now being installed in the vast majority of new 
vehicles.
    The information collected by EDRs aids investigations of the causes 
of crashes and injuries, and makes it possible to better define and 
address safety problems. The information can be used to improve motor 
vehicle safety systems and standards.
    As the use and capabilities of EDRs increase, opportunities for 
additional safety benefits, especially with regard to emergency medical 
treatment, may become available. EDRs installed in light vehicles 
record a minimum set of specified data elements useful for crash 
investigations, analysis of the performance of safety equipment, e.g., 
advanced restraint systems, and automatic collision notification 
systems.
    Vehicle manufacturers have made EDR capability an additional 
function of the vehicle's air bag control systems. The air bag control 
systems were necessarily processing a great deal of vehicle 
information, and EDR capability were added to the vehicle by designing 
the air bag control system to capture, in the event of a crash, 
relevant data in memory.
    EDRs have become increasingly more advanced with respect to the 
amount and type of data recorded. Since 1998, the EDR function in light 
vehicles (under GVWR 10,000 lbs) is typically housed in a control 
module, such as the sensing and diagnostic module (SDM), the engine 
control module (ECU) or the stability control or 4-wheel steering 
modules. These modules are located in various places in the vehicle, 
such as under a front seat, in the center console or under the dash. 
Current EDR designs were developed independently by each automaker to 
meet their own vehicle-specific needs.
    In current EDRs, there is no common format for EDR data. Both the 
data elements and the definition of these data elements vary from EDR 
to EDR. Both GM and Ford, for example, record vehicle impact response 
vs. time--i.e., a crash pulse. GM however stores the crash response as 
a velocity-time history recorded every 10 milliseconds while Ford 
stores the crash response as an acceleration-time history recorded 
every 0.8 millisecond, e.g., stored in the Ford Windstar RCM. Even for 
a given automaker, there may not be standardized format. The GM SDM, 
for example, has evolved through several generations.
    Until recently, there has been no industry-standard or recommended 
practice governing EDR format, method of retrieval, or procedures for 
archival. The preferred method is to connect to the onboard diagnostic 
connector located in the occupant compartment under the instrument 
panel.
    Despite the obvious safety benefits that might accrue, however, the 
use of EDRs has not been without controversy. EDRs were designed to 
help automakers build safer vehicles. But manufacturers have used the 
data to defend against product liability, police investigators have 
also increasingly been using the data to charge drivers with speeding 
violations and serious crimes. And insurance companies want the data to 
dispute unwarranted claims and tie policy rates to driving behavior.
    Privacy advocates and consumer groups oppose allowing data 
collected for safety purposes to be used for other purposes, especially 
when most drivers are unaware that their cars have boxes or mechanisms 
that can be used as evidence against them. They also question whether 
the data is accurate, since few tests have been conducted to establish 
its reliability.
    A number of research studies have concluded that although the EDR 
data (and the recorder itself) may be ``owned'' by the automobile's 
owner or lessee, that data may almost certainly be used as evidence 
against the owner (or other driver) in either a civil or criminal case. 
Furthermore, nothing within the Federal rules of evidence or the Fifth 
Amendment's protection against self-incrimination would exclude the use 
of data recorded by EDRs. Similarly, owners might be prohibited from 
tampering with the data via Federal or state legislation.
    While the statutory authority to require EDRs may exist, the public 
may not want open, unrestricted access to a device installed in their 
automobiles that may appear to impede their personal privacy interests, 
thus public acceptability of EDRs is an important issue paralleling the 
legal issues of EDRs. For example, a class action suit, filed in New 
Jersey, alleged that General Motors never told owners of their vehicles 
that EDRs were installed.\9\
---------------------------------------------------------------------------
    \9\ ``GM sued over automobile `black boxes' '' USA Today, 12/01/
2000. http://www.usatoday.com/life/cyber/tech/cti865.htm.
---------------------------------------------------------------------------
    The public is largely unaware of EDR systems, how they operate, and 
who has access to the driving information they read.
    At present, vehicle crash data is controlled by law enforcement, 
automakers, state and Federal Government agencies, automotive repair 
facilities and automotive insurance companies.
    Thirteen states have enacted laws since 2004. These states followed 
the example taken by California lawmakers in 2003, and have enacted 
laws that specify how motor vehicle event data recorders (``EDRs'' or 
auto ``black boxes'') are to be regulated in their respective 
jurisdictions. No states have passed legislation preventing tampering. 
The states may begin initiatives in the absence of sufficient Federal 
regulation or legislation.\10\
---------------------------------------------------------------------------
    \10\ http://www.ncsl.org/default.aspx?tabid=13461.
---------------------------------------------------------------------------
    NHTSA's EDR research website lists the following potential users 
and consumers of EDR data: insurance companies, vehicle manufacturers, 
government, law enforcement, plaintiffs, defense attorneys, judges, 
juries, courts, prosecutors, human factors research, state insurance 
commissioners, parents' groups, fleets and drivers, medical injury 
guideline data usage, vehicle owner and transportation researchers and 
academics, with the auto industry as one of the major future consumers 
of EDR data.
    This large, broad and unregulated list of people and entities with 
the potential ability to get access to private information from an EDR 
without the driver's consent is alarming and disturbing to many 
consumers.
    The data an EDR records can be decisive in a criminal or civil 
case.\11\
---------------------------------------------------------------------------
    \11\ http://www.4dca.org/Mar percent202005/03-30-05/4D03-2043.pdf.
---------------------------------------------------------------------------
    Further, a driver's insurance coverage might someday depend on 
information collected from an EDR. Important rights could be at stake.
    Since vehicles have a universal serial bus diagnostic link 
connector port to accommodate connecting peripheral devices such as 
electronic scan tools capable of re-engineering and altering odometers 
this has given rise to vehicle tampering.
    Under current practice, anyone with access to a vehicle may plug a 
portable san tool device with a flash memory card (via an interface) 
into the diagnostic link connector port and copy (or tamper with) 
information in the vehicle Controller Area Network (CAN) and download 
data to a portable flash card or similar type memory devices.
    Since portable flash memory cards are usually very small, removing 
the flash memory card from the diagnostic link connector port and 
taking information out of the vehicle is relatively easy.
    The loss of proprietary and confidential information such as 
proprietary product information, trade secrets and vehicle crash data 
can be very costly with regard to lost revenue and corporate liability, 
thus most automakers take significant security precautions to protect 
against the theft of corporate information. Some companies take extreme 
and costly measures to keep vehicle information from being downloaded 
without proper authorization. Rental car companies and automotive lease 
dealers are at great risk of suffering economically via widespread 
vehicle tampering.
    A simple search on the Internet provides alarming results. On one 
site http://www.ec21.com/ a search for ``crash data'' found 29 products 
from 23 companies advertised with capabilities to alter or omit crash 
data or by plugging an inexpensive software/hardware device in the OBD 
port.
    Other after-market products are currently available such as the Uif 
Technology Co., Ltd., (Shenzhen, China) ``Mileage Correction Kit'' 
which is marketed as ``a compact interface that will allow you to 
easily read/write/modify the mileage/km of your car without the need to 
remove the dash. It connects to the on-board diagnostics port located 
in your car.''
    This is not simply an American problem. It is estimated that every 
year, more than 89,000 vehicles with tampered odometers reach the 
Canadian marketplace at a cost to Canadians of more than $3.56 million 
according to estimates by a United States of America based company 
called CarFax.
    A 2002 U.S. National Highway Traffic Safety Administration study 
shows that each year more than 450,000 Americans will inadvertently buy 
a used vehicle with the mileage gauges rolled back. That makes 
tampering with odometers a $1.1-billion-a-year industry in the United 
States of America alone.
    The final EDR rulemaking (8/26/06) states (in part) the following:

        We have considered the comments recommending that we address 
        potential tampering of EDRs. We currently do not have 
        information that leads us to believe that tampering with EDRs 
        is a problem that necessitates us to develop requirements in 
        this area. We may revisit this issue if we find that tampering 
        becomes a problem.

    Tampering means to modify, remove, render inoperative, and cause to 
be removed, or make less operative any device or element design 
installed on a motor vehicle or motor vehicle power-train, chassis or 
body components which results in altering Federal motor vehicle safety 
standards (FMVSS).
    Once it gets data, I believe that the Agency has taken adequate 
steps to ensure individual privacy vis-a-vis its use of EDR data. 
However, the Agency can do more to assure that the data collected is 
not tampered with and is thus scientifically valid. To end up with 
``Garbage In--Garbage Out'' scenario after a decade of R&D would negate 
the mission of NHTSA.
    The Agency states in the final rulemaking that ``We understand that 
EDRs can generate concerns related to how EDR data are currently used 
or will be used by entities other than NHTSA.''
    Unless the Agency moves quickly to protect EDR crash data it may 
become virtually useless. Once crash data is primarily used in civil 
and criminal cases a strong public response would motivate automakers 
to remove the technologies--thus increasing the possibilities of 
injuries and fatalities and negating the primary mission of NHTSA--to 
serve the greater good.
    Automotive insurance companies must also assure that the real-time 
crash data has not be tampered or altered.
    Therefore, a more practical and convenient means of preventing 
casual and unauthorized downloading of information is needed to protect 
the privacy of vehicle owners and motorists.
    A consumer revolt against the installation of EDRs could negatively 
impact sales and/or lead many manufacturers to offer owners the option 
to turn off their EDRs or even to stop installation of them altogether.
    EDRs as defined by 49 CFR 563 are not designed to resist tampering 
and if such tampering occurs there is no penalty. Thus, a giant privacy 
void exists as a central element of consumer protection and consumer 
acceptance.
    IEEE 1616: Standard for Motor Vehicle Event Data Recorder (MVEDR) 
section 1.3 Data Privacy and Security Recommendations cite (in part) 
the following:

        In recent years, advances in technology have made possible the 
        detailed information about individuals to be compiled and 
        shared. This has produced many benefits for society as whole 
        and individual consumers. At the same time, as personal 
        information becomes more accessible precautions must be taken 
        to protect against the misuse of information. MVEDR data 
        aggregated across many events has significant scientific value. 
        Occasional errors in data recording, communication, or 
        retrieval will undoubtedly occur. However, uncontrolled release 
        of any data, especially erroneous data for any specific event, 
        has the potential to compromise that directly affected 
        individual's need for confidentiality. Moreover, aggregate 
        MVEDR data may contain an occasional statistical anomaly. While 
        scientifically undesirable, minor errors are not catastrophic 
        to the overall value of the data. However, individual or 
        personal data containing statistically insignificant errors or 
        omissions may wrongly attribute, falsely indicate fraud, or 
        erroneously convict/exonerate a particular person.''

    Thus, there is a recognized need to provide both a means of 
consumer protection for permitting EPA mandated OBD data related to 
engine and emissions diagnostic data to be downloaded by service 
technicians and vehicle inspection stations and automobile inspection 
stations while at the same securing crash data for vehicle owners, 
thereby protecting privacy and avoiding tampering in an inexpensive and 
useful manner.
    Vehicle owners are any individual, business, institution, 
government agency, organization, or corporation that holds the title to 
a motor vehicle.
    The Agency received sufficient evident to understand that EDR crash 
data can be tampered with via the vehicle diagnostic link connector. 
See NHTSA-2008-0004-0013 at www.regulations.gov for an expert witness 
evaluation of 49 CFR 563.
    The National Cooperative Highway Research Program (NCHRP)/
Transportation Research Board/National Academies Project 17-24 Final 
report: Use of Event Data Recorder (EDR) Technology for Highway Crash 
Data Analysis notes (in part) :

        Although no cases have yet addressed the issue of EDR 
        tampering, court rulings in cases involving similar devices in 
        trains and trucks indicate that deliberate erasure or tampering 
        with EDR data will move courts to invoke so-called evidence 
        spoliation remedies. In other words, the deliberate destruction 
        of such evidence may lead to sanctions against the despoiling 
        party and judges may permit juries to draw certain negative 
        inferences from such behavior.

    While the Agency may not have ``anti-tampering'' provisions written 
into the EDR final rulemaking, the Safety Act does include a provision 
known as the ``rendering inoperative'' provision which is set forth in 
section 108(a)(2)(A) of the Safety Act (15 U.S.C. 1397(a)(2)(A)). That 
section prohibits manufacturers, distributors, dealers, and repair 
shops from knowingly ``rendering inoperative,'' in whole or in part, 
any device or element of design installed on or in a vehicle in 
compliance with an applicable safety standard.
    To overcome the shortcomings my pending Petition for 
Reconsideration of 49 CFR 563: Event Data Recorders recommending a 
simple mechanical lockout for a diagnostic link connector port would 
mitigate or obviate the aforementioned problems. Specifically, NHTSA-
2008-0004-0007 seeks to: (1) maintain data privacy, (2) prevent data 
tampering, (3) avoid odometer fraud, (4) limit access to sensitive 
data, (5) stop in-vehicle systems engineering, (6) secure in-vehicle 
networks, (7) enhance overall safety and (8) encourage consumer 
acceptance.
    Several Letters of Support are available for review at 
www.regulations.gov search NHTSA-2008-0004. \12\
---------------------------------------------------------------------------
    \12\  See NHTSA-2008-0004-0011 and NHTSA-2008-0004-0012 at 
www.regulations.gov.
---------------------------------------------------------------------------
The Change Required in 49 CFR 563: Event Data Recorders \13\
---------------------------------------------------------------------------
    \13\ See NHTSA-2008-0001 at www.regulations.gov.
---------------------------------------------------------------------------
Congress Shall Require That NHTSA Add the Following
 563.13 Motor Vehicle Event Data Recorder Connector Lockout Apparatus 
        (MVEDRCLA).
    Each manufacturer of a motor vehicle equipped with an EDR shall 
ensure by licensing agreement or other means that a motor vehicle event 
data recorder connector lockout apparatus (MVEDRCLA) as standardized by 
the Institute of Electrical and Electronics Engineers Standards 
Association (IEEE 1616) is commercially available for securing access 
to the data stored in the EDR that are required by this part. The 
MVEDRCLA shall be commercially available not later than 90 days after 
the first sale of the motor vehicle for purposes other than resale.\14\
---------------------------------------------------------------------------
    \14\ See NHTSA-2008-0014.1 at www.regulations.gov.
---------------------------------------------------------------------------
    The Institute of Electrical and Electronics Engineers Standard:

        IEEE 1616a<SUP>TM</SUP> Standard for Motor Vehicle Event Data 
        Recorders (MVEDRS)--Amendment 1: Motor Vehicle Event Data 
        Recorder Connector Lockout Apparatus (MVEDRCLA).

    Scope: Motor Vehicle Event Data Recorders (MVEDRs) collect, record, 
store and export data related to pre-defined events in usage history. 
This amendment defines a lockout protocol for MVEDR output data 
accessibility by securing the vehicle output diagnostic link connector 
(DLC). This standard does not prescribe data security within the 
vehicle electronic control units (ECUs) or within the intra-vehicle 
communication and/or diagnostic networks but instead defines ways and 
means to permit uniform, but controlled access of electronic scan tools 
to the DLC for legitimate vehicle emissions status, maintenance and/or 
repair. This standard also defines a means of maintaining data security 
on the vehicle via a motor vehicle DLC connector lockout apparatus 
(MVEDRCLA). The MVEDRCLA is applicable to vehicles and their respective 
event data recorders for all types of motor vehicles licensed to 
operate on public highways.
    Purpose: Many light-duty vehicles, and increasing numbers of heavy 
commercial vehicles, are equipped with some form of a MVEDR. These 
systems are diverse in function, and proprietary in nature, however, 
the SAE J1962 (ISO/DIS 15031-3) vehicle diagnostic link connector (DLC) 
has a common design and pinout, and is thus universally used to access 
event data recorder information. Data access via the DLC can be 
accomplished by using scan tools or microcomputers and network 
interfaces. This same DLC and network interface is also used for re-
calibrating electronic control units on a vehicle. Such ECU 
applications can include restraint controls, engine controls, stability 
controls, braking controls, etc. This amendment defines a protocol to 
protect against misuse of electronic tools which use the DLC to erase, 
modify or tamper with electronic controller or odometer readings, or to 
improperly download data. Implementation of MVEDRCLA provides an 
opportunity to voluntarily achieve DLC security by standardizing a 
MVEDRCLA which will act to prevent vehicle tampering, which can include 
odometer fraud, illegal calibrations leading to emissions violations 
and theft of personal data. Adoption of this standard will therefore 
make the common MVEDR/DLC data more secure and credible while still 
permitting accessibility to legitimate end users.
    Bottom Line: If vehicle and highway safety is to be advanced in our 
Nation then crash data available from EDRs must be tamper-proof.
            Respectfully Submitted,
                                        Thomas M. Kowalick.
Attachments
    1. Petition for Reconsideration submitted 25 February 2008
    2. Letter of Support dated 17 November 2009
Online Resources
    Press release IEEE p1616 at http://standards.ieee.org/
announcements/pr_
1616.html
    Press release IEEE 1616 at http://grouper.ieee.org/groups/1616a/
PR.html
    Fatal Exit: The Automotive Black Box Debate at http://
books.google.com/books
?id=VkooLFWnUmYC&dq=fatal+exit&printsec=frontcover&source=bn&hl=en&ei=Cd

1pS8zwllaWtgftiZHSBg&sa=X&oi=book_result&ct=result&resnum=4&ved=0CBA
Q6AEwAw#v=onepage&q=appeal&f=true
    GAO-09-056 at http://gao.gov/new.items/d0956.pdf
    NHTSA Dockets at www.regulations.gov see NHTSA-2008-0004-0007 for 
Kowalick Petition.
    49 CFR 563: Event Data Recorders at www.regulations.gov See NHTSA-
2008-0004-0001
    CC: Chairman, The Honorable Senator John D. Rockefeller IV, West 
Virginia
    Ranking Member, The Honorable Senator Kay Bailey Hutchison, Texas
    The Honorable Senator Daniel K. Inouye, Hawaii
    The Honorable Senator John F. Kerry, Massachusetts
    The Honorable Senator Byron L. Dorgan, North Dakota
    The Honorable Senator Barbara Boxer, California
    The Honorable Senator Bill Nelson, Florida
    The Honorable Senator Maria Cantwell, Washington
    The Honorable Senator Frank R. Lautenberg, New Jersey
    The Honorable Senator Mark Pryor, Arkansas
    The Honorable Senator Claire McCaskill, Missouri
    The Honorable Senator Amy Klobuchar, Minnesota
    The Honorable Senator Tom Udall, New Mexico
    The Honorable Senator Mark Warner, Virginia
    The Honorable Senator Mark Begich, Alaska
    The Honorable Senator Olympia Snowe, Maine
    The Honorable Senator John Ensign, Nevada
    The Honorable Senator Jim DeMint, South Carolina
    The Honorable Senator John Thune, South Dakota
    The Honorable Senator Roger Wicker, Mississippi
                                 ______
                                 
                                                  February 25, 2008
Hon. Nicole R. Nason,
Administrator,
National Highway Traffic Safety Administration,
Washington, DC.

Dear Nicole R. Nason:

    [Docket No. NHTSA-2008-00041 RIN 21'27-AK 12 or subsequently NHTSA-
2006-25666.
    RE: Petition for Reconsideration to 49 CFR Part 563 Event Data 
Recorders--Response to Petitions for Reconsideration as published in 
the Federal Register/Vol. 73, No. 9/Monday, January 14, 2008/Rules and 
Regulations.
    Specifically, I Petition for Remand due to factual errors in the 
Agency response to the following section:

        H. Public Privacy and Consumer
        Notification of EDRs

        1. Whether NHTSA Should Require a Mechanical Lockout on EDRs.

        Mr. Thomas Kowalick petitioned NHTSA to require a mechanical 
        lockout on the on-board diagnostic (OBD2) port \28\ for the 
        sole use/control of the owner or operator of the vehicle 
        equipped with an EDR. Mr. Kowalick argued that it is possible 
        to protect consumer privacy rights by use of a mechanical 
        lockout system on this port, which is used to download EDR 
        data. In a March 1, 2007 meeting with NHTSA, Mr. Kowalick 
        expressed an additional concern that aftermarket devices are 
        being developed to erase or tamper with EDR data.\29\ He noted 
        that the preamble to the final rule stated that if tampering 
        became apparent, NHTSA would reconsider its position on this 
        issue.
---------------------------------------------------------------------------
    \28\ See 61 FR 40940. Thc OBD2 port standard specifies the type of 
diagnostic connector and its output pin locations used for monitoring 
vehicle parameters measured by the on-board computer(s) such as 
emissions controls. It is typically located on the driver's side of the 
passenger compartment near the center console.
    \29\ Docket No. NHTSA-2006-25666-457.

        Agency response: We are denying this petition. Mr. Kowalick 
        provided information that devices may exist to erase or tamper 
        with EDR data, but he did not provide information that they 
        were actually being used. There are several other ways that EDR 
        tampering will be prevented. First, the EDR download port is 
        installed inside the vehicle, on which the door locks act as a 
        first line of defense to prevent access to the data port. 
        Second, if the vehicle glazing is missing, either due to an 
        accident or forceful entry (assuming a person wants to tamper 
        with someone else's EDR data), the vehicle key is needed to 
        power the vehicle to access the EDR data through the diagnostic 
        port. And third, the final rule requires that event data from 
        crashes in which an air bag has been deployed must be locked 
        and cannot be overwritten. As stated in the final rule, the 
        agency may revisit the issue if EDR tampering indeed becomes a 
---------------------------------------------------------------------------
        problem.

    I petition NHTSA for remand based on evidence of tampering. Thus, I 
am providing information to persuade NHTSA that conditions have changed 
meaningfully since the Agency's original determination--specifically 
with current tampering of EDR data and odometer readings.
Definition of Tampering
    ``Tampering'' means to modify, remove, render inoperative, cause to 
be removed, or make less operative any device or element design 
installed on a motor vehicle or motor vehicle power-train, chassis or 
body components which results in altering Federal motor vehicle safety 
standards (FMVSS).
Providing the Agency Evidence of Tampering Devices
    Docket NHTSA-2006-25666-457 clearly establishes that numerous 
devices exist to reset air bags, erase crash data and/or modify 
odometer readings. In that docket I cited 29 products from 23 companies 
advertised with capabilities to alter or omit crash data by plugging an 
inexpensive software/hardware device into the vehicle OBD port.
Providing the Agency Evidence of Tampering Services
    Here are four (4) examples as advertised online (last visited 2/27/
08):

        http://www.talktomycar.co.uk/index.htm

        http://www.airbagcrash.com/

        http://www.tachosoft.com/_airbag.htm

        http://www.autodiag.ru/airbagaudivwen.html
NHTSA Initiatives Call for Increased Measures but Fail to Provide an 
        Effective Counter-Measure
    The Agency maintains an Office of Odometer Fraud Investigation with 
a website at http://www.nhtsa.dot.gov/portal/site/nhtsa/
menuitem.893c19c9fb974f825c42008
7dba046a0/
    This site provides the following assessment:

        Odometer tampering continues to be a serious crime and consumer 
        fraud issue. In 2002, NHTSA determined this crime allows more 
        than 450,000 vehicles to be sold each year with false odometer 
        readings, milking American car buyers out of more than $1 
        billion annually. From 2002 to 2005, we have seen a definite 
        escalation of odometer fraud. New car prices, coupled with the 
        increased demand for late-model, low-mileage used cars, has 
        made odometer fraud more profitable than ever. Strong 
        enforcement of the Federal and state odometer laws, i.e., 
        prosecutions with stiff sentences, appears to be the most 
        effective deterrent.
The Nature of Odometer Fraud According to the U.S. Department of 
        Justice (USDOJ)
    Odometer fraud is a pernicious crime that robs thousands of dollars 
from each victim it touches. See, e.g., United States v. Whitlow, 979 
F.2d 1008, 1012 (5th Cir. 1992) (under sentencing guidelines, court 
affirmed estimate that consumers lost $4,000 per vehicle). The 
television news magazine 60 Minutes once characterized it as the 
largest consumer fraud in America. Victims of this fraud are commonly 
the least able to afford it, since buyers of used cars include large 
numbers of low income people. In addition, consumers generally arc 
unaware of being victimized.
    Odometer-tampering involves several interrelated activities. Late-
model, high-mileage vehicles are purchased at a low price. The vehicles 
are ``reconditioned'' or ``detailed'' to remove many outward 
appearances of long use. Finally, odometers are reset, typically 
removing more than 40,000 miles.
    In addition to the cosmetic ``reconditioning'' of the car, the 
odometer tamperer ``reconditions'' paperwork. Automobile titles include 
a declaration of mileage statement to be completed when ownership is 
transferred. To hide the actual mileage that is declared on the title 
when the car is sold to an odometer tamperer, the tamperer must take 
steps to conceal this information. These steps vary from simple 
alteration of mileage figures, to creating transfers to fictitious 
``straw'' dealerships to make it unclear who was responsible for the 
odometer rollback and title alteration. Alternatively, the odometer 
tamperers frequently destroy original title documents indicating high-
mileage, and obtain duplicate certificates of title from state motor 
vehicle departments, upon which the false, lower mileage figures are 
entered.
    Whatever method is used, the result is the same. The odometer 
tamperer possesses an altered, forged, or replacement title document 
(which is a security under Federal law) containing a false low-mileage 
reading. This title is used to sell the car, for several thousand 
dollars above its actual value, to a purchaser who is deceived 
regarding the vehicle's remaining useful life by the altered odometer, 
by the vehicle's outward appearance, and by the counterfeit, low-
mileage title and odometer statement.\1\
---------------------------------------------------------------------------
    \1\ See http://www.usdoj.gov/civil/ocl/monograph/odom.htm (Last 
visited 2/25/2008)
---------------------------------------------------------------------------
    Rationale for this Petition for Reconsideration stressing that the 
Agency has the authority and responsibility to act in a timely manner 
to correct clearly erroneous errors:

        1. The Agency already acknowledges tampering devices exist to 
        erase crash data and alter odometers, and promises if tampering 
        became apparent it would reconsider its position on this issue. 
        This petition provides evidence of tampering.

        2. The Agency's EDR rulemaking is inadequate to protect owner/
        operators of an estimated sixty (60) million vehicles that 
        currently utilize event data recorder (EDR) technologies as 
        proven by the fact that EDR data is widely used in civil and 
        criminal cases.\2\ Even though the majority of vehicle owners 
        are unaware of the presence of these ``black boxes'' in their 
        vehicle, criminal prosecutors and personal injury attorneys are 
        obtaining the data contained in these ``black boxes'' from 
        owners' vehicles and using the data contained within to charge 
        drivers with crimes or hold them liable for damages in personal 
        injury lawsuits. Numerous unsuspecting vehicle operators have 
        been convicted, sentenced and jailed based, in part, on the 
        black box data extracted from their vehicles.\3\
---------------------------------------------------------------------------
    \2\ EDR case law online at http://www.collisionsafety.net/
cdrcaselaw.htm (Last visited 2/25/2008).
    \3\ See http://lemonfax.com/industry_secrets.html (Last visited 2/
25/2008).

        3. Door locks do not serve as an adequate defense to prevent 
        access to the diagnostic link connector (DLC) data port. 
        Following a crash numerous personnel including first 
        responders, law enforcement and other third parties such as 
        vehicle towing and insurance adjusters have access to the 
        interior of the vehicle and thus to the diagnostic link 
        connector (DLC) port. Therefore, an open port is always subject 
---------------------------------------------------------------------------
        to tampering. (see figure 1).

        4. Furthermore, a vehicle key is NOT NEEDED to access the EDR 
        data since the Agency is fully aware that there arc alternative 
        methods to provide power via the fuse box.\4\ The Agency also 
        understands future vehicles will include keyless ignitions.
---------------------------------------------------------------------------
    \4\ The Agency participated in a National Academies of Science/
Transportation Research Board (NSA/TRB) National Cooperative Highway 
Research Project 17-24 Use of Event Data Recorder (EDR) Technology for 
Highway Crash Analysis study in which a section (4) was devoted to EDR 
Data Retrieval Methods and Issues: Section 4.2.2 specifically outlines 
NHTSA experience with EDR Data Retrieval; and Section 4.2.3 
specifically details Interviews with NASS Field Accident Investigators. 
Thus, the Agency is well versed on alternative methods of accessing 
data without a vehicle key. The full report is available online at: 
www-nrd.nhtsa.dot.gov/edr-site/uploads/TRB_NCHRP_Project_17-24.pdf--
Other EDR Downloading Concerns. Assuming that the accident 
investigation teams are able to download the EDR from the OBD-II port, 
they need to obtain the vehicles keys to operate the ignition. Contrary 
to overall NHTSA findings, the Ocean County team reported that 
obtaining the vehicles keys was not a problem, making this method of 
download a simple process when OBD-II download functions correctly. GM 
Experience with EDR Data Retrieval: The research team followed up these 
interviews with a phone interview with a subject EDR expert at GM 
(Floyd, 2003). GM reports significantly higher success rates at 
downloading their EDRs through the OBD-II connector. GM uses a 
technique of externally powering the airbag control module through the 
fuse box when the car has lost power or no key is available. GM reports 
that this technique works unless there is significant intrusion or 
unless the ODD-II connection has been grounded. It should be noted that 
this technique is not however part of the currently recommended 
practice when using the Vetronix CDR tool. Using techniques such as 
these, however, GM estimates that their EDRs can be downloaded through 
the OBD-II connector 80 percent of the time. Only an estimated 20 
percent of the attempted downloads require direct connection with 
cables. In an estimated 5 percent of all cases, no data can be 
recovered for reasons including water immersion, fire, or severe crash 
damage.

        5. Finally, although the Agency cites that event data from 
        crashes in which an air bag has been deployed must be locked 
        and cannot be overwritten the Agency failed to define the term 
        ``lock.'' \5\ which permits a high likelihood of confusion and 
        misunderstanding.
---------------------------------------------------------------------------
    \5\ During this same EDR rulemaking in response to a petition from 
AORC the Agency stated ``If we allowed the EDR to be erased by external 
means, it could encourage development of tools to erase EDR data 
potentially beneficial to our programs, and would make it difficult to 
ensure that this feature was not being misused. Although the final rule 
did not define the term ``locked.'' we consider it to mean to protect 
EDR data from changes or deletion. This would include by external 
means.'' (note--these tools are being used!)

    In conclusion, although NASS investigation teams may be properly 
collecting EDR crash data the Agency cannot determine--one way or the 
other--if or when motor vehicle event data recorders or odometers are 
tampered with by other parties, therefore, calling into question the 
validity of the data gathered or a rationale for lack of data (once 
erased). To remedy this situation the Agency should quickly correct 
clearly erroneous factual errors and mandate a mechanical lockout on 
the diagnostic link connector (DLC) for vehicles that include EDRs or 
provide access to odometer settings via the DLC. This is an immediate 
and urgent issue. A simple OEM or aftermarket lockout product is 
readily feasible. Vehicle OEMs would welcome this means of protecting 
data and preventing re-engineering. The estimated cost per vehicle 
would be approximately two dollars. This would be a small price for 
providing consumer protection toward assuring consumer acceptance of 
these emerging life saving technologies. I welcome the opportunity to 
provide additional information to the Agency on this issue. I also 
volunteer to provide a demonstration of how to secure the ODB DLC port 
without interfering with scheduled maintenance, inspection or repair of 
the vehicle as required. Thus, based on the evidence presented to the 
Agency there are no substantive reasons for denial of this timely 
petition.
            Sincerely,
                                        Thomas M. Kowalick.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                          Automotive Systems Analysis, Inc.
                                       Reston, VA, 17 November 2009
Mr. Stephen R. Kratzke, Esq.,
Associate Administrator of Rulemaking,
National Highway Traffic Safety Administration
Washington, DC.

Subject: Letter of support for Professor Thomas M. Kowalick's Petition 
            for Reconsideration of 49 CFR 563.

Dear Mr. Kratzke:

    I, William Rosenbluth, wish to submit a letter of support of Mr. 
Thomas M. Kowalick's Petition for Reconsideration regarding 49 CFR 563; 
Event Data Recorders.
    I have been performing retrieval and analysis of passenger vehicle 
EDR data for approximately 15 years. I am the author of two books 
published on that subject, Investigation and Interpretation of Black 
Box Data in Automobiles, jointly published by the American Society of 
Testing and Materials (ASTM) and the Society of Automotive Engineers 
(SAE) in June 2001 and Black Box Data from Accident Vehicles, Methods 
of Retrieval, Translation and Interpretation, published by ASTM in 
November 2009.
    I support Mr. Kowalick's Petition for Reconsideration because I 
perceive that the Agency has published ambiguous security criteria for 
``locked data,'' while Mr Kowalick's anti-tampering device 
unambiguously accomplishes security for ``locked data''. My perception 
of the Agency's security criteria for ``locked data'' is discussed 
below:

    1. The definition of ``locked data'' in the Final Rule, published 
in the Federal Register: August 28, 2006 contains the notice that:

        We have considered the comments recommending that we address 
        potential tampering with EDRs. We currently do not have 
        information that leads us to believe that tampering with EDRs 
        is a problem that necessitates us to develop requirements in 
        this area. We may revisit this issue if we find that EDR 
        tampering becomes a problem. However, we do believe one aspect 
        of EDR design will discourage tampering. We are requiring that 
        the captured file be locked for crashes that involve air bags. 
        The locked file will be preserved and the file cannot be 
        overwritten. (SOURCE: FR Vol 71, No. 166/Monday, August 28, 
        2006/ Rules and Regulations, Page 51023.).

        The exact definition of ``locked file'' or ``locked data'' was 
        not further specified. Current usage defines ``locked data'' as 
        specific event-data, once written, that cannot be overwritten 
        by a next event. The current means of indicating that data is 
        locked is a byte flag in non-volatile memory indicating that a 
        portion of non-volatile memory is ``locked'' and cannot be 
        overwritten by a next event.

    2. In current designs, such data is normally resident in 
Electrically Erasable Programmable Read Only Memory (EEPROM), which is 
actually a re-writable media. Current and understood technology allows 
external access to read that EEPROM data via an external data port 
(typically, the SAE J 1962 port). Data port access to post crash-event 
EEPROM data is typically protected via SAE J 2190 mode 27 security 
measures. Data in EEPROM is retained even when battery power is 
removed.
    3. However, as with any software protection, if there are ways to 
read EEPROM ``locked data'' from an external port, there are ways to 
write, alter or overwrite that ``locked data'' from an external port 
(as long as the media in question (EEPROM) is re-writable). 
Additionally, there are ways to write, alter or overwrite data in 
EEPROM media via direct internal EEPROM umbilical connections, thus 
avoiding data port security measures.
    4. It thus appears that, based on the FR Vol 71, No. 166/Monday, 
August 28, 2006/Rules and Regulations, Page 51023 criteria, traditional 
EEPROM technology, as used in current day EDRs, satisfies this 
criteria. However, data saved in traditional EEPROM technology is 
actually quite changeable with appropriate external software commands.
    5. The Agency appears to have disallowed Mr. Kowalick's original 
petition, as documented in the Federal Register: January 14, 2008 
(Volume 73, Number 9)], [Rules and Regulations], [Page 2168-2184], 
based on its perception that ``locked data'' was not changeable. 
Specifically, in its determination, the Agency considered on page 2178:

        1. Whether NHTSA Should Require a Mechanical Lockout on EDRs

        Mr. Thomas Kowalick petitioned NHTSA to require a mechanical 
        lockout on the on-board diagnostic (OBD2) port for the sole use 
        control of the owner or operator of the vehicle equipped with 
        an EDR. Mr. Kowalick argued that it is possible to protect 
        consumer privacy rights by use of a mechanical lockout system 
        on this port, which is used to download EDR data. In a March 1, 
        2007 meeting with NHTSA, Mr. Kowalick expressed an additional 
        concern that aftermarket devices are being developed to erase 
        or tamper with EDR data. He noted that the preamble to the 
        final rule stated that if tampering became apparent, NHTSA 
        would reconsider its position on this issue.''

        The Agency responded that: We are denying this petition. Mr. 
        Kowalick provided information that devices may exist to erase 
        or tamper with EDR data, but he did not provide information 
        that they were actually being used. There are several other 
        ways that EDR tampering will be prevented. First, the EDR 
        download port is installed inside the vehicle, on which the 
        door locks act as a first line of defense to prevent access to 
        the data port. Second, if the vehicle glazing is missing, 
        either due to an accident or forceful entry (assuming a person 
        wants to tamper with someone else's EDR data), the vehicle key 
        is needed to power the vehicle to access the EDR data through 
        the diagnostic port. And third, the final rule requires that 
        event data from crashes in which an air bag has been deployed 
        must be locked and cannot be overwritten. As stated in the 
        final rule, the agency may revisit the issue if EDR tampering 
        indeed becomes a problem.

    6. The Agency, in its answer to Mr. Kowalick, apparently feels that 
``locked data'' cannot be overwritten. However, current technology and 
current designs only prevent ``locked data'' from being overwritten by 
a successive crash event.
    7. Conversely, in the same Federal Register: January 14, 2008, 
Volume 73, Number 9, Page 2172, in response to an AORC petition, the 
Agency additionally defined (clarified) its perception of ``locked 
data'' as defined below.

        Agency response: We are denying this petition. We do not 
        believe that reuse of the EDR is a sufficient reason to allow 
        its erasure by external means. If we allowed the EDR to be 
        erased by external means, it could encourage development of 
        tools to erase EDR data potentially beneficial to our programs, 
        and would make it difficult to ensure that this feature was not 
        being misused. Although the final rule did not define the term 
        ``locked,'' we consider it to mean to protect EDR data from 
        changes or deletion. This would include by external means.

        This is the first Agency definition (clarification) that 
        ``locked data'' should be immune from alteration by any 
        external means. However it does not specify the ``locked data'' 
        has to be saved in non-rewritable media, nor does it specify 
        the degree of security needed to assert that the ``locked 
        data'' is immune from alteration by any external means.

    8. The current reality is that such event-data (as is chosen to be 
saved) is typically saved in EEPROM. EEPROM is a rewritable media. At 
this time, notwithstanding data port security measures, there are many 
publicly advertised tools that have the ability to clear ``locked 
data'' from crash records in Event Data Recorders (typically SRS ECUs), 
using only the external data port. Representative publicly advertised 
tools arc shown in Appendix A.
    9. One alternative method of achieving absolute ``locked data'' 
security, using current technology, is to use Electrically Programmable 
Read Only Memory (EPROM), versus EEPROM, as the media in which to store 
``locked data''. EPROM is written once, and is not electrically 
changeable thereafter. That change would absolutely comply with the 
Agency's later definition (clarification) in response to AORC, however, 
that change would preclude the storage of multiple below-threshold 
(i.e., near-deploy ) events in a common media. Thus, to save event-data 
for both non-deploy and deploy level events (as is done today) , it 
would require multiple event-data buffer memory types (e.g., EPROM and 
EEPROM). That would require programming design innovation and hardware 
design innovation above and beyond current EDR design practices. Such 
design innovations would add to the cost, complexity and design lead 
time for future EDRs.
    10. Conversely, if the Agency wishes to avoid such design 
innovation, the Agency must revisit the method of preventing 
unauthorized and possibly nefarious tools from accessing and possibly 
altering the supposedly ``locked data.''
    The most practical way to do that is to use a device that 
physically assures diagnostic port integrity. That was the nub of Mr. 
Kowalick's original Petition and his Petition for Reconsideration.
    11. For the above reasons, I believe that the Agency must state its 
unambiguous intent regarding ``locked data'' and its direction to 
achieve ``locked data'' by either via incorporation of design and 
technology innovation in the EDR ECU itself or by a mechanical security 
device as would be achieved by allowing Mr. Kowalick's Petition for 
Reconsideration of 49 CFR 563: Event Data Recorders.
            Respectfully submitted,
                                        William Rosenbluth.
                                 ______
                                 
                               Appendix A
    Publicly advertised tools that have the ability to clear ``locked 
data'' from crash records in Event Data Recorders (typically SRS ECUs),

    1. http://www.uuctech.com/Products/VW-AUDI-Airbag-Reset.html
    2. http://www.tradekey.com/product_view/id/811757.htm
    3. http://www.codecard.lt/carprog/carprog-airbag-with-all-software-
39-s-and-ada
pters-needed-for-airbag-repair-and-programming/prod_345.html
    4. http://www.adkautoscan.com/Production/R101.htm
    5. http://autocheery.en.made-in-china.com/product/reOQqGocbJiB/
China-Honda
-SRS-OBD2-Airbag-Resetter-for-Honda-with-TMS320-.html
    6. http://www.mtaplus.cz/navody/vwgroup_airbagreseter.pdf
    7. http://www.codecard.lt/ford-airbag-reset-tool-please-find-it-as-
carprog-software-/prod
    8. http://www.codecard.lt/carprog/software/carprog-airbag/s5-5-gm-
airbag-reset
-tool-by-obdii/prod_88.html

    Author Information: Thomas M. Kowalick, is widely recognized as a 
leading researcher on EDR technologies. He is president of Click, 
Inc.--Transportation Safety Technologies, a member of the Author's 
Guild, and is a professor in Pinehurst, North Carolina. Kowalick served 
as Co-Chair of the Institute of Electrical and Electronics Engineers 
(IEEE) global project 16160 to create the world's first automotive 
black box standard, contributed to the development of the National 
Highway Traffic Safety Administration (NHTSA) website for EDR research, 
and as a panel member on the National Academies of Sciences project 
studying EDRs. He is the author of FATAL EXIT: The Automotive Black Box 
Debate (John Wiley) and five other books specifically covering EDR 
history, standardization, legislation, regulation, legal issues and 
consumer protection. Kowalick is also author of the EDR segment in the 
forthcoming McGraw Hill 2009 Yearbook of Science & Technology. He holds 
three foundation patents for EDR technologies and his company 
manufactures CRASH-GUARD an new automotive aftermarket product to help 
prevent EDR tampering and odometer fraud.
    Further information please contact <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb6b1b9b09fbdb3bebcb4bdb0a7f2babbadf1bcb0b2">[email&#160;protected]</a> or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed84838b82ad9a9a9ac38e9f8c9e85c08a988c9f89c38e8280">[email&#160;protected]</a>
                                 ______
                                 
                                        King & Spalding LLP
                                     Washington, DC, March 18, 2010
Hon. John D. Rockefeller IV,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Rockefeller:

    I am writing on behalf of Toyota Motor North America, Inc. (``TMA'' 
or ``Toyota'') to you as Chairman of the Committee on Commerce, 
Science, and Transportation (``the Committee''). The hearing addressed 
a number of issues related to unintended acceleration in various Toyota 
models. Toyota welcomes the opportunity to clarify the matters you and 
other Senators of the Committee have raised, and has asked me to 
provide the following responses.

    Question 1. Please describe all technical and substantive 
differences between the electronic sensors Toyota places on its pedals 
versus the electronic sensors on its engine throttle control.
    Answer. Features of electronic sensors are different between the 
pedal and the engine throttle control. For those on the pedals, voltage 
sensors in which both sensors increase at the same rate are used; while 
for those on the engine throttle control, voltage sensors in which both 
sensors increase at different rates are used.

    Question 2. In accordance with the charts shown during the bearing 
in which Toyota on its website describes the different voltage levels 
for the pedal versus the engine throttle assembly, please answer the 
following questions:
    a. Why does Toyota use different sensors with different voltage 
level increases for its pedals versus engine throttle control?
    i. Is one technology safer than the other?
    Answer. There is no difference in safety between the two sensors. 
They are an integral part of the overall system strategy that provides 
a reliable operation with a robust fault detection and fail-safe 
features.

    b. Why does Toyota use voltage sensors on its pedals in which both 
sensors increase at the same rate?
    i. Why did Toyota make that decision when the rest of the auto 
industry on its pedals uses voltage sensors that increase at different 
rates?
    Answer. Toyota is not the only manufacturer that uses sensors that 
increase at the same rate. The strategy used by Toyota provides a 
better angle resolution.

    c. Why does Toyota use voltage sensors on its engine throttle 
assembly that increase at different rates?
    Answer. Toyota has used voltage sensors on its engine throttle 
assembly that increase at different rates since the initial 
implementation of the ETCS system. Toyota is not aware of any problems 
with these sensors in the market.

    d. How much does the sensor on the pedal assembly cost for 2004-
2008 Camrys? (Please give an answer for each year).
    Answer. Sensors are not purchased as separate items. They are part 
of the pedal assembly.

    e. How much would it have cost to place on the pedal assembly 
sensors that increase at different voltage rates for 2004-2008 Camrys? 
(Please give an answer for each year).
    Answer. Sensors are not purchased as separate items. They are part 
of the pedal assembly.

    Question 3. In the beginning of the last decade, many automobile 
manufacturers transitioned from ``drive by cable'' throttle control 
systems to ``drive by wire'' electronic throttle control system driven 
by software with electronic sensors and mechanisms. Like many 
electronic devices, they moved quickly to the marketplace without much 
testing and did not come without their flaws and glitches. Toyota 
introduced their first system in 2002 in their popular Camry model. 
Since 2002, NHTSA has conducted eight investigations regarding SUA in 
Toyota and Lexus Vehicles. Software has undergone many upgrades and 
revisions in recent years, and today's software is easy to update with 
added programs.
    a. Can you please explain the role of computers and software in the 
control systems for your vehicles?
    Answer. Computers and software are used in the modem vehicles to 
provide a safe, reliable, fuel efficient operation with minimal 
pollution. They help the vehicle operate at its most efficient 
performance. They also provide advanced safety features like stability 
and traction control, and help provide a fault detection and fail-safe 
strategy to the vehicles. With these systems, in the event of a fault 
detection, the driver is notified; vehicle acceleration is curtailed at 
the same time, allowing the driver to move the vehicle to a safe 
location away from the traffic.

    b. Has Toyota identified any flaws with ETC systems in the research 
and development stage or the current marketplace?
    Answer. Toyota has not identified any flaws in its ETCS-i system in 
the development stage or in the market.

    c. Does Toyota believe this software or electronic throttle control 
systems to be a cause of unintended acceleration in Toyotas?
    Answer. Toyota's design process is exhaustive and robust. Toyota 
does not believe there are any problems with the electronics of its 
vehicles. Toyota has built-in redundancies to the system and fail safe 
modes that allow Toyota to say with confidence that the ETCS-i is not 
the cause of unintended or unwanted acceleration. The ETCS-i system is 
designed to cause the engine power to shut off or operate at reduced 
power in the event of a system failure.
    Toyota recently commissioned Exponent, a well-respected engineering 
and scientific consulting firm, to study Toyota and Lexus vehicles and 
components for concerns related to unwanted acceleration. Exponent was 
not restricted by scope or by budget considerations in this review. 
Although its work is still ongoing, to date Exponent has found that the 
ETCS-i systems have performed as designed, and have not exhibited any 
acceleration or precursor to acceleration, despite concerted efforts to 
induce unwanted acceleration. In all cases tested by Exponent so far, 
the vehicle either behaved normally or entered the fail-safe mode 
described above.

    d. What will Toyota do if either Toyota or NHTSA discover that 
there is a defect with the Electronic Throttle Control System (ETCS)?
    Answer. Toyota is confident that no problems exist with the ETCS in 
Toyota's vehicles. Toyota does not believe unintended acceleration is 
caused by a defect in the ETCS-i system. Toyota will be vigilant in 
addressing consumer complaints, and if it finds any additional problems 
with its vehicles, it will address them promptly, in full cooperation 
with NHTSA and in full compliance with related laws and regulations.

    Question 4. Many other manufacturers of other high-tech systems, 
such as those making products for NASA and the DOD, conduct strenuous 
verification and validation tests on their equipment by engineers 
completely independent from software developers and hardware 
manufacturers with the assumption that there will be faults and 
failures in the system. They even test these systems under high stress 
conditions. The purpose is to correct any fixable flaws and to create 
fail-safe corrective systems in the event of a malfunction.
    a. What fail-safe mechanisms does Toyota employ to combat the 
potential for sudden unintended acceleration?
    Answer. Toyota implemented a robust fault detection and fail-safe 
strategy. The enclosed document lists some of the important fail-safe 
features. (See Attachment A).
    It is important to use the right term in discussing the ETCS-i 
fail-safes. The correct term is ``fail-safe,'' which means literally 
that if there is a system error or failure, the system will revert to a 
safe mode. This is distinct from a ``back-up system'' or ``multiple 
redundancies.'' Those terms have meanings that, in the event of an 
error, preserve safety.
    The ETCS-i constantly compares the target at CPUs in the Electronic 
Control Module (``ECM'') and the throttle valve's opening angle many 
times per second. If there is any discrepancy between the two, 
electrical power is cut to the throttle control motor and a powerful 
spring closes the throttle valve within 1 second to what is basically 
idle position (or what is referred to as ``limp home'' mode).
    The accelerator pedal position is monitored by two separate 
Accelerator Pedal Position Sensors (``APPS''). These sensors read 
differently from each other but are designed to maintain a different 
value between them. If by chance or error some outside source-voltage 
was to contaminate the sensor signal, the Electronic Control Module 
(``ECM'') would recognize the incorrect signal due to a change in the 
value between the two sensors. If the system recognizes that only one 
of the sensors is reading correctly (by comparing signals, checking 
voltages and differences in voltages between the two sensors), the 
ETCS-i system will go into a fail-safe that only allows the throttle to 
open a small fraction of the normal range. The driver will notice a 
distinct loss in power, with a reduced maximum speed. If the ECM finds 
that both sensors are inconsistent and out of range, electrical power 
is cut to the throttle control motor and a powerful spring closes the 
throttle within one second to what is basically the idle position. The 
driver would not be able to accelerate; the vehicle will run allowing 
the vehicle to ``limp home''--like driving without pressing on the 
accelerator pedal.
    The throttle valve is monitored by two separate sensors. Any 
failure of either sensor causes the ECM to turn off the throttle 
control motor, and the throttle value is then held in a fixed (near 
idle) position by the return spring. In this mode engine speed is 
regulated by controlling fuel injection and ignition timing according 
to the APPS signals. The driver will notice a distinct loss in power, 
with a reduced maximum speed.
    The throttle control motor itself is covered by yet another fail-
safe system. If there is a malfunction in the system, the ECM shuts the 
power to the motor off and the return springs move the throttle to the 
default position. The ECM will turn the motor off if there is excessive 
amperage or not enough amperage in the motor circuit.
    If the driver is experiencing what he or she believes is an 
unwanted acceleration event, in addition to the fail-safes above, the 
driver should be able to control the vehicle with firm and steady 
application of the brakes. In addition, the vehicle can be put into 
neutral, and turning off the ignition using the push button operation 
is explained in the Owner's Manual. There also will be a code stored in 
the ECM, and a warning light will illuminate on the dashboard if the 
vehicle goes into a fail-safe mode.

    b. Does Toyota's electronic throttle control system (software/
hardware) receive analysis and stress testing from independent 
engineers to verify and validate the safety of the system?
    Answer. Toyota's internal testing standards are based on the 
standards of the Society of Automotive Engineers (SAE) and those of the 
International Organization for Standardization (ISO), and cover such 
circumstances under which electronic interference by any extraneous 
broadcasting radio wave, wireless appliances installed or brought into 
the vehicles, and/or mobile phones might be anticipated.
    On all of the electronic parts and components including the 
electronic throttle, Toyota always requests its suppliers to test those 
parts and components on the basis of their internal testing standards 
and secure the durability of those parts and components, and then 
Toyota installs those parts and components into its vehicles and 
evaluates the effects of electronic interference on the functioning of 
those parts and components. The results of these tests indicate all of 
the electronic parts and components meet the standards before vehicle 
production.
    Furthermore, in order to address the current concerns on Toyota's 
ETCS-i system, Toyota has recently commissioned Exponent to conduct 
independent tests. Exponent is now systematically evaluating the 
performance of the ETCS-i system in Toyota and Lexus vehicles when 
subjected to abnormal and fault conditions. In its interim report, 
previously provided to you, Exponent concluded: ``[D]uring extensive 
testing on multiple vehicles, where different electrical and mechanical 
[changes] were imposed on the components comprising the ETCS-i system, 
Exponent did not observe any instances of unintended acceleration or 
any circumstances that might lead to unintended acceleration. To the 
contrary, imposing these [changes] resulted in a significant drop in 
power rather than an increase, In all cases, when a fault was imposed, 
the vehicle entered a fail-safe mode consistent with descriptions 
provided in the technical manuals for Toyota and Lexus vehicles.''
    The testing discussed above confirms that the ETCS-i system is not 
susceptible to electromagnetic interference. All those tests show there 
is no problem with the electronic throttle control or other electronic 
components.

    c. What companies does Toyota depend on for such testing? Where do 
these tests take place?
    Answer. Exponent, a leading engineering and scientific consulting 
firm, is continuing its examination of the ETCS-i system in Toyota and 
Lexus vehicles. In addition, the newly established North American 
Quality Advisory Panel will examine the ETCS-i system and have the 
authority to consult with any expert it chooses.

    Question 5. In an internal company document dated July 2009, Toyota 
boasted about convincing NHTSA that an equipment recall was sufficient 
to address the pedal entrapment issue instead of a vehicle recall. This 
resulted in saving the company $100 million. Unfortunately, pedal 
entrapment problems persisted and more people died as a result. You 
pledged during the hearing that you would confirm the actual amount of 
savings to Toyota from avoiding a full recall in 2007 in favor of a 
more limited equipment recall for the floormats.
    a. How much did Toyota save as a result of that decision?
    b. What will Toyota do to make sure that this does not happen again 
and that consumer safety is always put first before corporate profits?
    Answer. Toyota is actively investigating the basis for the $100 
million figure in the July 2009 presentation, and will respond to the 
Committee as soon as possible.

    Question 6. New Mexico is a rural state and it may not be 
convenient or safe for all Toyota owners to drive in for their recall 
service.
    a. What is Toyota doing to facilitate recalls in states where the 
drive to the dealership is long and potentially dangerous due to the 
items subject to the safety recall?
    Answer. Toyota has several dealerships situated throughout the 
state that are in close proximity to the majority of its customers and 
is unaware of any widespread issues in getting to the dealership. 
Consistent with Toyota's customer-first values, Toyota's dealers are 
working diligently to take care of Toyota's customers and facilitate 
the recall process, in many cases working extended hours to complete 
repairs as quickly as possible. Toyota will support its dealers in 
their efforts to ensure customers are able to get to the dealership and 
have their vehicles fixed. If a consumer does not feel comfortable 
driving to the dealership, Toyota, its dealers, and the customer will 
coordinate a plan to get the vehicle fixed, that could mean the dealer 
drives the car to the dealership, a technician visits the home, or a 
tow truck brings the car to the dealership. Toyota will reimburse its 
dealers for any action they take to conduct the recall efficiently and 
conveniently for the customers.

    Question 7. The corporate structure of Toyota has all safety 
decisions being made in Japan. In fact documents requested of local 
units were sent to Japan before they were sent to NHTSA as requested. 
This resulted in unnecessary delays in investigations as well as 
concerns that the information provided was filtered before being 
delivered to NHTSA for their use.
    a. What steps is Toyota taking to improve their ability to respond 
completely and in a timely manner to NHTSA's requests?
    Answer. Toyota is committed to increasing the frequency and 
transparency of its communications with NHTSA as well as regulators in 
its other markets. Toyota has proposed quarterly meetings with NHTSA, 
regardless of whether there are specific issues of concern, to 
facilitate the flow of communication. In addition, Toyota will be 
available to NHTSA at any time additional meetings are needed.

    b. What steps is Toyota taking to be more proactive in identifying 
potential issues, notifying NHTSA of the issue in advance of their 
request, and developing solutions to the safety concern?
    Answer. Toyota is conducting a top-to-bottom review of all of its 
quality control processes worldwide, with the assistance of outside, 
independent safety experts.
    Toyota is improving its ability to investigate complaints in 
several ways. First, it has created SMART teams that will investigate 
each unintended acceleration complaint in the U.S. Second, it is 
increasing the use of onboard event data recorders and producing more 
EDR read out tools to NHTSA and Toyota's investigators. Third, Toyota 
is requesting that going forward NHTSA provide Toyota with more 
information from its complaint data base, such as VIN numbers, which 
are necessary for investigation.
    Toyota has established new processes and organizations within 
Toyota to improve quality, responsiveness, and communication. The 
Special Committee for Global Quality will focus on improving quality 
processes and procedures at Toyota worldwide. It will have a North 
American representative who is also represented on the North American 
Quality Taskforce. This taskforce will be advised by an outside 
organization, the North American Quality Advisory Panel, headed by The 
Honorable Rodney Slater. The Automotive Center of Quality Excellence is 
being established in the U.S. where a team of Toyota's quality 
engineers will study quality and safety issues in the United States. It 
will report to the Chief Quality Officer of North America.
    Toyota plans to dramatically improve the flow of safety and defect 
information within the company, between regions, and between the U.S. 
and Japan. It will do this by posting complaint information and other 
trend information on its internal website--the Toyota Quality Network 
(TQNet). In addition, a North American quality chief will be 
represented at the global quality problem review meeting. There will be 
an appeal process from decisions made at these meetings that did not 
previously exist.

    Question 8. Toyota representatives indicated to my staff that, in 
addition to the floormats being replaced and the accelerator being 
reshaped, Toyota dealerships are also upgrading the software on 
recalled vehicles to include a brake override when the accelerator and 
brake are both applied. This override is considered by most vehicle 
manufacturers as an essential safety device.
    a. Is this brake override software upgrade provided automatically 
at the next service appointment for all existing Toyota vehicles whose 
computers can support it?
    Answer. Toyota plans to make the brake override system (BOS) 
standard on all of its non-hybrid North American Toyota and Lexus 
models on a going-forward basis. The hybrid vehicles, including the 
Prius, already have a function that is designed to reduce engine power, 
and, as a result, has a similar effect to BOS. This would make Toyota 
one of the first full-line manufacturers to have BOS standard on all 
its models. According to Edmunds.com, 18 major car manufacturers do not 
have standard BOS on their existing models.
    Toyota is retrofitting seven existing models with BUS: 2007-2010 MY 
Lexus ES, 2006-2010 MY Lexus IS, 2007-2010 MY Camry, 2005-2010 MY 
Tacoma, 2005-2010 MY Avalon, 2008-2010 MY Sequoia and 2009-2010 MY 
Venza. The retrofitting is being performed along with the other vehicle 
repairs as part of the current recalls, and thus has already begun. To 
date, Toyota has repaired approximately 1.64 million vehicles, and will 
continue until completion.

    b. Will Toyota install this upgrade automatically even for those 
vehicles not subject to current recalls?
    Answer. Toyota has no current plans to retrofit the brake override 
system to any other older vehicle models than the above-mentioned 7 
vehicle models.
    If you have any questions regarding this matter, or need additional 
information, please call me at 202-626-2901.
            Sincerely,
                                         Theodore M. Hester
cc: The Honorable Kay Bailey Hutchison
Ranking Member, Senate Committee on Commerce, Science, and 
            Transportation
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
                                 ______
                                 
                                        King & Spalding LLP
                                     Washington, DC, April 13, 2010
Hon. John D. Rockefeller IV,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Rockefeller:

    I am writing on behalf of Toyota Motor North America, Inc. (``TMA'' 
or ``Toyota'') to you as Chairman of the Committee on Commerce, 
Science, and Transportation (``the Committee''). Toyota welcomes the 
opportunity to respond to a number of matters raised by members of the 
Committee during the hearing on March 2, 2010. Toyota has asked me to 
submit the following information.
    First, Senator Cantwell asked that Toyota follow up with the 
Senator's constituent, Mr. Eves, regarding his requests for access to 
EDR data. My partner, Dan Donovan, has been updating Senator Cantwell's 
staff regarding the status of Mr. Eve's requests regarding the EDR data 
and will continue to provide updates as necessary.
    Second, Senator Begich requested a written policy related to 
recalls. Enclosed please find the Toyota Quality Control Standard--Rule 
for Implementation of Recall (``Exhibit A''). In addition, Senator 
Begich asked how many recalls there have been since 2006 and whether 
any have been stopped or not moved forward. Toyota has issued twenty-
eight (28) safety recalls in the United States from 2006 through the 
end of February 2010. The general process is that when the Customer 
Quality Engineering (CQE) division determined that there was an 
``investigated quality problem,'' it was reported to the department and 
division general managers. In addition, the group manager of the 
relevant CQE department proposed an ``Investigated Quality Problem 
Review Meeting'' (hereinafter referred to as a ``review meeting''). At 
the review meeting the general manager of the CQE division and the 
general managers of the related divisions met to discuss and determine 
whether a recall or any other field action was necessary. If at the 
review meeting, it was determined that a recall or improvement campaign 
was necessary, after review by the general manager of the Quality 
Division, the general manager of CQE reported the results of the 
meeting to the Managing Officer in charge of quality and sought 
approval to conduct a recall or improvement campaign. In the past, the 
Managing Officer approved every request for a recall. Since this 
standard was designed to insulate a recall judgment from any 
unnecessary intervention, no one within Toyota could overrule the 
decision on recalls outside of the group that made the decision.
    Third, Senator Nelson asked who decided that Toyota would only have 
one EDR read-out tool in the United States. The decision to have only 
one EDR read-out tool in the U.S. was not made by any one person and 
was not the result of any particular meeting or decision; rather, it is 
because the EDR read-out tool was still in its prototype stage. The 
software used to ``read out'' the EDR data was still in a testing phase 
and was not yet compatible with all electronic control units (ECUs) in 
use in Toyota and Lexus vehicles. Because the technology was still in 
the process of being validated, it was Toyota's policy not to use EDR 
data in its investigations in the regular course of business unless 
requested by law enforcement, NHTSA or a court order. In addition, 
Senator Nelson inquired as to whether Toyota collects and stores the 
data from the EDRs it decodes. The TMS Legal Department maintains the 
data that is downloaded from EDRs in paper form and in electronic form 
on the read-out tool itself as well as on a network drive. These data 
are maintained indefinitely.
    Fourth, Senator LeMieux asked where and to whom a certain 
presentation by James Press was given. This presentation was made by 
Mr. James Press, former President and COO of TMA, at a briefing session 
for TMC's top executives at Toyota Motor Corporation on September 20, 
2006. In response to Senator LeMieux's comments about the presentation, 
Mr. Sasaki promised to provide information regarding the number of 
safety recalls in the United States. Exhibit B provides the number of 
safety recalls for Toyota, Lexus and Scion vehicles from the beginning 
of 2001 through February 2010.
    Fifth, Toyota is also submitting additional information to clarify 
a few points in the record relating to EDR data. Event Data Recorders 
(EDRs) installed in Toyota vehicles are classified into two different 
types. As the attached chart shows (Exhibit C), a few Toyota vehicles 
contain EDRs that record post-crash data only,\1\ whereas the majority 
of Toyota and Lexus vehicles, contain EDRs that record pre- and post-
crash data.\2\ The amount and types of data recorded have evolved over 
time, and there may be slight variations from vehicle model to vehicle 
model depending on, for example, what types of airbags the model is 
equipped with. In general, for vehicles equipped with EDRs that record 
pre-crash data, the following pre-crash data is recorded by the most-
recent EDR model for up to 5 seconds before the crash: vehicle speed 
(mph), engine rotation speed (rpm), accelerator pedal position (off/
middle/full), and brake switch status (off/on). When a collision is 
triggered that meets certain criteria, other vehicle status information 
is generally recorded by the most-recent EDR model, including shift 
position (which is not recorded in the case of post-crash only EDRs), 
seatbelt information, driver's seat position, passenger seat occupant 
detection status., and airbag diagnostic information. Post-crash, the 
type and amount of data recorded depends on the type of collision. In 
general, the following types and amounts of data are recorded by the 
most-recent EDR model: longitudinal change in velocity is recorded 
every 10 milliseconds for frontal or rear collision from an interval of 
approximately .15 to .20 seconds post-collision; lateral change in 
velocity is recorded every 4 milliseconds for a side collision for 
approximately .07 seconds post-collision; and roll angle and lateral G 
force every 128 milliseconds for a rollover collision for about 2 
seconds following collision. Post-crash airbag deployment information 
is also recorded.
---------------------------------------------------------------------------
    \1\ Toyota is planning to install the capability to record pre-
crash data on these models by the end of 2010.
    \2\ In general, the EDRs only record data for collisions that meet 
certain criteria that are tied to the severity of the collision.
---------------------------------------------------------------------------
    In the past, given that the EDR read-out tool was only a prototype, 
Toyota prioritized requests from NHTSA, law enforcement, and court 
orders. However, going forward, once the additional and commercially 
ready EDR read-out tools are available in North America and appropriate 
procedures are put in place, Toyota will provide vehicle owners and 
their authorized representatives with access to this data. Further, 
Toyota plans to have a commercially available read-out tool in the 
future, that will enable vehicle owners and their representative to 
access this data. Toyota has already provided NHTSA with ten EDR read-
out tools.
    Finally, Senator Udall asked Toyota to answer the following 
questions:
    ``In an internal company document dated July 2009, Toyota boasted 
about convincing NHTSA that an equipment recall was sufficient to 
address the pedal entrapment issue instead of a vehicle recall. This 
resulted in saving the company $100 million. Unfortunately, pedal 
entrapment problems persisted and more people died as a result. You 
[Inaba] pledged during the hearing that you would confirm the actual 
amount of savings to Toyota from avoiding a full recall in 2007 in 
favor of a more limited equipment recall for the floormats.
    (a) How much did Toyota save as a result of that decision?
    In the course of the 2007 NHTSA investigation, Toyota articulated 
its good faith belief that there was no vehicle-based defect in the 
subject vehicles that would have required a safety recall of the 
vehicles themselves, so there was no ``savings.'' If the issue that was 
addressed in 2007 by Toyota's recall of all-weather floormats had 
instead required a vehicle-based solution for the subject vehicles, one 
logical response would have been to recall the affected vehicles in 
order to either replace or alter the throttle pedal assembly, and 
possibly alter the floor pan configuration in some vehicles, similar to 
the remedy later implemented in 2009. If generous rounding were used 
estimating the cost of replacing the throttle pedal assembly at $100 
per vehicle, and the number of affected vehicles at 1,000,000, one 
would derive the $100 million number. In fact, however, the cost of 
replacing the throttle pedal assembly would have been less, and the 
number of affected vehicles in the floor mat campaign was closer to 
820,000.
    (b) What will Toyota do to make sure that this does not happen 
again and that consumer safety is always put first before corporate 
profits?
    The safety of its customers is Toyota's highest priority. Recall 
decisions are made based on safety and quality and not on sales or 
profits. At Toyota, engineers and the quality management team have the 
final say on whether to initiate a recall. TMC has committed itself to 
seeking additional input from its various markets regarding product 
quality issues in the future.
    If you have any questions regarding this matter, or need additional 
information, please call me at 202-626-2901.
            Sincerely,
                                         Theodore M. Hester
cc: The Honorable Kay Bailey Hutchison
Ranking Member, Senate Committee on Commerce, Science, and 
            Transportation
                                 ______
                                 
                               Exhibit A
Photocopying prohibited
                Toyota Quality Control Standards QRF 001
Issued: September 1, 1975
19th Revision: August 22, 2006
Kazuhiro Sato, General Manager Quality Division
Approved
                 Rule for implementation of Recall etc.
1. Outline of Revision
    Under orders of Ministry of Land, Infrastructure and Transport to 
improve the operation related to defective vehicles, the following 
items were reviewed and revised.

        (1) 4. Understand a quality problem in need of investigation

        (2) 5.3 Field monitor after the judgment in the ``review 
        meeting'' (added item)

        (3) 11.(3) Period of record retention for documents for 
        Investigated Quality Problem Review Meeting
2. Drafting
    Deliberation group: Expert Commission for quality information and 
related departments
    Responsible person: Mr. Hajime Kitamura, General Manager
    Vehicle Dep. No. 1, Customer Quality Engineering Division
    Considering Leaders: Mr. Tetsuya Ito, Group Manager and Mr. 
Shouichi Uchikura, Project Manager External Affairs Group
    Vehicle Dep. No. 1, Customer Quality Engineering Division
3. Effective Date
    This standard shall be effective as of August 22, 2006.
                                 ______
                                 
                               Exhibit A
Confidential Do Not Reproduce
                Toyota Quality Control Standard QRF 001
Rule for Implementation of Recall etc.
Issued: September 1, 1975
19th Revision: August 22, 2006
1. Objective
    The objective of this rule is to define specific operations and 
procedures to secure smooth implementation of a recall and an 
improvement campaign.
2. Scope
    This rule shall apply to a recall and an improvement campaign on 
vehicles (including after market parts) produced and sold by Toyota 
Motor Corporation (including such vehicles and parts produced by makers 
to which Toyota Motor Corporation has entrusted the production).
3. Definitions
    Terms in these rules are defined as follows:

        (1) Safety related quality problem

                A problem which occurred in the vehicles/units or parts 
                under proper maintenance and normal operation and is 
                caused by the design or production, and which results 
                in noncompliance with safety or environmental 
                protection provisions in applicable domestic or foreign 
                laws and regulations, or which may cause a personal 
                injury due to a fire, inoperative or other factors.

        (2) Investigated Quality Problem

                A quality problem which is suspected to be a safety 
                related quality problem.

        (3) Recall

                Inspection/remedy action for the vehicles which contain 
                safety related quality problem along with the 
                notification of the problem to Ministry of Land 
                Infrastructure and Transportation or other relevant 
                authorities and to the owners. In addition, a report of 
                the implementation status of an inspection/remedy to 
                the relevant authorities. In case of the domestic 
                market, the safety related quality problem which 
                results or may result in noncompliance with the Safety 
                Regulation for Road Vehicle is subject to a recall.

        (4) Improvement Campaign

                In the domestic market, inspection/remedy action for 
                the vehicles which contain a safety related quality 
                problem but does comply with the Safety Regulation for 
                Road Vehicle along with the notification of the problem 
                so Ministry of Land, Infrastructure and Transport and 
                to the owners.
---------------------------------------------------------------------------
    NOTE: The above standard and/or specification are confidential and 
proprietary information of Toyota Motor Corporation. They shall be used 
only for the quality control of parts manufactured according to the 
order of Toyota Motor Corporation or its affiliated car and parts 
manufactures. They shall not be reproduced in whole or in part, nor 
shall they be disclosed to a third party for any purpose without prior 
written consent by Toyota Motor Corporation.
---------------------------------------------------------------------------
4. Understand an investigated quality problem
    Based upon a result of the investigation and analysis on the 
obtained quality information, the group manager of each department in 
Customer Quality Engineering Division shall report to the department 
and the division general managers an investigated quality problem, 
which is categorized as ``S'' or ``A'' rank prescribed in QRF401 ``Rule 
for Handling of Field Quality Information'', of which trend is 
anticipated and to which a countermeasure has been taken or is planed 
in the design or the production. In addition, the group manager shall 
propose holding an ``investigated Quality Problem Review Meeting'' 
(hereinafter referred lo as a ``review meeting'').
5. Review of an investigated quality problem
    5.1 Holding the ``review meeting''

        The general manager of Customer Quality Engineering Division 
        shall convene the general managers of related divisions or 
        their representatives and, if necessary, the speciality 
        divisions to the ``review meeting'' to discuss the following 
        matters and judge whether a recall or any other field action is 
        necessary:

                (1) Confirmation results of the fact of the problem

                (2) Analysis results of factors of the problem

                (3) Judgment of necessity of a recall or an improvement 
                campaign

                (4) Other matters

    5.2 Approval of Managing Officer in charge of quality

        In all cases where it has been judged in the ``review meeting'' 
        that it is necessary to conduct a recall or an improvement 
        campaign. after the review by the general manager of Quality 
        Division, the general manager of Customer Quality Engineering 
        Division shall report a result of the ``review meeting'' to 
        Managing Officer in charge of quality and receive the approval 
        to conduct a recall or an improvement campaign.

        A field action other than a recall and an improvement campaign 
        which has been judged in the ``review meeting'' to be important 
        shall be reported to Managing Office in charge of quality and 
        the general manager shall receive the approval to conduct such 
        field action after the review the general manager of Quality 
        Division.

    5.3 Field monitor after the judgment in the ``review meeting''

        In case that it has been judged in the ``review meeting'' that 
        a recall, an improvement campaign or any other field action is 
        not necessary, the group manager of each department in Customer 
        Quality Engineering Division shall periodically monitor the 
        occurrence status of the problem and report it to the 
        department and the division general managers. If necessary, the 
        group manager shall propose holding the ``review meeting'' to 
        discuss again.
6. Preparation for implementation of a recall or an improvement 
        campaign
    6.1 Hold a ``Recall or Improvement Campaign Preparation Meeting''

        Promptly after receiving the approval of Managing Officer in 
        charge of quality, the general manager of Customer Quality 
        Engineering Division shall convene general managers of related 
        divisions or their representatives to a ``Recall or Improvement 
        Campaign Preparation Meeting'' (hereinafter referred to as the 
        ``preparation meeting'') to discuss the following matters. In 
        addition, based of a result of the discussion in the meeting, 
        the general manager shall prepare a ``Request for field action 
        on sold vehicles'' (Form 1) and issue it after receiving the 
        approval of the general manager of Quality Division.

                (1) Range of affected vehicles (including vehicles 
                which parts etc. was investigated in the past.)

                (2) Method of a remedy

                (3) Method of a remedy work operation

                (4) Preparation and control of parts for a remedy

                (5) Calculation of costs

                (6) Request to dealers (and overseas distributors) and 
                local repair and maintenance shops

                (7) Notification to owners

                (8) Recovery of the affected service parts in the field

                (9) Preparation and submission of a notification of a 
                recall or an improvement campaign.

                (10) Publicity

                (11) Others

        If it is decided that the parts for a remedy need to be 
        prepared in advance, the ``preparation meeting'' can be held 
        before the approval of Managing Officer

    6.2. Preparation for a remedy

        Related divisions shall prepare the following items to 
        implement a remedy based on the decision made in the 
        ``preparation meeting''.

----------------------------------------------------------------------------------------------------------------
                   Preparation items                                     Main divisions in charge
----------------------------------------------------------------------------------------------------------------
(1) Identification of affected vehicles                  Customer Quality Engineering Div.
----------------------------------------------------------------------------------------------------------------
(2) Identification of owners of affected vehicles        Domestic Service Field Operations Div.
                                                         Overseas Service Field Operations Div.
                                                         Customer Quality Engineering Div.
----------------------------------------------------------------------------------------------------------------
(3) Procedures for work operation and completion         Technical Service Div.
 inspection                                              Domestic Service Field Operations Div.
                                                         Overseas Service Field Operations Div.
                                                         Customer Quality Engineering Div.
----------------------------------------------------------------------------------------------------------------
(4) Method of parts supply for a remedy                  Service Parts Administration Div.
                                                         Service Parts Logistics Div.
                                                         Domestic Parts and Accessories Div.
                                                         Overseas Parts and Accessories Div.
                                                         Customer Quality Engineering Div.
                                                         Quality Div.
                                                         Customer Quality Engineering Div.
----------------------------------------------------------------------------------------------------------------
(5) Preparation of parts for a remedy                    Domestic Parts and Accessories Div.
                                                         Overseas Parts and Accessories Div.
                                                         Customer Quality Engineering Div.
                                                         Service Parts Logistics Div.
                                                         Production Control Div., Purchasing Div.
----------------------------------------------------------------------------------------------------------------
(6) Delivery and control of parts for a remedy           Customer Quality Engineering Div.
                                                         Domestic Parts and Accessories Div.
                                                         Overseas Parts and Accessories Div.
                                                         Service Parts Logistics Div.
----------------------------------------------------------------------------------------------------------------
(7) Calculation of costs                                 Quality Div.
----------------------------------------------------------------------------------------------------------------
(8) Request to dealers (and overseas distributors) and   Domestic Service Field Operations Div.
 local repair and maintenance shops                      Overseas Service Field Operations Div.
                                                         Customer Quality Engineering Div.
----------------------------------------------------------------------------------------------------------------
(9) Notification to owners                               Domestic Service Field Operations Div.
                                                         Overseas Service Field Operations Div.
----------------------------------------------------------------------------------------------------------------
(10) Publicity                                           Public Affairs Div., Customer Relations Div.
                                                         Customer Quality Engineering Div.
----------------------------------------------------------------------------------------------------------------
(11) Identification of vehicles which have been          Technical Service Div.
 remedied                                                Domestic Service Field Operations Div.
                                                         Overseas Service Field Operations Div.
                                                         Customer Quality Engineering Div.
----------------------------------------------------------------------------------------------------------------
(12) Report on the completion status of a recall         Domestic Service Field Operations Div.
                                                         Overseas Service Field Operations Div.
                                                         Customer Quality Engineering Div.
----------------------------------------------------------------------------------------------------------------
(13) Others                                              ----------
----------------------------------------------------------------------------------------------------------------

7. Notification of a recall or an improvement campaign
    7.1 Preparation of notification documents of a recall
        7.1.1 Notification documents for domestic competent authorities

        (1) In case of vehicles sold in the domestic market or 
        domestic/overseas markets

                The general manager of Customer Quality Engineering 
                Division shall prepare the ``Notification of Recall 
                (Form 2) and the following documents which need to be 
                filed with Minister of Land, Infrastructure and 
                Transport and receive the approval of the president for 
                the ``Notification of Recall''.

                        a. ``Notification of Recall'' (Form 2)

                        (including a diagram showing a remedy part/main 
                        specifications of vehicles subject to a recall)

                        b. ``Table of Notification of Recall'' (Form 3)

                        (including a diagram showing a remedy part/main 
                        specifications of vehicles subject to a recall)

                        c. Other documents to be filed

                                (a) Exterior photograph of the 
                                representative model

                                (b) English version of ``Notification 
                                of Recall''

                                (c) Notification letter to owners

                                (only in case of a recall related to a 
                                foreseeable problem)

                                (d) Others

                        d. Explanation documents for reference

                                (a) Chronology until notification of a 
                                recall

                                (b) Occurrence status of problem in the 
                                field

                                (c) Investigation on the cause of the 
                                problem

                                (d) Result of confirmation whether a 
                                remedy complies with applicable 
                                regulations.

                                (e) Verification result of a method of 
                                knowing the symptom of the problem and 
                                how long the vehicle can be operated 
                                after the symptom appears.

                                (f) Range of affected vehicles and its 
                                reason

                                (g) Situation of export of affected 
                                vehicles and method of a remedy on 
                                those vehicles

                                (h) Recurrence prevention method 
                                (including future quality control 
                                method)

                                (i) Estimated labor time for a remedy 
                                per unit

                Note: (e) is needed only in case of a recall related io 
                a foreseeable problem.

        (2) In case of vehicles sold only in overseas market

                The general manager of Customer Quality Engineering 
                Division shall prepare the ``Foreign Recall Report'' 
                (Form 4) and reference documents which shows a diagram 
                of a remedy part etc. which need to be filed with the 
                chief of Vehicle and Component Approvals Division, 
                Engineering and Safety Department of Road Transport 
                Bureau, Ministry of Infrastructure and Transport.

        7.1.2 Notification documents for competent authorities in 
        foreign countries

                The general manager of Customer Quality Engineering 
                Division shall have the general manager of Overseas 
                Service Field Operations Division request the overseas 
                distributors to prepare notification documents required 
                under the laws and regulations effective in each 
                country. In case of the United States, Customer Quality 
                Engineering Division shall request the local 
                administration company to prepare the documents.

    7.2 Preparation of notification documents of an improvement 
campaign

        The general manager of Customer Quality Engineering Division 
        shall prepare the ``Notification of Improvement Campaign'' 
        (Form 5) and following documents which need to be filed with 
        the director of Road Transport Bureau, Ministry of Land, 
        Infrastructure and Transport. Details of a. through d. below 
        shall be referred to 7.1.1(1)b, interpreting a recall as an 
        improvement campaign.

                a. ``Notification of Improvement Campaign'' (Form 5)

                b. ``Table of Notification of Improvement Campaign'' 
                (Form 6)

                c. Other documents

                Note: English version specified in (b) is not necessary

                d. Explanation documents for reference

    7.3 Notification to competent authorities

        7.3.1 Notification to domestic competent authorities

                (1) In case of vehicles sold in the domestic market or 
                domestic/overseas markets

                In case of a recall, Customer Quality Engineering 
                Division shall file notification documents prepared in 
                accordance with 7.1.1(1) with Minister of Land, 
                Infrastructure and Transport. In case of an improvement 
                campaign, Customer Quality Engineering Division shall 
                file notification documents prepared in accordance with 
                7.2 with the director of Road Transport Bureau, 
                Ministry of Land, Infrastructure and Transport.

                (2) In case of vehicles sold only in overseas market

                Customer Quality Engineering Division shall submit a 
                report and other documents prepared in accordance with 
                7.1.1(2) with the chief of Vehicle and Component 
                Approvals Division, Engineering and Safety Department 
                or Rood Transport Bureau, Ministry of Land, 
                Infrastructure and Transport through Tokyo Engineering 
                Division.

        7.3.2 Notification to competent authorities in foreign 
        documents

                Overseas distributors shall file the notification 
                documents prepared in accordance with 7.1.2 with the 
                local competent authorities in compliance with the laws 
                and regulations effective in each countries. In case of 
                the United States, the local administration company 
                shall file the documents.

    8. Implementation of a recall or an improvement campaign

        8.1 Request to dealers, etc.

                Based on the request of the general manager of Customer 
                Quality Engineering Division, the general manager of 
                Domestic Service Field Operations Division or Overseas 
                Service Field Operations Division shall request dealers 
                etc. to implement a recall or an improvement campaign.

                (1) In case of domestic market

                        (a) The general manager of Domestic Service 
                        Field Operations Division shall request 
                        dealers:

                                (i) to notify owners, either by mail or 
                                visit, of the implementation of a 
                                recall or an improvement campaign. 
                                Dealer shall make effort to complete 
                                notification to owners within 1 month 
                                after commencing a remedy.

                                (ii) to carry out a remedy on the 
                                affected vehicles brought to the 
                                dealers and attach an identification 
                                sticker to each vehicle on which a 
                                recall is completed.

                        (b) The general manager of Domestic Service 
                        Field Operations Division shall seek to make a 
                        recall or an improvement campaign known to 
                        local repair and maintenance shops through 
                        Federation of Japan Automobile Maintenance 
                        Promotion Societies.

                        (c) Customer Quality Engineering Division shall 
                        request a relevant division to post a summary 
                        of a recall or an improvement campaign on the 
                        corporate website.

                        (d) In case that it is difficult to identify 
                        specific owners, the general manager of 
                        Domestic Service Field Operations Division 
                        shall request Japan Advertising & Marketing 
                        Division to take appropriate actions to 
                        thoroughly inform owners through newspapers and 
                        other publicity.

                        (e) The general manager of Overseas Service 
                        Field Operations Division provides the 
                        information on the domestic recall for overseas 
                        distributors as needed.

                (2) In case of overseas market

                        (a) The general manager of Overseas Service 
                        Field Operations Division shall request 
                        overseas distributors:

                                (i) to notify owners of a recall in 
                                compliance with the laws and 
                                regulations effective in each country.

                                (ii) to implement a recall in 
                                compliance with the laws and 
                                regulations effective in each country.

                        (b) The general manager of Domestic Service 
                        Field Operations Division provides the 
                        information on the overseas recall for domestic 
                        dealers as needed.
    9. Monitoring and promoting the implementation status of a recall

        9.1 Monitoring the implementation status of a recall

                (1) In case of domestic market

                        (a) Domestic Service Field Orperations Division 
                        shall count up all vehicles by 8th of January, 
                        April, July and October, which have had a 
                        recall remedy at dealers by the end of last 
                        month, and then, report it to Customer Quality 
                        Engineering Division.

                        (b) Based on this report, Customer Quality 
                        Engineering Division shall prepare the ``Recall 
                        Implementation Status Report'' (Form 7)

                (2) In case of overseas market

                        Overseas Service Field Operations Division 
                        shall obtain a report on the total of the 
                        number of remedied vehicles from overseas 
                        distributors as needed and then report it to 
                        Customer Quality Engineering Division.

        9.2 Promoting the implementation

                Customer Quality Engineering Division, Domestic Service 
                Field Operations Division and Overseas Service Field 
                Operations Division shall confirm the implementation 
                status and request dealers (overseas distributors) to 
                take appropriate measures to improve the completion 
                rate, such as a renotification to the owners whose 
                vehicles have not been brought to the dealer and have 
                not been remedied.

        9.3 Survey after the implementation of a remedy

                Customer Quality Engineering Division shall conduct a 
                survey on conditions in the market as needed after the 
                implementation of a remedy through Domestic Service 
                Field Operations Division and Overseas Service Field 
                Operations Division.

    10. Report on the implementation status of a recall to competent 
authorities

        10.1 Report to domestic competent authorities

                Customer Quality Engineering Division shall submit a 
                ``Recall Implementation Status Report'', which is 
                prepared to be reported to Minister of Land, 
                Infrastructure and Transport in accordance with 
                9.1.1(1), to Japan Automobile Manufacturers' 
                Association through Tokyo Engineering Division by 15th 
                of the month. Consequently, Japan Automobile 
                Manufacturers' Association submits such report to 
                Ministry of Land, Infrastructure and Transport by 20th 
                of the month.

        10.2 Report to competent authorities in foreign countries

                The general manager of Customer Quality Engineering 
                Division shall request overseas distributors through 
                the general manager of Overseas Service Field 
                Operations Division to report the implementation status 
                of a recall to the local competent authorities in 
                compliance with the laws and regulations effective in 
                each countries.

    11. Record retention of documents which reline to the notification 
of a recall etc.

                The following documents shall be retained as a written 
                document or an electronic file.

                (1) Notification documents of a mean etc.--20 years: 
                Customer Quality Engineering Division

                (2) Recall implementation Status Report--10 years: 
                Customer Quality Engineering Division

                (3) Documents for Investigated Quality Problem Review 
                Meeting--20 years: Customer Quality Engineering 
                Division

                (4) Request for field action on sold vehicles--10 years 
                : Quality Division

    12. Operation flow chart

        The operation flowchart for the implementation of a recall and 
        an improvement campaign is shown in the ``Appendix Diagram''.

    [Appendix Diagram] The operation flowchart for the implementation 
of a recall and an improvement campaign.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Hon. Ray LaHood
    Question 1. Given the number of safety issues now revealed by the 
Toyota investigation, will you now revise your definition of Sudden 
Unintended Acceleration?
    Answer. Rather than trying to force investigations into 
predetermined definitions or categorizations, NHTSA evaluates each 
safety issue based on the allegations and the vehicles involved, and 
then develops an appropriate alleged defect statement for the specific 
issue at hand. Alleged defect statements are found in the Information 
request letters NHTSA sends to the manufacturer of the products under 
investigation. Examples can be found under defect investigations at 
www.safercar.gov. Since defect statements are developed on a case-by-
case basis, NHTSA has no formal definition for ``Sudden Unintended 
Acceleration'' or any other type of defect allegation, nor do we 
believe that we have a need for such. By developing defect statements 
on a case-by-case basis, NHTSA ensures the correct scope for each 
investigation, neither overly broad (which could make the inquiry 
overreaching and weaken the agency's ability to compel a recall) nor 
too narrow.
    We believe that the question refers to a definition used by a 
Toyota employee relates to a March 23, 2004 memo where NHTSA discussed 
its analysis and removal of certain reports. The 2004 investigation, 
which involved MY 2002 and 2003 Camry and ES vehicles, was focused on 
whether the newly introduced electronic throttle control system was the 
cause of consumer reports that the vehicle self accelerated in close 
quarter driving situations (e.g., when parking the vehicle) and caused 
a crash. These were very short duration incidents (1 to 3 seconds) 
where the driver may not have had time to apply the brake.
    After interviews were conducted, NHTSA eliminated from that 
investigation reports where consumers stated that the vehicle self 
accelerated (at full throttle level acceleration) and that they had 
forcefully applied the brake pedal but the vehicle continued to 
accelerate for a longer period (e.g., 5 seconds or more) or distance 
(e.g., 50 feet or more), as discussed in the March 23, 2004 memo. Such 
allegations can only be explained by a simultaneous failure of the 
throttle and brake systems. When no post-incident evidence of failure 
is found in either system, the likely explanation is driver error 
(pedal misapplication). Since the reports did not indicate a vehicle-
based defect, they were eliminated from the scope of that 
investigation. This decision was made solely at the discretion of the 
NHTSA staff conducting the investigation (and approved at the time by a 
supervisor) and was in no way influenced by discussion with Toyota 
staff or anyone outside of NHTSA.
    One important point, the term ``longer duration'' when used in the 
2004 investigation did not refer to the types of incidents occurring in 
the MY 2007 and later Camry and ES350, which was the focus of a 2007 
investigation (i.e., those that were related to floor mat/pedal 
entrapment and lasted for several minutes and miles). NHTSA had not 
received reports of this type for the MY 2002 to 2006 Camry and ES 
vehicles so they were not excluded from consideration--rather they did 
not exist during the 2004 investigations.

    Question 2. Toyota was able to mislead NHTSA by labeling a defect 
on one of its cars as just a ``drivability issue.'' Does NHTSA have a 
standard definition of what's considered a ``drivability issue'' versus 
a ``safety issue''? Do other car companies use the term ``drivability 
issue''?
    Answer. A safety issue results when there is a potential safety 
consequence, such as a vehicle crash or loss of control that could 
potentially cause an injury or death to an occupant or to another 
person. The term drivability is commonly used in the automotive 
industry and by the automotive press to refer to the smoothness and 
evenness a vehicle displays during typical driving and acceleration 
maneuvers. Many of the reports NHTSA received on the 2002 to 2006 Camry 
and ES vehicles clearly expressed dissatisfaction with the vehicle's 
drivability. This is readily apparent from reading the reports. When 
investigating defects, NHTSA makes an independent assessment of each 
report, and does not rely on the manufacturer's characterization of the 
problem or choice of descriptive terms.

    Question 3. Now that we know that the safety issues affecting 
Toyota vehicles are more severe than initially realized, will the 
agency revisit with Toyota all of the issues that it labeled as just a 
``drivability issue''?
    Answer. NHTSA has committed to taking a new look at the Toyota 
products, including assessing whether the electronics or software, or 
some other influence such as electro-magnetic interference, could be 
the cause of reports of unwanted and uncontrollable acceleration. To 
the extent that the study we will pursue or the investigation NHTSA 
opened on February 16, 2010 reveals any safety-related defects linked 
to the drivability issue, we will take prompt and appropriate action. 
The initial results of the study are anticipated to be available later 
this year. Progress on NHTSA's investigation (RQ10-003) can be 
monitored at www.safercar.gov.

    Question 4. The President's recent budget request only calls for a 
$5 million increase to the NHTSA budget. Given the enormous task of 
investigating safety defects of over 245 million cars and trucks on the 
Nation's roads, does NHTSA have the resources it needs to carry out its 
mission?
    Answer. With its existing resources, NHTSA's Office of Defects 
Investigation (ODI) runs the most active defects investigation program 
in the world. Since its inception, ODI has influenced more than 2,800 
vehicle recalls involving more than 278 million vehicles. The agency 
does not hesitate to reallocate resources within the agency's current 
budget to meet the needs of defects investigations. Also, the agency 
obtains resources from outside the agency in specialized fields of 
expertise to ensure that its analyses are thorough and comprehensive, 
when such a course of action is necessary.
    The President's FY 2011 budget requests 66 additional personnel to 
help strengthen our ability to address safety issues on the Nation's 
roadways. If approved and funded by the Congress, the agency plans to 
use those positions where they are needed to ensure that the agency is 
meeting its various safety responsibilities, including additional 
resources to defects investigations.

    Question 5. Now that we know of the efforts that Toyota made in 
concealing the safety defects of its vehicles, what actions will the 
Department take to determine if other car companies are doing something 
similar to what Toyota has been doing?
    Answer. At this time, NHTSA is not aware of Toyota concealing 
safety defects. However, NHTSA is addressing three queries to Toyota 
that may provide information responsive to this question. NHTSA has 
opened two Timeliness Query investigations (one for the pedal 
entrapment recall and one for the sticky pedal recall). These 
investigations are aimed at uncovering what Toyota knew about these two 
problems that led to the recalls and when Toyota knew it. If we 
determine that Toyota knew, or should have known, of the existence of a 
defect that posed an unreasonable risk to safety, the agency will 
pursue civil penalties against Toyota. Additionally, NHTSA has opened a 
Recall Query investigation into both recalls that is aimed at 
uncovering whether the scope of each recall was appropriate or whether 
the recalls should have been expanded to additional vehicles. The 
Recall Query investigation is also examining whether the remedies 
developed by Toyota for both of these recalls are effective.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            Hon. Ray LaHood
    Question 1. Can you describe how Toyota has been safety deaf?
    Answer. Over the past few years, Toyota developed a pattern of 
behavior of pushing back harder and taking longer than other companies 
to conduct a recall, including in situations where the consequences of 
inaction could result in harm to the public. For example, on March 29, 
2007, NHTSA opened an investigation on all-weather floor mat 
interference with and entrapment of accelerator pedals resulting in 
vehicles traveling at very high speeds for long distances (PE07-016). 
Throughout the investigation, Toyota's position was that there was 
nothing wrong with its vehicle or floor mat, and that consumers were to 
blame. It was difficult to engage in productive discussions with Toyota 
because the Washington Office of Toyota, with whom the agency 
communicated, had no authority to make decisions and we believe that 
the decision-makers in Japan gave little weight to any recommendations 
or information that the Washington Office passed on to Toyota in Japan. 
It was not until September 26, 2007 that Toyota sent a letter to NHTSA 
stating that it would conduct a safety recall. However, despite 
agreeing to comply with all of the requirements for conducting a safety 
recall of the floor mats, Toyota continued to insist in its September 
2007 letter that the floor mats were not defective.

    Question 2. Are there any examples of [Toyota] not complying with 
safety laws in the United States?
    Answer. At this time, NHTSA has not made a determination that 
Toyota has not complied with safety laws in the United States. However, 
NHTSA is addressing three queries to Toyota that may provide 
information responsive to this question. NHTSA has opened two 
Timeliness Query investigations (one for the pedal entrapment recall 
and one for the sticky pedal recall). These investigations are aimed at 
uncovering what Toyota knew about these two problems that led to the 
recalls and when Toyota knew it. If NHTSA determines that Toyota knew, 
or should have known, of the existence of a defect that posed an 
unreasonable risk to safety, the agency will pursue civil penalties 
against Toyota. Additionally, NHTSA has opened a Recall Query 
investigation into both recalls that is aimed at uncovering whether the 
scope of each recall was appropriate or whether the recalls should have 
been expanded to additional vehicles.

    Question 3. Does NHTSA have a bias against non-mechanical control 
systems in vehicles?
    Answer. NHTSA conducts investigations based on the frequency and 
severity levels of complaints. NHTSA's investigations are data-driven, 
and do not exclude any type of control system or potential problem area 
from careful scrutiny. The record shows that since 1989, NHTSA has 
conducted 80 distinct investigations (of which 11 involved Toyota 
vehicles) into alleged safety defects that affected the vehicle's 
throttle control system including but not limited to sudden, 
unintended, and/or unwanted acceleration. These investigations fall 
into the categories of sudden acceleration, unintended acceleration, 
stuck throttle, idle surge, cruise control malfunction, accelerator 
pedal interference, floor mat interference, linkage problems, throttle 
binding and loss of throttle control. This problem description covers 
the vast majority of related issues examined but is not all 
encompassing. The types of vehicles involved are: passenger cars, 
SUV's, pick-up trucks, vans, motorcycles, transit buses, school buses, 
and medium/heavy trucks. The investigations included mechanical/cable 
(64) throttle, electronic throttle (14), and one floor mat 
manufacturer. 22 of the 64 mechanical throttle investigations and five 
of the 14 electronic throttle control investigations resulted in 
recalls of approximately 6.7 million vehicles.

    Question 4. Does NHTSA have adequate expertise in-house to fully 
understand and regulate electronic control systems?
    Answer. NHTSA has a diverse and experienced work force. The 
President has included an additional 66 positions in his 2011 budget. 
If these positions are approved and funded by the Congress, the agency 
will use them in those parts of the organization that most need staff 
to ensure that we continue to effectively carry out all of our safety 
responsibilities, including those related to safety defects. In 
addition to our staff, we hire contractors to support our work when 
there are areas where we need specialized expertise.

    Question 5. Does NHTSA need additional tools and resources?
    Answer. If the Congress funds the increased staffing levels called 
for under the President's budget for FY 2011, we believe the agency 
will have the tools and resources it needs to carry out its safety 
responsibilities.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                            Hon. Ray LaHood
    Question. Who within DOT should be held accountable and apologize 
to the American public for the recent failures [related to Toyota 
sudden acceleration problems]?
    Answer. In the last 3 years, NHTSA's defects and compliance 
investigations have led to more than 500 recalls involving the recall 
of 23.5 million vehicles. Where NHTSA has evidence of a defect and can 
make a case that the defect poses an unreasonable safety risk (which is 
a required showing under the agency's statute), it does not hesitate to 
push for a recall.
    We cannot speak to the contents of internal Toyota documents, but 
we can state that NHTSA did not permit Toyota to influence its 
decisions. The recalls that have occurred concerning unintended 
acceleration in Toyota vehicles are the result of NHTSA's pressure on 
Toyota to fulfill its responsibilities. NHTSA initiated investigations 
when specific problems were beginning to appear. When the agency was 
able to identify a safety defect, the agency pushed for a recall.
    NHTSA is now undertaking a full-scale review of unintended 
acceleration problems in Toyota vehicles. If that review provides 
information that would warrant additional defect investigations, NHTSA 
will conduct them immediately.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Hon. Ray LaHood
    Question 1. If the Murkowski resolution of disapproval is enacted, 
does that prevent the Department of Transportation from enacting the 
CAFE standards as established in the 2007 Energy Bill?
    Answer. The model year 2102-2016 CAFE standards were issued by 
NHTSA on April 1, 2010 as part of a joint final rule with EPA, lithe 
Murkowski resolution were to be enacted, that rule would likely be 
challenged. If the rule were then to be overturned, there might not be 
any car or light truck CAFE standard for at least one model year, model 
year 2012. NHTSA anticipates there would be legal challenges if it 
attempted to issue a new final rule re-establishing the CAFE standards 
for model year 2012, given the statutory requirement to set the CAFE 
standards for a model year at least 18 months in advance of that model 
year. The 18-month period for model year 2012 began approximately April 
1, 2010. However, depending of the timing of a court challenge, NHTSA 
might still have time to promulgate a new rule re-establishing 
standards for model year 2013 and future years.

    Question 1a. From this point, how long would it take NHTSA to 
decouple the CAFE standards from the joint rulemaking complete 
regulations for Model Year 2012, as directed by the 2007 Energy Bill?
    Answer. As already noted, the CAFE standards for model years 2012-
2016 were issued by NHTSA as a joint rulemaking on April 1, 2010. At 
this point, it is impossible to decouple the CAFE standards from the 
joint rule.

    Question 1b. Is EPA's 250-gram per mile standard partially or even 
mostly redundant to the fuel economy increases that NHTSA will require?
    Answer. No. While the two sets of standards overlap, they are not 
redundant. The EPA standards would provide additional greenhouse gas 
benefits.

    Question 1c. Given DOT's long-standing authority over vehicular 
efficiency standards, and Congress' explicit decision to give NHTSA--
not EPA--authority to set fuel economy in 1975, should members of this 
Committee be concerned that your agency is ceding a significant part of 
its authority to EPA?
    Answer. No, NHTSA is not ceding its authority; rather it is closely 
coordinating efforts with EPA to ensure that the goals of both agencies 
(energy security and climate change) are met while providing regulatory 
consistency and certainty for auto manufacturers.

    Question 1d. If the joint tailpipe rule is finalized, and EPA is 
afforded a role in the fuel economy of light-duty vehicles, does that 
decrease DOT's role in decisions related to CAFE standards going 
forward?
    Answer. No, both agencies have important and independent roles to 
play carrying out our statutory responsibilities.

    Question 2. Under authorities that existed before the Massachusetts 
vs. EPA litigation, and still exist to this day, NHTSA was perfectly 
capable of increasing CAFE standards. In fact, even in the context of 
the tailpipe rule, NHTSA involvement accounts for 34.1 of the 35.5 
miles per gallon mandate. Furthermore, it appears to be the case that 
EPA could make their 1.4 miles per gallon contribution to these 
environmental improvements under the separate authority of Title VI of 
the Clean Air Act. Would you agree with this statement?
    Answer. Yes, although that approach would lead to multiple and 
possibly conflicting regulations (one issued by NHTSA addressing fuel 
efficiency, another issued by EPA addressing the contributions of 
automobile air conditioning to greenhouse gas emissions and additional 
regulations issued by the states).

    Question 2a. Instead of implementing ``one clear and consistent set 
of standards''--as the letter from NHTSA's Chief Counsel proposes--
would it not be better to just have one, national standard for 
automakers to follow?
    Answer. No, that would require preemption of the legitimate 
interests of states as part of our Federal system of government to 
regulate greenhouse gas emissions. It would also forego regulation of 
the contributions of automobile air conditioning to greenhouse gas 
emissions.

    Question 2b. How are we supposed to reconcile the claims of your 
Chief Counsel about the impact of the bipartisan disapproval resolution 
in the face of countless letters from actual stakeholders that convey 
identical concerns about what happens if Congress fails to stop EPA?
    Answer. DOT and EPA received more than 130,000 public comments on 
the September 2009 proposed rules, with overwhelming support for the 
strong national policy.

    Question 2c. Is it not true that NHTSA could realize its 
contribution to the economic and environmental benefits listed in your 
Chief Counsel's letter--related to fuel savings, greenhouse gas 
reductions, and lower oil consumption--under existing statutory 
authorities that pre-date the Massachusetts vs. EPA litigation?
    Answer. Yes, in part because any reduction in fuel consumption 
necessarily reduces tailpipe emissions of carbon dioxide. However, 
NHTSA's standards alone could not address the need to reduce the 
greenhouse gas emissions associated with air conditioning systems.

    Question 3. Are you aware of the total economic cost that could 
result from mobile source and stationary source regulation of 
greenhouse gases under the Clean Air Act? Could you please describe, in 
detail, any cost projections you are aware of?
    Answer. We do not have authority to regulate stationary sources or 
means of transportation other than motor vehicles and thus do not have 
cost estimates for regulating them. The agencies project that the 
industry compliance costs of the National Program for regulating light 
vehicles in model years 2012-2016 will be slightly less than $52 
billion.
    For a complete description of the impacts, please see the final 
rule and its supporting documents issued April 1. They can be found by 
going to http://www.nhtsa.dot.gov/portal/fueleconomy.jsp and clicking 
on ``Final rule'' under ``Joint Rulemaking to Establish CAFE and GHG 
Emissions Standards for MY 2012-2016.''

    Question 3a. Can you describe the impact that the tailpipe rule 
will have on domestic greenhouse gas emissions? Accounting for new 
drivers on the road, and a possible increase in miles driven, can you 
estimate how the tailpipe rule would reduce U.S. emissions? Can you 
estimate the impact that reduction will have on global greenhouse gas 
emission levels?
    Answer. The NHTSA and EPA rules will conserve about 1.8 billion 
barrels of oil and reduce nearly a billion tons of greenhouse gas 
emissions over the lives of the vehicles covered. For a complete 
description of the impacts and the estimates you are requesting, please 
see the final rule and its supporting documents issued April 1.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                         Hon. David Strickland
    Question 1. If there is a malfunction problem in the Electronic 
Throttle Control (ETC) system, what are potential solutions to 
correcting or managing this problem?
    Answer. The potential solutions to correcting a malfunction in the 
ETC will depend on the problem that has been identified. In general, if 
there is a hardware problem in a vehicle component, that component 
could be replaced with a redesigned part or modified. If there is a 
software problem, it might be possible to reprogram the affected 
control unit. We are evaluating the Toyota ETC system to look for 
potential electronic causes of unintended acceleration.

    Question 2. How promising are ``brake-override'' systems in 
allowing a driver to regain control of a vehicle in the event of a Full 
Open Throttle event?
    Answer. We believe that brake override technology is promising and 
could help drivers regain control of their vehicles in the event of a 
full open throttle event.

    Question 3. How easily can manufacturers equip vehicles already on 
the road with ``brake-override'' systems?
    Answer. We believe the degree of difficulty varies among vehicle 
manufacturers as well as among different vehicle models by the same 
manufacturer. Some vehicle models may not have the necessary electronic 
components to install a brake override system. In other cases, the 
control algorithms needed for a brake override system may not have been 
developed for a vehicle already on the road.

    Question 4. Are there needed improvements to the Early Warning 
Reporting database?
    Answer. ODI is continually making improvements to the EWR data and 
to our analytical methods used to identify vehicles, tires or child 
safety seats for further screening for potential defects. Within the 
past few years, the agency issued revised final rules in May 2007 and 
September 2009 to make EWR reporting more efficient and focused. 
Currently, the agency is considering adding a requirement that 
manufacturers submit information on new and emerging technologies in 
vehicles. This would help ensure that the component codes in EWR are 
current so that the agency can easily identify potential safety 
concerns with these new and emerging technologies.
    ODI continually evaluates its analytical methods and improves them 
to help identify outliers and trends that are potentially related to 
safety defects. One of the methods `improves itself' each quarter; the 
Bayesian Filter evaluates field reports using a computer program with 
probability formulas that considers how similar each field report is to 
ones that were previously identified as likely or not likely to 
indicate a safety-related defect. Each quarter, new field reports are 
added to help continuously train this filter.
    Given the level of interest in the EWR data as a result of the 
Toyota issue, the agency is considering again what, if any, additional 
improvements in the EWR system might be helpful to the agency in 
identifying defect trends.

    Question 5. Does NHTSA have adequate authority to investigate and 
subpoena foreign manufacturers such as Toyota, which designs and tests 
most of their vehicles in Japan?
    Answer. NHTSA has adequate authority to investigate foreign 
manufacturers such as Toyota, which has a substantial presence in the 
United States. We note that Toyota has responded to our inquiries, 
including providing information from Japan.

    Question 6. Are the penalties under the TREAD Act adequate?
    Answer. We are currently reviewing all of our statutory 
authorities, including the adequacy of our civil penalty authority. We 
would we pleased to discuss this issue as well as others related to our 
statutory authority once we have completed our review.

    Question 7. Has Toyota fully complied with the TREAD Act reporting 
requirements for accidents that may be related to defects, safety 
campaigns, and recalls in foreign countries?
    Answer. The Early Warning Reporting (EWR) regulation established 
pursuant the TREAD Act does not require manufacturers to report 
accidents. Rather, the EWR regulations require manufacturers to report 
information based on claims and notices of deaths and injuries. Toyota 
has reported 271 deaths and 3,197 injuries in EWR through the fourth 
quarter of 2009.
    The TREAD Act and subsequent NHTSA regulations also require 
manufacturers to submit information on safety recalls and other safety 
campaigns in a foreign country on a motor vehicle or item of equipment 
that is identical or substantially similar to a vehicle or item of 
equipment sold or offered for sale in the U.S. Toyota has reported 89 
foreign campaigns, of which 2 are related to sudden unintended 
acceleration. In January 2003, Toyota notified the agency that it was 
recalling 2002 Toyota Celica vehicles in Canada because the floor mat 
may entrap the accelerator pedal. In December 2009, Toyota notified the 
agency that it was recalling Toyota all-weather floor mats sold as 
optional accessory mats for 2009-2010 Toyota Venza vehicles in Canada 
because the floor mat may entrap the accelerator pedal.
    The following are exceptions to reporting foreign recall or safety 
campaigns:

        1. the manufacturer is conducting a safety recall or safety 
        campaign on an identical or substantially similar vehicle in 
        the U.S.;

        2. the component or system that gave rise to the foreign recall 
        or other campaign does not perform the same function as the 
        substantially similar component or system in the U.S.; or

        3. the subject of the foreign recall or other campaign is a 
        label affixed to the vehicle, item of equipment or a tire.

    At this time, we are unaware of any violations by Toyota of the 
TREAD Act requirements on reporting of incidents involving deaths or 
injuries or on reporting foreign safety recalls and other safety 
campaigns.

    Question 8. Do consumers know enough about this opportunity [to 
submit complaints through the DOT Vehicle Safety Hotline and to submit 
``Vehicle Owner Questionnaires'' (VOQs)]?
    Answer. NHTSA currently receives between 30,000 and 40,000 consumer 
complaints a year on a population of approximately 240,000,000 
registered vehicles. NHTSA's Office of Defects Investigation (ODI) 
currently collects consumer complaints in four primary ways. Consumers 
can contact NHTSA via the NHTSA Safety Hotline at 888-327-4236, the 
Internet at www.safercar.gov, by sending the agency a hard copy of a 
Vehicle Owners Questionnaire (VOQ), or by sending a letter to the 
agency. NHTSA believes that receiving as many consumer complaints as 
possible makes identifying and investigating potential safety defects 
happen much earlier in time and helps build a stronger case when a 
safety defect exists. NHTSA plans to increase public awareness of the 
NHTSA Auto Safety Hotline and the agency's website at www.safercar.gov. 
NHTSA is developing partnerships to increase the agency's online 
presence, attending trade shows, increasing media purchases, and taking 
advantage of earned media opportunities. By increasing public awareness 
of NHTSA's role as the government agency overseeing motor vehicle 
safety, NHTSA expects to increase significantly the number of consumer 
complaints it receives.

    Question 9. Have SUA complaints related to Toyota vehicles 
increased significantly in recent weeks?
    Answer. Consumer complaints alleging SUA (as identified by a 
keyword search designed to identify these incidents) jumped in November 
2009 to ten times normal monthly volume. The number of these complaints 
received in February 2010 jumped by an additional factor of eight to 
over 1,500. March traffic, while lower, is still heavy. Non-Toyota SUA 
complaints also jumped in February but remain well below the Toyota 
figures.

    Question 10. Has NHTSA adequately investigated VOQs and Petition 
Requests for investigation into alleged safety defects related to SUA?
    Answer. NHTSA's Office of Defects Investigation has carefully 
examined VOQs and reviewed Defect Petitions for evidence of vehicle 
defects causing, or contributing to, incidents of unintended 
acceleration, and pursued significant safety recalls where warranted. 
While we believe our investigations have addressed the complaints and 
petitions we received, we are taking extra steps to further examine the 
issue.

    Question 11. Are these penalties sufficient?
    Answer. As a part of its review of changes to its statutes that may 
be helpful, the agency is also reviewing the adequacy of the maximum 
fines manufacturers are subject to for violations of the TREAD Act.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. David Strickland
    Question 1. Does NHTSA have adequate resources and technical 
capacity to fully investigate safety concerns related to the complex 
electronic systems in today's vehicles? Does NHTSA require more 
computer scientists, electrical engineers, and other technical experts 
in new areas to ensure that NHTSA can protect the public from unsafe 
vehicles? With the FY2011 budget requested staff increases, will NHTSA 
have adequate resources to fully investigate safety concerns related to 
the complex electronic systems in today's vehicles? What other 
resources or authority does NHTSA need to investigate complaints and 
protect public safety?
    Answer. With its existing resources, NHTSA's Office of Defects 
Investigation (ODI) runs the most active defects investigation program 
in the world. Since its inception, ODI has influenced more than 2,800 
vehicle recalls involving more than 278 million vehicles. During six of 
the past 7 years, ODI's investigations have resulted in over 100 
vehicle recalls per year.
    The agency has a diverse and experienced workforce with extensive 
experience in automobile safety, including experts conducting defects 
investigations and experts researching and testing vehicle safety at 
NHTSA's Vehicle Research and Test Center. ODI currently has two 
electrical engineers on staff, and NHTSA has a total of five electrical 
engineers. NHTSA is assessing ODI's needs to determine what additional 
staff with expertise in electronics, computer science, or other areas 
of specialization are needed. If necessary to support ODI, NHTSA will 
not hesitate to reallocate resources within the agency's current 
staffing ceiling. In addition, ODI also obtains resources from outside 
the agency in specialized fields of expertise to ensure that its 
analyses are thorough and comprehensive, when such a course of action 
is necessary.
    The President's FY 2011 budget requests 66 additional personnel to 
help strengthen our ability to address safety issues on the Nation's 
roadways. If approved and funded by the Congress, the agency will use 
those positions where they are needed to ensure that the agency is 
meeting its various safety responsibilities, including additional 
resources to ODI.
    NHTSA's legal and program staffs are reviewing our current 
statutory authority and will be making recommendations on whether and 
how it can be improved. We look forward to working with the Committee 
in evaluating how NHTSA's ability to perform its mission might be 
strengthened through legislation.

    Question 2. How does NHTSA establish thresholds for determining a 
``safety related defect''?
    Answer. NHTSA looks at the following factors for determining a 
``safety-related defect'': (1) the frequency of occurrence and (2) the 
severity of the consequence when assessing whether a particular defect 
should be considered a safety-related defect. This is a technique 
commonly applied in risk analysis methods. Two examples, described 
below, illustrate how this method is applied in practice.
    In 2007, NHTSA investigated reports of unwanted acceleration in 
2007 Lexus ES350 vehicles, causing the vehicle to attain high speeds. 
The circumstances led to potentially high severity incidents, sometimes 
lasting several minutes and distances measured in miles, where the risk 
of a crash with injury or fatality was high. Accordingly, NHTSA opened 
the investigation with only five complaints because of the severity of 
the incidents being reported. Although an internal Toyota document 
claimed that Toyota saved $100 million in this investigation, shortly 
after the date of the document, NHTSA's actions caused Toyota to 
conduct a recall of 5.3 million vehicles because of this defect, at a 
cost to Toyota that is presumably well in excess of $100 million.
    With regard to the defective Sienna liftgates, Toyota agreed to 
conduct a recall campaign to repair the liftgate struts in over 195,000 
vehicles and sent letters to all vehicle owners stating that ``Toyota 
has decided to conduct a safety recall.'' NHTSA's investigation of the 
defective liftgates indicated that the majority of the injuries 
attributed to this defect involved soft tissue injuries, such as bumps 
and bruises. However, NHTSA aggressively pursued the issue with Toyota 
because of the relatively high number of the reports and the potential 
for serious injury, even though the risk of serious injury was low.

    Question 2a. Just how many people must suffer injuries or death 
under similar circumstances for NHTSA to require a recall?
    Answer. NHTSA has no requirement that an injury or a death must 
occur before a recall or an investigation is required or initiated. In 
fact, the majority of defect investigations that NHTSA undertakes are 
opened without an allegation of injury or fatality, but only the 
potential for such. Many of the safety recalls that result from these 
investigations are initiated before injuries or fatalities occur, which 
is the ideal outcome.

    Question 2b. In the future, how will NHTSA ensure that its 
investigations are sufficiently broad enough to include relevant 
incidents related to a particular safety issue in the future?
    Answer. NHTSA takes great care in determining the proper scope of 
an investigation. The background statement to this question suggests 
that NHTSA limited the scope of a prior investigation. We assume the 
intended reference was to the 2004 investigation involving the throttle 
control system on 2002--2003 Camry and ES300 vehicles. That 
investigation was focused on whether the newly introduced electronic 
throttle control system was the cause of consumer reports that the 
vehicle self-accelerated in close quarter driving situations (e.g., 
parking the vehicle) and caused a crash. These were very short duration 
incidents (1 to 3 seconds) where the driver may not have had time to 
apply the brake, and after which the vehicle returned to a normal 
state.
    After interviews were conducted, NHTSA eliminated from that 
investigation reports where consumers stated they had forcefully 
applied the brake pedal but the vehicle continued to accelerate for a 
longer period (e.g., 5 seconds or more) or distance (e.g., 50 feet or 
more). Such allegations can only be explained by a simultaneous failure 
of the throttle and brake systems. When no post-incident evidence of 
failure is found in either system, the likely explanation is driver 
error (pedal misapplication). Since the reports did not indicate a 
vehicle-based defect, they were eliminated from the scope of that 
investigation.
    One important point, the term ``longer duration'' when used in the 
2004 investigation did not refer to the types of incidents occurring in 
the MY 2007 and later Camry and ES350, which was the focus of a 2007 
investigation (i.e., those that were related to floor mat/pedal 
entrapment, and that lasted for several minutes and miles). NHTSA had 
not received reports of this type for the MY 2002 to 2006 Camry and ES 
vehicles so they were not excluded from consideration--rather they did 
not exist during the 2004 investigation.
    NHTSA will continue to carefully evaluate reports and other factual 
information relevant to its investigations to ensure that the proper 
scope is identified.

    Question 3. Why did NHTSA not subpoena the information the agency 
required earlier in its investigation?
    Answer. NHTSA's issue with Toyota was not an inability to get 
documents or responses to questions, but rather Toyota's slow response 
in conducting recalls. NHTSA has adequate authority to get information 
from manufacturers through its process of issuing requests for document 
production and responses to questions. We have found that these formal 
requests are a better way to obtain the information we ask for rather 
than using subpoenas.

    Question 4. What steps is NHTSA taking to make customer reporting 
more uniform and thereby improve pattern identification for emerging 
safety concerns?
    Answer. NHTSA's Office of Defects Investigation (ODI) currently 
collects consumer complaints via four routes: Consumers can contact us 
via the Auto Safety Hotline (888-327-4236), via the Internet (by far 
the majority) at www.safercar.gov, via a hardcopy Vehicle Owners 
Questionnaire (VOQ), or via consumer letter. The first three of these 
use the same form and collect the same data in the same way. Letters 
are manually coded into our database using a similar form. Once coded 
into our database, this data is instantaneously available for 
investigators to review and use in safety defect investigations.
    To date, NHTSA has taken a number of steps to improve data quality 
by reducing the number of fields on its web-based input form, by 
simplifying component code options on the form, and by improving the 
naming tools for child restraint and tire complaints. Decreasing the 
number of fields has reduced the risks of erroneous inputs. 
Consolidating the component code list has reduced the number of choices 
to a more manageable level, improving the certainty behind the 
component code that was chosen. Improved naming for child restraint and 
tire complaints has reduced ambiguity in those areas.
    Concerns have been raised about the consistency between consumer 
narratives in the complaints and the component codes that were 
selected. A majority of consumer complaints are filed directly by the 
consumer, and the data provided by the consumer reflects the consumer's 
best judgment. Only the complaints received via the Hotline 
(approximately 17 percent of the current traffic) receive a secondary 
review for consistency between the narrative and the component code.
    While component codes are helpful, the agency also uses other 
methods that include a manual review and keyword searches of the 
complaint narratives to identify patterns for emerging safety concerns. 
The agency is taking additional steps to improve component coding by 
replacing the text list with a graphical representation of the vehicle 
and an associated glossary to facilitate better choices by consumers.

    Question 5. What [steps] can be taken to ensure that cars are 
designed with intuitive controls in case of a panic or emergency 
situation?
    Answer. Under Federal Motor Vehicle Safety Standard No. 101 
``Controls and Displays,'' NHTSA regulates the location, 
identification, color, and illumination of certain vehicle controls for 
both normal operation of a vehicle and in panic situations. Currently, 
we do not have performance requirements for push button start controls. 
We are aware of a lack of standardization of this feature among 
automobile manufacturers, and we are evaluating whether the agency 
should consider taking steps to require standardization of this 
feature.
    We note that SAE International has been working to develop test 
procedures and guidelines for these controls, and they anticipate 
completion of this work in June 2011. NHTSA is also participating in 
this important work.

    Question 6. Based on its Toyota investigations, will NHTSA update 
existing safety standards to prevent ``sudden unintended acceleration'' 
and pedal entrapment? Should NHTSA require ``smart pedal'' technology 
in new vehicles? Should NHTSA further develop a performance standard 
for stopping the vehicle when the throttle is wide open?
    Answer. We are currently evaluating potential regulatory actions in 
this area. We believe that brake override technology could be promising 
We are evaluating that technology to determine if it will have a 
significant positive impact and to understand its performance 
characteristics and how they differ among manufacturers using this 
technology. The development of a performance standard for stopping a 
vehicle experiencing full throttle requires further discussion and 
research.

    Question 7. When did NHTSA last review current FMVSS and SAE 
standards to ensure that pedal entrapment hazards are fully addressed 
in the agency's safety rules?
    Answer. NHTSA's last comprehensive review of pedal placement and 
design was published in September 1989 (DOT H.S. 807 512). We actively 
follow the activities of SAE International as well as other standard 
setting organizations. SAE International has a standard related to 
pedal placement, SAE J1100 (Motor Vehicle Dimensions), that was last 
updated in November 2009. While SAE J1100 contains recommendations for 
the placement of pedals, we understand that manufacturers have internal 
proprietary guidelines that contain additional specifications. NHTSA 
does not have a FMVSS standard that specifically addresses the pedal 
entrapment hazard. However, the agency is currently reviewing SAE 
International's updated standard and the recent pedal entrapment 
incidents to determine whether regulatory action is necessary.

    Question 7a. Should NHTSA or Congress mandate new safety standards 
for floor mats and pedal entrapment to reduce the likelihood of crashes 
from pedal entrapment and uncontrolled acceleration?
    Answer. NHTSA is currently developing a plan to review this issue 
and will determine if such a safety standard is needed. This will 
require some research to ensure that, if a standard is needed, it will 
be effective and be expressed in performance terms.

    Question 8. Should NHTSA require electronic data recorders in all 
new vehicles to improve safety?
    Answer. NHTSA currently does not require EDRs. However, we estimate 
that more than 90 percent of the 2010 model year vehicles have some EDR 
functions available. NHTSA's current regulation on event data recorders 
(EDRs) applies to those voluntarily-installed on light vehicles 
(vehicles under 10,000 pounds GVWR). The regulation serves to 
standardize the accuracy, collection, storage, survivability and 
retrieval of crash-related data for vehicles produced after September 
1, 2012 (or the 2013 model year). EDRs have the potential to improve 
safety by providing a better understanding of the crash environment. 
Indirectly, they may lead to safer vehicle designs, improved crash 
reconstruction, and better assessments of safety equipment and 
automatic crash notification systems. None of these benefits of EDRs 
have been quantified at this time, but NHTSA is considering possible 
next steps.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

               Hon. Ray LaHood and Hon. David Strickland
    Question 1. It appears that as many as 70 percent of the complaints 
in Toyota's customer call database about unintended acceleration are 
not addressed by Toyota's recent recalls to replace floor mats and fix 
"sticky" pedals, and their cause remains unexplained. In its numerous 
investigations about unintended acceleration, NHTSA itself raised 
concerns in 2004 that the problem could be related to the electronic 
throttle control (ETC) system, but the question was never answered. Why 
didn't NHTSA independently test the Camry and ES-300 ETC system to 
determine whether the ETC may be responsible for unintended 
acceleration?
    Answer. In 2004, NHTSA independently conducted the investigation of 
the Camry/ES electronic throttle control (ETC) system consistent with 
its approach in other preliminary evaluations. Specifically, a NHTSA 
investigator reviewed and evaluated the relevant consumer reports 
(VOQ), issued an information request to Toyota, reviewed and evaluated 
the information provided by Toyota (including documentation of the ETC 
design and its safety-related features). NHTSA looked for common 
objective identifiers of vehicle defects--replacement of vehicle 
components, report of warning lights, and presence of trouble codes. 
One or more of such factors often is present in the event of an ETC 
system failure. NHTSA also looked at Toyota's warranty claim experience 
on the ETC system, which if substantial often is an indication of a 
defect.
    As part of our investigation, NHTSA also interviewed numerous 
vehicle owners. Based on these consumer interviews, many of the reports 
could not be explained solely by an ETC system failure. Specifically, 
some consumers' statements implied that while the vehicle was 
accelerating, the brakes simultaneously failed (i.e., they had no 
effect on the vehicle after they were allegedly fully applied). Also, 
NHTSA did not find evidence to support the occurrence of brake system 
or ETC system failure--a fact pattern generally associated with pedal 
misapplication. After reviewing the information provided by consumers 
and Toyota, NHTSA did not pursue further investigation because the 
information gathered at that time did not indicate that further 
investigation was warranted.
    By contrast, in the 2007 ES350 (floor mat) and 2008 Sienna (trim 
panel) investigations. NHTSA was able to identify and establish a 
condition that resulted in unwanted acceleration. In both cases NHTSA 
pursued the issues until Toyota took a remedy action.

    Question 1a. What is the Agency doing now?
    Answer. As announced by Secretary Ray LaHood, the agency has 
initiated two major studies designed to answer questions surrounding 
the issue of unintended vehicle acceleration.
    First, NHTSA will conduct a short-term review of electronic 
throttle controls in Toyota vehicles by the end of the summer. In this 
effort, NHTSA has enlisted NASA scientists with expertise in areas such 
as computer controlled electronic systems, electromagnetic 
interference, and software integrity to help tackle the issue of 
unintended acceleration in Toyota vehicles. NHTSA chose NASA because of 
its extensive expertise in electronic controls, as well as its 
unmatched expertise in forensic analysis and fail-safe design, 
verification, and testing strategies. NASA's expertise in electronics, 
hardware, software, hazard analysis and complex problem solving will 
help ensure that this review will be comprehensive.
    Second, the National Academy of Sciences (NAS)--an independent body 
using top scientific experts--will also examine the broad subject of 
unintended acceleration and electronic vehicle controls across the 
entire automotive industry over the course of 15 months. A panel of 
experts will review possible sources of unintended acceleration, 
including electronic vehicle controls, human error, mechanical failure 
and interference with accelerator systems. The experts will look at 
software, computer hardware design, electromagnetic compatibility and 
electromagnetic interference. The panel will make recommendations to 
NHTSA on how its rulemaking, research, and defects investigation 
activities may help ensure the safety of electronic control systems in 
motor vehicles.
    In addition, NHTSA is concurrently evaluating the need for safety 
standards related to brake override systems, as well as other possible 
safety standards.

    Question 2. What is the Department's assessment of the preliminary 
report by Southern Illinois University Associate Professor David 
Gilbert, indicating that a failure of the circuitry, sensors or wiring 
in the electronic throttle control system could cause a runaway engine?
    Answer. We first learned of Professor Gilbert's preliminary report 
in a meeting with Sean Kane on February 22, 2010, and we received a 
copy of the report the next day. While we immediately began evaluating 
the information contained in the report, the agency has not completed 
its assessment of Professor Gilbert's preliminary report. As noted 
above, NHTSA is conducting two important studies on unintended 
acceleration--a NHTSA/NASA study and a NAS study. Both studies will 
examine Professor Gilbert's report more closely.

    Question 3. What needs to be done to prevent a situation like the 
Toyota situation from happening again? How does NHTSA plan to change 
its processes and priorities to ensure that no serious vehicle safety 
problem is overlooked?
    Answer. NHTSA's objective in conducting investigations is to 
determine if there is a defect that poses an unreasonable risk to motor 
vehicle safety in a particular vehicle or series of vehicles. When 
NHTSA is unable to identify such a defect, it closes the investigation 
but continues to monitor field data for information that may show that 
the issue needs to be revisited.
    We believe that our safety defect screening and investigation 
process works well in identifying, investigating, and remedying safety 
defects in the field. NHTSA's process is data-driven, and decisions are 
based on input from around the agency. In addition, NHTSA's process is 
largely open to public oversight. We believe that the 524 recalls 
involving 23.5 million vehicles within the last 3 years supports the 
success of NHTSA's approach.
    With respect to the Toyota situation, NHTSA's defect screening 
activity identified early concerns about electronic throttle control in 
late 2003 (prior to any external warnings). This work and a defect 
petition led to the opening of the first defect investigation in mid-
2004. This investigation and several subsequent defect petition reviews 
focused on the various causes of unintended acceleration in Toyota 
vehicles. The agency closed the investigation and petition requests 
because the agency did not find evidence of a vehicle-based defect.
    During this time, NHTSA's screening process separately identified 
instances of pedal entrapment in other Toyota vehicles such as the 
Lexus ES350 (via all weather floor mat interaction with the pedal) and 
the Sienna (via trim panel movement). This work led to investigations 
which ultimately influenced Toyota to conduct safety recalls in the 
affected vehicles.
    NHTSA continually seeks ways to improve its defects investigation 
process. For example, we are looking for ways to make our Vehicle Owner 
Questionnaire easier to use so that we can improve the amount and 
quality of information consumers provide in complaints. We are also 
adding more experts to our staff in the areas of electronics and 
software, which will help us to address issues of this nature more 
readily.
    As noted above, the agency has also commissioned two new studies to 
identify vulnerabilities in the electronics systems that could lead to 
unintended acceleration not only in Toyota vehicles, but in all 
vehicles. These studies are not defects investigations, but rather are 
research initiatives. Any potential safety defect identified by this 
work will be referred to the defects screening process for further 
consideration. The agency will review the results and any 
recommendations from both studies to determine whether additional 
measures may assist the agency to improve its process.

    Question 4. NHTSA has indicated that, on average, it conducts about 
100 vehicle defect investigations annually. Two primary sources of 
vehicle information are consumer complaints filed directly with NHTSA, 
and Early Warning Report data submitted to NHTSA by the auto 
manufacturers as required by the TREAD Act. Yet NHTSA personnel have 
indicated that most investigations are opened on the basis of 
complaints submitted to NHTSA, and that only a few investigations each 
year are initiated based on Early Warning Reports. What needs to be 
done to make Early Warning Reports more useful? Early Warning 
information was intended to give NHTSA more information with which to 
determine potential safety hazards, but the reports do not seem to be 
as helpful as they should be.
    Answer. At this time, the agency believes the information reported 
by manufacturers to NHTSA is useful for identifying potential safety 
defects in the affected vehicles in the U.S. Since 2004, the first full 
year in which NHTSA received EWR data, the Office of Defects 
Investigation (ODI) has used the EWR data to assist in our safety-
defect identification investigation process. NHTSA has utilized EWR 
data to assist in opening 110 defect investigations, which resulted in 
over 11 million recalled vehicles and equipment. Specifically, EWR data 
has prompted the opening of 28 defect investigations, accelerated the 
opening of 30 defect investigations, and supported the opening of 52 
other defect investigations.
    The agency is reviewing the reporting requirements and our 
analytical methods to determine whether additional requirements or 
improvements are necessary to identify potential safety concerns more 
effectively and efficiently and intends to implement those changes as 
necessary.

    Question 5. Event data recorders (EDR) are used to collect vehicle 
information to improve performance and safety. Their installation is 
not mandatory, though NHTSA has estimated that more than 60 percent of 
new vehicles contain them. It promulgated a rule in 2006 to standardize 
the data collected and the format for such information beginning in MY 
2013 vehicles. How did NHTSA determine the data elements that should be 
recorded by an EDR?
    Answer. Currently, NHTSA estimates that more than 90 percent of the 
MY 2010 vehicles have some EDR functionality.
    The agency has been collecting EDR data since the 1990s when EDRs 
were developed as a secondary function of the air bag control module. 
This electronic module samples data from various vehicle sensors to 
determine if a crash is imminent and if an air bag should be deployed. 
Vehicle manufacturers use the data to assess air bag performance in the 
vehicle and aid in the development of new vehicle safety features. 
NHTSA uses the data to assess not only air bag performance, but also to 
assist crash reconstruction efforts and pave the way for the 
introduction of new safety systems such as Advanced Collision 
Notification (ACN), which forwards crash information to emergency 
responders for appropriate response.
    In 1998, NHTSA began an effort called the Event Data Recorder 
Working Group (EDR WG) that utilized the collective resources of 
industry, academia, and other government organizations (e.g., National 
Aeronautics and Space Administration and National Transportation Safety 
Board) to study EDRs. The EDR WG developed a list of 29 key data 
elements that would facilitate the collection and utilization of crash 
avoidance and crashworthiness data from on-board EDRs. The list of data 
elements was guided by recommendations developed by the Society of 
Automotive Engineers (SAE) and the Institute of Electrical and 
Electronics Engineers (IEEE). In addition, the EDR WG attempted to 
prioritize the data elements, assess their feasibility, and study EDR 
survivability. Consistent with the agency obligation to consider 
safety, cost and practicability, NHTSA then chose the required and 
optional data elements that would help the agency better understand the 
vehicle dynamics and performance of safety systems shortly before and 
during a crash.

    Question 5a. Do you believe the data elements identified in this 
rule will be sufficient? Are there other elements you now believe 
should be collected that could prove useful to improving safety?
    Answer. NHTSA currently does not require EDRs to be installed on 
vehicles. The agency's regulation on EDRs applies to those voluntarily-
installed on most light vehicles. As noted above, the agency identified 
those data elements that it believed would help the agency better 
understand the vehicle dynamics and performance of safety systems. 
However, the agency's EDR rule is designed to grow with the increasing 
number and types of safety systems equipped in passenger vehicles. For 
example, as more manufacturers begin to install side curtain air bags, 
the rule standardizes any data an EDR collects relating to the 
deployment of these safety systems.
    While other potential data elements may be available for recording 
if a vehicle is equipped with certain technology, such as steering 
input, electronic stability control status, or lane departure warning, 
the EDR technology installed on vehicles varies among the manufacturers 
and models. Recording these and other data elements may provide 
supplemental information that allows for a better understanding of 
driver actions, crash causation and vehicle performance. At this time, 
the agency is evaluating what additional elements should be added and 
how current data elements might be modified to provide more useful 
information.

    Question 5b. How did NHTSA determine the appropriate length of time 
for which the EDR will record in the event of a crash?
    Answer. EDRs were only intended to capture the short time period of 
data immediately preceding and during a crash. The EDR WG carefully 
considered the length of time needed to characterize a crash based on 
the collective experience of industry, academia, NHTSA's own crash 
investigations, and other government agencies. The agency selected the 
time intervals for collected data based on the recommendations of the 
EDR WG, crash testing (including air bag deployment times), and EDR 
research conducted in the 1990s. In the 2004 Notice of Proposed 
Rulemaking, NHTSA proposed that EDRs capture up to 8 seconds of pre-
crash data and 500 milliseconds of data during the crash. In response 
to comments on the NPRM, additional agency EDR data collection and 
research, and the estimated costs associated with the recording 
capabilities of EDRs, the agency concluded in the final rule that EDRs 
would be required to capture 5 seconds of pre-crash data and 300 
milliseconds of data during the crash.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
               Hon. Ray LaHood and Hon. David Strickland
    Question 1. How often and when has the Department of Transportation 
utilized Exponent to test for safety/defect related information?
    Answer. On September 26, 2001, NHTSA awarded a delivery order type 
contract to Failure Analysis Associates (Exponent's predecessor) for 
``Compliance Tests for FMVSS No. 201, Occupant Protection Interior 
Impact.'' NHTSA placed four orders during the period of performance of 
this contract (September 26, 2001 to September 27, 2007).

    Question 2. What information regarding occurrences/complaints and 
manufacturers in foreign countries do you currently receive? What types 
of information do you not currently receive regarding occurrences/
complaints and manufacturers in foreign countries that you think would 
be beneficial? How would this information benefit your safety efforts 
in the United States?
    Answer. The Early Warning Reporting (EWR) regulation established 
pursuant to the TREAD Act requires all vehicle manufacturers and 
equipment manufacturers (including tires and child restraints) to 
report information based on notices and claims of deaths occurring in a 
foreign country if the vehicle involved is identical or substantially 
similar to a vehicle sold or offered for sale in the U.S. Manufacturers 
must also report information on safety recalls and other safety 
campaigns in a foreign country on a motor vehicle or item of equipment 
that is identical or substantially similar to a vehicle or item of 
equipment sold or offered for sale in the U.S. The following are 
exceptions for reporting foreign recall or safety campaigns:

  <bullet> The manufacturer is conducting a safety recall or safety 
        campaign on a vehicle for which an identical or substantially 
        similar vehicle is not sold in the U.S.;

  <bullet> The component or system that gave rise to the foreign recall 
        or other campaign does not perform the same function as the 
        substantially similar component or system in the U.S.,

  <bullet> The subject of the foreign recall or other campaign is a 
        label affixed to the vehicle, item of equipment or a tire.

    Manufacturers are required to submit a list of identical or 
substantially similar vehicles annually so that the agency can use this 
information to identify potential defects in vehicles sold or offered 
for sale in the U.S. Currently, manufacturers are not required to 
submit this list electronically. The agency is reviewing whether 
manufacturers should submit this list electronically to provide quicker 
access and review of the substantially similar vehicle lists.
    At this time, the agency believes the information reported by 
manufacturers for foreign deaths and foreign safety campaigns along 
with the consumer complaints and other EWR information reported to 
NHTSA is adequate to identify potential safety defects in the affected 
vehicles in the U.S. However, the agency continues to review the 
reporting requirements to determine whether additional requirements or 
improvements are necessary to identify potential safety concerns more 
effectively and efficiently and intends to implement those changes as 
necessary.

    Question 3. During the 2007 NHTSA investigation into the MY07 
Lexus, the VRTC at NHTSA conducted a study of the electronics system. 
Please provide all information available related to this study, 
including testing procedures used, data collected, analysis of data, 
and results and conclusions from the testing. Should any of the 
requested information not be available, explain why it is not available 
and if that lack of availability is consistent with typical VRTC and 
overall NHTSA studies.
    Answer. NHTSA's 2007 investigation of MY07 Lexus vehicles was 
focused on floor mat interference as the possible cause of unwanted 
acceleration. NHTSA's Vehicle Research and Test Center conducted a 
variety of tests, surveys and field investigations to support that 
investigation. Because they had access to a vehicle with an Electronic 
Throttle Control system, they decided to conduct a limited examination 
of how that vehicle responded to simulated faults in the accelerator 
pedal position sensors, the throttle position sensors, the mass air 
flow sensor and the coolant temperature sensor. In order to preserve 
the data collected, they were summarized in the final test report for 
that investigation (see attached).

    Question 4. Have the various studies done on the Toyota and Lexus 
ETC systems (including but not limited to the 2007 NHTSA study, 2009 
Exponent Study, and the study done by Professor Gilbert) been subjected 
to peer review? Do you think it would be beneficial to have them peer 
reviewed? Do you think it would be beneficial to have the National 
Academy of Sciences conduct a peer review of the various tests? If not 
the NAS, who would you suggest as an appropriate entity to conduct an 
objective peer review of these tests?
    Answer. As noted above, NHTSA's 2007 investigation focused on floor 
mat interference as the possible cause of unwanted acceleration. 
Although NHTSA engineers performed a limited examination of the ETC 
response to a few simulated single point faults, the testing was not 
intended to be a comprehensive study of the electronic system. 
Therefore, a peer review of NHTSA's 2007 report would not be 
appropriate or beneficial.
    As announced on March 30, NHTSA is conducting two important studies 
on unintended acceleration. In one study, NHTSA with NASA will focus on 
the ETC system in Toyota vehicles. The two agencies will examine the 
range of studies that have been done that are relevant to this subject, 
including those of Professor Gilbert and Exponent. In the second study, 
the National Academy of Sciences will examine electronic control 
systems and safeguards across the automotive industry. That study will 
also examine previous work relevant to the subject. These two 
comprehensive studies will include an examination of the work by 
Exponent and Professor Gilbert and will therefore serve as a type of 
peer review.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Clarence M. Ditlow
    Question 1. Mr. Ditlow, Toyota responded to problems with 
accelerator pedals becoming stuck by making its pedals smaller, 
lowering the floor beneath the pedal, and installing ``smart pedal 
technology'' to ensure that the brake pedal overrides the gas pedal.
    However, the recalled Toyota vehicles met all NHTSA safety 
standards when they were sold. These repairs to prevent sudden 
unintended acceleration seem to highlight the need to update Federal 
Motor Vehicle Safety Standards (FMVSS). Should NHTSA or Congress 
mandate new safety standards for ``smart pedal'' technology, floor 
mats, and pedal entrapment to reduce the likelihood of crashes from 
uncontrolled acceleration?
    Answer. Congress should require NHTSA to issue a range of new 
safety standards for electronic controls, accelerators, and brake-
accelerator pedal configurations. First, NHTSA needs to be directed to 
revise its existing standard for mechanical accelerator controls 
systems, FMVSS 124, to take into consideration electronic throttle 
controls. Second, NHTSA needs to be directed to issue standards that 
apply to all electronic controls in vehicles to require failsafe 
systems, testing for flaws in computer software, electromagnetic 
compatibility to prevent electromagnetic interference failures. Third, 
NHTSA needs to be directed to revise its existing standard for controls 
and displays, FMVSS 101, to not only address brake-accelerator pedal 
separation but also engine off controls such as the 3-second push 
button kill switch in Toyota's.

    Question 2. What existing FMVSS, SAE, and other standards should 
guide efforts to ensure that uncontrolled acceleration and pedal 
entrapment hazards are fully addressed in future safety rules?
    Answer. In addition to the above changes to existing Federal Motor 
Vehicle Safety Standards, NHTSA should be required to take into 
consideration IEEE standards as well as standards in other industries 
with electronic controls such as aerospace.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                           Clarence M. Ditlow
    Question. Have the various studies done on the Toyota and Lexus ETC 
systems (including but not limited to the 2007 NHTSA study, 2009 
Exponent Study, and the study done by Professor Gilbert) been subjected 
to peer review? Do you think it would be beneficial to have them peer 
reviewed? Do you think it would be beneficial to have the National 
Academy of Sciences conduct a peer review of the various tests? If not 
the NAS, who would you suggest as an appropriate entity to conduct an 
objective peer review of these tests?
    Answer. None of the three studies have been peer reviewed. The 2007 
NHTSA study cannot be peer reviewed because the agency has no records 
of its data or procedure. The Exponent and Gilbert studies should be 
peer reviewed when they are completed. The NAS is certainly capable of 
doing a peer review and would be an appropriate entity to do so.
                                 ______
                                 
                               Memorandum
U.S. Department of Transportation
National Highway Traffic Safety Administration
Vehicle Research and Test Center
East Liberty, OH

Date: Apr 30, 2008

Subject: Final Report: ``2007 Lexus ES-350 Unintended Acceleration''

From: Michael W. Monk
Director, Vehicle Research and Test Center

To: Kathleen DeMeter
Director, Office of Defects Investigation

    Attached are four (4) copies of the subject report. This completes 
the requirements for this program.

Attachment: Final Report
                                 ______
                                 
                    VRTC Memorandum Report EA07-010
                             VRTC-DCD-7113
               2007 Lexus ES-350 Unintended Acceleration
1.0 Introduction
    This program was performed at the Vehicle Research and Test Center 
(VRTC) at the request of the Office of Defects Investigation (ODI) of 
the National Highway Traffic Safety Administration. ODI opened an 
Engineering Analysis (EA07-010) on 2007 Lexus ES-350 vehicles to 
investigate reports of unintended acceleration.
2.0 Objectives
    2.1 Determine whether reported incidents of unintended acceleration 
were caused by a vehicle system malfunction or mechanical interference;
    2.2 Understand and document the effects of unintended acceleration 
as they impact controllability of the vehicle;
    2.3 Document potential difficulties experienced by the operator 
while attempting to regain control of the vehicle.
3.0 Project Tasks
3.1 Dynamic Instrumented Vehicle Testing
    The Vehicle Research and Test Center obtained a Lexus ES-350 for 
testing (see Figure 1). The vehicle was fully instrumented to monitor 
and acquire data relating to yaw rate, speed, acceleration, 
deceleration, brake pedal effort, brake line hydraulic pressure, brake 
pad temperature, engine vacuum, brake booster vacuum, throttle plate 
position, and accelerator pedal position. Multiple electrical signals 
were introduced into the electrical system to test the robustness of 
the electronics against single point failures due to electrical 
interference. The system proved to have multiple redundancies and 
showed no vulnerabilities to electrical signal activities. Magnetic 
fields were introduced in proximity to the throttle body and 
accelerator pedal potentiometers and did result in an increase in 
engine revolutions per minute (RPM) of up to approximately 1,000 RPM, 
similar to a cold-idle engine RPM level. Mechanical interferences at 
the throttle body caused the engine to shut down. Mechanical 
interferences at the accelerator pedal revealed that the one-piece, 
non-articulating accelerator pedal assembly was easily entrapped in the 
groove of the rubber all-weather floor mat (Figures 2 and 3) if the 
rubber mat was not properly secured with at least one of the two 
retaining hooks (Figure 4). In many observed ES-350s, the rubber mats 
were stacked on top of the existing carpeted floor mats, which 
prevented attachment of the rubber mats and facilitated the 
interference failure mode. A warning is embossed on the front of the 
floor mat that reads ``Do not place on top of existing floor mats''. 
Very few owners interviewed were able to find or read this warning (see 
Figure 5).
3.2 Owner Surveys
    To comprehend the statistical significance of the probability for 
this event to occur, a survey was sent to a sample size of 1986 
registered owners of a 2007 Lexus ES-350 requesting information 
regarding episodes of unintended acceleration. NHTSA received 600 
responses for an overall response rate of 30.2 percent. Fifty-nine 
owners stated they experienced unintended acceleration. Thirty-five of 
those responding also reported that their vehicles were equipped with 
rubber Lexus all-weather floor mats and several commented that the 
incident occurred when the accelerator had become trapped in a groove 
in the floor mat. Interviews with owners revealed that many had 
unsecured rubber floor mats in place at the time of the unintended 
acceleration event, which included in some cases unsecured rubber floor 
mats placed over existing Lexus carpeted mats.
3.3 Analysis of the Effects of Unintended Acceleration on Vehicle 
        Control
    The safety consequences of an unsecured rubber floor mat trapping 
the accelerator pedal with the vehicle in gear can be severe. With the 
engine throttle plate open, the vacuum power assist of the braking 
system cannot be replenished and the effectiveness of the brakes is 
reduced significantly. During trapped throttle acceleration testing, 
several methods to defeat acceleration proved effective but not 
necessarily intuitive. These methods included:

        3.3.1 Application of the brake - Significant brake pedal force 
        in excess of 150 pounds was required to stop the vehicle, 
        compared to 30 pounds required when the vehicle is operating 
        normally. Stopping distances increased from less than 200 feet 
        to more than 1,000 feet.

        3.3.2 Turning off the ignition - In place of an ignition key, 
        the ES-350 uses an ignition button that removes the ability to 
        instantaneously shut off the engine in the event of an 
        emergency while the vehicle is in motion (see Figure 6). It was 
        found that depressing and holding the button will eventually 
        turn off the engine after 3 seconds. Through the survey it was 
        learned that the button delay operation is not widely known by 
        owners and because of this, drivers found themselves unable to 
        turn off the engine when the vehicle was in motion. The owner's 
        manual makes general mention of the operation, but there is no 
        indication of the 3-second hold requirement.

        3.3.3 Placing the vehicle in Neutral - Many owners complained 
        that the neutral gear position in the gated shift pattern was 
        not immediately obvious, leading to unsuccessful attempts to 
        disengage the engine from the drive wheels. On the labeled 
        shift diagram located on the console, the Neutral ``N'' marking 
        is in closest proximity to the ``Sport'' mode upshift gate (see 
        Figure 7).

        3.3.4 Activation of Electronic Stability Control (ESC) - It was 
        discovered that if an emergency maneuver is executed that 
        activates the Electronic Stability Control, such as steering 
        around a sharp curve while traveling at an excessive speed, the 
        electronic throttle is temporarily electronically closed by the 
        vehicle control module regardless of the accelerator pedal 
        position. With the throttle plate closed, vacuum quickly 
        returns to the brake booster and provides a significant 
        increase in braking capability (see Figure 8). Additionally, 
        ESC has the capability to automatically apply hydraulic 
        pressure to the service brakes to aid in slowing the vehicle. 
        When the emergency maneuver is concluded however, the ESC 
        system returns to a passive state, and the throttle again 
        returns to an open condition leading to further unwanted 
        acceleration.
4.0 Summary
  <bullet> Mechanical interferences at the accelerator pedal revealed 
        that the accelerator pedal assembly was easily entrapped in the 
        groove of the rubber all-weather floor mat if the rubber mat 
        was not properly secured with at least one of the two retaining 
        hooks.

  <bullet> A survey was sent to 1986 registered owners of a 2007 Lexus 
        ES-350 requesting information regarding episodes of unintended 
        acceleration. Of the 600 people that responded, 59 stated that 
        they experienced unintended acceleration and 35 complained of 
        pedal interference with the Lexus rubber all-weather floor 
        mats.

  <bullet> With the engine throttle plate open, the vacuum power assist 
        of the braking system cannot be replenished and the 
        effectiveness of the brakes is reduced significantly.

    <ctr-circle> Brake pedal force in excess of 150 pounds was required 
            to stop the vehicle, compared to 30 pounds required when 
            the vehicle is operating normally.

    <ctr-circle> ESC activation may restore vacuum to the brake 
            booster, providing a significant increase in braking 
            capability, but only until ESC activity ceases.

  <bullet> The owner survey indicated the 3 second delay in the 
        operation of the ignition button is not widely known by owners 
        and because of this, drivers found themselves unable to turn 
        off the engine when the vehicle was in motion.

  <bullet> Many owners complained that the neutral gear position in the 
        gated shift pattern was not immediately obvious, leading to 
        unsuccessful attempts to disengage the engine from the drive 
        wheels.
                      Figure 1--2007 Lexus ES-350
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 2--Lexus All-weather Floor Mat with Retaining Hook Holes at the 
                                 Bottom
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Figure 3--Accelerator Pedal Trapped at Full Throttle by Unsecured 
                            Rubber Floor Mat
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Figure 4 -Floor Mat Retaining Clip and Carpet Receiving Eyelet
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 5--Embossed Warning On Floor Mat States ``Do Not Place On Top of 
                         Existing Floor Mats''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Figure 6--Push Button Ignition Replaces Conventional Key
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Figure 7--Shift Gate with Diagram
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Figure 8--Data Acquired from Lexus During Testing Indicates Engine 
                   Throttle is Overridden During ESC
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
